<html>
<title> - PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2020: MEMBERS' DAY HEARING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2020: MEMBERS' DAY 
                                HEARING

=======================================================================

                                (116-55)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 42-577 PDF           WASHINGTON : 2020 
 
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania


            Subcommittee on Water Resources and Environment

 GRACE F. NAPOLITANO, California, 
               Chair
BRUCE WESTERMAN, Arkansas            DEBBIE MUCARSEL-POWELL, Florida, 
DANIEL WEBSTER, Florida              Vice Chair
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
BRIAN BABIN, Texas                   JARED HUFFMAN, California
GARRET GRAVES, Louisiana             ALAN S. LOWENTHAL, California
DAVID ROUZER, North Carolina         SALUD O. CARBAJAL, California
MIKE BOST, Illinois                  ADRIANO ESPAILLAT, New York
RANDY K. WEBER, Sr., Texas           LIZZIE FLETCHER, Texas
DOUG LaMALFA, California             ABBY FINKENAUER, Iowa
BRIAN J. MAST, Florida               ANTONIO DELGADO, New York
GARY J. PALMER, Alabama              CHRIS PAPPAS, New Hampshire
JENNIFFER GONZALEZ-COLON,            ANGIE CRAIG, Minnesota
  Puerto Rico                        HARLEY ROUDA, California
SAM GRAVES, Missouri (Ex Officio)    FREDERICA S. WILSON, Florida
                                     STEPHEN F. LYNCH, Massachusetts
                                     TOM MALINOWSKI, New Jersey
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    ix

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     2
    Prepared statement...........................................     2
Hon. Bruce Westerman, a Representative in Congress from the State 
  of Arkansas, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................   121

                            MEMBER TESTIMONY

Hon. Roger W. Marshall from the State of Kansas:

    Oral statement...............................................     5
    Prepared statement...........................................     6
Hon. Bill Flores from the State of Texas:

    Oral statement...............................................     7
    Prepared statement...........................................     8
Hon. Ed Case from the State of Hawaii:

    Oral statement...............................................     9
    Prepared statement...........................................    11
Hon. W. Gregory Steube from the State of Florida:

    Oral statement...............................................    12
    Prepared statement...........................................    12
Hon. William R. Keating from the Commonwealth of Massachusetts:

    Oral statement...............................................    13
    Prepared statement...........................................    15
Hon. Pramila Jayapal from the State of Washington:

    Oral statement...............................................    16
    Prepared statement...........................................    18
Hon. Filemon Vela from the State of Texas:

    Oral statement...............................................    19
    Prepared statement...........................................    20
Hon. Nanette Diaz Barragan from the State of California:

    Oral statement...............................................    21
    Prepared statement...........................................    22
Hon. Marcy Kaptur from the State of Ohio:

    Oral statement...............................................    23
    Prepared statement...........................................    24
Hon. Joseph D. Morelle from the State of New York:

    Oral statement...............................................    27
    Prepared statement...........................................    28
Hon. Derek Kilmer from the State of Washington:

    Oral statement...............................................    29
    Prepared statement...........................................    31
Hon. Kurt Schrader from the State of Oregon:

    Oral statement...............................................    32
    Prepared statement...........................................    34
Hon. Doris O. Matsui from the State of California:

    Oral statement...............................................    35
    Prepared statement...........................................    36
Hon. Elissa Slotkin from the State of Michigan:

    Oral statement...............................................    38
    Prepared statement...........................................    39
Hon. Greg Gianforte from the State of Montana:

    Oral statement...............................................    41
    Prepared statement...........................................    42
Hon. Bradley Scott Schneider from the State of Illinois:

    Oral statement...............................................    44
    Prepared statement...........................................    45
Hon. Michael Waltz from the State of Florida:

    Oral statement...............................................    45
    Prepared statement...........................................    47
Hon. Robert C. ``Bobby'' Scott from the Commonwealth of Virginia:

    Oral statement...............................................    49
    Prepared statement...........................................    50
Hon. Earl L. ``Buddy'' Carter from the State of Georgia:

    Oral statement...............................................    51
    Prepared statement...........................................    53
Hon. Adam B. Schiff from the State of California:

    Oral statement...............................................    53
    Prepared statement...........................................    55
Hon. Glenn Thompson from the Commonwealth of Pennsylvania:

    Oral statement...............................................    56
    Prepared statement...........................................    58
Hon. James Comer from the Commonwealth of Kentucky:

    Oral statement...............................................    59
    Prepared statement...........................................    60
Hon. Fred Keller from the Commonwealth of Pennsylvania:

    Oral statement...............................................    61
    Prepared statement...........................................    62
Hon. Bill Foster from the State of Illinois:

    Oral statement...............................................    63
    Prepared statement...........................................    64
Hon. Brian Higgins from the State of New York:

    Oral statement...............................................    66
    Prepared statement...........................................    67
Hon. Linda T. Sanchez from the State of California:

    Oral statement...............................................    67
    Prepared statement...........................................    68
Hon. Jim Cooper from the State of Tennessee:

    Oral statement...............................................    69
    Prepared statement...........................................    70
Hon. Bryan Steil from the State of Wisconsin:

    Oral statement...............................................    71
    Prepared statement...........................................    72
Hon. Bill Huizenga from the State of Michigan:

    Oral statement...............................................    73
    Prepared statement...........................................    75
Hon. Clay Higgins from the State of Louisiana:

    Oral statement...............................................    77
    Prepared statement...........................................    78
Hon. Bill Posey from the State of Florida:

    Oral statement...............................................    79
    Prepared statement...........................................    80
Hon. Jeff Fortenberry from the State of Nebraska:

    Oral statement...............................................    83
    Prepared statement...........................................    84
Hon. Rick W. Allen from the State of Georgia:

    Oral statement...............................................    85
    Prepared statement...........................................    86
Hon. Mikie Sherrill from the State of New Jersey:

    Oral statement...............................................    87
    Prepared statement...........................................    89
Hon. Emanuel Cleaver II from the State of Missouri:

    Oral statement...............................................    90
    Prepared statement...........................................    91
Hon. Jackie Speier from the State of California:

    Oral statement...............................................    92
    Prepared statement...........................................    93
Hon. Josh Gottheimer from the State of New Jersey:

    Oral statement...............................................    94
    Prepared statement...........................................    96
Hon. Jimmy Gomez from the State of California:

    Oral statement...............................................    97
    Prepared statement...........................................    98
Hon. Robert J. Wittman from the Commonwealth of Virginia:

    Oral statement...............................................    99
    Prepared statement...........................................   101
Hon. Mike Johnson from the State of Louisiana:

    Oral statement...............................................   102
    Prepared statement...........................................   103
Hon. Veronica Escobar from the State of Texas:

    Oral statement...............................................   104
    Prepared statement...........................................   106
Hon. Cynthia Axne from the State of Iowa:

    Oral statement...............................................   107
    Prepared statement...........................................   109
Hon. Pete Olson from the State of Texas:

    Oral statement...............................................   110
    Prepared statement...........................................   111
Hon. Michael Cloud from the State of Texas:

    Oral statement...............................................   112
    Prepared statement...........................................   113
Hon. Anthony Gonzalez from the State of Ohio:

    Oral statement...............................................   114
    Prepared statement...........................................   115
Hon. Tom O'Halleran from the State of Arizona:

    Oral statement...............................................   116
    Prepared statement...........................................   116
Hon. Donna E. Shalala from the State of Florida:

    Oral statement...............................................   117
    Prepared statement...........................................   118

                       SUBMISSIONS FOR THE RECORD

Report entitled, ``Major Rehabilitation Evaluation Report and 
  Environmental Assessment: Cape Cod Canal Highway Bridges, 
  Bourne, Massachusetts,'' U.S. Army Corps of Engineers, New 
  England District, March 2020, Submitted for the Record by Hon. 
  Grace F. Napolitano............................................    15
Prepared statements from the following Members of Congress:

    Hon. Danny K. Davis from the State of Illinois...............   121
    Hon. Diana DeGette from the State of Colorado................   122
    Hon. Marcia L. Fudge from the State of Ohio..................   123
    Hon. Raul M. Grijalva from the State of Arizona..............   124
    Hon. Alcee L. Hastings from the State of Florida.............   125
    Hon. Denny Heck from the State of Washington.................   126
    Hon. Chrissy Houlahan from the Commonwealth of Pennsylvania..   126
    Hon. Andy Kim from the State of New Jersey...................   127
    Hon. Andy Levin from the State of Michigan...................   128
    Hon. David Loebsack from the State of Iowa...................   129
    Hon. Blaine Luetkemeyer from the State of Missouri...........   130
    Hon. Elaine G. Luria from the Commonwealth of Virginia.......   131
    Hon. Gwen Moore from the State of Wisconsin..................   131
    Hon. Jimmy Panetta from the State of California..............   134
    Hon. Bill Pascrell, Jr., from the State of New Jersey........   134
    Hon. Scott H. Peters from the State of California............   135
    Hon. Guy Reschenthaler from the Commonwealth of Pennsylvania.   136
    Hon. Tom Rice from the State of South Carolina...............   137
    Hon. Harold Rogers from the Commonwealth of Kentucky.........   138
    Hon. Peter J. Visclosky from the State of Indiana............   139

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           February 21, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Water Resources and 
Environment
    FROM:  LStaff, Subcommittee on Water Resources and 
Environment
    RE:      LSubcommittee Hearing on ``Proposals for a Water 
Resources Development Act of 2020: Members' Day Hearing''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet on Thursday, February 27, 2020, at 10:00 a.m. in 2167 
Rayburn House Office Building to receive testimony related to 
the U.S. Army Corps of Engineers Water Resources Development 
Act Members' Day. The purpose of this hearing is to provide 
Members of Congress with an opportunity to testify before the 
Subcommittee on their priorities in relation to the U.S. Army 
Corps of Engineers (Corps). Testimony will help to inform the 
Committee's drafting of the Water Resources Development Act 
(WRDA) of 2020, which the Committee expects to approve this 
year.

                               BACKGROUND

    The Corps is the Federal government's largest water 
resources development and management agency. The Corps began 
its water resources program in 1824 when Congress, for the 
first time, appropriated funds for improving river navigation. 
Since then, the Corps' primary missions have expanded to 
address river and coastal navigation, the reduction of flood 
damage risks along rivers, lakes, and the coastlines, and 
projects to restore and protect the environment. Along with 
these missions, the Corps generates hydropower, provides water 
storage opportunities to cities and industry, regulates 
development in navigable waters, assists in national 
emergencies, and manages a recreation program. To achieve its 
mission, the Corps plans, designs, and constructs water 
resources development projects.
    The Water Resources Development Act is the authorizing 
vehicle for the Corps' policy, studies, and construction of 
projects. To date, Congress has received 18 Chief's Reports, 10 
Director's Reports, and four pending 203 studies from the Corps 
for projects. The Corps also submitted its 7001 Annual Report 
to Congress in June 2019. The 7001 Annual Report for 2020 is 
expected in February 2020. Access to reports submitted to 
Congress can be found on the Committee website.\1\
---------------------------------------------------------------------------
    \1\ https://transportation.house.gov/committee-activity/issue/
water-resources-development-act-of-2020.


 PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2020: MEMBERS' DAY 
                                HEARING

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2020

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m. in 
room 2167, Rayburn House Office Building, Hon. Grace F. 
Napolitano (Chairwoman of the subcommittee) presiding.
    Mrs. Napolitano. Good morning, I would call this meeting to 
order.
    Let me start by asking unanimous consent that the chair be 
authorized to declare a recess during today's hearing.
    And without objection, so ordered.
    I also ask unanimous consent that the committee members not 
on the subcommittee be permitted to sit with the subcommittee 
at today's hearing and ask questions.
    And without objection, so ordered.
    Last month, we welcomed Secretary James and General 
Semonite of the Army Corps to testify on the Chief's Reports 
and other projects that have been submitted to Congress and 
awaiting authorization. To date we have 18 Chief's Reports and 
10 Director's Reports already submitted. We expect the Corps 
section 7001 report shortly for 2020, and several more Chief's 
Reports through the spring.
    Today, we welcome Members of the House who join us to 
present their Corps priorities that could be considered for 
WRDA. The Army Corps of Engineers is the largest water manager 
in the Nation. The scope and depth of their work impacts every 
part of this country. The testimony we receive today will help 
inform us on what matters most to our colleagues as we move 
forward in drafting legislation.
    WRDA has become a product of its own success. Our 
constituents demand and expect that we move forward in 
developing this legislation every Congress, and I look forward 
to working with all of you in enacting a fourth consecutive 
WRDA.
    Thank you to all Members who have made time to come before 
the committee today, and I look forward to your testimony.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
                    Water Resources and Environment
    Last month, we welcomed Secretary James and General Semonite to 
testify on the chief's reports and other projects that have been 
submitted to Congress and awaiting authorization. To date, we have 18 
Chief's Reports and 10 Director's Reports already submitted. We expect 
the Corps 7001 Report for 2020 shortly, and several more Chief's 
Reports through the spring.
    Today, we welcome Members of the House who join us to present their 
Corps priorities that could be considered for WRDA. The Army Corps of 
Engineers is the largest water manager in the nation. The scope and 
depth of their work impacts every part of this country. The testimony 
we receive today will help to inform us on what matters most to our 
colleagues as we move forward with drafting legislation.
    WRDA has become a product of its own success. Our constituents 
demand and expect that we move forward in developing this legislation 
every Congress. I look forward to working with all of you in enacting a 
fourth consecutive WRDA.
    Thank you to all Members who have made time to come before the 
Committee today. I look forward to your testimony.

    Mrs. Napolitano. And at this time, I recognize Mr. DeFazio.
    Mr. DeFazio. Thanks, Madam Chair. Thanks for convening 
this.
    We want to hear today from Members on the needs for their 
districts. Nationwide we have phenomenal needs in terms of our 
maritime transport, whether we are talking about inland 
waterways, or our coastal harbors and ports.
    As you know, one of my highest priorities is to unlock the 
Harbor Maintenance Trust Fund. We have been collecting a tax 
since the Reagan era to maintain our coastal ports, and for 
dredging, and jetties, and other necessary work. And Congress 
has been diverting part of the funds over that time period.
    We have about $10 billion on deposit, and I am pleased that 
earlier this year, in a suspension bill, with nearly 300 
bipartisan votes, we passed a bill to unlock the Harbor 
Maintenance Trust Fund.
    Of course, as usual, there has been no activity on the 
Senate side. Senator Shelby engaged me in a conversation during 
the budget talks, and he really, really wants to do it, but he 
is only chair of the Appropriations Committee, so somehow he 
can't do it over there. So we will put that in the WRDA bill, 
which should move in the Senate.
    And hopefully, when we bring up the WRDA bill, Republican 
Leader McCarthy will not oppose it because of that inclusion. 
He opposed unlocking the Harbor Maintenance Trust Fund for some 
odd reason when it was on the floor, which is not clear to me. 
But we roll them pretty good.
    So, you know, I am pleased to be here today, and pleased to 
hear from Members.
    And with that I yield back the balance of my time.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairwoman Napolitano for holding this hearing and 
welcome to our Colleagues who have joined us today to talk about their 
WRDA priorities. The Water Resources Development Act is an important 
component of our infrastructure discussion.
    Taking action to address our infrastructure needs is not optional--
letting our roads, bridges, airports, transit systems, ports, and water 
systems crumble is creating a national crisis. Every day that we wait 
to act also means the price tag to fix our infrastructure goes up. This 
is why House Democrats recently released a framework that outlines how 
we can move our Nation into a new era of transporting people and goods, 
provide safe, clean and affordable water and wastewater services, and 
combat climate change in ways we've never done before. This is also why 
enacting a WRDA bill every two years is important and a priority of 
this committee.
    I am proud to have worked with former Chairman Shuster to restore 
this Committee's tradition of moving a water resources development act 
every Congress. These bipartisan efforts have resulted in this 
Committee enacting three consecutive WRDA bills since 2014.
    Today, we take another step in continuing that tradition for the 
116th Congress, with the goal of enacting the fourth consecutive WRDA.
    Madam Chair, as we all know, WRDA bills provide the opportunity for 
communities and local sponsors to partner with the Corps for critical 
navigation, flood protection, and ecosystem restoration projects, as 
well as other civil works mission areas.
    Therefore, it is important that our Congressional colleagues have 
the opportunity to present their local priorities and how the Corps may 
be able to assist their districts, their constituents, and the nation. 
Today's hearing is another opportunity to continue that conversation.
    One of my biggest priorities for WRDA 2020 is to finally unlock 
Federal investment in our nation's ports and harbors. As you may know, 
Congress worked with the Reagan Administration to create a mechanism to 
recover the operation and maintenance dredging costs for commercial 
ports from maritime shippers--called the Harbor Maintenance Tax. This 
fee, directly levied on importers and domestic shippers using coastal 
and inland ports, was meant to provide the Corps of Engineers with 
sufficient annual revenues to keep our ports in a good state of repair, 
and sustain our local, regional, and national economies that rely on 
the movement of goods and services through our commercial ports.
    The good news is that we are currently collecting enough revenues 
to adequately maintain our commercial harbors--of all sizes--as well as 
critical infrastructure, such as breakwaters and jetties, associated 
with these commercial ports.
    The bad news is that we refuse to spend this money--or more 
accurately, we collect this money, but then use these funds to offset 
other expenditures in the Federal government while the needs of our 
commercial ports continue to grow.
    The U.S. Army Corps of Engineers estimates that the full channels 
of the Nation's 59 busiest ports are available less than 35 percent of 
the time. For smaller commercial harbors, such as Coos Bay or Port 
Orford in my home State of Oregon, their dredging situations can be far 
worse.
    The American Society of Civil Engineers estimates that our Nation's 
ports and harbors need additional investment of $15.8 billion just to 
meet the demands of larger and heavier ships that use the Panama Canal. 
The Harbor Maintenance Tax provides ample revenues to meet these needs, 
but Congress has continued to siphon off these funds for other 
purposes.
    For the past three Congresses, I have been working with Members on 
both sides of the aisle and I am proud to have received bipartisan 
support of my legislation H.R. 2440, the Full Utilization of the Harbor 
Maintenance Trust Fund Act. The House passed this legislation by a vote 
of 296 to 109 in October of last year and, if the Senate doesn't move 
the legislation, I intend to include it in WRDA.
    Thank you to Ranking Member Graves, Subcommittee Ranking Member 
Westerman, as well as Chairwoman Napolitano for your support of H.R. 
2440. I ask for my colleagues continued support ensuring that full 
utilization of the Harbor Maintenance Trust Fund is enacted this 
Congress. Authorizing new projects while failing to provide the funding 
to build them doesn't get us anywhere. That's why fixing the Harbor 
Maintenance Trust Fund is so important.
    Thank you again for joining us today and I look forward to working 
with all of you in passing WRDA.

    Mrs. Napolitano. Thank you, Mr. DeFazio.
    Mr. Westerman?
    Mr. Westerman. Thank you Chairwoman Napolitano, and good 
morning. I would like to welcome Members of Congress from off 
the committee here today to share their priorities for an 
upcoming Water Resources Development Act.
    As you know, the foundation of WRDA bills is to authorize 
Army Corps Civil Works projects, and to study recommendations 
that have been delivered to Congress since the last WRDA was 
signed into law. And, as we have already heard, we know that in 
this case that was the 2018 WRDA law.
    Each one of those projects was proposed by non-Federal 
interests, in cooperation and consultation with the Corps. All 
the reports, while tailored to meet locally developed needs, 
have national and regional economic and environmental benefits. 
But equally important are the priorities and support from both 
a project and policy standpoint that Members bring before the 
committee. That is why I am glad to see such a robust 
participation here today.
    Since 2014, a WRDA bill has been passed every 2 years on a 
bipartisan basis. We expect to continue that strong tradition 
of bipartisanship in 2020. I look forward to working with my 
fellow colleagues to develop and pass this important 
legislation over the next several months.
    [Mr. Westerman's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Bruce Westerman, a Representative in 
 Congress from the State of Arkansas, and Ranking Member, Subcommittee 
                   on Water Resources and Environment
    I'd like to welcome Members of Congress from off the Committee here 
today to share their priorities for an upcoming Water Resources 
Development Act (WRDA).
    The foundation of each WRDA bill is to authorize Army Corps' Civil 
Works project and study recommendations that have been delivered to 
Congress since the last WRDA was signed into law. In this case, that's 
the WRDA 2018 law.
    Each one of those projects was proposed by non-federal interests in 
cooperation and consultation with the Corps. All of the reports, while 
tailored to meet locally developed needs, have national and regional 
economic and environmental benefits.
    But equally important are the priorities and support--both from a 
project and policy standpoint--that Members bring before the Committee. 
That is why I am glad to see such robust participation here today.
    Since 2014, a WRDA bill has been passed every two years on a 
bipartisan basis. We expect to continue that strong tradition of 
bipartisanship in 2020.
    I look forward to working with my fellow colleagues to develop and 
pass this important legislation over the next several months.

    Mr. Westerman. And I yield back.
    Mrs. Napolitano. Thank you, sir. I appreciate that. Now the 
Members appearing before the subcommittee today will have 5 
minutes to give their oral testimony, and their written 
statements will be made part of the formal hearing record.
    And given the number--at last count it was 68--the number 
of Members appearing before the committee today, and out of 
consideration for our colleagues' time, I ask unanimous consent 
that members of this committee be given 2 minutes each if they 
have questions following the statements. However, if you don't 
use your time, thank you very much.
    Without objection, so ordered.
    And without objection, our witnesses' full statements will 
be included in the record.
    Since your testimony, written testimony, has been made part 
of the record, the committee requests that you limit your oral 
testimony to 5 minutes each.
    And with that, we will start with the first witness, the 
gentleman from Kansas, Mr. Roger Marshall.
    You are on, sir.

   TESTIMONY OF HON. ROGER W. MARSHALL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF KANSAS

    Mr. Marshall. Chairwoman Napolitano, Ranking Member 
Westerman, and Chairman DeFazio, as well as other members of 
the subcommittee, good morning and thank you. I am honored for 
the opportunity to highlight some of the needs facing Kansas as 
you consider the upcoming water resources development package.
    The Water Resources Development Act represents Congress' 
continued investment in vital infrastructure projects across 
the country, ensuring that our communities have access to 
reliable sources of water, not just for farming or recreation, 
but also contributing to the health and wellness of our cities 
and towns.
    In Kansas, the spring of 2019 was one of the wettest on 
record, wherein excessive flooding along the Missouri River, 
which forms part of the boundary, part of the border between 
Kansas and Missouri, resulted in a major disaster declaration 
for nearly half of the State of Kansas. During the spring and 
early summer, I managed to get to all 105 counties in Kansas. 
The northern third of the State was basically under water. 
Hundreds of thousands of acres of corn fields, soybean fields 
were literally in 6 to 8 feet of water, and the same could be 
said for southeast Kansas.
    Additionally, for cities like Manhattan, which has been 
partnering with the U.S. Army Corps of Engineers to raise the 
levees north of town that excess water brought the river 
systems and reservoirs within an inch--literally, an inch--of 
breaching their banks. This threatened more than 1,600 acres of 
urban, industrial, commercial, public, and residential 
development in and around Manhattan, Kansas, highlighting the 
need for continued investments and progress in raising the 
existing levee systems.
    Now, Manhattan wasn't the only community impacted by the 
flooding of 2019. Municipalities from Kansas City to Garden 
City felt the effects. As we continue to make repairs from the 
2019 floods, we are also making preparations for the future. 
And 2020 is, unfortunately, projected to be another wet year.
    It is imperative that the Army Corps make every effort to 
work with farmers and landowners on cleanup and future flood 
mitigation efforts. Most farmers and landowners know the land 
better than the Army Corps officials, and they would appreciate 
the opportunity to be part of mitigation and rebuilding 
efforts. Too often in my townhalls I am told that the Army 
Corps personnel do not consult with landowners during these 
processes, and their recommendations place cumbersome 
requirements on landowners that often prove ineffective.
    Beyond encouraging greater coordination with farmers and 
landowners, I would also encourage collaboration between 
agencies. Recently the Army Corps of Engineers announced a 
joint commitment to water infrastructure with the Bureau of 
Reclamation. In addition to water quantity issues, I suggest 
this working group consider critical water quality issues, as 
well. Partnerships such as this bring together a wide array of 
tools aimed at improving the water resource management and 
environmental protection. As we continue to utilize programs 
that span multiple Federal agencies, we need to encourage 
communication and coordination so that projects can be 
implemented efficiently.
    While not in my district, the Port of Catoosa, located in 
Tulsa, Oklahoma, is essential to the flow of agriculture 
products in and out of Kansas. However, this port is in need of 
major maintenance and dredging. I encourage the committee to 
prioritize this important infrastructure project, ensuring that 
the products grown or manufactured in Kansas can make it 
quickly and efficiently to market.
    Water infrastructure is of vital importance to my district, 
whether through availability of quality water sources, or 
upgrading the aging water towers, levees, and dams across our 
State. I appreciate the opportunity to highlight some of these 
priorities I have heard back in Kansas, and yield back the 
remainder of my time.
    Thank you.
    [Mr. Marshall's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Roger W. Marshall, a Representative in 
                   Congress from the State of Kansas
    Chairwoman Napolitano, Ranking Member Westerman, and Members of 
this subcommittee,
    Thank you for the opportunity to highlight some of the needs facing 
Kansas as you consider the upcoming water resources development 
package. The Water Resource Development Act represents Congress' 
continued investment in vital infrastructure projects across the 
country, ensuring that our communities have access to reliable sources 
of water, not just for farming or recreation, but also contributing to 
the health and wellness of our cities and towns.
    The Spring of 2019 was one of the wettest on record, wherein 
excessive flooding along the Missouri River resulted in a Major 
Disaster Declaration for nearly half of the State of Kansas. For cities 
like Manhattan, which has been partnering with the US Army Corps of 
Engineers to raise the levees north of town, that excess water brought 
the river systems and reservoirs within an inch of breaching their 
banks. This threatened more than 1,600 acres of urban industrial, 
commercial, public, and residential development in and around 
Manhattan, highlighting the need for continued investments and progress 
in raising the existing levee systems.
    Manhattan wasn't the only community impacted by the flooding of 
2019. Municipalities from Kansas City to Garden City felt the effects. 
As we continue to make repairs from 2019 floods, we are also making 
preparations for the future, and 2020 is projected to be another wet 
year. It is imperative that the Army Corps make every effort to work 
with farmers and landowners on cleanup and future flood mitigation 
efforts. Most farmers and landowners know the land better than Army 
Corp officials, and they would appreciate the opportunity to be a part 
of mitigation and rebuilding efforts. Too often, Army Corps personnel 
do not consult with landowners during these processes, and their 
recommendations place cumbersome requirements on landowners that often 
prove ineffective.
    Beyond encouraging greater coordination with farmers and 
landowners, I'd also like to encourage collaboration between agencies. 
Recently, the Army Corps of Engineers announced a joint commitment to 
water infrastructure with the Bureau of Reclamation. In addition to 
water quantity issues, I suggest that this working group consider 
critical water quality issues as well. Partnerships such as this bring 
together a wide array of tools aimed at improving water resource 
management and environmental protection. As we continue to utilize 
programs that span multiple federal agencies, we need to encourage 
communication and coordination so that projects can be implemented 
efficiently.
    While not in my district, the Port of Catoosa, located in Tulsa, 
Oklahoma, is essential to the flow of agricultural goods in and out of 
Kansas. However, the port is in need of major maintenance and dredging. 
I encourage the committee to prioritize this important infrastructure 
project, ensuring that the products grown or manufactured in Kansas can 
make it quickly and efficiently to market.
    Water infrastructure is of vital importance to my district, whether 
through availability of quality water sources, or upgrading the aging 
water towers, levees, and dams across my state. I appreciate the 
opportunity to highlight some of the priorities I've heard about back 
in Kansas and yield back the remainder of my time.

    Mrs. Napolitano. Thank you very much. And thank you for 
your patience and for your testimony.
    Does any Member have any questions for him?
    With that, we thank you for your testimony, and we now 
recognize Mr. Flores.

  TESTIMONY OF HON. BILL FLORES, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Flores. Thank you, Chairwoman Napolitano and Republican 
Leader Westerman, for holding this hearing to discuss WRDA 
priorities for noncommittee members.
    I would like to take this opportunity to discuss potential 
improvements to this year's WRDA that would positively impact 
projects located in the district I represent in central Texas.
    Specifically, McLennan County, home to almost 250,000 
Texans, has two projects that fall within Federal jurisdiction 
and the purview of WRDA. With a few changes to the statutory 
language, these projects would have a more streamlined, 
proactively managed approach to avoid potentially catastrophic 
mishaps. If these projects do not receive Federal attention, 
they may end up costing the Federal Government a substantial 
amount of funding in reconstruction and emergency response.
    The first issue I would like to discuss is erosion and 
instability of Lake Shore Drive along Lake Waco, a Corps of 
Engineers property. This road is unstable, and presents serious 
risk of landslides and slope failures. These infrastructure 
failures would result in flood risk, devastation of local water 
quality, and significant reclamation costs.
    Recent engineering reports done by the city of Waco 
confirmed that the entire embankment of Lake Waco, on which 
Lake Shore Drive is located, is unstable, presents landslide 
risk, and potential catastrophic failure. The city continues to 
make repairs to Lake Shore Drive, but the instability of the 
embankment owned by the Corps of Engineers will continue to 
endanger Lake Waco and public welfare.
    Mitigating potential disaster on such a project would 
directly support the mission of the U.S. Army Corps of 
Engineers, which includes managing flood risk and providing 
environmental stewardship.
    I have been working with local officials and the Corps to 
address this issue for over 4 years, continuing dialogue 
between stakeholders to reiterate the importance of Lake Shore 
Drive to the Greater Waco area. In this regard, I secured 
Appropriations Committee support language in fiscal year 2018 
to highlight the importance of this project. But the project 
still lacks proper statutory authority for the Corps to address 
the embankment issue under Lake Shore Drive.
    It is my understanding that the city of Waco is more than 
willing and able to work with the Corps to address these 
problems in a cost-efficient manner. To that end, I request the 
inclusion of a number of cost-effective and efficient additions 
to the 2020 WRDA that would enhance the Corps' existing 
continuing authority projects, and better utilize partnerships 
with non-Federal entities.
    Specifically, I ask support to, first, reauthorize section 
1043 of the 2014 WRRDA for the non-Federal implementation pilot 
program, and to include language supporting Corps' ability to 
apply it to continuing authority projects.
    Second, to amend section 13 of the 1946 Flood Control Act 
to allow non-Federal entities to receive in-kind credit for 
performing in advance of Federal funding to offset non-Federal 
share project costs.
    And third, to extend the authority of the Corps to address 
issues of embankments on Federal lands.
    And fourth, the inclusion of Lake Waco restoration under 
section 7001 of the 2014 WRRDA to clarify Corps authority in 
this regard.
    The next issue I would like to address is arsenic levels in 
community drinking water systems in rural McLennan County. As 
the committee is aware, in 2001 the EPA lowered the safe 
drinking water maximum containment level standards for arsenic 
from 50 parts per billion to 10 parts per billion. Several 
groundwater systems in eastern McLennan County do not meet the 
EPA's revised arsenic MCL, and will soon begin receiving fines 
of noncompliance.
    To solve this issue, the affected water systems are working 
with the city of Waco, Brazos River Authority, the Texas 
Commission on Environmental Quality, and EPA officials to find 
grants that are available to the State through the Texas State 
Drinking Water Revolving Fund.
    Should the committee consider any improvements or 
alterations to the State Drinking Water Revolving Fund in WRDA, 
I would encourage you to expand the program's flexibility to 
address the needs of rural water systems in times of changing 
administrative rulemaking actions, and to consider doing so in 
a way that does not add considerable financial burdens that 
disproportionally harm smaller water systems that don't have 
the financial capability to deal with the changing regulatory 
landscape.
    I do thank you for the opportunity to testify, and your 
consideration of these important additions to WRDA.
    I yield back the balance of my time.
    [Mr. Flores' prepared statement follows:

                                 <F-dash>
 Prepared Statement of Hon. Bill Flores, a Representative in Congress 
                        from the State of Texas
    Thank you Chairwoman Napolitano and Republican Leader Westerman for 
holding this member day hearing to discuss WRDA priorities for off-
committee members.
    I would like to take this opportunity to discuss potential 
improvements to this year's WRDA that would positively impact projects 
located in the district I represent in Central Texas.
    Specifically, the City of Waco, home to over 130,000 Texans, has 
two projects that fall within federal jurisdiction and the purview of 
WRDA. With a few changes to statutory language, these projects could 
enjoy a more streamlined, proactively managed approach to avoid 
potentially catastrophic mishaps. If these projects do not receive 
federal attention, they may end up costing the federal government a 
substantial amount of funding in reconstruction and emergency response.
    The first issue I would like to discuss is erosion and instability 
of Lake Shore Drive along Lake Waco. This road is deeply unstable and 
presents serious risks of deep landslides and shallow slope failures. 
These infrastructure failures would result in flood risk, a disruption 
of surrounding recreational areas, and devastation to local water 
quality.
    In fact, recent engineering reports done by the City of Waco 
confirmed that `` . . . the entire embankment of Lake Waco on which 
Lake Shore Drive is located is unstable and in danger of slides and 
potential catastrophic failure. The City can make repairs to Lake Shore 
Drive but the instability of the embankment (owned by the Corps) will 
continue to endanger Lake Waco and public welfare.''
    Mitigating potential disaster on such a project would directly 
support the mission of the US Army Corps of Engineers, which includes 
managing flood risks and providing environmental stewardship.
    I have been working with local officials and the Corps to address 
this issue for over four years, continuing dialogue between 
stakeholders to reiterate the importance of Lake Shore Drive to the 
greater Waco area. I secured appropriations committee support language 
in FY18 to highlight the importance of this project, but the project 
still lacks proper statutory authority for the Corps to fix Lake Shore 
Drive.
    Now, it is my understanding that the City of Waco is more than 
willing and able to work with the Corps to address these problems in a 
cost-efficient manner. To that end, I request the inclusion of a number 
of cost-effective and efficient additions to 2020 WRDA that would 
enhance Corps' existing Continuing Authority Projects and better 
utilize partnerships with non-federal entities.
    Specifically, I ask support to--
    <bullet>  Reauthorize Section 1043 of 2014 WRDA for the Non-Federal 
Implementation Pilot Program and to include language supporting Corps' 
ability to apply it to Continuing Authority Projects.
    <bullet>  To amend Section 13 of the 1946 Flood Control Act to 
allow non-federal entities to receive in-kind credit for performing in 
advance of federal funding to offset non-federal share of the project 
costs.
    <bullet>  To extend authority of the Corps to address issues of 
embankment on federal lands.
    <bullet>  And the inclusion of Lake Waco restoration under Section 
7001 of the 2014 WRDA to clarify Corps authority.

    The next issue I would like to discuss is arsenic levels in 
community drinking water systems in McLennan County. As the committee 
is aware, in 2001, the EPA lowered the safe drinking water Maximum 
Containment Level (MCL) standards for arsenic from 50 parts per billion 
to 10 ppb. These ground-water systems in McLennan County no longer meet 
EPA's revised arsenic MCL and will soon begin receiving fines of non-
compliance. To solve this issue, affected water systems are working 
with the Brazos River Authority, Texas Center on Environmental Quality, 
and EPA officials to find grants that are available to the state 
through the State Drinking Water Revolving Fund.
    Should the committee consider any improvements or alterations to 
the State Drinking Water Revolving Fund in WRDA, I would encourage you 
to continue the program's flexibility to address the needs of rural 
systems in times of changing administrative actions, and consider doing 
so in a way that does not add considerable financial burdens that 
disproportionally harm smaller water systems.
    Thank you for the opportunity to testify and for your consideration 
of these important improvements.

    Mrs. Napolitano. Thank you, and now I will recognize our 
next witness, the Honorable Ed Case from Hawaii.

 TESTIMONY OF HON. ED CASE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF HAWAII

    Mr. Case. Madam Chair and members of the committee, thank 
you very much for allowing me to share my thoughts on water 
resources development priorities that are important to both our 
Nation and my home State of Hawaii.
    With Hawaii's unique reliance on ocean shipping as an 
island State, and the growing challenges of changing Pacific 
weather patterns resulting in increasing flooding and coastal 
erosion, Hawaii needs U.S. Army Corps of Engineers assistance 
more than ever.
    I would like to highlight a few new studies and projects 
that are critical to protecting our economic lifeline to the 
world and vulnerable communities.
    The island of Oahu, which is where 70 percent of Hawaii's 
population lives, and where our Nation's Indo-Pacific defense 
infrastructure is centered, has two critical ports.
    As the main port of Hawaii, Honolulu Harbor receives and 
distributes all overseas cargo shipments, constituting over 80 
percent of all imports into the State, supports fishing 
operations and cruise ships, and handles Federal maritime 
activity, including the U.S. Coast Guard's 14th District. The 
harbor, though, is in need of critical improvements. These 
modifications will improve transportation efficiency and lessen 
the impact of cross-channel currents, and we ask for your 
support.
    Kalaeloa Barbers Point Harbor is equally important to 
Hawaii, as it specializes in dry-bulk and liquid-bulk cargoes, 
and provides space for ship maintenance and repair services 
that cannot fit in Honolulu Harbor. With increased congestion 
causing berthing conflicts between dry- and liquid-bulk 
shipments, the harbor facilities must be expanded, and we ask 
for your support.
    My State is also experiencing increased flooding from 
severe storms that place lives and property at extreme risk. 
For example, in April 2018, the islands of Oahu and Kauai were 
struck by heavy rains and wind. Kauai, in fact, received some 
50 inches of rain in a single day, causing massive flooding 
with related landslides, and leaving victims stranded, damaged 
or destroyed hundreds of houses, and caused millions of dollars 
in damage. These risks will likely continue to increase as we 
see increased hurricane activity in the Pacific and other 
weather changes.
    In this area I am seeking your support for the Wailupe 
Flood Risk Management Study, a New Start, critical to 
protecting the particularly exposed Aina Haina community in 
eastern Honolulu from flooding of Wailupe Stream. A 100-year 
flood of that stream would not only risk lives and widespread 
residential and commercial property damage, but would sever 
Kalanianaole Highway, which is the main and only artery around 
the island.
    Finally, accelerating coastal erosion is taking a mounting 
toll on our economy and infrastructure in Hawaii and other 
coastal States. In addition to widespread property destruction, 
Hawaii's economy relies heavily on tourism and beaches. And so 
shoreline erosion is additionally a direct threat to our main 
livelihood.
    There is a critical need overall for new studies and 
projects to mitigate these risks not only in Hawaii, but across 
our country.
    Thank you very much for your time and your full 
consideration of these proposed studies and projects to address 
critical Hawaii concerns as this committee authorizes the Water 
Resources Development Act.
    I thank you and yield back.
    [Mr. Case's prepared statement follows:]
                                 <F-dash>
 Prepared Statement of Hon. Ed Case, a Representative in Congress from 
                          the State of Hawaii
    Chairman DeFazio, Ranking Member Graves, distinguished Members of 
the Committee:
    Thank you for allowing me to share my thoughts with the Committee 
on water resources activities and programs that are important to both 
our nation and my home state of Hawai'i.
    With its unique reliance on ocean shipping as an island state and 
the growing challenges climate change is causing through coastal 
erosion and flooding, Hawai'i needs our assistance now more than ever. 
The State of Hawai'i needs the vision and technical assistance only the 
U.S. Army Corps of Engineers can provide. We must start new studies and 
implement new construction projects to protect vulnerable communities 
and my state's economic lifeline to the world.
    The Island of O'ahu has two critical ports that need your support. 
As the main port of Hawai'i, Honolulu Harbor receives and distribute 
all overseas cargo shipments for the state, supports fishing operations 
and cruise ships and handles government activity, such as the work done 
by the National Oceanic and Atmospheric Administration. With roughly 
80% of our goods imported via shipping, the harbor is our lifeline to 
the outside world, which is why Honolulu Harbor needs critical 
improvements. These modifications will improve transportation 
efficiency and lessen the impact of cross channel currents. Kalaeloa 
Barbers Point Harbor is equally important to Hawai'i as it specializes 
in dry-bulk and liquid-bulk cargos and provides space for ship 
maintenance and repair services that cannot fit in Honolulu Harbor. 
With increase congestion causing berthing conflicts between dry- and 
liquid-bulk shipments, the harbor facilities must be expanded.
    My state is also dealing with increased flooding from severe rains, 
especially from hurricanes, as part of climate change. It places lives 
and property at extreme risk. For example, in April 2018, the Island of 
Kaua'i received nearly 50 inches of rain, causing flooding and setting 
a new national record for the most rainfall within the span of 24 
hours. This massive flooding and related landslides left flood victims 
stranded, damaged or destroyed hundreds of houses and caused millions 
of dollars in damage. My state expects this problem to continue in the 
years to come, with an increasing number of hurricanes in our region of 
the Pacific. This is why I am seeking your support for the Wailupe 
Flood Risk Management Study, a ``new start'' important to my 
constituents living in 'Aina Haina. If a 100-year flood of Wailupe 
Stream were to occur, it would wash out the Kalaniana'ole Highway, 
strand thousands of motorists, flood more than 819 homes in the valley 
and affect twenty-eight commercial buildings. With your support we have 
the power to directly mitigate these risks and potentially save lives.
    Finally, accelerating coastal erosions is leaving the economy and 
infrastructure of Hawai'i and other coastal states at risk. In addition 
to houses and businesses that may be overtaken by the ocean, Hawaii's 
economy relies heavily on beaches, so shoreline erosion is a direct 
threat to our economic future. For example, researchers with the 
University of Hawai'i found that within the next 25-30 years Hawaii's 
shores could lose 100 feet of beachfront. The critical need for new 
studies and projects to mitigate these risks cannot be overstated.
    If Hawai'i does not see these new start projects and studies in the 
three areas I have discussed today, my state will face growing 
physical, economic, environmental and social challenges. We need to act 
now to ensure sufficient, reliable funding for critical water 
infrastructure programs.
    Thank you for your time, and I appreciate your consideration of 
these concerns from Hawai'i as the committee reauthorizes the Water 
Resources Development Act.

    Mrs. Napolitano. Thank you for your testimony. Does any 
Member wish to question Mr. Case?
    Hearing none, thank you, Mr. Case. I would now like to 
recognize the next witness, the gentleman, Mr. Steube from 
Florida, for 5 minutes.

   TESTIMONY OF HON. W. GREGORY STEUBE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Steube. Thank you, Madam Chair and Ranking Member 
Westerman. Thank you for the opportunity to speak today about 
the importance of the Water Resources Development Act, and how 
this bill can most effectively address challenges in my 
district, the 17th district of Florida.
    I would like to start by applauding your efforts to develop 
and pass a new WRDA bill in the 116th Congress. As you know 
from my Florida colleagues on the committee, the Army Corps of 
Engineers is critical to our State. From restoration of the 
Everglades, to management of Lake Okeechobee, to port 
maintenance and development and beach restoration, the Army 
Corps is involved in many critical public work projects in our 
State.
    One area in which the Corps currently has less involvement 
in Florida is their environmental infrastructure program. This 
program could be an important tool to help improve the 
environment of Florida and maintain our economy. Therefore, I 
ask for the committee's support in continuing to fund this 
program.
    As many of you know, one of the greatest challenges for 
Florida's water quality is our aging septic tanks. These aging 
tanks are leaking into our water supply, and severely 
compromising our water quality. To help mitigate this problem, 
I ask that we work together to amend an existing congressional 
authorization to support the ongoing efforts of Charlotte 
County to help transition the community from older, often 
failing septic systems to central sewer.
    The authorization amendment would help eliminate 
approximately 2,600 existing failing septic systems that are 
negatively affecting water quality in Charlotte Harbor National 
Estuary and the Gulf of Mexico, and is part of a much larger, 
$400 million county project. This water quality initiative is a 
priority of mine, and I look forward to working with you on 
this, while also trying more broadly to accelerate septic-to-
sewer conversions throughout Florida.
    The amended Charlotte County authorization was included in 
the Senate version of WRDA 2018, before I came to Congress, but 
was unfortunately dropped in conference. I ask that you support 
this provision in the House version of WRDA 2020, and work to 
keep it in the final bill until it becomes law.
    Thank you for your efforts to develop and pass WRDA 2020, 
and for working with me and my office on this important septic-
to-sewer initiative for Charlotte County. Water quality is a 
top priority of mine, and incredibly important to my district 
and the State of Florida. I look forward to working with my 
colleagues to get the final Water Resources Development Act 
passed.
    I thank you for your time, and I yield back.
    [Mr. Steube's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. W. Gregory Steube, a Representative in 
                   Congress from the State of Florida
    Chairman DeFazio and Ranking Member Graves, thank you for the 
opportunity to speak today about the importance of the Water Resources 
Development Act and how this bill can most effectively address 
challenges in my district, the 17th Congressional District of Florida.
    I would like to start by applauding your efforts to develop and 
pass a new WRDA bill in the 116th Congress. As you know from my Florida 
colleagues on the Committee, the Army Corps of Engineers is critical to 
our state. From restoration of the Everglades, to management of Lake 
Okeechobee, to port maintenance and development, and beach restoration, 
the Army Crops is involved in so many critical public works projects in 
our state.
    One area in which the Corps currently has less involvement in 
Florida is their environmental infrastructure program. This program 
could be an important tool to help improve the environment of Florida 
and maintain our economy. Therefore, I ask for the committee's support 
in continuing to fund this program.
    As many of you know, one of the greatest challenges for Florida's 
water quality is our aging septic tanks. These aging tanks are leaking 
into our water supply and severely compromising our water quality.
    To help mitigate this problem, I ask that you please work with me 
to amend an existing Congressional authorization to support the ongoing 
efforts of Charlotte County to help transition the community from 
older, often failing septic systems to central sewer. The authorization 
amendment would help eliminate approximately 2,600 existing failing 
septic systems that are negatively affecting water quality in the 
Charlotte Harbor National Estuary and the Gulf of Mexico and is part of 
a much larger $400 million county project. This water quality 
initiative is a priority of mine and I look forward to working with you 
on this while also trying more broadly to accelerate septic-to-sewer 
conversions throughout Florida.
    The amended Charlotte County authorization was included in the 
Senate version of WRDA 2018 before I came to Congress, but was 
unfortunately dropped in conference. I ask that you support the 
provision in the House version of WRDA 2020 and work to keep it in the 
final bill until it becomes law.
    Thank you for your efforts to develop and pass WRDA 2020 and for 
working with me and my office on this important septic-to-sewer 
initiative for Charlotte County. I look forward to discussing this with 
you further and helping to get the final WRDA bill passed by the House 
this year.

    Mrs. Napolitano. Thank you for your testimony. Does any 
member of the committee have a question?
    No?
    So thank you. I would now like to recognize our next 
witness, Mr. William Keating from Massachusetts, for 5 minutes.

   TESTIMONY OF HON. WILLIAM R. KEATING, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Keating. Thank you, Chairwoman Napolitano, Ranking 
Member Westerman.
    T&I began this whole congressional process early on with 
their first hearing when they addressed the cost of doing 
nothing. And they specifically addressed the cost of doing 
nothing with the bridges, over 56,000 bridges that aren't 
functioning in our country. And I must tell you I am going to 
direct my remarks on what I think is exhibit A of this.
    And the reason we are here, too, is because, if the hearing 
room we are sitting in right now needed repair, whose 
responsibility would that be? It would be the Federal 
Government, because they own this building. And unlike so many 
other projects that we will hear, so many other needs we will 
hear in the next year, what is unique about this is the two 
bridges that connect the Peninsula of Cape Cod to the rest of 
the mainland are owned by the U.S. Government. They are U.S. 
assets. It is our responsibility to fix those, the same way it 
is to fix any repairs here in this room. And that amounts to 
the Federal bridges are probably--1 percent is a good estimate 
of all our bridges, our Federal--almost all of those are on 
Federal land. This is uniquely the responsibility, the 
statutory responsibility, of the Army Corps to fix it.
    Now, these were built around the WPA era, 85 years old now, 
and they are functionally obsolete. In fact, when they started 
out, it was 40,000 people, full-time population, in that 
Peninsula of Cape Cod. And now it is one-quarter of a million. 
There were 80,000 vehicle trips a month, on average, at that 
time. There are 3.4 million now. And what have we done to 
improve that? The U.S. Government has done nothing, in terms of 
delaying action to deal with it, and a responsibility they 
statutorily have themselves.
    So we are looking at the options, and the day of reckoning 
has arrived here in terms of this U.S. asset--that we are now 
at a stage of saying we have to replace those bridges, or go 
down the road of rehabbing them and repairing them.
    And what is that going to mean? Three and a half years to 
repair these bridges it would take. They would have to close 
off completely, just shut off the bridges for 10 months of 
that. They would have to close the lanes, at least for an 
additional 28 months. When we just did some repair--the cost we 
are not talking about is just those lane closures that--in 
terms of weeks, versus months, cost $30 million, just when we 
did the last ones. That is in commerce that is there.
    So there is really a great need to address this. If we 
don't replace those bridges, they are going to have to be 
rated, so that the truck containers that are around 46 tons, 
usually, they couldn't go over it. And the ferries that connect 
the islands couldn't get those containers at that size onto the 
ferries, and people wouldn't be able to do this.
    And there are other U.S. assets at stake here. That is the 
only way that we connect to Joint Base Cape Cod and the whole 
east coast of the United States. The PAVE PAWS missile system 
detection, our radar for the whole east coast and beyond, is in 
that base, Joint Base Cape Cod. They track the missiles that 
are there. They look for the defense. They track the space 
launches. They track the satellite movements that are there.
    The 102nd Intelligence Wing is there doing 24/7 oversight 
over all our troop activities and any nuclear--worldwide--
located there. The National Guard that came to the Boston 
Marathon bombing was there, able to be mobilized in that 
emergency. They would be cut off. And if we get a natural 
disaster, which we would in such a fragile area that sticks out 
and is all coastal, we would be cut off without an escape route 
to deal with that.
    So the Coast Guard is also housed in that same facility. It 
would be cut off. And they do about 200 search and rescue 
missions every year.
    So this is important in so many respects for the U.S. 
Government's responsibility. It does make it different. We do 
have to act.
    And, in fairness, the Army Corps--this would be such a huge 
part of the budget, we will have to get creative, all of us, 
and work together. We have been working with the State 
government in that regard, and they are stepping up to the 
plate, helping us with the U.S. asset.
    I would like to put in the record, if I could, to the 
committee--allow the Army Corps Cape Cod Canal Bridge and the 
Sagamore Bridge's official evaluation report. It is a long time 
in coming. The cost of not acting will cost more than the cost 
of acting. The cost of doing nothing is greater than the cost 
of doing something.
    So I thank you for allowing me to speak.
    Mrs. Napolitano. Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
     Report entitled, ``Major Rehabilitation Evaluation Report and 
   Environmental Assessment: Cape Cod Canal Highway Bridges, Bourne, 
 Massachusetts,'' U.S. Army Corps of Engineers, New England District, 
    March 2020, Submitted for the Record by Hon. Grace F. Napolitano
     The 146-page report is retained in committee files and is 
available online at https://capecodcanalbridgesstudy.com/wp-content/
uploads/2020/04/CCCB-MRER-Final-March2020.pdf

    Mr. Keating. And I appreciate that.
    [Mr. Keating's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. William R. Keating, a Representative in 
            Congress from the Commonwealth of Massachusetts
    This Committee began this whole congressional process early on with 
its first hearing and they addressed the cost of doing nothing, and 
they specifically addressed the cost of doing nothing with the bridges, 
over 56,000 bridges that aren't functioning in our country.
    I must tell you, I'm going to direct my marks on what I think is 
exhibit A of this and the reason we're here too is because if the 
hearing room we're sitting in right now needed repair, whose 
responsibility would that be? It would be the federal government 
because they own this building and unlike so many other projects that 
we'll hear, so many other needs we'll hear in the next year, what's 
unique about this is the two bridges that connect the peninsula of Cape 
Cod to the rest of the mainland are owned by the U.S. government.
    They are U.S. assets, and it's our responsibility to fix those, the 
same way it is to fix any repairs here in this room, and that amounts 
to federal bridges that probably 1% is a good estimate of all bridges 
are in federal land. This is uniquely the responsibility, the statutory 
responsibility of the Army Corps to fix it. Now these were built around 
the WPA era, 85 years old now, and they're functionally obsolete. In 
fact, when they started out there was 40,000 people full-time 
population on the peninsula of Cape Cod, and now it's a quarter of a 
million.
    There were 80,000 vehicle trips a month on average, at that time. 
There are 3.4 million now, and what have we done to improve that? The 
U.S. government has done nothing in terms of delaying action to deal 
with it and act on a responsibility they statutorily have themselves. 
So we're looking at the options and the day of reckoning has here in 
terms of this U.S. asset that we're now at a stage of saying we either 
have to replace those bridges or go down the road of rehabbing them and 
repairing them, and what's that going to mean?
    Three and a half years to repair these bridges it would take. They 
would have to close off completely, just shutoff the bridges for ten 
months of that. They would have to close the lanes at least, for an 
additional 28 months when we just did some repair. The cost we're not 
talking about is just those lane closures in terms of weeks versus 
months cost 30 million dollars just when we did the last ones, that's 
in commerce that's there.
    So, this is a really a great need to address this, if we don't 
replace those bridges they're going to have to be weight rated, so that 
the truck containers that are on 46 tons usually, they couldn't go over 
it, and the ferries that connect the islands couldn't get those 
containers at that size onto the ferries. People wouldn't be able to do 
this and there's other U.S. assets at stake here.
    That is the only way that we connect the Joint Base Cape Cod in the 
whole east coast of the United States, the PAVE PAWS missile system 
detection. Our radar for the whole east coast and beyond is in that 
base, Joint Base Cape Cod, they tracked the missiles that are there. 
They look for the defense, they track the space launches, they track 
the satellite movements that are there. They also have the 102nd 
Intelligence Unit, doing 24/7 oversight over all our troop activities 
and any nuclear activity worldwide, located there.
    The National Guard that came to the Boston Marathon bombing was 
there, able to be mobilized in that emergency. They would be cutoff, 
and if we get a natural disaster, which we would in such a fragile area 
that sticks as all coastal, we would be cutoff without an escape route 
to deal with that. So, the Coast Guard is also housed in that same 
facility that would be cutoff, and they do about 200 search and rescue 
missions every year.
    This is important in so many respects for the U.S. government's 
responsibility, it does make it different, we do have to act and in 
fairness to the Army Corps, this would be such a huge part of the 
budget, we'll have to get creative, all of us and work together. We've 
been working with a state government in that regard and they're 
stepping up to the plate helping us with the U.S. asset.
    I'd like to put in, if I could to the Committee allow, the Army 
Corps Cape Cod Canal Highway Bridge in Bourne and the Sagamore Bridge's 
official evaluation report. It's a long time coming, and this will say 
the cost of not acting will cost more than the cost of acting. The cost 
of doing nothing is greater than the cost of doing something.
    I thank you for allowing me to speak.

    Mrs. Napolitano. Thank you, sir. Thank you for your 
testimony. We will enter it into the record. Thank you.
    Does any member of the committee wish to question?
    Thank you, and I would recognize our next witness, the 
gentlewoman from Washington, Ms. Jayapal, for 5 minutes.

TESTIMONY OF HON. PRAMILA JAYAPAL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Ms. Jayapal. Thank you, Madam Chair. And thank you, members 
of the committee. I appreciate the opportunity to share how the 
2020 Water Resources Development Act reauthorization would 
benefit the people and the economy of the country in the 
context of the Seventh Congressional District in the State of 
Washington.
    My district is growing rapidly. It is booming with 
innovation, with people, and with industry. It is a trade-
dependent State that I live in, the State of Washington, and so 
our economy depends on keeping our region's cargo gateways 
competitive, and building a strong maritime workforce, and 
protecting vital ecosystems that ensure our precious ocean 
species can thrive all at the same time. For that reason I come 
to you with two elements that I am strongly urging the 
committee to include in the WRDA authorization bill.
    First, I represent the Port of Seattle. We believe it is 
time to comprehensively reform the Harbor Maintenance Tax. The 
HMT, as you all know, is the single largest source of Federal 
funding for coastal ports and waterways. But unfortunately, 
these funds are not going to their intended purpose. The HMT 
collects more revenue from shippers than Congress has 
appropriated to the Corps to maintain our harbors, with $9.3 
billion in revenue sitting idle in the U.S. Treasury.
    I applaud this committee's efforts to ensure annual HMT 
revenues are fully spent through full utilization of the Harbor 
Maintenance Trust Fund Act, which passed the House last year.
    Fully using the tax is a no-brainer. However, right now, 
donor ports like the Port of Seattle are contributing far more 
to the Harbor Maintenance Trust Fund than they receive back for 
maintenance. If we only ensure full use without equitably 
investing in donor and energy ports, while protecting emerging 
ports and the Great Lakes, we do not fully address the unfair 
system that is endangering the long-term health of our Nation's 
cargo gateway infrastructure.
    As an example of the current inequity, the six donor ports 
identified in the 2014 WRRDA bill generated 53 percent of the 
Harbor Maintenance Tax collections in 2017, but only received 3 
percent in return--3 percent in return. That means that the 
Ports of Seattle and Tacoma receive only pennies for every HMT 
dollar generated. As a result, Puget Sound ports are losing out 
on cargo revenue to nearby ports in Canada, as documented by 
the Federal Maritime Commission.
    Congress should pass comprehensive HMT reform legislation 
that resolves the wide range of concerns that the Nation's 
ports have about the HMT, and that should include dedicated 
funding for donor ports to ensure that we receive a fair 
return, and minimum floors to protect emerging ports and the 
Great Lakes region.
    Second, I hope to work with the committee to improve the 
WRDA section 214 program, and further expedite reviews for 
mitigation bank applicants seeking to sell credits to other 
public entities. The section 214 program helps expedite the 
Corps' review process, as local public entities mitigate for 
impacts that their projects have on aquatic resources.
    However, this expedited program is only currently available 
to project sponsors in situations where a bank is used 
exclusively by the sponsor to meet its own mitigation 
requirements. If the sponsor sells any of the credits that it 
generates to another public entity, the expedited process 
cannot be used. Selling mitigation credits helps fund those 
habitat projects, and enabling public entities to expedite the 
approval process for mitigation banks will lead to the creation 
of more habitat more quickly. These outcomes clearly serve a 
public purpose, and we should allow public-sector sponsors, 
specifically, to access that expedited process in these 
situations.
    For example, last summer the Port of Seattle submitted an 
application to the Army Corps to establish a mitigation bank 
that would create 85 acres of new habitat that will support the 
recovery of Puget Sound's ESA-listed Chinook salmon and 
Southern Resident killer whales. The port was told that it 
would be 2 years before the Corps began its review of the 
application, and probably 6 years until the review was 
complete. This is too long to wait. Because it plans to sell 
about 25 percent of the credits the bank will generate to other 
public entities in order to generate review for additional 
habitat development, the port cannot expedite its application 
under section 214.
    And so I am asking the committee to expand that expedited 
section 214 review process for projects that serve the public 
good.
    In closing, Madam Chair, I commend the committee for 
continuing Congress' track record of regularly updating water 
legislation, and I look forward to working with you.
    Thank you. I yield back.
    [Ms. Jayapal's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Pramila Jayapal, a Representative in 
                 Congress from the State of Washington
    Mr. Chairman, I appreciate the opportunity to share how the 2020 
Water Resources and Development Act reauthorization will benefit the 
people and economy of the country in the context of my district.
    Washington's 7th district is growing rapidly, booming with 
innovation, people and industry. In a trade dependent state like ours, 
our economy depends on keeping our region's cargo gateways competitive, 
building a strong maritime workforce and protecting vital ecosystems 
that ensure our precious ocean species can thrive all at the same time.
    For that reason, I come to you with two elements that I strongly 
urge the committee to include in its WRDA reauthorization bill.
    First, it is time to comprehensively reform the Harbor Maintenance 
Tax. The HMT is the single largest source of federal funding for 
coastal ports and waterways. Unfortunately, these funds are not going 
to their intended purpose. The HMT collects more revenue from shippers 
than Congress has appropriated to the Corps to maintain our harbors, 
with $9.3 billion in revenue sitting idle in the U.S. Treasury. I 
applaud this Committee's efforts to ensure annual HMT revenues are 
fully spent, through the Full Utilization of the Harbor Maintenance 
Trust Fund Act, which passed the House last year.
    Fully using the tax is a no brainer. However, right now, donor 
ports like Seattle are contributing far more to the Harbor Maintenance 
Trust Fund than they receive back for maintenance. If we only ensure 
full use without equitably investing in Donor and Energy Ports, while 
protecting emerging ports and the Great Lakes, we will not fully 
address the unfair system that is endangering the long-term health of 
our nation's cargo gateway infrastructure.
    As an example of the current inequity, the six donor ports 
identified in the 2014 WRDA bill generated 53% of HMT collections in 
2017 but received only 3% in return. That means that the ports of 
Seattle and Tacoma receive only pennies for every HMT dollar generated. 
As a result, Puget Sound ports are losing out on cargo revenue to 
nearby ports in Canada, as documented by the Federal Maritime 
Commission.
    Congress should pass comprehensive HMT reform legislation that 
resolves the wide range of concerns the nation's ports have about the 
HMT. This should include dedicating funding for donor ports to ensure 
they receive a fair return and minimum floors to protect emerging ports 
and the Great Lakes region.
    Second, I hope to work with the Committee to improve the WRDA 
Section 214 program and further expedite reviews for mitigation bank 
applicants seeking to sell credits to other entities. The Section 214 
program helps expedite the Corps' review process as local public 
entities mitigate for impacts their projects have on aquatic resources. 
However, this expedited program is only available to project sponsors 
in situations where a bank is used exclusively by the sponsor to meet 
its own mitigation requirements. If the sponsor sells any of the 
credits it generates to another entity, the expedited process cannot be 
used. Selling mitigation credits helps fund habitat projects, and 
enabling public entities to expedite the approval process for 
mitigation banks will lead to the creation of more habitat more 
quickly. These outcomes clearly serve a public purpose, and we should 
allow public-sector sponsors to access the expedited process in these 
situations.
    For example, last summer the Port of Seattle submitted an 
application to the Army Corps to establish a mitigation bank that would 
create 85 acres of new habitat that will support the recovery of Puget 
Sound's ESA-listed Chinook salmon and Southern Resident Killer Whales. 
The Port was told it would be two years before the Corps began its 
review of the application and probably six years until the review is 
complete. This is too long to wait. Because it plans to sell about 25 
percent of the credits the bank will generate to other entities in 
order to generate revenue for additional habitat development, the Port 
cannot expedite its application under Section 214. I hope to work with 
the Committee to fix this issue and expand the expedited Section 214 
review process for projects that serve the public good.
    In closing, I commend this committee for continuing Congress' track 
record of regularly updating WRDA legislation that is essential to 
preserve our economy, protect our communities and maintain our quality 
of life. I look forward to working with you to ensure an equitable and 
fair use of the Harbor Maintenance Trust Fund and to protect our vital 
ecosystems through reforms to WRDA's Section 214 program.

    Mrs. Napolitano. Thank you very much for your testimony. 
And does any member of the committee wish to question?
    No?
    Thank you very much. I now recognize our next witness, the 
gentleman from Texas, Mr. Vela.

 TESTIMONY OF HON. FILEMON VELA, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Vela. Chairwoman Napolitano and Ranking Member 
Westerman, thank you for giving me the opportunity today to 
testify about water projects in my district.
    Chairwoman Napolitano, thank you for your past support on 
all these districts and your hometown. I was just thinking it 
is too bad you left, but then I am glad you did, because 
otherwise you would probably be sitting here instead of me.
    But in any event, I request that my full written statement 
be included in the record.
    As you prepare to draft legislation to authorize the Water 
Resources Development Act, I wanted to bring your attention to 
some critical flood control needs in the Rio Grande Valley of 
Texas.
    In just the past 2 years, south Texas has suffered 
catastrophic flooding, causing tens of millions of dollars in 
damage on more than one occasion. In June 2018, storms brought 
a year's worth of rainfall to the Rio Grande Valley in just a 
few hours, resulting in massive flooding and over $60 million 
in infrastructure damage. In June 2019, the Rio Grande Valley 
again experienced record rainfall and flooding.
    To help address these flooding concerns, it is critical 
that the Raymondville Drain project move forward. Once 
constructed, the 63-mile drainage system will provide 
stormwater management on a regional basis, and ultimately 
contribute to improvements to the watershed in the four-county 
region. I urge you to include language in your legislation to 
authorize construction of the project.
    It is also vital for our region to fully understand the 
entire watershed, and take action to address flooding and 
stormwater issues throughout. The ASA's office is currently 
reviewing a proposal for just such a regional approach for 
inclusion in the section 7001 report.
    The Lower Rio Grande Valley watershed feasibility study 
proposal was submitted by Cameron County in August, with the 
support of many local entities, including the Lower Rio Grande 
Valley Development Council, Hidalgo County, Willacy County, and 
a number of cities in Cameron County. I urge you to include 
authorization language for this important study in the upcoming 
WRDA legislation.
    Addressing flood control issues is important throughout the 
United States, but areas of persistent poverty in our Nation, 
like the Rio Grande Valley, lack the resources of many other 
communities to fund critical infrastructure projects. And all 
too often areas with high poverty rates are prone to flooding. 
I urge you to include language in your bill for the Army Corps 
to account for these issues when determining feasibility, and 
to help flood-prone, low-income areas fund projects to increase 
resiliency and prevent flood damage.
    Thank you again for giving me this opportunity to testify 
about some of these critical water issues, and I appreciate you 
all having me here.
    [Mr. Vela's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Filemon Vela, a Representative in Congress 
                        from the State of Texas
    Chairman DeFazio, Ranking Member Graves, Chairwoman Napolitano, and 
Ranking Member Westerman, thank you for giving me the opportunity today 
to testify about water projects in my district.
    As you prepare to draft legislation to reauthorize the Water 
Resources Development Act (WRDA), I wanted to bring to your attention 
some critical flood control needs in the Rio Grande Valley of Texas.
    In just the past two years, South Texas has suffered catastrophic 
flooding, causing tens of millions of dollars in damage on more than 
one occasion. In June 2018, storms brought a year's worth of rainfall 
to the Rio Grande Valley in just a few hours, resulting in massive 
flooding and over $60 million in infrastructure damage. In June 2019, 
the Rio Grande Valley again experienced record rainfall and flooding.
    While the United States is one of the richest countries in the 
world, pockets of persistent poverty exist. Sadly, financial hardship 
and poverty in these regions are exacerbated by severe weather and 
flooding. The Rio Grande Valley is one of these areas.
    To help address these flooding concerns, it is critical that the 
Raymondville Drain project moves forward. It is also vital to 
understand the watershed of our entire area and what is required to 
avoid future flood events, and we must work to allocate needed 
resources to fund flood control infrastructure to prevent flooding that 
threatens the lives and livelihoods of Americans, especially those in 
areas of persistent poverty.
                       Raymondville Drain Project
    The Raymondville Drain project was previously authorized in WRDA 
1986 and updated in WRDA 2007. Once constructed, this project will 
provide storm water management on a regional basis and ultimately 
contribute to improvements to watersheds of three Texas counties. The 
project will add a new channel that connects to existing channels, 
widen existing channels, and make additional improvements to the 
approximate 63-mile drainage system of in-line and off-line detention, 
reservoirs, and control structures from Edinburg Lake in Hidalgo County 
to the Laguna Madre in Willacy County.
    The Assistant Secretary of the Army for Civil Works is currently 
reviewing the Raymondville Drain Section 203 Submittal. I understand 
that the submittal is expected to be delivered to the Committee as a 
Favorable Decision Document and will be a recommended project for 
Construction Authorization, so I urge you to include language in your 
legislation to authorize construction of the project.
          Lower Rio Grande Valley Watershed Feasibility Study
    Not only is construction of the Raymondville Drain project vital to 
flood control in the Lower Rio Grande Valley, but the region needs to 
fully understand the entire watershed and take action to address 
flooding and stormwater issues.
    In August, Cameron County submitted a proposal to the Army Corps of 
Engineers for a Lower Rio Grande Valley Watershed Feasibility Study. 
The ASA's office is currently reviewing the project submittal for 
inclusion in the Section 7001 report that is due to Congress next 
month. I urge you to include authorization language for this project in 
the upcoming WRDA legislation.
     Impoverished Community Flood Risk Management, Resiliency, and 
                         Sustainability Equity
    Studying flood control needs and producing plans to address these 
issues is important for areas throughout the United States, but 
impoverished regions of our nation, like the Rio Grande Valley, lack 
the resources of many other communities to fund critical infrastructure 
projects; and all too often areas with high poverty rates are prone to 
flooding. I urge you to include language in your bill for the Army 
Corps to account for these issues when determining feasibility and to 
help flood-prone, low-income areas fund projects to increase resiliency 
and prevent flood damage.
                           Beach Nourishment
    Not only is support for risk management in local watersheds 
critical to the resiliency of communities like mine, but maintaining 
our beaches on barrier islands is also important to avoid damage both 
to the islands themselves as well as the mainland. I appreciate the 
work of this committee and the Army Corps to help renourish local 
beaches with materials dredged from navigation projects. I urge you to 
continue this support and encourage the Army Corps to look for even 
more approaches to ensure the most efficient and effective ways to move 
dredge material to support the beaches.
    Thank you again for giving me this opportunity to testify about 
some of the most critical water issues in my district.

    Mrs. Napolitano. Thank you for your testimony, and your 
testimony will be included in the record, as was stated before.
    Does any Member have a question?
    None. Thank you.
    As we await additional Members, I will call a recess for 5 
minutes until the Members arrive.
    [Recess.]
    Mrs. Napolitano. I call the hearing back to order. I wish 
to recognize Ms. Barragan from California for 5 minutes.

 TESTIMONY OF HON. NANETTE DIAZ BARRAGAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Barragan. Thank you, Chairwoman Napolitano, for 
providing this opportunity today. The work of the Army Corps of 
Engineers to protect against flooding, sea-level rise, and 
improved water quality is critical for coastal States and 
coastal communities. There are five priorities that I want to 
bring to your attention for inclusion in the Water Resources 
Development Act.
    My district's Port of Los Angeles is America's busiest port 
by container volume. It is an economic catalyst for the region 
and the country. The port would like to see the reforms on how 
the Harbor Maintenance Tax funds are allocated and used.
    I am grateful to committee chair Mr. DeFazio's leadership 
with his bill, H.R. 2440, the Full Utilization of the Harbor 
Maintenance Trust Fund Act. This allows for full use of the 
trust fund, which is a positive step for ports infrastructure 
investment. However, there are additional reforms needed to 
address maintenance at our ports.
    First, donor ports like the Los Angeles and Long Beach 
ports need to be permanently recognized as donor ports, and 
receive a minimum of 10 percent of the revenues they generate 
for the trust fund. In 2019 the Port of Los Angeles contributed 
$206.6 million in revenue to the fund, yet received only $5.85 
million back. That is less than 2 percent, and a local loss of 
more than $200 million.
    Second, we need an expansion of the eligibility criteria 
for Highway Maintenance Trust Fund expenditures to include in 
water infrastructure. Currently, the Port of Los Angeles needs 
nearly $134 million in concrete and corrosion repairs on decks, 
beams, and mooring bitts at our wharfs. Additionally, the port 
needs to fortify against seismic activity. Expanding the 
eligibility criteria can help ensure these critical projects 
move forward.
    In addition to the needs of the port, there are three 
broader policy considerations I am asking for the committee's 
assistance to incorporate into WRDA.
    First, underserved communities often need Federal 
assistance to conduct flood and storm damage reduction 
feasibility studies. Congress, through WRDA, should waive the 
non-Federal cost share to lower the barrier for these 
communities to evaluate their flood risks. This would make it 
easier for these communities to develop both traditional and 
natural infrastructure solutions.
    Second, I would like authorization for the Los Angeles Army 
Corps to assess the impact of sea-level rise and stronger 
storms off the coast of southern California on our flood 
control infrastructure. Providing this authority is critical, 
since it can affect planning for future projects and identify 
new areas of need.
    And finally, there is a need for Congress to clarify 
through WRDA that natural infrastructure projects such as 
coastal wetlands should receive the same non-Federal cost share 
requirement as nonstructural projects, which is capped at 35 
percent. This would eliminate the risk of unfairly burdening 
non-Federal sponsors for green infrastructure alternatives, 
which can bring the cobenefits of increasing resilience from 
flooding and avoiding environmental harm.
    Thank you again for the opportunity to speak and to testify 
here today. I look forward to working with the subcommittee and 
your leadership to advance our priorities. Thank you.
    [Ms. Barragan's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Nanette Diaz Barragan, a Representative in 
                 Congress from the State of California
    Thank you, Chairwoman Napolitano, for providing this opportunity 
today. The work of the Army Corps of Engineers to protect against 
flooding, sea level rise, and improve water quality is critical for 
coastal states and coastal communities.
    There are five priorities that I want to bring to your attention 
for inclusion in the Water Resources Development Act (WRDA).
    My district's Port of Los Angeles is America's busiest port by 
container volume. It is an economic catalyst for the region and the 
country. The port would like to see reforms on how the Harbor 
Maintenance tax funds are allocated and used.
    I am grateful to Committee Chair DeFazio's leadership with his 
bill, H.R. 2440, the Full Utilization of the Harbor Maintenance Trust 
Fund Act. This allows for full use of the trust fund, which is a 
positive step for ports infrastructure investment. However, there are 
additional reforms needed to address maintenance at our ports.
    First, donor ports like the Los Angeles and Long Beach ports, need 
to be permanently recognized as donor ports, and receive a minimum of 
10% of the revenues they generate for the trust fund. In 2019, the Port 
of Los Angeles contributed $206.6 million in revenue to the fund yet 
received only $5.85 million back. That's less than 2 percent and a 
local loss of more than $200 million.
    Second, we need an expansion of the eligibility criteria for 
Highway Maintenance Trust fund expenditures to include in-water 
infrastructure. Currently, the Port of Los Angeles needs nearly $134 
million in concrete and corrosion repairs on decks, beams, and mooring 
bitts at our wharfs. Additionally, the port needs to fortify against 
seismic activity. Expanding the eligibility criteria can help ensure 
these critical projects move forward.
    In addition to the needs of the port, there are three broader 
policy considerations I am asking for the subcommittee's assistance to 
incorporate into WRDA:
    First, underserved communities often need federal assistance to 
conduct flood and storm damage reduction feasibility studies. Congress, 
through WRDA, should waive the non-federal cost share to lower the 
barrier for these communities to evaluate their flood risk. This would 
make it easier for these communities to develop both traditional and 
natural infrastructure solutions.
    Second, I would like authorization for the Los Angeles Army Corps 
to assess the impact of sea level rise and stronger storms off the 
coast of Southern California on our flood control infrastructure. 
Providing this authority is critical, since it can affect planning for 
future projects and identify new areas of need.
    And, finally, there is a need for Congress to clarify through WRDA 
that natural infrastructure projects, such as coastal wetlands, should 
receive the same non-federal cost share requirement as nonstructural 
projects, which is capped at 35%. This would eliminate the risk of 
unfairly burdening non-federal sponsors for green infrastructure 
alternatives, which can bring the cobenefits of increasing resilience 
from flooding and avoiding environmental harm.
    Thank you again for the opportunity to testify. I look forward to 
working with the subcommittee to advance our priorities.

    Mrs. Napolitano. Thank you very much for your testimony.
    And does any Member have questions?
    Seeing none, I would like to recognize our next witness, 
Ms. Kaptur from Ohio, for 5 minutes.

 TESTIMONY OF HON. MARCY KAPTUR, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Ms. Kaptur. Thank you, Chairwoman Napolitano and Ranking 
Member Westerman, for this great opportunity, and for your 
fantastic leadership. I appreciate the opportunity to be here 
today to discuss issues of great importance to the Great Lakes 
region, and there are three I will focus on: one dealing with 
invasive species; the Brandon Road Lock and Dam; and finally, 
open lake disposal.
    First of all, on the Brandon Road Lock and Dam, the 
invasive, voracious bighead carp has placed the Great Lakes 
fishery, valued at over $7 billion, in jeopardy. Lake Erie, the 
southernmost of the lakes, contains more fish than all the 
other lakes combined. The Asian bighead carp are on the 
doorstep of the Great Lakes. And unless we act quickly, Asian 
carp biomass could make up 30 percent of the total fish biomass 
in Lake Erie. Asian carp have been found just 9 miles from Lake 
Michigan. And the Chicago Area Waterway System is a crucial 
choke point. And the only way to win this fight is to 
strengthen defenses at Brandon Road Lock and Dam near Joliet, 
Illinois.
    The Great Lakes are united in support of this project. 
Governors from New York, Indiana, Illinois, Minnesota, 
Michigan, and Pennsylvania passed a resolution indicating that 
these States will support the State of Illinois in its non-
Federal sponsorship role of Brandon Road.
    The Water Resource Development Act of 2020 presents an 
opportunity to amend the authorization for the project, and to 
increase the Federal cost share for the program as a project of 
national priority. And I would urge the committee's 
consideration to authorize the project as outlined in the 
Chief's Report, and increase the Federal cost share to 90 
percent.
    The Great Lakes Task Force, a bipartisan and bicameral 
coalition of Members, completely supports this project.
    Number two, in terms of harmful algal bloom projects, the 
Army Corps of Engineers is a crucial partner in the national 
fight against increasingly large harmful algal blooms that 
plague our lakes. Corps scientists and engineers bring to bear 
a unique skill for helping communities confront the devastating 
impacts of HABs. With management of resources across our 
country and knowledge of waterflow design and engineering 
solutions, the Corps is a key partner in the HAB response and 
control, and it plays an essential role in raising awareness of 
HAB events to the public.
    And I would urge your committee to explicitly acknowledge 
the ongoing work of the Corps to test and model HAB controls, 
and encourage continued interagency cooperation under the 
Harmful Algal Bloom and Hypoxia Research and Control Act.
    I represent the mouth of the Maumee River, the largest 
river that flows into the Great Lakes, and it drains the 
largest watershed in any of the Great Lakes. The massive 
sediment and nutrient flow from the vast agricultural 
watershed, along with increased rainfall, has created an 
annually recurring increasing HAB that threatens the economic 
and ecological diversity of Lake Erie. The problem continues to 
worsen. And if you look at the Chesapeake Bay, or the 
Everglades, and other major water management challenges, we fit 
that category.
    And finally, in terms of open lake disposal, in 2015, Ohio 
banned open lake disposal of its dredged material, and this 
created a long-term challenge to maintaining Ohio's ports, 
particularly small ports. And we have the opportunity with WRDA 
2020 to come together to create a long-term solution to update 
the Federal budgeting standard for ports affected by this issue 
to prevent the closure of some of Ohio's smaller ports.
    The Federal standard seeks to identify the method of 
sediment disposal which is of least cost to the Federal 
Government. However, this does not take into consideration 
State laws that ban open lake disposal when considering funding 
decisions for Ohio's federally maintained harbors. Ohio has 
committed significant State resources to build increased 
combined disposal facilities and to address the backlog, and 
created a $172 million program called H2Ohio, aiming to assist 
with water quality issues, and has been used to build new 
capacity at ports to dispose of material on land, and help the 
ports manage their dredge material.
    In closing, the Federal Government has a 100-percent 
Federal share for managing these harbors, and this standard 
should not change. However, if Ohio wants to ban open lake 
disposal, the Corps should be allowed to budget above that 
standard with a State match.
    In conclusion, I look forward to working with the committee 
on these issues of great importance to the Great Lakes region, 
and I thank you so very much for the opportunity to testify.
    [Ms. Kaptur's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Marcy Kaptur, a Representative in Congress 
                         from the State of Ohio
    Thank you, Chairwoman Napolitano and Ranking Member Westerman. I 
appreciate the opportunity to be here today and discuss issues of great 
importance to the Great Lakes region and northwestern Ohio.
                       Brandon Road Lock and Dam
    The voracious bighead carp has placed the Great Lakes fishery in 
jeopardy. The carp are on the doorstep of the Great Lakes and unless we 
act quickly. Asian carp biomass could make up 30% of the total fish 
biomass in Lake Erie. Carp have been found just 9 miles from Lake 
Michigan. The Chicago Area Waterways system is a crucial choke point 
and the only way to win this fight is to strengthen defenses the 
Brandon Road Lock and Dam near Joliet, Illinois. The Great Lakes are 
united in support of this project. Governors from New York, Indiana, 
Illinois, Minnesota, Michigan and Pennsylvania passed a resolution 
indicating that these states will support the State of Illinois in its 
non-federal sponsorship role of Brandon Road. The Water Resources 
Development Act of 2020 (WRDA) presents an opportunity to amend the 
authorization for the project and to increase the federal cost share 
for the program. As a project of national priority, the committee 
should authorize the project as outlined in the Chief's Report and 
increase the federal cost share to 90 percent.
    The Great Lakes Task Force, a bipartisan and bicameral coalition of 
members, supports the project, and will likely weigh in with specific 
recommendations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Harmful Algal Bloom Projects
    The Army Corps of Engineers (Corps) is a crucial partner in the 
national fight against harmful algal blooms (HABs). Corps scientists 
and engineers bring to bear a unique skillset for helping communities 
confront the devastating impacts of HAB's. With management of resources 
across the country, and knowledge of water flow design and engineering 
solutions, the Corps is a key partner in the HAB response and control. 
The Corps plays an essential role in raising awareness of HAB events to 
the general public, and leads in innovation in HAB prevention, 
mitigation, and control. This committee should explicitly acknowledge 
the ongoing work of the Corps to test and model HAB controls and 
encourage continued interagency cooperation under the Harmful Algal 
Bloom and Hypoxia Research and Control Act (HABARCA).
    I represent the mouth of the Maumee River, which is the largest 
watershed of any of the Great Lakes. The massive sediment and nutrient 
flow has created an annually recurring HAB that threatens the economic 
and ecological diversity of Lake Erie. The problem continues to worsen, 
with 2019 marking the 5th largest HAB since 2002. In 2014, the Toledo 
drinking water crisis plagued half a million people with the inability 
to use their tap water, which required the Ohio National Guard to 
ensure residents had potable water.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           Open Lake Disposal
    In 2015, Ohio banned open lake disposal of its dredged material. 
This created a long-term challenge to maintaining Ohio's ports, 
particularly small ports. We have the opportunity with WRDA 2020 to 
come together to create a long-term solution. I believe we must update 
the federal budgeting standard for ports affected by this issue to 
prevent the closure of some of Ohio's smaller ports.
    The federal standard seeks to find identify the method of sediment 
disposal which is of the least cost to the federal government, but does 
not take into consideration of state law banning open lake disposal 
when considering funding decisions for Ohio's federally-maintained 
harbors.
    Ohio has committed significant state resources to build increased 
combined disposal facilities and to address the backlog. Ohio created a 
$172 million program called H2Ohio, which is meant to assist with water 
quality issues and has been used to build new capacity at ports to 
dispose of material on land and to help the ports manage their dredged 
material.
    Rightfully so, the federal government has a 100 percent federal 
share for managing these harbors. This standard should not change. 
However, if Ohio wants to ban open lake disposal, the Corps should be 
allowed to budget above that standard with a state match.
    In conclusion, I look forward to working with the Committee on 
these issues of great importance to the Great Lakes region and 
northwestern Ohio.

    Mrs. Napolitano. Thank you for your testimony, Ms. Kaptur.
    Does any Member have any question?
    None. I thank you very much, and I would like to recognize 
the next witness, a gentleman from New York, Mr. Morelle, for 5 
minutes.

   TESTIMONY OF HON. JOSEPH D. MORELLE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Morelle. Thank you, Madam Chair, to you, the ranking 
member, and members of the committee for holding this hearing.
    When it comes to the integrity of our Nation's water 
infrastructure, Americans living along the shores of our 
Nation's five Great Lakes know all too well the importance of 
quality investments. For years, we have experienced an uptick 
in severe and costly flooding, which hammers communities like 
mine on the southern shore of Lake Ontario. We can no longer 
afford to wait and see if yet again our shores will flood. It 
is time to take the necessary steps to invest in preparation, 
and protect our communities.
    I am grateful to this committee for taking up the mantle to 
authorize the Water Resources Development Act. I also 
appreciate this opportunity to share just how important high-
quality and sustainable water infrastructure is to my district 
of Rochester, New York, as well as all communities living along 
the shores of the Great Lakes or within the Great Lakes Basin.
    Often referred to as our Nation's fourth sea coast, the 
power and expanse of the Great Lakes is no mystery to those 
living along her shores. Spanning a total surface area of 
nearly 95,000 square miles, and accounting for more than 20 
percent of the world's surface freshwater, the Great Lakes have 
inspired explorers, environmentalists, and artists from near 
and far for generations.
    But with the sense of awe comes a level of respect for the 
raw power of these natural wonders. As residents of the 
southern shore of Lake Ontario, my constituents know that it 
can be challenging to live in tandem with the Great Lakes, 
especially as increased climate instability leads to spikes in 
severe weather patterns, rising sea levels, and destroyed 
ecosystems. As natural disasters increase in frequency, our 
communities pay the price through destroyed infrastructure and 
economic instability.
    With 100 miles of shoreline that fronts directly on Lake 
Ontario or nearby bays, rivers, and streams, my district is 
regularly impacted by lake fluctuations, and we are 
experiencing more severe floodwaters that erode beaches, 
devastate family homes, and cripple lakeside businesses.
    In 2017, a major disaster declaration was declared in eight 
New York counties, due to severe flooding along the shore of 
Lake Ontario. This extensive flooding cost the State of New 
York $100 million in recovery funding. Again in 2019 we saw 
record-high water levels leading to a state of emergency 
declaration by New York Governor Andrew Cuomo.
    According to the U.S. Army Corps of Engineers, the water 
level on Lake Ontario is currently 246.42 feet, nearly 2 feet 
above the average level for this time of year. Such extremes 
foreshadow yet another year of unprecedented water levels in 
the spring, and my community will again face severe, if not 
record, flooding.
    While my colleagues along the southern shore and I continue 
to push for maximum outflows of water through the Moses-
Saunders Dam in order to lower the lake levels ahead of spring 
flooding, we are troubled by the International Joint 
Commission's Plan 2014, and recently heard that outflows will 
decrease come April 1. We will not cease our efforts to lower 
lake levels, but we cannot afford to wait for the IJC to 
prioritize the livelihood of our constituents. And so we turn 
to preparation and response.
    The U.S. Army Corps of Engineers is a key asset of our 
region when it comes to preparing and responding to flooding 
incidents, and it is critical that we not only reauthorize the 
U.S. Army Corps, but ensure the continuation of projects 
related to flood protection and control, and the ecosystem 
restoration.
    Additionally, we must authorize new Army Corps studies and 
projects that will help communities enact plans to become 
sustainable and resilient against future disasters. As you 
assess new Army Corps studies, I ask that the committee 
consider the Great Lakes Coastal Resiliency Study, a proposal 
supported by 29 Members of the House whose districts border the 
Great Lakes. The proposal, outlined in H.R. 4032, would allow 
the Army Corps of Engineers to partner with the eight Great 
Lakes States on assessing threats and resiliency measures for 
coastal communities. The study will help to ensure we are 
utilizing resources efficiently and effectively to better 
protect our communities from future storms. As so many 
communities throughout the country face devastation from 
natural disasters, which often hit the same region year after 
year with worsening impacts, we can no longer afford to react 
in the aftermath of destruction. We must take preventative 
measures and strong investments through the WRDA 
reauthorization. And that is a great place to start.
    So I want to thank you, Chairwoman Napolitano, Chairman 
DeFazio, and the ranking member for starting this process, and 
for the opportunity to come to speak here today. I look forward 
to following the committee's work as you begin to reauthorize 
WRDA, and hope we can find common ground to help communities 
along the Great Lakes access high-quality and sustainable water 
infrastructure. Thank you for your time.
    [Mr. Morelle's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Joseph D. Morelle, a Representative in 
                  Congress from the State of New York
    When it comes to the integrity of our nation's water 
infrastructure, Americans living along the shores of our nation's five 
Great Lakes know all too well the importance of quality investments.
    For years, we have experienced an uptick in severe and costly 
flooding, which hammers communities like mine on the Southern shore of 
Lake Ontario. We can no longer afford to wait and see if, yet again, 
our shores will flood. It is time to take the necessary steps to invest 
in preparation and protect our communities. I am grateful to this 
Committee for taking up the mantle to reauthorize the Water Resources 
and Development Act (WRDA). I also appreciate this opportunity to share 
just how important high quality and sustainable water infrastructure is 
to my district of Rochester, NY, as well as all communities living 
along the shores of the Great Lakes, or within the Great Lakes Basin.
    Often referred to as our nation's fourth seacoast, the power and 
expanse of the Great Lakes is no mystery to those living along her 
shores. Spanning a total surface area of nearly 95,000 square miles, 
and accounting for more than 20 percent of the world's surface 
freshwater, the Great Lakes have inspired explorers, environmentalists, 
and artists from near and far for generations. But with the sense of 
awe, comes a level of respect for the raw power of these natural 
wonders.
    As residents of the Southern shore of Lake Ontario, my constituents 
know that it can be challenging to live in tandem with the Great Lakes, 
especially as increased climate instability leads to spikes in severe 
weather patterns, rising sea levels, and destroyed ecosystems. As 
natural disasters increase in frequency, our communities pay the price 
through destroyed infrastructure and economic instability.
    With 100 miles of shoreline that fronts directly on Lake Ontario or 
nearby bays, rivers, and streams, my district is regularly impacted by 
lake fluctuations and we are experiencing more severe flood waters that 
erode beaches, devastate family homes, and cripple lakeside businesses.
    In 2017, a major disaster declaration was declared in eight New 
York counties due to severe flooding along the shore of Lake Ontario. 
The extensive flooding cost the state of New York $100 million in 
recovery funding.
    Again in 2019, we saw record high water levels leading to a State 
of Emergency declaration by Governor Cuomo.
    According to the US Army Corps of Engineers, the water level on 
Lake Ontario is currently 246.42 ft, nearly two feet above the average 
level.
    Such extremes foreshadow yet another year of unprecedented water 
levels in the spring, and my community will again face severe flooding.
    While my colleagues along the southern shore and I continue to push 
for maximum outflows of water through the Moses-Saunders Dam in order 
to lower the lake levels ahead of spring flooding, we are at odds with 
the International Joint Commission's (IJC) Plan 2014 and recently heard 
that outflows will decrease come April 1.
    We will not cease our efforts to lower lake levels, but we cannot 
afford to wait for the IJC to prioritize the livelihood of our 
constituents. And so, we turn to preparation and response.
    The US Army Corps of Engineers is a key asset to our region when it 
comes to preparing and responding to flooding incidents, and it is 
critical that we not only reauthorize the Army Corps, but ensure the 
continuation of projects related to flood protection and control, and 
ecosystem restoration. Additionally, we must authorize new Army Corp 
studies and projects that will help communities enact plans to become 
sustainable and resilient against future disasters.
    As you assess new Army Corp studies, I ask that the committee 
consider the Great Lakes Coastal Resiliency Study, a proposal supported 
by 29 Members whose districts border the Great Lakes. The proposal--
outlined in HR 4032--would allow the Army Corps of Engineers to partner 
with the eight Great Lakes states on assessing threats and resiliency 
measures for coastal communities. This study would help ensure we are 
utilizing resources efficiently and effectively to better protect our 
communities from future storms.
    As so many communities throughout the country face devastation from 
natural disasters--which often hit the same region year, after year 
with worsening impacts--we can no longer afford to react in the 
aftermath of destruction. We must take preventative measures, and 
strong investments through the WRDA reauthorization are a great place 
to start.
    Thank you, Chairman DeFazio, for starting this process and for the 
opportunity to come speak here today. I look forward to following this 
committees work as you begin to reauthorize WRDA and hope we can find 
common ground to help communities along the Great Lakes access high 
quality and sustainable water infrastructure.
    Thank you.

    Mrs. Napolitano. Sir, thank you for your testimony.
    And does any Member have a question?
    No. Thank you very much.
    I would like to recognize our next witness, the gentleman 
from Washington, Mr. Kilmer. You are recognized for 5 minutes.

 TESTIMONY OF HON. DEREK KILMER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Kilmer. Thank you, Madam Chair and Ranking Member 
Westerman, for holding this hearing to solicit input from 
Members as you work to draft the next WRDA.
    There are countless priorities I would like to cover, but 
since I only have 5 minutes I would like to focus on three that 
I think are pretty important.
    First, I want to thank you for making coastal and climate 
resilience one of your key infrastructure priorities. As you 
know, I represent Washington State's Sixth Congressional 
District, which includes the furthest northwestern part of the 
contiguous United States. In my neck of the woods, climate 
change is no longer a threat, it is a reality. Folks are 
already experiencing the consequences of climate change, from 
rising sea levels to more frequent and severe storms which are 
costing our communities and costing livelihoods.
    In my district there are four coastal Native American 
Tribes that are actively working to move their communities to 
higher ground, because the places they have called home since 
time immemorial are no longer habitable. There are cities like 
Ocean Shores and Hoquiam that are trying to invest in resilient 
infrastructure to end the annual cycle of road washouts and 
seawall failures. But these communities need technical 
assistance and resources to adapt to the changing climate. And 
unfortunately, there are very few Federal programs designed to 
assist with that work. And what little Federal support is 
available often can't be accessed until a disaster has already 
happened.
    As we continue to see more communities grapple with the 
impacts of climate change, the Federal Government needs to 
invest in dedicated resources and technical assistance to 
support these efforts. The Army Corps of Engineers has the 
expertise to assist these communities, but they need the 
funding, and they need the authority to be able to play an 
active role in resilience planning.
    As you begin drafting this WRDA, I strongly urge you to 
include new funding and authorities that will allow the Army 
Corps to assist communities that are working to proactively 
invest in resilience. The Corps is uniquely positioned to 
provide the resources that underresourced communities 
desperately need to begin addressing the climate impacts they 
are experiencing already today, and to plan for the future. As 
a member of the Energy and Water Development Subcommittee of 
the Appropriations Committee, I look forward to working with 
your committee to develop a coordinated strategy that will 
provide the Corps with both the authorities and funding 
necessary to fulfill this critical role.
    The second issue: I would strongly encourage the committee 
to expand the Army Corps' existing section 214 authority to 
allow non-Federal public entities, including public ports, to 
contribute funds to support the review and approval of new 
mitigation banks.
    In the Pacific Northwest, mitigation banks play a key role 
in ensuring that we can continue to invest in working 
waterfronts, while also restoring the critical habitat that our 
iconic species, including salmon and orca, rely on. 
Unfortunately, the Corps' regulatory branch is significantly 
underresourced, which has led to years-long delays in the 
approval of new mitigation banks in our region.
    As a member of the Appropriations Committee, I fought to 
increase funding for regulatory staff, but there is still a 
significant gap to fill. This small expansion of the existing 
section 214 authority would allow the Corps to expedite the 
review of new mitigation bank applications without sacrificing 
resources from other key regulatory programs. Given the 
significant public benefit provided by these mitigation banks, 
it would be a true win-win.
    Finally, I would like to end by expressing my strong 
support for the Harbor Maintenance Tax reform that ensures full 
use of these funds, and modernizes the allocation of funds to 
fairly address the needs of all ports. I want to thank Chairman 
DeFazio for his tireless leadership on this critical issue, 
while working to balance the interests of all ports.
    Madam Chair, Ranking Member Westerman, we have a fantastic 
opportunity to make critical changes in WRDA to empower the 
Corps and make great strides to build resilient communities, 
restore and protect critical habitat, and enable our working 
shorelines to keep up with the ever-increasing threat that 
climate change is posing to people of the State of Washington. 
So thank you very much.
    [Mr. Kilmer's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Derek Kilmer, a Representative in Congress 
                      from the State of Washington
    Thank you, Chairman DeFazio.
    I want to start by thanking you and Ranking Member Graves for 
holding this hearing to solicit input from Members as you work to draft 
the next Water Resources Development Act.
    I also want to thank you for making coastal and climate resilience 
one of your key infrastructure priorities.
    As you know, I represent Washington's sixth congressional district, 
which includes the furthest northwestern part of the contiguous United 
States.
    In my neck of the woods, climate change is no longer a threat, it's 
reality.
    Folks are already experiencing the consequences of climate change--
from rising sea levels, to more frequent and severe storms--which are 
costing our communities their livelihoods.
    In my district, there are four coastal Native American tribes who 
are actively working to move their communities to higher ground because 
the places they've called home since time immemorial are no longer 
habitable.
    And there are cities like Ocean Shores and Hoquiam that are trying 
to invest in resilient infrastructure to end the annual cycle of road 
washouts and sea wall failures.
    But these communities need technical assistance and resources to 
adapt to their changing climate--and unfortunately, there are few 
federal programs designed to assist with this work.
    And what little federal support is available often can't be 
accessed until a disaster has already happened.
    As we continue to see more communities grapple with the impacts of 
climate change, the federal government needs to invest in dedicated 
resources and technical assistance to support these efforts.
    The Army Corps of Engineers has the expertise to assist these 
communities--but they need the funding and authority to be able to play 
an active role in resilience planning.
    As you begin drafting this WRDA, I strongly urge you to include new 
funding and authorities that will allow the Army Corps to assist 
communities that are working to proactively invest in resilience.
    The Corps is uniquely positioned to provide the resources that 
under-resourced communities desperately need to begin addressing the 
climate impacts they're experiencing today and to plan for the future.
    As a Member of the Energy and Water Appropriations Subcommittee--I 
look forward to working with the Committee to develop a coordinated 
strategy that will provide the Corps with both the authorities and 
funding necessary to fulfill this critical role.
    In addition to bolstering the Corps' ability to support climate 
adaptation, I would also strongly encourage the Committee to expand the 
Army Corps' existing Section 214 authority to allow non-Federal public 
entities--including public ports--to contribute funds to support the 
review and approval of new mitigation banks.
    In the Pacific Northwest, mitigation banks play a key role in 
ensuring that we can continue to invest in our working waterfronts 
while also restoring the critical habitat that our iconic species--
including salmon and orca--rely on.
    Unfortunately, the Corps' Regulatory Branch is significantly under-
resourced, which has led to years-long delays in the approval of new 
mitigation banks in our region.
    As a member of the Appropriations Committee, I've fought to 
increase funding for regulatory staff--but there's still a significant 
gap to fill.
    This small expansion of the existing Sec. 214 authority would allow 
the Corps to expedite the review of new mitigation bank applications, 
without sacrificing resources from other key regulatory programs.
    Given the significant public benefit provided by these mitigation 
banks, it would be a true win-win.
    Finally, I'd like to end by expressing my strong support for Harbor 
Maintenance Tax reform that ensures full use of these funds and 
modernizes the allocation of funds to fairly address the needs of all 
ports.
    I want to thank Chairman DeFazio for his tireless leadership on 
this critical issue while working to balance the interests of all 
ports.
    Mr. Chairman, Ranking Member Graves--we have a fantastic 
opportunity to make critical changes in WRDA to empower the Corps and 
make great strides to build resilient communities, restore and protect 
critical habitat, and enable our working shorelines to keep up with the 
ever-increasing threat that climate change is posing to Washingtonians.
    Thank you.

    Mrs. Napolitano. Well, thank you for your testimony, sir.
    Does any Member have a question?
    Seeing none, thank you very much.
    I would now like to recognize our next witness, the 
gentleman from Oregon, Mr. Schrader, for 5 minutes.

 TESTIMONY OF HON. KURT SCHRADER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Schrader. Thank you very much, Madam Chair, Ranking 
Member Westerman, and the rest of the Transportation and 
Infrastructure Committee members for hosting this opportunity 
for Members.
    The success that WRDA has had during these divided times is 
a testament to the committee's willingness to work across the 
aisle. And I hope that work will be just as successful for WRDA 
2020.
    My number-one priority is the reconstruction of the south 
jetty into Tillamook Bay, the lifeline for the north central 
coast communities.
    The north and south jetties started construction in 1913, 
and have grown over the decades to fight against the crushing 
impact of the Pacific Ocean. In 2010, the Army Corps 
rehabilitated the north jetty to its current length of 5,213 
feet. During this work they made key repairs and added to the 
structure so that it could actually survive the onslaught of 
these North Pacific waves.
    However, the south jetty was not included in that 
rehabilitation, and over the past 10 years has eroded 
considerably. It now poses an extreme danger to the community, 
our fishing fleet, and recreational boaters, as they try to 
enter and exit the bay. The Coast Guard and Army Corps Portland 
District both recognize the danger. I hear it every time I meet 
with them.
    It only costs us more money in the long run if we don't fix 
it now. The failure of the south jetty will severely impact the 
lifespan of the north jetty, which we just finished. And if the 
jetty system isn't working properly, then we will need more 
dredging, due to increased sediment in the bay. In the interest 
of safety for my constituents, and for saving Uncle Sam a 
little money, I ask the committee to work with me on ways to 
get this project done before anyone else gets hurt.
    Another important project in the district, one that the 
committee staff has been very helpful on, is the disposition of 
the Willamette Falls locks at the end of the fabled Oregon 
Trail. These locks have been operating since the early 1870s, 
but were closed back in 2011, due to the lack of proper 
maintenance and investment. They are still owned by the Corps, 
and WRDA 2020 will be the vehicle to transfer that property to 
a new public or public-private partnership to run the locks.
    A wide range of stakeholders in Oregon have been working to 
establish a way to reopen them. The Willamette Falls Locks 
Commission is currently recommending a State appropriation of 
$14 million in lottery revenue bonds in the 2020 State 
legislative session to repair and reopen the locks.
    The Willamette Falls Locks Commission also has legislation 
that proposes establishing a public corporation, the Willamette 
Falls Locks Authority, as the new owner-operator to manage the 
operations and maintenance of the locks, following their 
transfer from the Corps. Several cities, along with Metro, the 
Confederated Tribes of Grand Ronde, Yamhill and Marion 
Counties, and other entities are committing funding for phase 
1, which is expected to begin in 2020, and will remain until 
the locks are open, probably--hopefully, 2024. It is estimated 
to cost about $250,000 in annual expenses for phase 1. This is 
a great partnership leveraging local, State, and Federal tax 
dollars to maximum advantage.
    I want to thank my folks back home who have led the way on 
this project, the Army Corps Portland District staff, and the 
T&I Committee staff for all the great work.
    My last request for the committee is a project that has 
been developing for years, but is rapidly escalating into a 
crisis. The city of Newport is currently seeking $70 to $80 
million to replace Big Creek Dam complex, which holds our 
municipal water supply. The current dam was originally built 
1958, and over time it has deteriorated to the point where they 
are vulnerable to complete failure in the event of an 
earthquake registering 3.5 or higher, something that happens on 
the west coast. Should these dams fail, the flows would breach 
Highway 101, the only coastal road in the community, and 
destroy homes downstream.
    The city is currently investigating multiple funding 
sources, including State funding and FEMA High Hazard Potential 
Dams Grant Program money. But the full cost is too great to be 
borne solely by a local bond with this small town of less than 
11,000 people. Your staff has been very helpful in finding 
Federal solutions to this problem. I hope you will continue to 
work with us during this process.
    Thank you again for the opportunity to testify about my 
priorities for Oregon's Fifth Congressional District, and thank 
you again for--your committee, for working with my office on 
these issues. I look forward to seeing the committee's final 
product. Thank you.
    [Mr. Schrader's prepared statement follows:]
                                 <F-dash>
Prepared Statement of Hon. Kurt Schrader, a Representative in Congress 
                        from the State of Oregon
    Thank you, Chairman DeFazio, Ranking Member Graves, and the rest of 
the Transportation and Infrastructure committee members for hosting 
this opportunity. The success that WRDA has had during these divided 
times is a testament to the committee's willingness to work across the 
aisle and I hope that work will be just as successful for WRDA 2020.
    My number one priority here is to advocate for the reconstruction 
of the South Jetty into Tillamook Bay. The north and south jetties 
started construction in 1913 and have grown over the decades to fight 
against the crushing impact of the Pacific Ocean. In 2010, the Army 
Corps rehabilitated the North Jetty to its current length of 5,213 
feet. During this work they made key repairs and added to the structure 
so that it could survive the onslaught of the waves.
    However, the South Jetty was not included in that rehabilitation 
and over the past ten years has eroded considerably. Its current state 
poses an extreme danger. This failure has severely impacted my 
communities and puts folks in danger as they try to enter and exit the 
bay. The Coast Guard and the Army Corps Portland district both 
recognize this fact. I hear it every time I meet with them about how 
the jetty is impacting their work.
    And it's just going to cost us more money in the long run if we 
don't fix it now. Because the failure of the South Jetty will severely 
impact the lifespan of the North Jetty. And if the jetty system isn't 
working properly, then we'll need more dredging due to increased 
sediment in the bay. In the interests of safety for my constituents and 
for saving Uncle Sam money, I ask that the committee works with me on 
ways to get this project done before anyone else is hurt.
    Another important project in my district and one that the 
committee's staff has been helpful on is the disposition of the 
Willamette Falls Locks. These locks have been operating since the early 
1870s but were closed back in 2011 due to lack of proper maintenance 
and investment. However, they are still owned by the Corps and WRDA 
2020 will be the vehicle to transfer that property.
    Currently, a wide range of stake holders in Oregon are working to 
establish a way to reopen the locks. The Willamette Falls Locks 
Commission is recommending a state appropriation of $14.043 million of 
lottery revenue bonds in the 2020 legislative session to repair and 
reopen the locks. The WLFC also has legislation that proposes 
establishing a public corporation, the Willamette Falls Locks 
Authority, as the new owner/operator to manage the operations and 
maintenance of the locks following their transfer from the Corps. 
Several cities along with Metro, the Confederated Tribes of Grand 
Ronde, Yamhill and Marion Counties, and other entities are committing 
funding for phase one, which is expected to begin in 2020 and lasts 
until the Locks are open, expected in 2024. It is estimated to cost 
around $350,000 in annual expenses for phase one.
    I want to thank my folks back home who have led the way on this 
project, Army Corps Portland district staff, and T&I Committee staff 
for all their work to make this a reality. I am hopeful that the 
federal government can do its part to keep this moving forward.
    My last request for the committee is a project that has been 
developing over the past few months but could rapidly worsen. The City 
of Newport is currently seeking $70 to $80 million dollars to replace 
Big Creek Dam, which holds their municipal water supply. The current 
dams were originally built in 1958, and over time have deteriorated to 
the point where they are vulnerable to complete failure in the event of 
an earthquake registering at 3.5 or higher. Should these dams fail, the 
flows would breach Highway 101 and roughly 20 houses would be destroyed 
without warning. The region is also prone to slides every year that 
could also wipe out the dam. The city is currently investigating 
multiple money sources, including state funding, and Federal Emergency 
Management Agency (FEMA) High Hazard Potential Dam Grant Program, but 
the full cost is too great to be borne solely by a local bond. Your 
staff have been very helpful in finding federal solutions to this 
problem and I hope that will continue during this process.
    Thank you again for this opportunity to testify about my priorities 
for Oregon's fifth district. And thank you again to your committee 
staff for working with my office on these issues. I look forward to 
seeing the committee's final product.

    Mrs. Napolitano. Thank you for----
    Mr. Schrader. I yield back.
    Mrs. Napolitano [continuing]. Your testimony, sir.
    Does any Member have a question?
    No?
    Seeing none, thank you very much.
    I would like to recognize now our next witness, a 
gentlewoman from California, Ms. Matsui, for 5 minutes.

TESTIMONY OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you very much, Madam Chair and Ranking 
Member Westerman, for the opportunity to come before the 
committee and lay out my key priorities for the Water Resources 
Development Act of 2020.
    First I want to be clear. Our top priority should be in 
proposing policies that consider the impacts of climate change 
in our country. We are facing the consequences of climate 
change now, and we absolutely must incorporate climate 
resiliency strategies into all our policies.
    As a Representative of Sacramento, California, WRDA is 
uniquely meaningful to me and to my constituents who live in 
the second most flood-prone city in our country, after New 
Orleans. We need to be thoughtfully prioritizing projects that 
consider the long-term consequences of climate change. The 
catastrophic flooding we have seen across the country in just 
the last year is telling, and I fear the severe flooding will 
no longer be 100- or even 500-year events, but a new norm for 
my constituents.
    One area where I think we can truly make progress on this 
is through further Federal support to improve the safety and 
reliability of the Yolo Bypass and the surrounding region. 
While the Yolo Bypass was originally constructed as a single-
purpose Federal flood facility, the State and local 
stakeholders in California have been working for years to begin 
looking at it in a fresh, new way.
    The current rules for how the Corps of Engineers calculates 
the benefits of Federal flood control projects makes it 
difficult to receive Federal recognition and support for 
initiatives that could raise the level of flood protection. 
WRDA 2020 represents an opportunity to fix this by directing 
the Corps to study the region and develop a plan for 
coordinating with non-Federal partners such as the Central 
Valley Flood Control Board; California Department of Water 
Resources; and the Sacramento Area Flood Control Agency, SAFCA.
    The committee can allow the Corps to remain consistent with 
its plan to revolutionize the Civil Works activities, while 
also giving this forward-looking project much-deserved 
recognition and resources. This change will help advance 
proposals for needed projects in the region that would protect 
California residents and improve safety and sustainability.
    Additionally, my proposed language will establish a 
framework to provide for the smooth coordination of permitting 
and reviews, and endorses a regional partnership, the Yolo 
Bypass/Cache Slough Partnership, to bring together relevant 
stakeholders.
    We have seen it across the country: severe natural 
disasters are becoming more and more common. In the face of a 
changing climate, we must begin taking a new look at Federal 
flood control projects, starting with WRDA 2020. For years, 
SAFCA has put forward flood control efforts that have become a 
model for the Nation in providing the highest level of flood 
protection, while remaining good environmental stewards. The 
Yolo initiative is a continuation of this, and I urge the 
committee to lend Federal support.
    I also request an extension of the authority of section 
1020 of WRRDA 2014, which allows for non-Federal contributions 
exceeding cost-sharing requirements to be transferred to other 
projects. Certainly this would be critical in flood control 
planning across the country.
    Lastly, I also support the extension and improvement of the 
1043 authority that allows for non-Federal sponsors to 
implement authorized Federal projects. In the city of West 
Sacramento, the West Sacramento Flood Control Agency, or West 
SAFCA, is working with the Corps on the West Sacramento 
project, another flood control project in our region. In order 
to proceed with construction as soon as possible, we would 
consider implementing the balance of the project under 1043 if 
the program's authority were extended in WRDA 2020, and if 
improvements were made.
    For 15 years I worked tirelessly with dedicated 
stakeholders in my district to make the Sacramento region as 
safe as possible for all residents. During these 15 years, we 
have seen with our own eyes how climate change is reshaping our 
infrastructure needs: the wildfires in my State, severe 
droughts and flooding. All of this requires bold, fresh ideas 
that encourage our Federal agencies to look at the big picture. 
WRDA 2020 represents a tremendous opportunity to move forward 
and achieve even greater strides through responsible and 
resilient flood control projects, and forward-looking ideas for 
America's water infrastructure that will account for the 
climate crisis we are all faced with.
    Thank you very much for your time and consideration. I look 
forward to working with you all. Thank you.
    [Ms. Matsui's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Doris O. Matsui, a Representative in 
                 Congress from the State of California
    Thank you, Mr. Chairman, for the opportunity to come before the 
Committee and lay out my key priorities for the Water Resources 
Development Act (WRDA) of 2020 . . . comprehensive legislation that 
addresses navigation and flood risk management issues across the 
nation.
    First and foremost--I want to be clear: our top priority should be 
in proposing policies that consider the impacts of climate change in 
our country. We are facing the consequences of climate change now and 
we absolutely must incorporate climate resiliency strategies into our 
policies on infrastructure, water resources, energy, the environment, 
and defense.
    As the Representative of Sacramento, California, WRDA is uniquely 
meaningful to me and to my constituents, who live in the second most 
flood-prone city in the country, after New Orleans.
    We need to thoughtfully prioritize projects that consider the long-
term consequences of climate change . . . an existential threat that 
will impact this country for years to come.
    The catastrophic flooding we have seen across the country in just 
the last year is telling and I fear that severe flooding will no longer 
be 100 or even 500-year events, but a new norm for my constituents.
    One area where I think we can truly make progress on this is 
through further federal support to improve the safety and reliability 
of the Yolo Bypass and the surrounding region.
    While the Yolo Bypass was originally constructed as a single-
purpose federal flood facility . . . the State and local stakeholders 
in California have been working for years to begin looking at it in a 
fresh, new way . . . by comprehensively addressing factors such as 
flood risk management, water supply, agricultural enhancement, and 
habitat protection.
    Unfortunately, because of the way in which the benefits of federal 
flood control projects are calculated, it has been difficult to receive 
federal recognition and support for initiatives that could raise the 
level of flood protection higher than is possible under the current 
Corps of Engineers rules.
    WRDA 2020 represents an opportunity to fix this. By including 
provisions that will direct the Corps to study the region closely and 
develop a plan for coordinating with nonfederal partners, such as the 
Central Valley Flood Control Board, the California Department of Water 
Resources and the Sacramento Area Flood Control Agency (SAFCA) . . . 
the Committee can allow the Corps to remain consistent with its intent 
to revolutionize its Civil Works activities while also giving this 
forward-looking project much-deserved recognition and resources.
    This change will help advance proposals for needed projects in the 
region that will protect California's residents and dramatically 
improve safety and sustainability.
    SAFCA has been particularly effective in looking at climate change 
and how it is impacting weather patterns. We should be taking a similar 
approach.
    Additionally, the plan developed in my proposed language will 
establish a framework that both the Corps and relevant nonfederal 
stakeholders can follow to provide for smooth coordination of 
permitting and reviews.
    I also urge the Committee to include language in its WRDA bill that 
will endorse a regional partnership--the Yolo Bypass-Cache Slough 
Partnership--that brings together relevant stakeholders to ensure the 
Yolo Bypass Initiative represents the priorities, interests, and needs 
throughout the region.
    We've seen it across the country: severe natural disasters, 
including devastating flooding, are becoming more and more common. In 
the face of a changing climate, we must begin taking a new look at 
federal flood control projects and we should start with WRDA 2020.
    For years, SAFCA has put forward flood control efforts that have 
become a model for the nation in providing the highest level of flood 
protection while remaining good environmental stewards. This latest 
effort is a continuation of their superb work and I urge the Committee 
to recognize this by providing federal support for the Yolo Bypass 
Initiative.
    I also request that the Committee extend the authority of Section 
1020 of WRDA 2014, which allows for nonfederal contributions exceeding 
cost-sharing requirements to be transferred to other projects.
    The Committee has been supportive of this authority in the past and 
I appreciate T&I working with me in 2016 to further clarify that 
credits could be transferred to a project prior to completion.
    Certainty in the ability to transfer excess credits to other 
projects will be critical in the ability for flood control agencies 
across the country to plan for the future.
    Lastly, I also support the extension and improvement of the so-
called ``1043'' authority that allows for nonfederal sponsors to take 
over implementation of authorized federal projects under certain 
circumstances. For instance, in West Sacramento . . . a city within my 
district that lies just to the west of the Sacramento River . . . the 
West Sacramento Flood Control Agency--or ``WSAFCA''--is working closely 
with the Corps to implement the West Sacramento Project--yet another 
part of the systemwide approach to comprehensive flood control in our 
region.
    WSAFCA has taken great initiative to achieve substantial progress 
in moving forward with the design work and we aim to proceed with 
construction as soon as possible.
    While we are currently proceeding with the project under the Corps' 
traditional civil works process, we would consider implementing the 
balance of the project under 1043 if the program's authority were 
extended in WRDA 2020 and if improvements were made to how the Corps 
implements the program.
    Thank you for your time and consideration today. For 15 years, I 
have worked tirelessly with dedicated stakeholders in my district to 
make the Sacramento region as safe as possible for all residents.
    During these 15 years, we've seen with our own eyes how climate 
change is reshaping the way we plan our infrastructure needs. The 
wildfires in my state, severe droughts and flooding . . . all of this 
requires bold, fresh ideas that encourage our federal agencies to look 
at the big picture.
    WRDA 2020 represents a tremendous opportunity to move forward and 
achieve even greater strides to protecting my constituents, both 
through responsible and resilient flood control projects and forward-
looking ideas for America's water infrastructure that will account for 
the climate crisis we are all faced with. Thank you.

    Mrs. Napolitano. Thank you very much for your testimony.
    And does any Member have a question?
    Seeing none, I would like to recognize now the next 
witness, the gentlewoman from Michigan, Ms. Slotkin, for 5 
minutes.

TESTIMONY OF HON. ELISSA SLOTKIN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Ms. Slotkin. Thank you, Representatives Napolitano and 
Westerman, for the opportunity to share my priorities for the 
Water Resources Development Act authorization.
    In Michigan we are the Great Lakes State, and ensuring that 
our waters are clean to drink, to swim in, to fish, is a major 
priority. We consider ourselves the stewards of the Great 
Lakes. It is about our way of life, and the safety and security 
of our families. This is why we are talking about the health 
and quality of our waterways today.
    And before I do, I just have to put in a plug on PFAS. I 
really urge the committee to look at this issue. Michigan is 
looking the hardest, so we have the highest number of sites. We 
were able to pass six provisions into law in--through the 
Pentagon's budget for the first time. This is the first time we 
are doing anything more than study PFAS. We were thrilled to do 
it, to hold the Pentagon accountable. But I really urge the 
committee to take up PFAS in a big way, because if you haven't 
heard of it yet, it is coming to a theater near you.
    In Michigan, protecting our waterways and the Great Lakes 
is one of the most bipartisan issues, because it is about our 
economy and who we are as a State. And we may not think about 
it all that much, but in order to keep the Great Lakes great, 
we actually need to invest and protect them. In line with that 
goal there are two key priorities I want to talk about today on 
the Water Resources Development Act reauthorization.
    First, the Asian carp. We hate the Asian carp. It is a 
nasty fish that, if it reaches the Great Lakes, will take over. 
It will dominate. So we must authorize at full Federal cost-
share levels the appropriate funds to begin the preconstruction 
engineering and design at the Brandon Road Lock and Dam 
project. As many of you know, the Asian carp is right up 
against the lake, Lake Michigan. There are just a few things 
keeping it from entering our Great Lakes. When it is in one, it 
is in all of them. It will absolutely take over our 
recreational economy, our way of life for our anglers, our 
lakeside communities.
    Brandon Road would function as a critical choke point. This 
past summer, Democrats and Republicans from Michigan flew 
together to Joliet, Illinois, to actually see the Brandon Road 
Dam. We saw it from the air, we went on the ground. The Army 
Corps gave us a full tour of what they are trying to do there. 
And I urge everything you can do to support the preconstruction 
and dollars going towards Brandon Roads.
    Secondly, our Soo locks. I support the existing 
authorization and future appropriation of full funding to 
modernize the Soo locks, which is the cornerstone of Great 
Lakes commercial navigation waterways. The Army Corps has done 
really excellent work to begin the necessary construction. It 
is now up to Congress to provide consistent and efficient 
funding. The Soo locks are essential, not just for us in 
Michigan, for our national economy. They are the only waterway 
connection from Lake Superior to the Lower Great Lakes.
    And, according to the Army Corps, approximately 90 percent 
of the iron ore used in the United States transits the Soo 
locks. If you like your iron ore, and you need it, you need the 
one lock in the country that helps you get it. In fact, it is 
estimated that the Soo locks supports economic activity 
representing 3 percent of U.S. gross domestic product. For that 
reason, it is absolutely essential that Congress works through 
the Army Corps to ensure that the Soo lock modernization 
project receives consistent and efficient funding.
    Before I yield back my time, I just wanted to take this 
opportunity to express my support for two other issues that are 
vital for water infrastructure in our communities: the Clean 
Water State Revolving Fund and the Wastewater Infrastructure 
Workforce Development Program. I know these are outside of the 
jurisdiction of WRDA, but I wanted to take the opportunity to 
speak before the committee to express my support for robust 
funding for both.
    I met with the Southeast Michigan Council of Governments to 
discuss the status of our water infrastructure in Michigan. We 
know in Michigan our Governor ran on the slogan, ``Fix the Damn 
Roads.'' Roads are where most Michiganians are focused. But in 
Michigan it is also our infrastructure we can't see, namely our 
water infrastructure, that needs real updating.
    The council emphasized the importance of the State 
revolving fund for underresourced local communities that need 
to replace and repair aging infrastructure. I live in one of 
those communities: Holly, Michigan. They also expressed the 
importance of supporting and expanding the water workforce. 
Thirty to fifty percent of our water workforce is set to retire 
in the next 10 years.
    I know the committee has done great work on the Water 
Quality Protection and Job Creation Act. Thank you for that. 
You all have really done yeoman's work here. I thank the 
committee for taking up these initiatives, and urge leadership 
to bring the bills to the House floor.
    Thanks for your time. Thanks for your work. Thanks for 
protecting our waters.
    [Ms. Slotkin's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Elissa Slotkin, a Representative in Congress 
                       from the State of Michigan
    Thank you Chairman DeFazio, Ranking Member Graves, Chairwoman 
Napolitano, and Ranking Member Westerman for the opportunity to share 
my priorities for the Water Resources Development Act (WRDA) 
reauthorization.
    Michiganders are the stewards of the Great Lakes. The Great Lakes 
are the backbone of our economy and our way of life.
    In Michigan, protecting our Great Lakes is one of the most 
bipartisan issues, because it's about our economy and who we are as a 
state. This is all of our responsibility and I'm proud that it's a 
commitment Michiganders share regardless of party.
    We may not always think about it when we're enjoying our beautiful 
Great Lakes, but protecting and maintaining them takes investment and 
commitment.
    In line with that goal, there are two key priorities that I want to 
advocate in support of today as the Committee considers the Water 
Resources Development Act (WRDA) reauthorization.
    First, in order to prevent Asian carp from reaching the Great 
Lakes, I support authorization at full federal cost share and 
appropriation of funds to begin the preconstruction, engineering, and 
design for the Brandon Road Lock and Dam Project.
    As many of my colleagues from other parts of the country know, 
Asian carp are an invasive species that have devastated ecosystems in 
the bodies of water they have been able to infiltrate.
    If this devastating species were to invade the Great Lakes, it 
would cause irreparable harm to our tourism industry, the recreational 
economy, and way of life for fishers, lakeside communities, and the 
countless Michiganders who enjoy our Great Lakes every year.
    The Brandon Road Lock and Dam project would function as a critical 
choke point to halt the spread of this invasive species, using electric 
barriers, noisemakers, and an air bubble curtain to block its passage 
into the Great Lakes.
    This past summer, I joined a bipartisan group of members of the 
Michigan delegation to tour the Brandon Road Lock and Dam Project in 
Illinois.
    During this tour, I had the opportunity to see the site on foot and 
from the air, and to hear from the Army Corps of Engineers about the 
full suite of both technological and structural measures that can and 
must be put into place.
    The cost of action to prevent the spread of Asian Carp is high, but 
the price for inaction would be ruinous for the millions of 
Michiganders who depend on our waterways for their livelihoods.
    The Brandon Road Lock and Dam Project represents our best 
opportunity to prevent Asian carp from ever reaching the Great Lakes, 
and I urge the committee to do everything in its power to expedite its 
funding and construction.
    Second, I support the existing authorization and future 
appropriations of full funding to modernize the Soo Locks, which is a 
cornerstone of the Great Lakes commercial-navigation waterway.
    The Army Corps has done excellent work in beginning the necessary 
construction on this project, and now it is up to Congress to provide 
consistent and efficient funding to make sure the project is completed 
in a timely and cost-effective manner.
    The Soo Locks are essential to both our national economy and our 
national security.
    The Soo Locks are the only waterway connection from Lake Superior 
to the Lower Great Lakes.
    According to the Army Corps of Engineers, approximately 90% of the 
iron ore used in the United States transits through the Soo Locks. This 
iron ore is essential to U.S. steel production, which plays an 
important role in our national security and economy.
    In fact, it is estimated that the Soo Locks supports economic 
activity that represents over 3% of the U.S. Gross Domestic Product.
    Currently, 86% of the tonnage passing through the locks is limited 
to one lock, the Poe Lock, which is large enough to accommodate the 
massive carriers needed to transport iron ore.
    The Poe Lock is nearing the end of its 50-year useful lifespan, 
increasing the risk for failure that would have significant 
implications for U.S. national security and the economy.
    For this reason, it is absolutely essential that Congress works 
with the Army Corps to ensure that the Soo Lock modernization project 
receives consistent and efficient funding.
    Thank you for prioritizing these programs that are so important to 
Michiganders.
    Before I yield back the remainder of my time, I wanted to take this 
opportunity to express my support for two other issues that are vital 
for the water infrastructure of communities in my district: the Clean 
Water State Revolving Fund and the Wastewater Infrastructure Workforce 
Development program.
    I know that these issues are outside of the jurisdiction of the 
Water Resources Development Act, but I wanted to take this opportunity 
to speak before the Committee to express my support for robust funding 
to support these programs.
    I recently met with the Southeast Michigan Council of Governments, 
to discuss the status of our water infrastructure in Michigan. We know 
that our roads are in desperate need of repair, but in Michigan it's 
also the infrastructure that we can't see--our water infrastructure--
that needs updating.
    The council emphasized the importance of the State Revolving Fund 
for under-resourced local communities that need to replace and repair 
aging infrastructure.
    They also expressed the importance of supporting and expanding our 
water workforce: 30-50% of our water workforce community nationwide 
will retire in the next ten years.
    I know the Committee recently approved by voice vote the Water 
Quality Protection and Job Creation Act, H.R. 1497, which would not 
only reauthorize the Clean Water State Revolving Fund, but would also 
allow State's to reserve up to 1% of funds from the program to support 
water workforce development.
    I thank the Committee for taking initiative on this issue that 
affects nearly every Michigander, and urge leadership to bring this 
bill to the full House for a vote.
    Thank you for your time and for allowing me to relay some of these 
concerns about water and our Great Lakes that unite us all as 
Michiganders. I look forward to continuing to work with the Committee 
to support these priorities.

    Mrs. Napolitano. Thank you for your testimony.
    And does any Member have a question?
    Seeing none, I now recognize Ranking Member Westerman to 
recognize our next witness.
    Mr. Westerman. Thank you, Madam Chair. And I would like to 
recognize our next witness, the gentleman from the beautiful 
State of Montana, Mr. Gianforte, for 5 minutes.

TESTIMONY OF HON. GREG GIANFORTE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MONTANA

    Mr. Gianforte. Thank you very much. Thank you, Chairwoman 
and Ranking Member. I appreciate the opportunity to testify 
here today.
    The Water Resources Development Act is primarily focused on 
the Corps of Engineers. It has also been an opportunity to 
address issues with the Bureau of Reclamation, which manages 
much of the water supply across the West. I want to bring to 
your attention the St. Mary's-Milk River project, which the 
Bureau runs. It is truly the lifeline of Montana's Hi-Line 
agricultural economy.
    Located in north central Montana, the Milk River project 
provides water for irrigation for about 121,000 acres of land. 
The project was authorized in 1903, and is one of the first 
projects the Bureau of Reclamation ever designed and built. The 
Milk River project is critical Federal infrastructure. It 
manages water for an international treaty and Tribal water 
rights settlement, such as the Blackfeet Settlement. The Milk 
River project also provides water to 18,000 citizens across the 
Hi-Line, and produces enough food to feed about 1 million 
people in the United States and around the world.
    At well over 100 years old, the Milk River project has 
surpassed its expected design life. Throughout the project, 
regular operations and maintenance have quickly turned into 
replacement of critical project components like the diversion 
dams and drops. If these components fail, it would effectively 
shut down a vital water supply for citizens and farms all 
across north central Montana. It could also endanger water 
rights settlements that rely on the water delivered by this 
project.
    On September 26, 2019, the Alliance for the Wild Rockies 
announced a 60-day notice of intent to sue the Department of 
the Interior for bull trout deaths, in part because of this old 
technology we are currently using. If a take permit is not 
obtained by April 1, 2020, the Alliance for the Wild Rockies 
will file suit against this project. While the Fish and 
Wildlife Service is working on the permit, the underlying 
problem is the infrastructure that is in such a bad shape of 
disrepair. This litigation threat accelerated the need for the 
diversion structure design and construction so we can actually 
protect the fish and keep the water flowing.
    The State of Montana has already authorized $50 million to 
update the St. Mary's diversion. So the State is doing their 
part, but the funds have to have a Federal match. I have 
introduced legislation that would authorize a change in the 
cost share of the Federal funds for the diversion structure as 
soon as possible. I believe this is one of the most important 
infrastructure projects in the State of Montana, the St. 
Mary's-Milk River diversion project.
    On another note, I introduced H.R. 967, the Clean Water for 
Rural Communities Act, with Senators Tester and Daines. The 
bill supports two Bureau of Reclamation rural water projects.
    First, it authorizes the Musselshell-Judith Rural Water 
System. The planning process mandated under the 2006 Rural 
Water Supply Act is complete. The water project was deemed 
fully feasible by Reclamation in 2016, but it still needs 
congressional action. Once funded, this water system could be 
built in 2 years. This water system will serve about 5,000 
people in central Montana.
    Second, it authorizes Reclamation to finalize the 
feasibility study for the Dry-Redwater Regional Water Authority 
System in eastern Montana and part of North Dakota. The project 
would provide clean drinking water to over 30,000 constituents 
at a maximum Federal cost share of $5 million.
    In both cases, Montana has appropriated the funds for these 
projects. We just need the Federal Government to do their part, 
and become federally authorized. H.R. 967 had a legislative 
hearing in the Committee on Natural Resources in June, and the 
Senate bill was reported out of committee last October.
    Finally, I ask you to consider H.R. 3471. This bill will 
ensure the Sidney-Kinsey Irrigation Districts continue to 
receive project use power. The districts received power under 
Pick-Sloan for almost 75 years. After renewing contracts nine 
times, the Bureau of Reclamation decided these districts were 
ineligible for project use power, and it threatens over 130 
family farms in eastern Montana. I would ask you to work with 
me to address this oversight.
    I appreciate the opportunity to discuss these matters with 
your committee. And, as the committee works towards a package 
that addresses these water issues, I urge you to remember our 
issues in Montana.
    And with that, I yield back.
    [Mr. Gianforte's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Greg Gianforte, a Representative in Congress 
                       from the State of Montana
    Thank you, Chairman DeFazio and Ranking Member Graves. I appreciate 
the opportunity to testify before the committee today.
    The Water Resources Development Act is primarily focused on the 
Corps of Engineers. It's also been an opportunity to address issues 
with the Bureau of Reclamation, which manages much of the water supply 
across the west.
    The St. Mary's-Milk River Project, which the Bureau runs, is the 
lifeline of Montana's Hi-Line agricultural economy.
    Located in north-central Montana, the Milk River Project provides 
water for the irrigation of about 121,000 acres of land. The project 
was authorized in 1903 and is one of the first projects the Bureau of 
Reclamation ever designed and built.
    The Milk River Project is critical federal infrastructure. It 
manages water for an international treaty and tribal water rights 
settlements such as the Blackfeet Settlement.
    The Milk River Project also provides water to 18,000 citizens and 
produces enough food to feed 1 million people annually.
    At well over 100 years old, the Milk River Project has surpassed 
its expected design life.
    Throughout the project, regular operations and maintenance have 
quickly turned into replacement of critical project components like the 
diversion dam and drops. If these components fail, it would effectively 
shut down a vital water supply for northern Montana. It could also 
endanger water rights settlements that rely on water delivered from the 
project.
    On September 26, 2019, Alliance for the Wild Rockies announced a 
60-day Notice of Intent to sue the Department of Interior for bull 
trout deaths.
    If a take permit is not obtained by April 1, 2020, Alliance for the 
Wild Rockies will file suit.
    While the Fish and Wildlife Service is working on the permit, the 
underlying problem is the infrastructure in disrepair. This litigation 
threat accelerated the need for the diversion structure design and 
construction.
    The state of Montana has already authorized 50 million dollars to 
update the St. Mary's Diversion, but funds must have a federal match.
    While I have legislation that would authorize a change in the cost 
share, federal funds for the diversion structure are needed as soon as 
possible.
    This is one of the most pressing infrastructure needs in Montana.
    On another note, I introduced H.R. 967, the Clean Water for 
RuralCommunities Act with Senators Tester and Daines.
    The bill supports two Bureau of Reclamation rural water projects:
    First, it authorizes the Musselshell Judith Rural Water System. The 
planning process mandated under the 2006 Rural Water Supply Act is 
complete. The project was deemed ``fully feasible'' by Reclamation in 
2016, but still needs Congressional action.
    Once funded, this water system could be built in two years. This 
water system will serve around 5,000 people in Central Montana.
    Second, it authorizes Reclamation to finalize the Feasibility Study 
for the Dry-Redwater Regional Water Authority System in Eastern Montana 
and a part of North Dakota. The project would provide clean drinking 
water to over 30,000 constituents at a maximum federal cost share of $5 
million.
    In both cases, Montana has appropriated funds, but cannot begin 
work until the projects are federally authorized.
    H.R. 967 had a legislative hearing in the Natural Resources 
Committee in June, and the Senate bill was reported out of committee 
last October.
    Finally, I ask that you consider H.R. 3471. This bill will ensure 
the Sidney and Kinsey Irrigation districts continue to receive Project 
Use Power.
    The districts received power under the Pick-Sloan program for 
almost 75 years.
    After renewing contracts nine times, the Bureau of Reclamation 
decided these districts were ineligible for Project Use Power, 
threatening over 130 family farms in Eastern Montana.
    I ask you to work with me to address this oversight.
    Thank you for the opportunity to discuss these matters with your 
committee.
    As the committee works toward a package of legislation that 
addresses water issues across the country, I urge you to remember 
issues with the Bureau of Reclamation and the work of the Natural 
Resources Committee.
    I yield back.

    Mrs. Napolitano. Thank you for your testimony, sir.
    Does any Member have a question of the committee member?
    Seeing none, thank you very much.
    And I would like to recognize our next witness, the 
gentleman from Illinois, Mr. Schneider, for 5 minutes.

TESTIMONY OF HON. BRADLEY SCOTT SCHNEIDER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Schneider. Thank you, Madam Chair, for the opportunity 
to testify before you this morning. I appreciate the chance to 
advocate on behalf of my district as the subcommittee considers 
additions to the Water Resources Development Act.
    I want to start by talking about climate resiliency. Our 
region is already seeing the severe impact of climate change. 
We have faced three 100-year floods in the past 11 years, 
overwhelming our stormwater management capacity and causing 
millions in damage throughout our district. As you consider 
future investments in water resources infrastructure, I urge 
the committee to make climate resiliency a top priority. Our 
current infrastructure has already been pushed beyond its 
capacity, and we know that climate change will only exacerbate 
these challenges. We must make sure our investments today are 
mindful of tomorrow's challenges.
    Next I want to talk about the Army Corps of Engineers 
section 219 authority regarding the water-related environmental 
infrastructure for Lake County. I represent parts of both Cook 
and Lake Counties. As you may know, Cook County, Illinois, is 
designated a geographic area eligible for section 219 
assistance to help local municipalities with environmental 
infrastructure. However, Lake County is currently not covered 
as an eligible area under section 219. I am advocating that the 
subcommittee consider expanding section 219 authority to 
include Lake County. With the help of then-Senator Obama, the 
2006 WRDA bill included designation of Lake County under 
section 219, but that legislation never became law. For an area 
facing increased flooding, designating Lake County under 
section 219 would help these communities enact long-term 
solutions to address the issue.
    Last, but certainly not least, I would like to discuss the 
historic high lake levels we are seeing in Lake Michigan and 
across the Great Lakes system. Currently, Lake Michigan levels 
are more than 4 feet above average levels, and well above 
records set in the late 1980s. The Army Corps projects that 
lake levels are expected to remain at historic highs in the 
coming 4 to 5 months. High lake levels alone are cause for 
concern, in terms of increased erosion and property damage. Now 
combined with fierce winter storms like those seen in my 
community in January, the damage to both public and private 
property is significant. In one community alone, the Park 
District of Highland Park estimates recent damage to public 
property along its shoreline to be as much as $1.1 million.
    As the subcommittee considers investments in the Great 
Lakes region, I encourage you to think about the significant 
impact high lake levels are having on shoreline communities 
like mine. I strongly support funding to address the damage 
wrought by high lake levels, and invest in long-term approaches 
to prevent this damage in the future.
    Thank you for the opportunity to advocate on behalf of my 
district today, and I yield back.
    [Mr. Schneider's prepared statement follows:]
                                 <F-dash>
Prepared Statement of Hon. Bradley Scott Schneider, a Representative in 
                  Congress from the State of Illinois
    Thank you, Madam Chair, for the opportunity to testify. I 
appreciate the chance to advocate on behalf of my district as the 
subcommittee considers additions to the Water Resource Development Act.
    First, I want to talk about climate resiliency. Our region is 
already seeing the severe impact of climate change. We have faced three 
100-year floods in the past twelve years, overwhelming our water 
infrastructure and causing millions in damage. As you consider future 
investments in our water resources and infrastructure, I urge the 
subcommittee to make climate resiliency a top priority. Our current 
infrastructure has already been pushed beyond its capacity--and we know 
that climate change will only exacerbate this challenge. We need to 
make sure our investments today are mindful of tomorrow's challenges.
    Second, I want to talk about the Army Corps of Engineers' Section 
219 authority regarding water-related environmental infrastructure for 
Lake County. I represent parts of both Cook and Lake Counties. As you 
may know, Cook County, Illinois is a designated geographic area 
eligible for Section 219 assistance to help local municipalities with 
environmental infrastructure. However, Lake County is not currently 
covered as an eligible area under Section 219. I am advocating that the 
subcommittee consider expanding Section 219 authority to include Lake 
County. With the help of then-Senator Obama, the 2006 WRDA bill 
included designation of Lake County under Section 219--but that 
legislation never became law. For an area facing increased flooding, 
designating Lake County under Section 219 would help these communities 
enact long-term solutions to address the issue.
    Finally, I would like to discuss the historic lake levels we are 
seeing in Lake Michigan and across the Great Lakes system. Currently, 
Lake Michigan levels are more than four-feet above average levels and 
well above records set in the late-1980s. The Army Corps projects that 
lake levels are expected to remain at historic highs in the coming four 
to five months. High lake levels alone are cause for concern--in terms 
of increased erosion and property damage--but when combined with fierce 
winter storms like those seen in my community in January, the damage to 
both public and private property can be significant. In one community 
alone, the Park District of Highland Park estimates damage to public 
property along the shoreline to be as much as $1.1 million. As the 
subcommittee considers investments in the Great Lakes region, I 
encourage you to think about the significant impact high lake levels 
are having for shoreline communities like mine. I strongly support 
funding to address the damage wrought by high lake levels and invest in 
long-term approaches to prevent this damage in the future.
    Thank you for the opportunity to advocate on behalf of my district. 
I yield back.

    Mrs. Napolitano. Thank you for your testimony, sir.
    Does any Member wish to question?
    Seeing none, I would like to recognize Ranking Member 
Westerman to recognize the next witness.
    Mr. Westerman. Thank you, Madam Chair. And I would like to 
recognize our next witness, the gentleman from Florida, Mr. 
Waltz, for 5 minutes.

 TESTIMONY OF HON. MICHAEL WALTZ, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Waltz. Thank you, Chairwoman and Ranking Member, for 
holding this hearing. I am here today to discuss an issue that 
is important to every State, including the State of Florida, 
and consistent with the good work this subcommittee has done 
already to authorize the Clean Water State Revolving Fund for 
the first time since 1987.
    My testimony today builds on the request that myself and 
nearly all of my Florida delegation colleagues, both sides of 
the aisle, have made to the chair and ranking member of the 
full committee in November of last year to update the Clean 
Water SRF allotment in legislation that amends the Federal 
Water Pollution Control Act.
    The Clean Water SRF distributes funding to States by what 
is called the allotment, based on a ratio that was written into 
law in 1987. And curiously, the Congressional Research Service 
cannot say definitively what factors Congress back then 
considered in determining the allotment that goes out to 
States. And this concern was highlighted in the 2014 WRRDA, 
which directed the EPA to report back to Congress with 
recommendations on how the allotment should be modernized.
    That EPA report clearly stated that the 1987 allotment is 
insufficient for modern purposes of distributing funds to 
States, and the report states that, ``most states do not 
currently receive appropriated funds in proportion to their 
reported needs or population, which demonstrates the inadequacy 
of the current allotment.''
    Subsequently, the EPA report makes recommendations to 
Congress on options for modernizing the allotment, which is why 
I am here today. Congressman Anthony Brown and myself have 
reviewed these recommendations and introduced H.R. 5628, the 
Clean Water Allotment Modernization Act. Our proposal has 
several members of this committee as cosponsors, and has been 
endorsed by the Florida Department of Environmental Protection. 
And Senators Rubio and Scott have introduced identical 
legislation in the Senate. And it is a top priority for Senator 
Rubio in this WRDA cycle.
    Our proposal requires EPA to update the allotment to 
reflect the most recent census data, the Clean Watersheds Needs 
Survey, and the water quality attainment ratio. That is kind of 
point one.
    Point two, our proposal, moving forward, requires the EPA 
to update the allotment within a year of the Clean Watersheds 
Needs Survey to avoid the situation in the future.
    It also, I want to point out, should not score. It should 
have zero budgetary effect on Federal spending.
    And finally, the proposal includes a transition floor so 
States will not receive a decrease from their current allotment 
of any more than 5 percent. And this floor is included, in case 
funding for the program remains stagnant. But however, as the 
committee knows, the floor becomes obsolete under the 
authorization levels in H.R. 1497, the Water Quality Protection 
and Job Creation Act of 2019, which this committee marked up 
and passed in October 2019. And the authorization level for the 
program, it increases the authorization for the program by 46 
percent in year 1, and doubles the authorization over 5 years.
    So if the allotment is updated concurrently, every single 
State would see an increase in funding by over 9 percent in 
year 1. This would mean nearly a 300-percent increase for 
States like Florida, Louisiana, and Arizona, which have seen 
their populations nearly double, with dramatic increases in 
water infrastructure needs. California and Maryland would see a 
72-percent increase. Oregon and Texas see a 50-percent 
increase. I could go on. Nearly a 20-percent increase for 
Missouri.
    For the same reasons that it is good Government to 
reauthorize programs that have not seen a reauthorization in 
three decades, it is good policy for the Congress to review and 
modernize how the resources are distributed. And it doesn't 
make sense to double the authorization level for a program 
without considering how and where those resources are to be 
disbursed. So it is time to update this program. It is a 30-
year-old formula.
    A few quick points. My proposal amends the Federal Water 
Pollution Control Act, known as the Clean Water Act. I 
understand that the House passed versions of the previous three 
WRDA bills in 2014, 2016, and 2018, did not amend the Clean 
Water Act. However, it is important to note the Senate versions 
of WRDA in the previous three cycles did amend the Clean Water 
Act.
    So, at the end of the day, what is signed into law amends 
the Clean Water Act. And for this reason I respectfully ask the 
committee to support this legislation, and let's not get caught 
up in jurisdictional issues when the final bill makes these 
arbitrary.
    In closing, I ask the chairwoman, ranking member, the full 
committee, and the subcommittee to update this 30-year-old 
problem. And thank you very much.
    I yield back any time that I don't have.
    [Mr. Waltz's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Michael Waltz, a Representative in Congress 
                       from the State of Florida
    Thank you, Chairwoman Napolitano and Ranking Member Westerman, for 
holding this Members' Day hearing on Water Resources Development Act 
proposals.
    I am here to discuss an issue that is important to many states, 
including the State of Florida, and consistent with the good work this 
subcommittee has already done to authorize the Clean Water State 
Revolving Fund (Clean Water SRF) for the first time since 1987.
    The Clean Water SRF distributes funding to states by what is called 
the allotment, based on a ratio that was written into the law in 1987.
    Curiously enough, the Congressional Research Service cannot say 
definitively what factors Congress considered in determining the 
allotment to states in 1987.
    This concern was identified in the 2014 Water Resources Development 
Act, which directed the Environmental Protection Agency (EPA) to report 
to Congress with recommendations on how the allotment could be 
modernized to reflect current needs of states.
    That EPA report titled Review of the Allotment of the Clean Water 
State Revolving Fund (Report), clearly stated that the 1987 allotment 
is insufficient for the purposes of distributing funds to states.
    The report states, quote: ``Most states do not currently receive 
appropriated funds in proportion to their reported needs or population, 
which demonstrates the inadequacy of the current allotment.''
    Subsequently, the Report makes recommendations to Congress on 
options for modernizing the allotment--which is why I am here today.
    Congressman Anthony Brown and myself have reviewed EPA's 
recommendations and introduced H.R. 5628, the Clean Water Allotment 
Modernization Act.
    The proposal has 16 cosponsors, including 4 members of the 
Transportation and Infrastructure Committee.
    Senators Rubio and Rick Scott have introduced companion 
legislation.
    Our proposal requires EPA to update the allotment to reflect the 
most recent census data, Clean Watersheds Needs Survey, and water 
quality attainment ratio.
    Moving forward, the EPA would be required to update the allotment 
one year after issuance of the Clean Watersheds Needs Survey to avoid 
this situation in the future.
    The proposal includes a transition floor so states will not receive 
a decrease from their current allotment of more than 5%.
    This floor was included in case funding for the program remains 
stagnant.
    However, the floor becomes obsolete under the authorization levels 
in H.R. 1497, the Water Quality Protection and Job Creation Act of 
2019, which this committee marked up and passed in October of 2019.
    H.R. 1497 is the first authorization of the program since 1987 and 
increases the authorization level of the program by 46% in year one and 
doubles the authorization over five years.
    If the allotment is updated concurrently, every state would see an 
increase in funding by over 9% in year one.
    This would mean a nearly 300% increase for states like Florida, 
Louisiana, and Arizona, a72% increase for California, a 50% increase 
for Oregon, a 50% increase for Texas, and a nearly 20% increase for 
Missouri.
    For the same reasons that it is good government to reauthorize 
programs that have not been authorized in three decades, it is good 
policy to modernize how the program disburses resources to states.
    Alternatively, it would be misguided policy to double the 
authorization level for a program without considering how and where 
those resources are disbursed.
    I want to take a moment and clarify a few points.
    My proposal amends the Federal Water Pollution Control Act, or the 
Clean Water Act.
    I understand that the House passed versions of the previous three 
WRDA cycles, 2014, 2016, and 2018 did not amend the Clean Water Act.
    I also understand that the Senate versions of WRDA in the three 
previous cycles did amend the Clean Water Act.
    Therefore, the last three versions of WRDA that were signed into 
law amended the Clean Water Act.
    For this reason, I respectfully ask the committee not to undermine 
House proposals like the Clean Water Allotment Modernization Act and 
Water Quality Protection and Job Creation Act of 2019 for 
jurisdictional reasons that are arbitrary to the final bill.
    In my communication with clean water stakeholders on my proposal, I 
have not found anyone who disagrees that the allotment is antiquated 
and insufficient.
    Also as a result of these conversations, it has been raised that 
EPA's Needs Survey currently does not impact allocation of federal 
resources and therefore some states do not allocate adequate resources 
to it.
    I submit to the committee that the Needs Survey should have any 
impact on the Clean Water SRF allotment and if states are serious about 
water quality, they would be assessing the condition of there 
infrastructure.
    However, I am open to working with the committee and states on a 
workable solution to this concern.
    Finally, I ask Chairman DeFazio, Ranking Member Graves, Chairwoman 
Napolitano, and Ranking Member Westerman to work with me on an update 
to this 30 year old problem and to know that I am flexible and open on 
how we accomplish this objective in a way that works for all states.
    Thank you and I yield back the remainder of my time.

    Mrs. Napolitano. Thank you for your testimony. And I now 
recognize Mr. Mast for a question he has.
    Mr. Mast. Thank you, Chairwoman, I appreciate it. I want to 
echo my Florida colleague, Mr. Waltz, about the importance of 
modernizing the Clean Water State Revolving Fund allotment to 
reflect current population infrastructure needs, water 
attainment nationwide. It seems very reasonable that, if 
Congress is going to invest in the Clean Water State Revolving 
Fund by doubling the authorization, that it be done as wisely 
as possible. I would be surprised if any of my colleagues 
disagreed with that.
    It is concerning to me, as well, that the laws from three 
decades ago that outline how the EPA is going to spend $1.6 
billion, potentially $3.2 billion--and so I am a cosponsor of 
this legislation. I think it is good.
    I would ask Chairwoman Napolitano, Ranking Member 
Westerman, Chairman DeFazio, please work with us on this piece 
of legislation to address that allotment.
    And it is here where my question lies for you, Mr. Waltz. 
While the Clean Water State Revolving Fund, it has impact on 
the Florida Everglades water quality, can you clarify the type 
of projects that the EPA's Clean Water State Revolving Fund 
financing is used for in Florida versus that of the south 
Florida ecosystem restoration that the President requested of 
$250 million in his budget request? Can you identify those?
    Mr. Waltz. Sure. I mean the primary use--and just to 
clarify--this is so municipalities can get below-market 
financing for, you know, using these funds.
    And again, everyone is going to gain with the increase in 
the total authorization. It is--but I can't imagine doubling, 
as you said, Congressman, doubling this authorization and not 
adjusting a 30-year-old formula to reflect population needs.
    But Florida, the main thing where it would be used for us 
is Florida developed very rapidly in the 1960s and 1970s, and 
primarily that development was on septic tanks. Those septic 
tanks are old. They are often not replaced. When they are 
replaced, it is at a tremendous cost to the homeowner. And the 
bottom line is wastewater runoff, septic-to-sewer, all of those 
pieces are what this would be used for. And it would be 
tremendously helpful.
    Mrs. Napolitano. Your time is up.
    Mr. Mast. Thank you, Chairwoman. I appreciate it.
    Mrs. Napolitano. You are very welcome.
    And thank you for your testimony.
    And now we move on to Mr. Scott, recognized for 5 minutes.

 TESTIMONY OF HON. ROBERT C. ``BOBBY'' SCOTT, A REPRESENTATIVE 
         IN CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Scott. Thank you, Madam Chair, Ranking Member, members 
of the committee. Thank you for the opportunity to discuss the 
priorities of Virginia's Third Congressional District in the 
upcoming Water Resources Development Act. I represent the Third 
Congressional District of Virginia, where the Chesapeake Bay 
meets the James, Nansemond, and Elizabeth Rivers, and where 
there are both challenges and opportunities.
    The U.S. Army Corps of Engineers has worked to keep 
America's waterways and ports open to trade, while working with 
our communities to ensure that they can continue to live with 
the water that surrounds their community.
    My district is home for the Port of Virginia, which is one 
of the largest and busiest ports on the eastern seaboard. 
Ninety-five percent of our Nation's trade moves by water, so it 
is essential that the port is able to maintain operations.
    The Third Congressional District is also home to multiple 
shipyards and neighbors the Norfolk Naval Station, the largest 
naval base in the United States. These waterways are essential 
to our community.
    I would like to take a moment to thank the committee for 
your work on the Port of Virginia. The port is tied to nearly 
10 percent of the jobs, and responsible for $40 billion in 
economic activity in the Commonwealth of Virginia. It is 
critical to our financial well-being that we ensure that the 
port is able to handle the increasing number and size of 
containerships.
    The port and the Army Corps of Engineers have undertaken 
dredging and widening and deepening of the Norfolk Harbor to 
enable safe and efficient two-way passage of the new, larger 
containerships. This project requires a New Start designation 
to keep the project timeline intact, and that is a specific 
ask. We need a New Start designation to keep the project 
timeline intact.
    My district is also home for the city of Norfolk, which has 
been a leader in ensuring that the city can manage the 
surrounding rising water, and is already serving as an example 
for other municipalities working to adapt. Unfortunately, due 
to climate-driven sea-level rise, compounded by historic land 
subsistence in the region, the waterways pose a serious risk. 
Some studies estimate that the rise may be as much as 7 feet by 
the year 2100. The Hampton Roads region, therefore, is the 
second largest population center at risk of sea-level rise, 
right behind New Orleans.
    High tides, nor'easters, and hurricanes exacerbate the risk 
of flooding. And the city is the home of the Norfolk Naval 
Station, as I mentioned, and numerous other Federal and 
military installations. So the recurring flooding poses a 
severe national security risk. State and local officials in 
Virginia already appreciate the significant threats sea-level 
rise poses to Hampton Roads.
    Unfortunately, the cost to proactively and aggressively 
address the problem is far too great for any one city by 
itself. Norfolk has already begun to spend some substantial 
sums of money to study its recurring flooding issues and 
implement resilient infrastructure where feasible. The scope of 
the entire project to actually address the problem is expected 
to total in the billions of dollars. And that is why I am 
appreciative of the committee's action of including resiliency 
initiatives in your infrastructure proposal.
    The city of Norfolk is identified as a high-risk area for 
coastal storm flooding, and engaged in the storm risk 
management study with the Army Corps of Engineers. The 
subsequent report and plan will reduce storm risk and protect 
Norfolk. The project is ready to move into preconstruction 
engineering design, PED, and construction phase of the 
recommended plan, and requires authorization from Congress. 
That is another specific ask; we need the specific 
authorization for Congress, so that that project can move 
forward.
    Madam Chair, I thank you for allowing me the opportunity to 
discuss the priorities of the Third Congressional District, and 
I look forward to working with you to ensure these projects are 
included in order for the critical work of Hampton Roads to 
continue.
    I thank you, Madam Chair, and I yield back.
    [Mr. Scott's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Robert C. ``Bobby'' Scott, a Representative 
             in Congress from the Commonwealth of Virginia
    Chairman DeFazio, Ranking Member Graves, Chairwoman Napolitano, 
Ranking Member Westerman and members of the Transportation and 
Infrastructure Committee, thank you for providing me this opportunity 
to discuss the priorities of Virginia's third district in the upcoming 
Water Resources and Development (WRDA) Act.
    I represent the 3rd congressional district of Virginia where the 
Chesapeake Bay meets the James, Nansemond, and Elizabeth Rivers, and 
where there are both challenges and opportunities. The U.S. Army Corps 
of Engineers has worked to keep America's waterways and ports open to 
trade, while working with our communities to ensure that they can 
continue to live with the water that surrounds our community. My 
district is home to the Port of Virginia which is one of the largest 
and busiest ports on the eastern seaboard. With 95 percent of our 
nation's trade moving by water, it is essential that the port is able 
to maintain operations. The 3rd district is also home to multiple 
shipyards and neighbors Norfolk Naval Station, the largest naval base 
in the U.S. These waterways are essential to our community.
    I would like to take a moment to thank the Committee for their work 
with the Port of Virginia. The Port of Virginia is tied to nearly ten 
percent of jobs and is responsible for nearly $40 billion in economic 
activity in the Commonwealth of Virginia. It is critical to our 
financial well-being that we ensure that the Port is able to handle to 
the increased number and size of containers. The Port and the Army 
Corps of Engineers have undertaken the dredging and widening and 
deepening of the Norfolk Harbor to enable safe and efficient two-way 
passage of the new larger container ships. The project will require a 
New Start designation to keep the projected timeline intact.
    My district is also home to the City of Norfolk, which has been a 
leader in ensuring that their city can manage the surrounding rising 
water and is already serving as an example to other municipalities 
working to adapt. Unfortunately, due to climate-driven sea level rise, 
compounded by historic land subsidence in the region, these waterways 
pose a serious risk. Some studies estimate this rise to be as much as 7 
feet by the year 2100, the Hampton Roads region is the second largest 
population center at risk from sea level rise in the nation, behind 
only New Orleans. High tides, nor'easters, and hurricanes exacerbate 
the risk of flooding in the City of Norfolk and the region. As the home 
of Naval Station Norfolk and numerous other federal and military 
facilities, this recurrent flooding also poses a severe national 
security risk.
    State and local elected officials in Virginia already appreciate 
the significant threat sea level rise poses to Hampton Roads. 
Unfortunately, the cost to proactively and aggressively address this 
problem head-on is far too great for any city to bear by itself. While 
Norfolk has already spent considerable sums of money to study its 
recurrent flooding issues and implement resilient infrastructure where 
feasible, the scope of the entire project to actually address the 
problem is expected to total in the billions of dollars. That is why I 
am appreciative of the Committee's inclusion of resiliency initiatives 
in your infrastructure proposal.
    The City of Norfolk was identified as a high-risk area for coastal 
storm flooding and engaged in a Storm Risk Management Study with the 
Army Corps of Engineers. The subsequent report and plan will reduce the 
storm risk and protect Norfolk. The project is ready to move into the 
Preconstruction Engineering Design (PED) and construction phase of the 
recommended plan and requires authorization from Congress.
    Ms. Chairman, thank you again for allowing me the opportunity to 
share my priorities for the forthcoming Water Resources and Development 
Act of 2020. I look forward to working with you to ensure that these 
projects are included in order for the critical work in Hampton Roads 
to continue.

    Mrs. Napolitano. Thank you for your testimony, Mr. Scott.
    Does any member of the committee wish to question?
    No?
    Seeing none, I now recognize Ranking Member Westerman to 
recognize our next witness.
    Mr. Westerman. Thank you, Madam Chair. And now I would like 
to recognize our next witness, the gentleman from Georgia, Mr. 
Carter, who is recognized for 5 minutes.

TESTIMONY OF HON. EARL L. ``BUDDY'' CARTER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Carter of Georgia. Well, I thank the ranking member and 
thank you, Madam Chair, for this opportunity to present to you.
    I have the honor and privilege of representing the First 
Congressional District of Georgia. The First Congressional 
District of Georgia includes the entire coast of Georgia, over 
110 miles of pristine coastline that includes barrier islands, 
as well. And that is what I wanted to talk to you about today.
    Our economy, particularly in the First Congressional 
District, is very dependent on a number of different things 
dealing with the coast. For instance, the Georgia ports, 
tourism, seafood, and more. The coastline is integral to our 
economy and to our quality of life. But unfortunately, our area 
has been hit by hurricanes in 3 of the last 4 years, and it had 
another near miss this year with Hurricane Dorian.
    Tybee Island is one of those barrier islands that I was 
referring to earlier, and the city of Tybee Island is taking 
these natural disasters very seriously, and is a model for 
cities around the country that are trying to prepare for these 
weather events. Among other things, the city of Tybee Island is 
working on a major beach renourishment project that uses 
Federal funds authorized through WRDA. However, the Corps of 
Engineers, in its latest cost-benefit analysis study, 
jeopardizes the project's future beyond 2023.
    Because of language in WRDA, the Corps is forced to use an 
outdated cost-benefit model, which, in Tybee's instance, can 
only look at damages that might occur during the next 15 years. 
Tybee, though, won't see damages until 2060, which is largely 
due to the hard work and financial investments they have been 
putting into the island in order to protect itself from weather 
events.
    My staff has discussed this issue with the Army Corps of 
Engineers, the T&I Committee staff, and other Members' offices, 
and we believe we have some legislative language that can fix 
this situation. The language specifically authorizes the 
Secretary to recommend that Congress authorize up to 50 years 
of nourishment to begin on the date of construction, and adds 
general study authority to extend the period of nourishment for 
up to an additional 50 years after expiration of the original 
authorized period of nourishment.
    I will be submitting the full extent of the language, along 
with other offices for the record, and encourage the committee 
to include it in this year's version of WRDA.
    Simply put, we need to ensure that our communities are 
becoming more resilient in the face of these storms. But with 
WRDA's current language on cost-benefit analysis, we are 
punishing communities who are trying to take those steps.
    Again, I want to thank you, Madam Chair. And thank you, Mr. 
Ranking Member and members of the committee, for allowing me to 
bring up this very important issue involving the First 
Congressional District of Georgia.
    Over 110 miles of pristine coastline with barrier islands, 
our economy is dependent on our coastline. We have seen changes 
in the weather. We have seen the impact of storms, of weather 
events, we have been doing our part. The city of Tybee Island 
has been doing their part in preparing for this. They should 
not be penalized for simply being prepared. And that is what is 
happening here, because they are being penalized because of 
outdated language. And this is what our legislation tries to 
do, to update that language, to make it applicable to what is 
happening today.
    So I thank you, Madam Chair, for this opportunity to 
present before the committee today.
    [Mr. Carter of Georgia's prepared statement follows:]
                                 <F-dash>
 Prepared Statement of Hon. Earl L. ``Buddy'' Carter, a Representative 
                 in Congress from the State of Georgia
    Good morning and thank you for letting me testify in front of the 
Committee today.
    I have the honor and privilege of representing the First 
Congressional District of Georgia which contains all 110 miles of the 
State's coastline.
    Between the Georgia ports, tourism, seafood, and more, the 
coastline is integral to our economy and quality of life.
    But unfortunately, our area has been hit by hurricanes in each of 
the last 3 years with another near miss this year by Hurricane Dorian.
    The City of Tybee Island is taking these natural disasters very 
seriously and is a model for cities around the country that are trying 
to prepare for these weather events.
    Among other things, the City is working on a major beach 
renourishment project that uses federal funds authorized through WRDA.
    However, the Corps of Engineers, in its latest cost/benefit 
analysis study, jeopardizes the project's future beyond 2023.
    Because of language in WRDA, the Corps is forced to use an outdated 
cost/benefit model which, in Tybee's case, can only look at damages 
that might occur within the next 15 years.
    Tybee, though, won't see damages until 2060 which is largely due to 
the hard work, and financial investments, they have been putting into 
the island in order to protect itself from weather events.
    My staff has discussed this issue with the Army Corps of Engineers, 
T&I Committee staff, and other Member offices and we believe we have 
some legislative language that can fix this situation.
    The language specifically authorizes the Secretary to recommend 
that Congress authorize up to 50 years of nourishment to begin on the 
date of construction and adds general study authority to extend the 
period of nourishment for up to an additional 50 years after expiration 
of the original authorized period of nourishment.
    I will be submitting the full extent of the language along with 
other offices for the record and encourage the Committee to include it 
in this year's version of WRDA.
    Simply put, we need to ensure that our communities are becoming 
more resilient in the face of these storms, but with WRDA's current 
language on cost/benefit analyses, we are punishing communities who are 
trying to take those steps.
    Thank you, again, for the opportunity to speak today.

    Mrs. Napolitano. Thank you, sir, for your testimony.
    Do you have any questions of the witness?
    Seeing none, I now wish to recognize our next witness, the 
gentleman from the beautiful State of California, Mr. Schiff, 
for 5 minutes.

TESTIMONY OF HON. ADAM B. SCHIFF, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Schiff. Thank you, Madam Chair and Ranking Member 
Westerman, for the opportunity to testify at this Members' Day 
hearing on proposals for a Water Resources Development Act of 
2020.
    One of the U.S. Army Corps of Engineers' important missions 
is to plan, design, and build projects to restore aquatic 
ecosystems across the country. In my district, in California, 
the Corps is currently undertaking planning and design work to 
begin restoring an 11-mile stretch of Los Angeles River. This 
project, decades in the making, will restore the river's 
original natural beauty, and revitalize over 700 acres of 
aquatic ecosystem to provide much-needed green space for 
wildlife and residents alike.
    I am thrilled that the Corps included significant funding 
for the L.A. River in its workplan in fiscal year 2020, and 
will continue working with the city of Los Angeles and the 
Corps to build further momentum on the project.
    At the same time, I have also heard from many constituents 
and community organizations in my district over the past 
several years who have shared concerns regarding the health and 
safety implications of using the herbicide glyphosate, commonly 
known by its trade name, Roundup, in the L.A. River, as well as 
on other federally managed lands. Many State and local 
governments have reviewed the medical research on human 
exposure to glyphosate, and have limited or banned its use.
    The State of California has added glyphosate to its Prop 65 
list of chemicals known to cause cancer, and the county of Los 
Angeles recently prohibited county departments from using the 
chemical. International expert bodies have similarly linked 
glyphosate to cancer, including the World Health Organization's 
International Agency for Research on Cancer, which found the 
chemical ``probably'' causes cancer.
    I believe that Federal agencies should always strive to 
respect the desires of the local communities in which they 
work, particularly when using potentially harmful chemicals on 
public lands. I repeatedly called on the Army Corps to cease 
using glyphosate in the L.A. River, and have proposed 
amendments to appropriations legislation to require the Corps 
to do so.
    The Corps and other Federal agencies should continue to 
seek out alternative vegetation management procedures that do 
not require the use of potentially harmful chemicals, and use 
these procedures to the maximum extent possible. However, I 
also recognize that the Corps uses glyphosate to manage 
vegetation, in part to reduce flood risk, an essential task, 
and that in certain situations an appropriate alternative may 
not be immediately available.
    Accordingly, the committee should include in the Water 
Resources Development Act of 2020 language to restrict the use 
of glyphosate within aquatic ecosystem restoration projects, 
including the L.A. River, and other similarly sensitive 
ecosystems around the country, except in cases where both the 
Corps and the local non-Federal sponsor concur that using the 
chemical is necessary to address an immediate threat to human 
health or the environment. This balanced approach would ensure 
that the Corps respects local wishes regarding use of chemicals 
in public lands, while also providing flexibility in cases 
where alternatives are not available.
    I urge the committee to consider such a provision as it 
drafts a Water Resources Development Act of 2020, and I remain 
committed to supporting the Corps' important work in 
maintaining and restoring the L.A. River.
    Thank you for your work on this legislation and your 
attention to my requests.
    [Mr. Schiff's prepared statement follows:]
                                 <F-dash>
Prepared Statement of Hon. Adam B. Schiff, a Representative in Congress 
                      from the State of California
    Chair Napolitano and Ranking Member Westerman, thank you for the 
opportunity to testify at this Member's Day hearing on proposals for a 
Water Resources Development Act of 2020.
    One of the U.S. Army Corps of Engineers' important missions is to 
plan, design, and build projects to restore aquatic ecosystems across 
the country. In my district in California, the Corps is currently 
undertaking planning and design work to begin restoring an 11-mile 
stretch of the Los Angeles River. This project--decades in the making--
will restore the river's original natural beauty and revitalize over 
700 acres of aquatic ecosystem to provide much-needed greenspace for 
wildlife and residents alike.
    I am thrilled that the Corps included significant funding for the 
LA River project in its Work Plan for Fiscal Year 2020, and I will 
continue working with the City of Los Angeles and the Corps to build 
further momentum on this project.
    At the same time, I have also heard from many constituents and 
community organizations in my district over the past several years who 
have shared concerns regarding the health and safety implications of 
using the herbicide glyphosate (commonly known by its trade name, 
Roundup) in the Los Angeles River, as well as on other federally 
managed lands.
    Many state and local governments have reviewed the medical research 
on human exposure to glyphosate and have limited or banned its use. The 
State of California has added glyphosate to its Proposition 65 list of 
chemicals known to cause cancer, and the County of Los Angeles recently 
prohibited County departments from using the chemical. International 
expert bodies have similarly linked glyphosate to cancer, including the 
World Health Organization's International Agency for Research on Cancer 
which has found the chemical ``probably'' causes cancer.
    I believe that Federal agencies should always strive to respect the 
desires of the local communities in which they work, particularly when 
using potentially harmful chemicals on public lands. I have repeatedly 
called on the Army Corps to cease using glyphosate in the Los Angeles 
River, and have proposed amendments to Appropriations legislation to 
require the Corps to do so.
    The Corps and other federal agencies should continue to seek out 
alternative vegetation management procedures that do not require the 
use of potentially harmful chemicals, and use these procedures to the 
maximum extent possible. However, I also recognize that the Corps uses 
glyphosate to manage vegetation in part to reduce flood risk--an 
essential task--and that in certain situations, an appropriate 
alternative may not be immediately available.
    Accordingly, the Committee should include in the Water Resources 
Development Act of 2020 language to restrict the use of glyphosate 
within aquatic ecosystem restoration projects--including the Los 
Angeles River and other similarly sensitive ecosystems around the 
country--except in cases where both the Corps and the local non-Federal 
sponsor concur that using the chemical is necessary to address an 
immediate threat to human health or environment.
    This balanced approach would ensure that the Corps respects local 
wishes regarding the use of chemicals in public lands, while also 
providing flexibility in cases where alternatives are not available.
    I urge the Committee to consider such a provision as it drafts a 
Water Resources Development Act for 2020, and I remain committed to 
supporting the Corps' important work maintaining and restoring the Los 
Angeles River. Thank you for your work on this legislation and your 
attention to my requests.

    Mrs. Napolitano. Thank you very much for your testimony, 
Mr. Schiff.
    And does any Member have a question?
    Seeing none, thank you again for your testimony.
    Mr. Schiff. Thank you, Madam Chair.
    Mrs. Napolitano. And this committee will, as we wait for 
additional Members, the Chair will call recess for a few 
minutes or until additional Members arrive.
    [Recess.]
    Mrs. Napolitano. I call the meeting to order. And I would 
like to recognize the next witness, the gentleman from 
Pennsylvania, Mr. Thompson, for 5 minutes.

TESTIMONY OF HON. GLENN THOMPSON, A REPRESENTATIVE IN CONGRESS 
             FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Thompson of Pennsylvania. Chairwoman Napolitano, Mr. 
LaMalfa, and members of the House Committee on Transportation 
and Infrastructure Subcommittee on Water Resources and 
Environment, thank you. Thank you for providing the opportunity 
to share my priorities for the Water Resources Development Act 
of 2020.
    In order to strengthen and maintain water resources in the 
United States, it is crucial we support programs that invest in 
water infrastructure needs in our local communities.
    I want to start with talking about the Endangered Species 
Act, which provides for conservation of threatened and 
endangered plants and animals, as well as habitats. 
Additionally, legislation established the endangered species 
list that is maintained by the U.S. Fish and Wildlife Service. 
It contains all the endangered species found throughout the 
world. The ESA has brought fundamental conservation practices 
to our local communities. And while we must continue to improve 
and strengthen these strategies, we also should strive to 
provide resources to States and industry to help navigate some 
of the more nuanced regulations within the ESA.
    For example, the Allegheny River and other navigable waters 
in and around my district need to be dredged in order to 
prevent flooding, and allow safe passage of vessels, whether it 
would be commercial or recreational, and obviously, for 
economic development in our rural communities.
    The environmental restoration efforts of these waterways 
have improved the quality of water to a level where they now 
sustain populations of endangered mussels. The repopulation of 
this species is increasing throughout the river, specifically 
in the riverbed. And it has been brought to my attention that 
many industry stakeholders have left the region due to 
prohibitive costs associated with mitigating the endangered 
mussels, resulting in missed opportunities of jobs and revenues 
for local communities.
    And being good environmental stewards should not be an 
either/or situation. It is my hope that this committee will 
explore voluntary conservation plans that provide strong 
safeguards for these endangered and threatened species, but 
also create an opportunity for industries to partner with 
Federal, State, and local governments to address the cost issue 
and invest in local communities.
    I want to also just talk briefly about levee assistance. 
You know, the Flood Control and Coastal Emergency Act provides 
the United States Army Corps of Engineers the discretionary 
authority to undertake activities including disaster 
preparedness, emergency operations, as well as rehabilitation 
of areas destroyed or threatened by floods. Under this 
legislation, local sponsors of a flood control project are 
required to provide and maintain the necessary land, easements, 
and rights-of-way necessary to perform the required 
construction, and procure all necessary permits prior to any 
construction activities done by the Army Corps of Engineers.
    The local sponsor is also responsible for any operation and 
maintenance costs incurred by the flood control project, and 
they must contribute 20 percent of the construction costs for 
any rehabilitation.
    Now, many local sponsors, including those found in my 
district, specifically Ford City in Armstrong County, 
Punxsutawney, Pennsylvania, in Jefferson County, are unable to 
financially meet these requirements to maintain their projects. 
And due to the lack of financial resources, many of these 
projects do not achieve a minimally acceptable rating on their 
biannual inspection to be considered for Army Corps 
rehabilitation assistance.
    Furthermore, FEMA uses these ratings to inform the National 
Flood Insurance Program when they update flood insurance rates. 
Since these projects receive an unacceptable rating, FEMA 
considers these areas unprotected, which results in higher 
premiums for landowners and local businesses, which is a 
tremendous drag on the existing local economy, and has real 
impact on future economic development in these small rural 
communities.
    It is my hope that this committee would consider 
authorizations that would permit the Army Corps to conduct 
maintenance on these types of projects. And this would reduce 
the financial burden on these small communities, reducing 
barriers to qualify for rehabilitation assistance when needed.
    And finally, just a little bit on remote lock operations. 
The Pittsburgh District of the Army Corps began plans for a 
pilot project in January 2017 at Grays Landing Lock and Dam, 
located on the Monongahela River in Fayette County. The goal of 
this project is to demonstrate the viability of remote lock 
operation on a large-scale commercial waterway within the 
inland navigation system.
    This project will consist of two phases. Phase 1 will 
involve remotely controlling the lock from a location onsite 
that is out of view of the lock. And phase 2 will involve 
remotely controlling the lock from an offsite location. 
Automating and remotely operated the locks will significantly 
reduce operational costs without negatively impacting transit 
through the inland navigation system by allowing one set of 
operators in a central location to operate multiple facilities.
    Furthermore, reduced operation costs would allow for more 
flexibility in funding for maintenance and other capital 
investments.
    So the success with this project--I am just asking to be 
expanded to other locations, including the Upper Allegheny 
locks, located in Armstrong County, Pennsylvania, where this 
technology has the potential to increase the availability and 
the capacity of the locks, and support the other economic 
drivers, like recreational boating.
    I want to thank you, Chairwoman and Ranking Member, and all 
the members of this committee, for allowing me to bring and 
express my priorities, as you consider working on WRDA 2020. 
Thank you so much.
    [Mr. Thompson of Pennsylvania's prepared statement 
follows:]
                                 <F-dash>
Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                 from the Commonwealth of Pennsylvania
    Chairwoman Napolitano, Ranking Member Westerman and Members of the 
House Committee on Transportation and Infrastructure's Subcommittee on 
Water Resources and Environment:
    Good morning and thank you for providing the opportunity to share 
my priorities for the Water Resources Development Act of 2020 (WRDA 
2020). In order to strengthen and maintain the water resources of the 
United States, it is crucial we support programs that invest in water 
infrastructure needs in our local communities.
          U.S. Fish and Wild Services' Endangered Species List
    The Endangered Species Act (ESA) provides for the conversation of 
threatened and endangered plants and animals as well as their habitats. 
Additionally, the legislation established the endangered species list, 
maintained by the U.S. Fish and Wildlife Service (FWS), which contains 
all the endangered species found throughout the world. The ESA also 
requires federal agencies to ensure that any action they carry out does 
not harm or jeopardize the presence of any listed species or destroys 
their habitat.
    The ESA has brought fundamental conservation practices to our local 
communities. While we must continue to improve and strengthen these 
strategies, we should also strive to provide resources to states and 
industry to help navigate some of the more nuanced regulations within 
the ESA.
    For example, the Allegheny River and other navigable waters in and 
around my district need to be dredged in order to prevent flooding, 
allow safe passage of vessels, and for economic development in rural 
communities. Environmental restoration efforts of these waterways have 
improved quality of the water to a level that now sustains populations 
of endangered mussels. The repopulation of this species is increasing 
throughout the river, specifically in the riverbed. It has been brought 
to my attention that many industry stakeholders have left the region 
due to prohibitive costs associated with mitigating the endangered 
mussels, resulting in missed opportunities of jobs and revenues for 
local communities.
    Being good environmental stewards should not be an ``either-or'' 
situation. As we look toward WRDA 2020, it is my hope that the 
Committee will explore voluntary conservation plans that provide strong 
safeguards for these endangered and threatened species, but also create 
an opportunity for industry to partner with federal, state, and local 
governments to address the cost issue and invest in local communities.
                            Levee Assistance
    The Flood Control and Coastal Emergency Act (PL 84-99) provides the 
United States Army Corps of Engineers the discretionary authority to 
undertake activities including disaster preparedness, emergency 
operations, as well as rehabilitation of areas destroyed or threatened 
by floods.
    Under this legislation, local sponsors of a flood control project 
are required to provide and maintain the necessary land, easements, and 
rights-of-way necessary to perform the required construction and must 
secure all necessary permits prior to any construction activities done 
by the Army Corps of Engineers. The local sponsor is also responsible 
for any operation and maintenance cost incurred by the flood control 
project and must contribute 20 percent of the construction cost for any 
rehabilitation.
    It is my understanding that many local sponsors, including those 
found in my district, specifically Ford City, PA and Punxsutawney, PA, 
are unable to financially meet these requirements to maintain their 
projects. Due to the lack of financial resources, many of these 
projects do not achieve a minimally acceptable rating on their 
inspection, which is done on a biannual basis by the Army Corps, to be 
considered for Army Corps rehabilitation assistance. Furthermore, FEMA 
uses these ratings to inform the National Flood Insurance Program when 
they update flood insurance rates. Since these projects receive an 
unacceptable rating, FEMA considers these areas unprotected, which 
results in higher premiums for homeowners and local businesses. This is 
a drag on the existing local economy and has real impacts on future 
economic development in these small, rural communities.
    It is my hope that the Committee considers authorizations which 
permit the Army Corp to conduct maintenance on these types of projects. 
This would reduce the financial burden on these small communities to 
sustain operations and receive acceptable ratings from USACE in order 
to qualify for rehabilitation assistance when needed.
                         Remote Lock Operations
    The Pittsburgh District of the Army Corps began plans for a pilot 
project in January 2017 at Gray's Landing Lock and Dam, located along 
the Monongahela River in Fayette County, PA. The goal of this project 
is to demonstrate the viability of remote lock operations on a large-
scale commercial waterway within the inland navigation system.
    This project will consist of two phases. Phase I will involve 
remotely controlling the lock from a location onsite that is out of 
view of the lock. Phase II will then involve remotely controlling the 
lock from an offsite location. Automating and remotely operating locks 
will significantly reduce operation costs without negatively impacting 
transit through the inland navigation system by allowing one set of 
operators in a central location to operate multiple facilities. 
Furthermore, the reduced operation costs would allow for more 
flexibility in funding for maintenance and other capital investments.
    If successful, this project should be expanded to other locations, 
including the Upper Allegheny Locks located in Armstrong County, PA, 
where this technology has the potential to increase the availability 
and capacity of the locks and support other economic drivers, like 
recreational boating, in the surrounding counties.
    Again, thank you to Chairwoman Napolitano, Ranking Member 
Westerman, and Members of this Subcommittee for allowing me to express 
my priorities for WRDA 2020. I appreciate your consideration and look 
forward to working together on these and other issues.

    Mrs. Napolitano. Thank you for your testimony, sir.
    Does any Member have a question?
    Seeing none, we move on to the next witness.
    I would now like to recognize the gentleman from Kentucky, 
Mr. Comer, for 5 minutes.

  TESTIMONY OF HON. JAMES COMER, A REPRESENTATIVE IN CONGRESS 
               FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Comer. Thank you, Madam Chair, Ranking Member LaMalfa, 
and members of the subcommittee. Thank you for the opportunity 
to speak with you today. I represent the First Congressional 
District of Kentucky, which is home to Paducah, which serves as 
a major hub of the inland waterway system due to its strategic 
location on the confluence of the Ohio and Tennessee Rivers.
    Kentucky's river industry alone moves around 100 million 
tons of cargo per year, with a combined value of over $10 
billion. Our waterways provide a safe and efficient way to 
transport the commodities that America needs, from coal and 
petroleum, to chemicals and other hazardous materials, to 
grains and other agricultural products like those grown and 
used in my district.
    Unfortunately, the majority of our waterways infrastructure 
is over 50 years old, and we are beginning to pay the price. 
This includes levees needed for flood protection, locks and 
dams that support navigation and hydropower generation, and 
countless other projects necessary to transit the inland 
waterway system. These major infrastructure projects are 
strategic investments in the future of our Nation's 
infrastructure, and Americans deserve consistent, stable 
Federal funding in order to capitalize on our highly skilled 
workforce and foster further industrial development.
    As Congress considers components of a WRDA reauthorization, 
I want to voice my support for conforming the cost share for 
new construction and major rehabilitation projects on the 
inland waterways transportation system. I support adjusting the 
cost share to 25 percent Inland Waterways Trust Fund and 75 
percent general funds for Inland Waterways Trust Fund 
construction projects. This adjustment will allow the inland 
waterways construction portfolio of 23 projects to be completed 
in 20 years, instead of the current expected completion of 40 
years.
    Another issue that I would like to discuss today is a 
threat to not just my congressional district, but our entire 
inland waterway system. That threat is the Asian carp. This 
species was brought to the United States decades ago, soon 
entered our major waterways, and have since spread to a 
considerable portion of our country's interior river system.
    Lake Barkley and Kentucky Lake in my congressional district 
are home to some of the top outdoor recreation sites in all of 
Kentucky. Boating, camping, fishing, and other activities have 
an estimated $1.2 billion economic impact on the region. 
However, Asian carp is threatening our tourism economy. These 
invasive fish are known to jump out of the water at the sound 
of approaching boats, striking boaters and skiers. They also 
eat the food sources of native fish species. The explosion of 
carp is driving boaters and fishermen away from our region.
    As an example, Asian carp are ruining the annual fishing 
tournaments that draw hundreds of visitors to the area and 
infuse millions of dollars into the local economy. While 
progress has been made, we must still continue to work to 
eradicate Asian carp and prioritize resources to fight this 
invasive species.
    Additionally, I would like to express my support for the 
Harbor Maintenance Trust Fund, which is used by river ports 
such as the Hickman-Fulton County Riverport Authority for vital 
dredging.
    I look forward to continuing work with my colleagues in 
Congress to provide resources for completion of these high-
priority investments in our waterways infrastructure, and I 
appreciate the opportunity to relay these priorities to you 
today.
    Thank you, Madam Chair.
    [Mr. Comer's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. James Comer, a Representative in Congress 
                   from the Commonwealth of Kentucky
    Chairman Napolitano, Ranking Member Westerman, and Members of the 
Subcommittee, thank you for the opportunity to speak with you today.
    I represent the 1st Congressional District of Kentucky, which is 
home to Paducah which serves as a major hub of the inland waterways 
system due to its strategic location at the confluence of the Ohio and 
Tennessee rivers. Kentucky's river industry alone moves around 100 
million tons of cargo per year with a combined value of over $10 
billion. Our waterways provide a safe and efficient way to transport 
the commodities that America needs--from coal and petroleum, to 
chemicals and other hazardous materials, to grains and other 
agricultural products like those grown and used in my district.
    Unfortunately, the majority of our waterways infrastructure is over 
fifty years old and we are beginning to pay the price. This includes 
levees needed for flood protection, locks and dams that support 
navigation and hydropower generation, and countless other projects 
necessary to transit the inland waterways system. These major 
infrastructure projects are strategic investments in the future of our 
nation's infrastructure, and Americans deserve consistent, stable 
federal funding in order to capitalize on our highly skilled workforce 
and foster further industrial development.
    As Congress considers components of a WRDA reauthorization, I want 
to voice my support for conforming the cost-share for new construction 
and major rehabilitation projects on the inland waterways 
transportation system. I support adjusting the cost-share to 25% Inland 
Waterways Trust Fund and 75% general funds for Inland Waterways Trust 
Fund construction projects. This adjustment will allow the inland 
waterways construction portfolio of 23 projects to be completed in 20 
years instead of the current expected completion of 40 years.
    Additionally, I would like to express my support for the Harbor 
Maintenance Trust Fund, which is used by Riverports such as the 
Hickman-Fulton County Riverport Authority for vital dredging.
    I look forward to continuing to work with my colleagues in Congress 
to provide resources for completion of these high-priority investments 
in our waterways infrastructure, and I appreciate the opportunity to 
relay these priorities to you today.

    Mrs. Napolitano. Thank you for your testimony, sir.
    Does any Member have a question?
    Seeing none, thank you very much.
    I would like to recognize our next witness, the gentleman 
from Pennsylvania, Mr. Keller, for 5 minutes.

  TESTIMONY OF HON. FRED KELLER, A REPRESENTATIVE IN CONGRESS 
             FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Keller. Thank you, Madam Chair, and thank you, Ranking 
Member. I appreciate the opportunity to testify today.
    Authorization of the Water Resources Development Act for 
needed upgrades to the Greater Williamsport levee in 
Pennsylvania's 12th Congressional District can literally save 
lives, as well as hundreds of millions of dollars of economic 
assets.
    As you may know, Williamsport, Pennsylvania, is home to 
Little League Baseball and the Little League World Series. But 
what you may not know is that the amazing event, which attracts 
tens of thousands of visitors each year from around the world, 
and millions of viewers on television, sits directly in the 
path of a devastating flood zone. This area is protected only 
by a levee in need of serious rehabilitation and improvements. 
This levee, built in the 1950s by the Army Corps of Engineers, 
has protected this region ever since.
    However, after recent inspection by FEMA, large sections of 
the levee have received a rating of unacceptable. Currently, 
relief wells, cross pipes, and two I-walls are at risk of 
failure without significant rehabilitation and improvements.
    The effects of possible flood are nothing short of 
devastating. The flood zone behind this 20-mile levee system is 
responsible for 87 percent of Lycoming County's economic 
activity, and employs 45 percent of the county's workforce. 
Just under half of the county's 116,000 residents live in the 4 
highest risk jurisdictions. In addition, of the thousands of 
commercial, industrial, and institutional properties protected 
by the levee, around half the county's largest employers, 
including Textron and Shop-Vac, and two institutions of higher 
education are at risk of major losses. The assessed value of 
all these properties is nearly three-quarters of a trillion 
dollars.
    Also, almost 4,500 residential properties with a value of 
$292 million are also at risk.
    With all of this taken together, it is no wonder why the 
Borough of Williamsport, four other municipalities in the 
affected region, and the Commonwealth of Pennsylvania have 
contributed significant local share to this project. We were 
also pleased to see the levee project was included in the Army 
Corps of Engineers Chief Engineer's Report in the main table. 
Recently we were happy to see the Federal Government contribute 
$5.6 million to this very important project through the 
Economic Development Administration.
    While we are off to a good start, additional Federal 
investment is necessary to see this project through. That is 
why authorization of the project in the Water Resources 
Development Act reauthorization is so critical. We cannot allow 
the home of Little League Baseball to be the home of the next 
preventable flooding disaster.
    We know problems with the levee exist now, and now is the 
time to act. With challenging and unpredictable weather 
patterns, one cannot know with certainty when a devastating 
flood will impact this deteriorated levee system. However, we 
can control what is in front of us, and that is providing the 
needed resources in the Water Resources Development Act to 
complete this project sooner, rather than later.
    I urge the committee to include the authorization for this 
project for the safety of Lycoming County businesses and 
residents.
    I thank the committee, the ranking member, and the chair 
for allowing me to testify today.
    [Mr. Keller's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Fred Keller, a Representative in Congress 
                 from the Commonwealth of Pennsylvania
    Chairman DeFazio, Ranking Member Graves, I want to thank you for 
the opportunity to testify today.
    Authorization in the Water Resources Development Act for needed 
upgrades to the Greater Williamsport Levee in Pennsylvania's 12th 
Congressional District can literally save lives as well as hundreds of 
millions of dollars in economic assets.
    As you may know, Williamsport, Pennsylvania is home to Little 
League Baseball and the Little League World Series.
    But what you may not know is that this amazing event, which 
attracts tens of thousands of visitors each year from around the world 
and millions of viewers on television, sits directly in the path of a 
devastating flood zone.
    This area is protected only by a levee in need of serious 
rehabilitation and improvements.
    This levee was built in the 1950s by the Army Corps of Engineers 
and has protected the region ever since.
    However, after a recent inspection by FEMA, large sections of the 
levee received a rating of ``unacceptable.''
    Currently, relief wells, cross pipes, and two I-walls are at risk 
of failure without significant rehabilitation and improvements.
    The effects of a possible flood are nothing short of devastating.
    The flood zone behind this 20-mile levee system is responsible for 
87 percent of Lycoming County's economic activity, which generates 80 
percent of its tax revenues and employs 45 percent of the county's 
workforce.
    Just under half of the county's 116,000 residents live in the four 
highest-risk jurisdictions.
    In addition, of the thousands of commercial, industrial, and 
institutional properties protected by the levee, around half of the 
county's largest employers--including Textron and ShopVac--and two 
institutions of higher education are at risk of major losses.
    The assessed value of all of these properties is nearly three 
quarters of a trillion dollars.
    Also 4,400 residential properties with a value of $292 million are 
also at risk.
    With all of this taken together, it is no wonder why the borough of 
Williamsport, four other municipalities in the affected region, and the 
Commonwealth of Pennsylvania have contributed a significant local share 
to this project.
    We were also pleased to see the levee project was included in the 
Army Corps of Engineers' Chief Engineers Report in the Main Table.
    Recently, we were very happy to see the federal government 
contribute $5.6 million to this very important project through the 
Economic Development Administration.
    While we are off to a good start, additional federal investment is 
necessary to see this project through.
    That is why authorization of this project in the Water Resources 
Development Act reauthorization is so critical.
    We cannot allow the home of little league baseball to be the home 
of the next preventable flooding disaster.
    We know problems with the levee exist now and now is the time to 
act.
    With challenging and unpredictable weather patterns one cannot know 
with certainty when a devastating flood will impact this deteriorated 
levee system.
    However, we can control what is in front of us and that is 
providing the needed resources in the Water Resources Development Act 
to complete this project sooner rather than later.
    I urge the committee to include authorization for this project for 
the safety of Lycoming County businesses and residents.
    Thank you.

    Mrs. Napolitano. Thank you for your testimony, sir.
    And does any Member have a question of the--none?
    So be it. Thank you very much for your testimony, and as we 
wait for additional Members, the Chair will call for a recess 
for a few minutes until additional Members arrive.
    [Recess.]
    Mrs. Napolitano. The meeting is called to order. This 
hearing is called to order, and I would like to thank Mr. 
Foster for coming in. I would like to recognize him for 5 
minutes. The gentleman from Illinois is on.

  TESTIMONY OF HON. BILL FOSTER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Foster. Well, good afternoon and thank you, Chairwoman 
Napolitano and Ranking Member LaMalfa, for holding this 
Members' Day hearing, and to the members of the subcommittee 
for allowing me to testify here today.
    I am here this morning first to urge project authorization 
for the Asian carp barrier at Brandon Road Lock and Dam in my 
district; secondly, to change the local cost-share adjustment 
for the Brandon Road project; thirdly, to fully support funding 
for the Army Corps Joliet Flood Mitigation Study, section 205.
    Brandon Road Lock and Dam, located in the Des Plaines River 
in Joliet, Illinois, serves as the last line of defense to 
prevent the spread of Asian carp and other aquatic nuisance 
species into the Great Lakes. This invasive species was 
introduced decades ago in Arkansas, and has now traveled up the 
Mississippi Basin, and is threatening environmental and 
economic catastrophe if it reaches the Great Lakes Basin.
    The Army Corps has submitted its Chief's Report in May of 
2019, and it is now Congress' responsibility to fully authorize 
and fund this project, and to provide additional authorizations 
to the Corps to rapidly study and implement additional options 
and technologies at Brandon Road to improve the efficacy of 
that barrier.
    This project authorization is urgent in order to prevent 
aquatic nuisance species from passing freely into the Great 
Lakes, which would damage the economies of the Great Lakes 
States and the economy of Canada.
    Secondly, the construction of Brandon Road, as it moves 
forward following our authorization of this project, I urge the 
committee to provide the Corps with additional project 
authorization to mitigate the disruption of recreational 
activities in the surrounding area. Specifically, the Brandon 
Road project, as planned, would disrupt use of the 20-mile bike 
path that follows the historic Illinois and Michigan Canal 
downstream, as well as nearby pedestrian and bicycle paths 
along the Des Plaines River and Hickory Creek.
    And to mitigate this damage, Congress should require the 
Corps to use a small percentage of the project's money to 
integrate Brandon Road, the Brandon Road project, with the 
neighboring recreational areas along the I&M Canal, the Des 
Plaines River, and Hickory Creek. Specifically, this additional 
money should be used to improve and extend the bike path and 
walkways along these waterways, and to extend the path over 
Brandon Road Lock and Dam.
    Thirdly, because of the national scope of the threat, and 
the fact that the carp were introduced in a State hundreds of 
miles away, we request that the non-Federal cost share be 
waived for this project. The Asian carp and aquatic nuisance 
species are traveling up from the southern region of the 
Mississippi River. And, as a result, it has somehow become the 
responsibility of Illinois to prevent them from moving into 
Lake Michigan and the Great Lakes States. The Federal 
Government, therefore, should pay the full cost of this 
project.
    With these environmental and economic benefits in mind, I 
urge the committee to include Brandon Road's expanded 
authorization, including a waiver of the cost share, in WRDA. 
Or perhaps you could simply just transfer the cost share to 
Arkansas. Illinois did not create this problem, and we should 
not be forced to bear the cost of protecting the entire Great 
Lakes region and Canada.
    Finally, I would also like to draw your attention to 
another project that requires funding in my district, the Army 
Corps Joliet Flood Mitigation Study. Last year, FEMA placed the 
downtown portions of the city of Joliet within a flood plain. 
While FEMA is outside this committee's jurisdiction, FEMA's 
close coordination with the Army Corps is crucial, and I am 
gravely concerned that the recent flood plain determination 
will negatively impact Joliet's effort at downtown 
revitalization.
    Since this decision, the city of Joliet has actively worked 
with the Army Corps to design and construct a new floodwall, 
which can be certified as a levee and extend flood protections 
throughout the downtown. I strongly support ensuring the 
initial USACE-Joliet study is fully funded, and that the 
section 205 remediation project funding be directed to the 
city.
    Well, thank you again, and I yield back the balance of my 
time.
    [Mr. Foster's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Bill Foster, a Representative in Congress 
                       from the State of Illinois
    Good morning, and thank you Chairwoman Napolitano and Ranking 
Member Westerman for holding this Members' Day and to the members of 
the subcommittee for allowing me to testify here today.
    I am here this morning:
    <bullet>  To urge project authorization for the Brandon Road Lock 
and Dam in my district.
    <bullet>  To change the cost-share adjustment for Brandon Road.
    <bullet>  To support fully funding the Army Corps Joliet Flood 
Mitigation Study--Section 205.

    Brandon Road Lock and Dam, located along the Des Plaines River in 
Joliet, Illinois, serves as the last line of defense to prevent the 
spread of Asian Carp and other Aquatic Nuisance Species into the Great 
Lakes.
    This invasive species was introduced in Arkansas and has now 
traveled up the Mississippi Basin and is threatening environmental and 
economic catastrophe if it reaches the Great Lakes.
    The Army Corps submitted its Chief's Report in May 2019 and it's 
now Congress' responsibility to authorize the project, and to provide 
additional authorization for the Corps to rapidly study and implement 
options and technologies at Brandon Road that improve the efficacy of 
the Aquatic Nuisance Species measures similar to the efficacy study 
authority associated with the electric barrier.
    This project authorization is urgent in order to prevent Aquatic 
Nuisance Species from passing freely into the Great Lakes, which would 
affect the Great Lakes states' economies.
    As the construction of Brandon Road moves forward following our 
authorization of the project, I urge the committee to provide the Corps 
with additional project authorization to mitigate disruption to 
recreational activities in the surrounding area.
    Specifically, the Brandon Road project, as planned, would disrupt 
use of the 20-mile bike path that follows the Illinois & Michigan Canal 
downstream, as well as nearby pedestrian and bicycle paths along the 
Des Plaines River and Hickory Creek.
    To mitigate this damage, Congress should require the Corps to use a 
small percentage of the project's money to integrate Brandon Road with 
the neighboring recreational areas along the I&M Canal, Des Plaines 
River, and Hickory Creek. Specifically, this money should be used to 
improve and extend the bike path and walkways along these waterways and 
extend the path over Brandon Road Lock and Dam.
    Because of the national scope of the threat and the fact that the 
carp were introduced in a state hundreds of miles away, we request that 
the nonfederal cost share be waived for this project.
    The Asian Carp and Aquatic Nuisance Species are traveling from the 
Southern region of the Mississippi River and as a result, it has become 
the Great Lake states' responsibility to prevent them from moving 
closer to Lake Michigan. The federal government therefore needs to pay 
a larger share of this project.
    With these economic and environmental benefits in mind, I urge the 
committee to include Brandon Road's expanded authorization, including 
this cost-share waiver, in WRDA.
    Illinois did not create this problem, and should not be forced to 
bear the cost of protecting the entire Great Lakes region.
    I would also like to draw to your attention to another project that 
requires funding in my district--the Army Corps Joliet Flood Mitigation 
Study.
    Last year, FEMA placed the downtown portions of the City of Joliet 
within a floodplain.
    While FEMA is outside of the committee's jurisdiction, FEMA's close 
coordination with the Army Corps is crucial. I am gravely concerned 
that the recent floodplain determination will negatively impact 
Joliet's efforts at downtown revitalization.
    Since this decision, the city of Joliet has actively worked with 
the Army Corps to design and construct a new floodwall, which can be 
certified as a levee and extend flood protections through downtown.
    I strongly support ensuring the initial USACE-Joliet study is fully 
funded and completed in a timely manner and, that, once certified, that 
Section 205 remediation project funding be directed to the City.
    Thank you again, and I yield back the balance of my time.

    Mrs. Napolitano. Thank you very much for your testimony. It 
is very well put. Thank you, sir.
    Are there any questions from the committee?
    None?
    Seeing none, thank you, sir.
    I would like to recognize the next witness, the gentleman 
from New York, Mr. Higgins, for 5 minutes.

 TESTIMONY OF HON. BRIAN HIGGINS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Higgins of New York. Thank you, Chairwoman, Ranking 
Member Graves, and members of the committee. Thank you for 
giving me the opportunity to speak today about the impact that 
the growth of harmful algae blooms have on the future of 
communities I represent in western New York.
    This committee's consideration of the Water Resources 
Development Act this year is an opportunity to address this 
issue aggressively and proactively for communities like mine 
and across the country. I am hopeful that this bill can prevent 
communities like mine from seeing progress on water quality 
reversed due to the lack of readiness to evolving threats in 
our navigable waterways.
    The United States Army Corps of Engineers are the unsung 
heroes of the United States infrastructure and economic 
development. Their continued work on the Buffalo River played a 
major part in its revitalization from its polluted past, which 
is why today I will highlight the immense impact the Army Corps 
is poised to have in fighting another threat to our waters, the 
harmful and rapid increase of algae in Lake Erie. With funding 
from WRDA, the Corps can deploy innovative technologies to 
fight this scourge in our environment and communities.
    Harmful algae blooms are caused by nutrient runoff, and 
exist in all 50 States. Blooms plagued the western basin of 
Lake Erie in 2014. A bloom near Toledo, Ohio, shut down the 
city's drinking water for 2 entire days in 2019. Another algae 
bloom grew seven times the size of Cleveland--seven times the 
size of Cleveland. Scientists predict that the harmful algae 
bloom problem will continue to worsen, due to climate change.
    To preserve our Nation's bodies of waters, especially the 
Great Lakes, we must prioritize projects for harmful bloom 
mitigation. One such project is the HABITATS pilot program on 
Lake Okeechobee in Florida. The float and cut technology of the 
project is portable, and can be deployed quickly to help lessen 
the impact of potential blooms. The harvested algae can be 
recycled to consumer products like running shoes and yoga mats. 
As described by the Army Corps' report evaluating the pilot 
project, the data and scalability of the project shows great 
promise. Ninety-five percent of the algae was removed from the 
water.
    I urge my colleagues to support and prioritize Army Corps 
efforts, specifically from the Engineer Research and 
Development Center, to prevent and mitigate harmful algae 
blooms. Blooms cost the United States an estimated $1 billion 
each year. We must deploy preventable measures to avoid 
spending more time and resources to undo their significant 
damage.
    Thank you, I yield back my time.
    [Mr. Higgins of New York's prepared statement follows:]
                                 <F-dash>
Prepared Statement of Hon. Brian Higgins, a Representative in Congress 
                       from the State of New York
    Chairwoman Napolitano, Ranking Member Graves, Members of the 
Committee,
    Thank you for giving me the opportunity to speak today about the 
impact that the growth of harmful algae blooms will have on the future 
of the communities I represent in Western New York.
    The committee's consideration of the Water Resources Development 
Act this year is an opportunity to address this issue aggressively and 
proactively for communities like mine and across the country.
    I am hopeful that this bill can prevent communities like mine from 
seeing progress on water quality reversed due to a lack of readiness to 
evolving threats in our navigable waterways.
    The United States Army Corps of Engineers are the unsung heroes of 
United States' infrastructure and economic development. Their continued 
work on the Buffalo River played a major part in its revitalization 
from its polluted past. Which is why today I will highlight the immense 
impact the Army Corps is poised to have in fighting another threat to 
our waters, the harmful and rapid increase in algae in Lake Erie. With 
funding from WRDA, the Corps can deploy innovative technologies to 
fight this scourge in our environment and communities.
    Harmful algae blooms are caused by nutrient runoff and exist in all 
fifty states. Blooms plague the western basin of Lake Erie. In 2014, a 
bloom near Toledo, Ohio shut down the city's drinking water for two 
entire days. In 2019, another algae bloom grew to seven times the size 
of Cleveland, seven times the size of Cleveland.
    Scientists predict that the harmful algae bloom problem will 
continue to worsen due to climate change. To preserve our nation's 
bodies of water, especially the Great Lakes, we must prioritize 
projects for harmful bloom mitigation.
    One such project is the HABITATS pilot program on Lake Okeechobee 
in Florida. The float and cut technology of the project is portable and 
can be deployed quickly, to help lessen the impact of potential blooms. 
The harvested algae can be recycled to consumer products like running 
shoes and yoga mats.
    As described in the Army Corps' report to evaluate the pilot 
project, the data and scalability of the project shows great promise. 
Ninety-five percent of the algae was removed from the water.
    I urge my colleagues to support and prioritize Army Corps' efforts, 
specifically from the Engineer Research and Development Center, to 
prevent and mitigate Harmful Algae Blooms. Blooms cost the United 
States an estimate of $1 billion each year. We must deploy preventative 
measures to avoid spending more time and resources to undo their 
significant damage. Thank you and I yield back.

    Mrs. Napolitano. Thank you for your testimony, Mr. Higgins.
    And now I would like to ask if any member of this committee 
has a question.
    Seeing none, thank you very much.
    I would like to recognize the next witness, the gentlewoman 
from California, Ms. Sanchez, for 5 minutes.

    TESTIMONY OF HON. LINDA T. SANCHEZ, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Sanchez. Thank you, Chairwoman Napolitano and Ranking 
Member Westerman, for providing this opportunity to testify 
today on an issue that is extremely important to the safety of 
the residents of Los Angeles County.
    I am so glad to report that the Whittier Narrows Dam in the 
city of Pico Rivera, California, is in the planning stages for 
restoration.
    The Whittier Narrows Dam--I can't say that 10 times fast--
is located in my district, and was built in 1957. It is one of 
the most crucial elements of flood control infrastructure in 
southern California. It prevents the San Gabriel and Rio Hondo 
riverbanks from overflowing during major storm events, which 
protects millions of downstream residents.
    As climate change results in more severe flooding, these 
events will become more frequent and more extreme. In 2017, the 
Corps designated Whittier Narrows as one of its highest 
priority safety projects. The Corps found an unacceptable 
likelihood of dam malfunctions during severe weather events. 
Should the dam malfunction, or even fail, the loss of life and 
economic disruption would be unimaginable.
    I was pleased that we were able to get the Corps to include 
more than $393 million for the Whittier Narrows Dam Safety and 
Seepage Program in its budget and workplan. And I am strongly 
supporting the project in the 2021 appropriations cycle.
    As we work together to move the Whittier Narrows Dam Safety 
project forward, I urge the subcommittee to help mitigate the 
project's impact on the surrounding community. The city of Pico 
Rivera, where the dam is located, will be permanently disrupted 
by the project. It is a built-out city with very little land 
for recreation and open space. The city leases its parkland 
from the Corps. Unfortunately, the Corps will have to demolish 
much of the city's parks and recreation facilities for 
construction activities and other modifications, including 
staging of the actual construction.
    The city estimates that the resulting cost to the community 
will be more than $100 million. While we can all agree that 
restoring the Whittier Narrows Dam is the highest priority, the 
project will have a heavy impact on working families in a 
majority Latino community. I urge the subcommittee to consider 
the city of Pico Rivera's section 7001 proposal.
    I also request the subcommittee work with me to minimize 
disruption to working families and communities like Pico Rivera 
as a result of Army Corps projects.
    I look forward to welcoming members of the subcommittee to 
my district next week to hear directly from the Army Corps as 
to why this project is such a critical project.
    Thank you for the opportunity to testify. I appreciate your 
past and future support of this project, and I yield back the 
balance of my time.
    [Ms. Sanchez's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Linda T. Sanchez, a Representative in 
                 Congress from the State of California
    Chairwoman Napolitano and Ranking Member Westerman, thank you for 
providing this opportunity to testify today on an issue that is 
extremely important to the safety of Los Angeles County residents. I 
want to thank the Chairwoman for partnering with me on the restoration 
of the Whittier Narrows Dam in the City of Pico Rivera, California.
    The Whittier Narrows Dam was built in 1957 and is one of the most 
crucial elements of flood control infrastructure in Southern 
California. It prevents the San Gabriel and Rio Hondo river banks from 
overflowing during major storm events which protects millions of 
downstream residents. As climate change results in more severe 
flooding, these events will become more frequent and extreme.
    In 2017, the Corps designated Whittier Narrows as one of its 
highest priority safety projects. The Corps found an unacceptable 
likelihood of dam malfunctions during severe weather events. Should the 
Dam malfunction or even fail, the disruption and possible loss of life 
to residents and businesses would be unimaginable.
    I was pleased that the Corps included more than $393 million for 
the Whittier Narrows Dam Safety and Seepage Program in its Budget and 
Work Plan. I am proud to partner once again with the Chairwoman to 
ensure strong support for the project in the FY2021 appropriations 
cycle.
    As we work together to move the Whittier Narrows Dam safety project 
forward, I urge the Subcommittee to help mitigate the project's impact 
on the surrounding community. The City of Pico Rivera, where the Dam is 
located, will be permanently disrupted by the project. The City leases 
its park land from the Corps. Unfortunately, the Corps will have to 
demolish much of the city's parks and recreation facilities for 
construction activities and other modifications.
    The City estimates the cost to the community will be more than $100 
million. While we can all agree that restoring the Whittier Narrows Dam 
is the highest priority, the project's impact on working families in a 
majority Latino community will be heavy. I urge the Subcommittee to 
consider the City of Pico Rivera's Section 7001 proposal. I also 
request Subcommittee work with me to minimize disruption to working 
families in communities like Pico Rivera as a result of Army Corps 
projects.
    I look forward to welcoming members of the Subcommittee to Pico 
Rivera next week to hear directly from the Army Corps of Engineers why 
this project is critical for millions of people. Thank you for the 
opportunity to testify. I yield back the balance of my time.

    Mrs. Napolitano. Thank you for your testimony.
    And does any member of the committee wish to question?
    Seeing none, I now would like to recognize our next 
witness, the gentleman from Tennessee, Mr. Cooper.
    Thank you, sir. For 5 minutes.

TESTIMONY OF HON. JIM COOPER, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF TENNESSEE

    Mr. Cooper. Thank you, Chairwoman Napolitano and Ranking 
Member LaMalfa.
    I have the honor of representing Nashville, Tennessee, one 
of the most thriving, growing cities in America. Nashville is 
located on the Cumberland River. And I need your help.
    In fact, I am begging for your help, because all I need are 
three words. I don't need any money. I just need permission for 
the Army Corps of Engineers to operate the three existing dams 
that are above Nashville. The only dams above Nashville, right 
on the Cumberland River, the Old Hickory Dam and the Cordell 
Hull Dam, I need them to have permission to do flood control 
storage. Right now those dams are only authorized for 
navigation and for electrical, and those are fine purposes, but 
Nashville was devastated by a 2010 flood.
    The 10th anniversary is coming up this year, and in the 10 
intervening years we have done almost nothing to mitigate the 
damage the water could cause. We bought some houses, but really 
no project to help. These are existing dams. They were designed 
in 1946. No one envisioned climate change. No one envisioned 
that Nashville would multiply in size. And now we need to use 
those existing dams for more a flexible purpose, not only to 
save the city, but actually to help the Army Corps itself, 
because, as the Corps issued a press release in 2010, we came 
within 7 inches of the Old Hickory Dam being overtopped. The 
Corps said if that dam had been overtopped, it could have 
devastated the city with another 4 feet of water.
    So this also gives the Corps management flexibility of 
existing assets. This is flexibility they need, flexibility 
they deserve. So let's not keep the Corps in a straitjacket in 
the Nashville community. Let's give them the freedom to save 
the city.
    I thank the chair, and I yield back the balance of my time.
    [Mr. Cooper's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Jim Cooper, a Representative in Congress 
                      from the State of Tennessee
    You can solve my problem with no money and three words: ``flood 
control storage.''
    I represent Nashville, Tennessee, a thriving, fast-growing city on 
the Cumberland River that lies below two dams, Old Hickory and Cordell 
Hull, that are not allowed to be used for ``flood control storage'' 
under their congressional authorizations. These are so-called ``run-of-
river'' dams that can be used for ``flood surcharge storage'' but not 
to mitigate flooding downstream during torrential rainfalls.
    Nashville suffered billions of dollars of flood damages in the 2010 
flood but, in the ten years since, very little has been done to 
mitigate the chance of future flooding. The Army Corps of Engineers, 
Nashville District, has participated in numerous home buyouts and other 
minor improvements but their proposals for a $100 million downtown 
floodwall and a small $18 million dry dam have not come close to 
fruition. I am not asking you for any money, only three words that will 
allow us to better manage our river.
    On the tenth anniversary of the catastrophic flood, Nashvillians 
are naturally asking what has been done to reduce the chance of 
reoccurrence. By adding these three words to the authorization of the 
two dams, this Committee can finally give the Corps the flexibility it 
has long needed to better manage flooding of the Cumberland, the most 
flood-prone navigable waterway in the United States.
    The straight jacket that the Corps has been operating under only 
allows Old Hickory and Cordell Hull to be used for navigation and 
hydropower. These are important functions but increasingly outmoded, at 
least during flood events. There is only one barge customer left above 
Old Hickory and TVA is easily able to adjust electrical loads. In fact, 
one of the three turbines at Old Hickory has been down for repairs for 
some time with few adverse consequences. Power generation must be 
suspended during flood events anyway.
    During heavy rainfall, however, Nashville is in urgent need of 
having better flood protection all along its 67 miles of river 
frontage. Below Nashville, Cheatham County is also in need. Allowing 
these dams to be used for flood control storage could give the Corps 
the flexibility it needs to protect everyone downstream, as well as the 
management flexibility it needs to prevent possible over-topping of the 
dams. During the 2010 flood, the Corps came within 7 inches of 
overtopping Old Hickory, a tragedy that would have been even more 
devastating to Nashville. Overtopping would have, according to the 
Corps, increased flooding by four feet, adding many billions of 
dollars-worth of damage.
    I know that Old Hickory and Cordell Hull were not designed to be 
flood control dams, and that dock owners on the lakes will not enjoy 
even a temporary draw-down of lake levels. But lowering lake levels in 
advance of huge rains will not do any structural harm to the dams but 
would give the Corps much more margin of error in the event of any 
unexpected deluge or other unanticipated event. Seven inches is way too 
close a call for one of America's most dynamic cities. And I am sure 
that boaters upstream will accept a minor inconvenience if that is the 
price they pay for saving Nashville in an extraordinary event. I am 
certain that they would prefer temporary low levels to any tax increase 
to pay for the catastrophic damage that severe flooding will cause.

    Mrs. Napolitano. Well, thank you very much, Mr. Cooper. And 
it makes sense, but we will see what happens.
    Mr. Cooper. Thank you.
    Mrs. Napolitano. Thank you. Now I want to know if any 
member of the committee wishes to question.
    No?
    Seeing none, I now recognize our next witness, the 
gentleman from Wisconsin, Mr. Steil.

  TESTIMONY OF HON. BRYAN STEIL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Steil. Thank you, Chairwoman Napolitano, and Ranking 
Member Westerman, and members of the Subcommittee on Water 
Resources and Environment, for holding today's hearing.
    The Water Resources Development Act invests in America's 
water infrastructure, generating economic growth and protecting 
our communities. Thanks for giving me the opportunity to shine 
a light on the issues facing Wisconsin and the Greater Midwest 
region. Southeast Wisconsin includes Racine, Kenosha, and 
Milwaukee Counties, and Lake Michigan is vital to our 
communities.
    Why are the Great Lakes so important to Wisconsin and the 
Midwest? Millions of people live along the shores of the Great 
Lakes. The two largest cities in the First Congressional 
District are on the shores of Lake Michigan. About 100,000 
people live in Kenosha. About 75,000 people live in Racine. If 
the Great Lakes region was a country, it would have the third 
largest economy in the world. The Great Lakes ports have 
generated $1.4 billion in economic impact in Wisconsin, and 
Wisconsin tourism has a $450 million impact on Racine and 
Kenosha Counties, and a large part of that is driven by Lake 
Michigan.
    Today I would like to touch on two Great Lakes priorities 
that are included in the 2020 WRDA, the Great Lakes Coastal 
Resiliency Study and the Brandon Road project.
    First, the Great Lakes Coast Resiliency Study. After 
experiencing record-low water levels in 2013, Lake Michigan is 
now nearing record-high water levels. Shoreline erosion is 
becoming a very serious issue. For example, during a recent 
storm in January, high winds, combined with high water levels, 
resulted in significant flooding and extensive damage in 
Kenosha, Milwaukee, and Racine Counties. According to recent 
assessments, southeast Wisconsin reported $30 million of damage 
to public infrastructure from that storm alone.
    As the State and local governments continue to work through 
appropriate channels to address the damage, the Federal 
Government also has a role to play, and that is why I am here 
today. As part of the 2020 WRDA, I ask that you fully fund the 
Great Lakes Coastal Resiliency Study.
    The Great Lakes Coastal Resiliency Study brings together 
eight Great Lakes States and Federal partners to examine our 
shoreline and prevent environmental hazards. The study area 
includes more than 5,000 miles of shoreline. This is a Federal 
program that helps detect vulnerabilities along the shoreline, 
and improves community sustainability for generations to come.
    Finally, I ask that the committee adequately fund the 
Brandon Road project to prevent Asian carp from entering the 
Great Lakes. This species poses a great threat to the viability 
of the region. Asian carp are known for their voracious 
appetites and for decimating native fish populations. And they 
have been found just a few miles from the Great Lakes shores. 
The Asian carp has the potential to hurt the $7 billion fishing 
industry in the Great Lakes. Preventing Asian carp in the Great 
Lakes is needed to sustain our fishing industry.
    The Brandon Road project, an Army Corps of Engineers 
program, is a preventative measure to safeguard the Great 
Lakes. Adequately funding the Brandon Road project in the 2020 
WRDA would help States like Wisconsin, and address threats to 
our ecosystem and economy.
    Again, I want to thank the chair and ranking members and 
members of this committee for having me here today. Your 
support for the Great Lakes does not go unnoticed. They are 
vital to Wisconsin and the entire Midwest. And I look forward 
to working with you on this important issue.
    [Mr. Steil's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Bryan Steil, a Representative in Congress 
                      from the State of Wisconsin
    Thank you to Chairman Peter DeFazio and Ranking Member Sam Graves 
of the Committee on Transportation and Infrastructure and to Chairwoman 
Grace Napolitano and Ranking Member Bruce Westerman of the Subcommittee 
on Water Resources and Environment for holding this hearing.
    The Water Resources Development Act, WRDA, invests in America's 
water infrastructure, generating economic growth and protecting our 
communities.
    Thank you for giving me the opportunity to shine a light on issues 
facing Wisconsin and the greater Midwest region.
    Southeast Wisconsin includes Kenosha, Racine, and Milwaukee 
counties and Lake Michigan is vital to our communities.
    Why are the Great Lakes so important to Wisconsin and the Midwest?
    Millions of people live along the Great Lakes' coast.
    And the two largest cities in my district sit on the shores of Lake 
Michigan.
    According to the Census Bureau, 100,164 people live in Kenosha.
    77,432 people live in Racine.
    If the Great Lakes region was a country, it would have the third 
largest economy in the world.
    The Great Lakes ports have generated $1.4 billion in economic 
impact in Wisconsin.
    Wisconsin tourism has a $477 million impact on Racine and Kenosha 
counties and much of that is driven by Lake Michigan.
    Today, I'd like to touch on two Great Lakes' priorities to include 
in the 2020 WRDA: The Great Lakes Coastal Resiliency Study and the 
Brandon Road Project.
    First, the Great Lakes Coastal Resiliency Study.
    After experiencing record low water levels in 2013, Lake Michigan 
is nearing record high water levels.
    Shoreline erosion is becoming a serious issue.
    For example, during a recent storm in January, high winds, combined 
with high water levels, resulted in significant flooding and extensive 
damage in Kenosha, Milwaukee, and Racine counties.
    According to recent assessments, Southeast Wisconsin reported $30 
million in damage to public infrastructure.
    As the state and local governments continue to work through 
appropriate channels to address the damage, the federal government also 
has a role to play.
    That is why I am here today.
    As a part of the 2020 WRDA, I ask that you fully fund the Great 
Lakes Coastal Resiliency Study.
    The Great Lakes Coastal Resiliency Study brings together the eight 
Great Lakes states and federal partners to examine our shorelines and 
prevent environmental hazards.
    The Study area includes more than 5,000 miles of shoreline.
    This is a federal program that helps detect vulnerabilities along 
the shoreline and improve our communities' sustainability for 
generations to come.
    Finally, I ask that the Committee adequately funds the Brandon Road 
Project to prevent the Asian Carp from entering the Great Lakes.
    This species poses a great threat to the viability of the region.
    The Asian Carp are known for their voracious appetites and for 
decimating native fish populations.
    And, they've been found only a few miles from Lake Michigan.
    The Asian Carp has the potential to hurt the $7 billion fishing 
industry of the Great Lakes.
    Preventing the establishment of the Asian Carp in the Great Lakes 
is an effective approach to sustain our fishing industry.
    The Brandon Road Project, an Army Corps of Engineers program, is a 
preventive measure to safeguard the Great Lakes.
    Adequately funding the Brandon Road Project in the 2020 WRDA would 
greatly help states, like Wisconsin, address threats to our ecosystem 
and economy.
    Again, I want to thank the Chair and Ranking Member for having me 
here today.
    Your support of the Great Lakes does not go unnoticed.
    I look forward to working with you so Wisconsin's valuable natural 
resources stay sustainable for generations to come.

    Mrs. Napolitano. Thank you for your testimony, Mr. Steil, I 
really appreciate it.
    And does any Member wish to question?
    No?
    Seeing none, thank you very much.
    I would now like to recognize our next witness, the 
gentleman from Michigan, Mr. Huizenga, for 5 minutes.

 TESTIMONY OF HON. BILL HUIZENGA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Huizenga. There we go, sorry. A slightly different 
system over in the Financial Services Committee, so--but thank 
you. And I appreciate the opportunity to come. And much like my 
friend from Wisconsin who just got done testifying, I too want 
to talk about the Great Lakes. This is a great opportunity for 
this committee to allow Members to come and talk about their 
districts, and talk about the issues in their region.
    And one thing that I would like to add is, as we meet 
today, the current state of erosion and high water damage is at 
a crisis point throughout the Great Lakes Basin and the region. 
In my district, along the shores of Lake Michigan, the high 
water levels are a threat to people's homes, public 
infrastructure, and the overall ecology and economy of the 
Great Lakes. As we continue to see the shoreline erode, and the 
water levels rise, Government at all levels needs to be 
prepared to step in. Whether it is roads, bridges, breakwaters, 
or wastewater treatment facilities, the potential for damage 
due to high water levels is grave and real.
    Furthermore, the amount of debris that has fallen into the 
lakes as a result of this erosion also poses a significant 
threat to shipping, public beaches, and recreational boating. 
Recently I had an opportunity to take a Coast Guard helicopter 
flight, and we flew the length of the district, and even the 
Coast Guard helicopter pilots were surprised at the damage that 
has been going on.
    And one of them who had been stationed up in Alaska made 
the comment that one of their main concerns is the number of 
what they call deadheads, those trees and other debris that is 
going into the lake, and the damage that that could pose to 
recreational boaters especially, because in the Great Lakes 
those tend to be fiberglass-hulled vessels, versus steel-hulled 
up in Alaska and other places, not to mention, you know, the 
personal watercraft, and the things that are going to be out 
there. So there is some real fear for damage, not just property 
damage, but personal damage.
    I just am asking, as the committee develops the Water 
Resources Development Act of 2020, I urge Members to include 
provisions that would protect and restore the resiliency of the 
Great Lakes shoreline for today, tomorrow, and generations to 
come.
    Additionally, I am also here today because of Asian carp. 
And, as the Republican cochair of the Great Lakes Task Force, 
this has been something that we have been keeping an eye on for 
a number of years. The Asian carp and other invasive species 
are on the doorstep of infiltrating the Great Lakes system. The 
importance of protecting our vulnerable lakes' freshwater 
system from this disastrous invasive species cannot be 
overstated. In fact, the introduction of nonnative species to 
the Great Lakes is currently one of the greatest economic and 
environmental threats to the region.
    The preventive measures that we currently have in place are 
only temporary solutions, as Asian carp have been found only a 
few miles away from Lake Michigan, as has been noted. However, 
the Brandon Road Lock and Dam in Joliet, Illinois, has been 
identified as the key choke point in safeguarding the Great 
Lakes ecosystem and the economy. Timely completion of the work 
at Brandon Road is essential for the next steps in the process 
of safeguarding the Great Lakes region. It provides drinking 
water for over 30 million people, supports $7 billion in the 
fishing industry, and a $16 billion boating industry.
    We have a small but critical window of opportunity to 
prevent the upstream transfer of this species. In 2019 the Army 
Corps of Engineers delivered its Chief's Report on the Brandon 
Road Lock and Dam project to Congress. The lock is a logical 
point to install both structural and nonstructural control 
measures to prevent this movement into the lake.
    Additionally, in conversations with President Trump 
directly, he has expressed his support for protecting and 
preserving the Great Lakes for future generations, and the 
Brandon Road project. So I am loving to see that congressional 
and White House cooperation.
    Congress needs to make protecting and preserving the Great 
Lakes a national priority; it can do this by authorizing this 
project through WRDA, so that the control measures can be 
implemented with the necessary urgency. A further delay only 
increases the likelihood that this threat becomes full-scale, 
irreversible, and with this highly destructive invasive 
species.
    And finally, I would like to thank the committee for your 
work on maintaining the harbors, ports, and navigation channels 
around our Nation from the coast to the Great Lakes. These 
harbors and navigation channels are a vital part of our 
Nation's transportation infrastructure, and a reduction in the 
capacity can have significant impacts on local communities.
    Our identity in west Michigan is directly tied to the Great 
Lakes, and I appreciate Congress' willingness to support it.
    So with that, I yield back.
    [Mr. Huizenga's prepared statement follows:]
                                 <F-dash>
Prepared Statement of Hon. Bill Huizenga, a Representative in Congress 
                       from the State of Michigan
    Thank you, Chairman DeFazio, Ranking Member Graves, and members of 
the Transportation & Infrastructure Committee, for allowing members to 
share their priorities and the needs of their district at this member 
day hearing.
    As we meet today, the current state of erosion and high-water 
damage is at a crisis point throughout the Great Lakes region.
    In my district--along the shores of Lake Michigan--the high-water 
levels are a threat to people's homes, public infrastructure, and the 
overall ecology and economy of the Great Lakes.
    As we continue to see the shoreline erode and the water levels 
rise, government at all levels must be prepared to step in.
    Whether it is roads, bridges, breakwaters, or wastewater treatment 
facilities, the potential for damage due to high-water levels is grave.
    Furthermore--the amount of debris that has fallen into the lakes as 
a result of this erosion also poses a significant threat to shipping, 
public beaches, and recreational boating.
    As the committee develops the Water Resources Development Act of 
2020, I urge the members to include provisions that would protect and 
restore the resiliency of the Great Lakes shoreline for today, 
tomorrow, and generations to come.
    Additionally, I am also here today because Asian carp--an invasive 
species with voracious appetites--are on the doorstep of infiltrating 
the Great Lakes system.
    The importance of protecting our vulnerable Great Lakes freshwater 
system from this disastrous invasive species cannot be overstated. In 
fact--the introduction of non-native species to the Great Lakes is 
currently one of the greatest economic and environmental threats to our 
region.
    The preventative measures we currently have in place are only 
temporary solutions, as Asian carp have been found only a few miles 
from Lake Michigan.
    However--the Brandon Road Lock and Dam in Joliet, Illinois has been 
identified as the key choke point in safeguarding our Great Lakes 
ecosystem and economy.
    The timely completion of the work at Brandon Road is an essential 
next step in the process to safeguard the Great Lakes region--which 
provides drinking water to over 30 million people and supports a $7 
billion fishing and $16 billion boating industry.
    We have a small but critical window of opportunity to prevent the 
upstream transfer of this species.
    In 2019, the U.S. Army Corps of Engineers delivered its Chief's 
Report on the Brandon Road Lock and Dam project to Congress. This lock 
is a logical point to install both structural and non-structural 
control measures to prevent this movement into the lake.
    Additionally, in my conversations with President Trump, he has 
expressed his support for protecting and preserving the Great Lakes for 
future generations.
    Congress needs to make protecting and preserving the Great Lakes a 
national priority--it can do this by authorizing this project through 
WRDA, so that the control measures can be implemented with the 
necessary urgency.
    Further delay only increases the likelihood that this threat 
becomes a full scale, irreversible inundation of this highly 
destructive invasive species.
    Finally, I would like to thank the committee for your work to 
maintain the harbors, ports, and navigation channels around our 
nation--from the coasts to the Great Lakes.
    These harbors and navigation channels are a vital part of our 
nation's transportation infrastructure and a reduction in their 
capacity can have significant impacts on local communities.
    American ports serve as a critical link to connect U.S. 
manufacturers, farmers, and businesses with markets around the world 
and are indispensable to making the export of U.S. goods cost-
competitive.
    I encourage you to continue to provide valuable resources and 
support to maintain our harbors and navigation channels in the Great 
Lakes and on the coasts.
    In West Michigan--our identity is directly tied to the health of 
the Great Lakes. It is critical that Congress take the necessary steps 
to protect against erosion, high water, and invasive species, while 
also working to protect and restore our channels and harbors.
    Chairman DeFazio, Ranking Member Graves, and members of the 
committee--Thank you again for offering this opportunity and for 
working with us on these important endeavors.

    Mrs. Napolitano. Thank you very much for your testimony, 
and I would like to recognize Mr. LaMalfa for a comment.
    Mr. LaMalfa. Thank you, Madam Chair, and I appreciate the 
work of this committee.
    I just wanted to offer a comment on--in general, on the 
infrastructure issues we have. Being from California, as well, 
up in the north, I have great concern that we are entering into 
a drought period again. It looks like we are going to go the 
entirety of February without any precipitation, which goes back 
to 1864 since the last time something like that has happened, 
according to the record.
    And disturbing news here the other day that the Anderson 
Dam in the Morgan Hill, South San Jose area, FERC has 
determined that, because of an earthquake issue, that that dam 
probably needs to be drained because of an unsafe situation 
there. And so that means 90,000 acre-feet will now not be 
available to the citizens of South San Jose, Morgan Hill, and 
that area there, because of that. The district will likely have 
to replace that with groundwater. And, as we know in 
California, with the new regulation called SGMA, then that will 
be exacerbated on the challenges we have with groundwater in 
the State.
    And so our task here needs to be taking a longer look at 
our dams and our water storage, as well as our flood control 
systems with FERC, with Army Corps, with State projects, 
whatever, all of the above, to not only find things that are 
wrong, but to, you know, expedite repairs that are needed.
    And so, when we are talking about the Anderson Dam, that 
needs to be put back online as soon as possible, in my view, 
because we are not just going to make up 90,000 acre-feet for 
the Bay Area, South Bay Area folks, up my way.
    We had the issue with the Lake Oroville spillway 3 years 
ago that--really, I mean, a project the size--and that 
magnitude, 3\1/2\ million acre-feet being paralyzed, what that 
means for the whole State of California, we have to look really 
hard at our infrastructure for that, and come up with solutions 
to make sure they are in repair.
    We have a backlog of repairs, a backlog of inspection, I 
think overall, and probably a lot of our projects around our 
own State of California, Madam Chairman, and around the 
country. We can't lose these assets due to inaction, and have 
this be an excuse for, in some cases, just flat dam removal, as 
some would like to do. So this backlog must be addressed 
because we cannot lose these assets, these resources, and 
continue to operate in any kind of a really type of a 
civilization that we have become accustomed to, with even more 
regulation coming down the line.
    So I am really, really concerned that this may become more 
of a trend in losing these water storage projects because of 
lack of maintenance, lack of inspection, and inability to keep 
up and keep them modernized.
    So I thank you for the opportunity, Madam Chairman.
    Mrs. Napolitano. Thank you, Mr. LaMalfa. And I--do you have 
any questions for yourself?
    Mr. LaMalfa. I question myself quite a bit, but----
    [Laughter.]
    Mrs. Napolitano. Thank you very much for those comments. 
And I agree. There has got to be more focus put on the 
necessities of the whole country. Prioritize them.
    I would now like to recognize our next witness, the 
gentleman from Louisiana, Mr. Higgins.

 TESTIMONY OF HON. CLAY HIGGINS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Higgins of Louisiana. Madam Chairwoman, my esteemed 
colleagues, thank you very much for allowing me to speak with 
you today. As a Representative for Louisiana's Third 
Congressional District, I would like to thank you all for your 
continued focus on the health of our Nation's waterways, and 
for the thoughtful consideration you will no doubt give to the 
issues before you today.
    I do not envy the decisions that you must make, but I am 
here to present our plea and our case. Like many of my 
colleagues, I need to discuss the impact of the projects and 
issues that your committee has been discussing as you continue 
to work on this year's Water Resources Development Act, WRDA.
    I am sure it is no surprise that a Member of the Louisiana 
delegation is here to talk to you about the importance of 5,000 
miles of navigable rivers, bayous, ship channels, and canals 
that make up our State's waterways. The importance of these 
waterways and management systems to Louisiana and the entire 
Nation cannot be underestimated.
    The Mississippi River Basin drains one-third of the 
Nation's waters. Indeed, beyond the American Nation--all of 
North America. Canada is included. We drain one-third of the 
Nation's waters, we receive one-third of the Nation's sediment. 
And we don't get further south than south Louisiana, which is 
where I represent. So the management and maintenance of these 
waterways is incredibly important.
    Coastal Louisiana leads the Nation in waterborne commerce. 
Sixty percent of United States grain moves through our coastal 
ports. Twenty-one percent of all commercial fisheries landings 
by weight from the lower 48 States come from our region. 
Twenty-three percent of the total U.S. crude is produced in 
Louisiana. Eighteen percent of the U.S. oil supply comes from 
Port Fourchon. Twenty percent of the Nation's waterborne 
commerce travels through Louisiana waters. Five million 
waterfowl depend upon Louisiana for habitat.
    While many of you know the important role that large 
waterway systems like the Mississippi River and its tributaries 
play in our economy, you may not know the drastic impacts that 
focused Corps of Engineers attention, WRDA authorization, and 
workplan dollars can play on smaller systems.
    For instance, the Calcasieu Ship Channel, 68 miles long, 
and authorized to be dredged 400 feet wide and 40 feet deep. 
This channel requires around $40 million a year to be 
completely dredged. And when you balance that against the fact 
that this channel is the sole access point to the Gulf of 
Mexico, not only for the existing industry there, but for the 
epicenter of LNG production and $200 billion worth of new 
projects, it is our only ship channel.
    And consider the fact that the Port of Lake Charles, which 
this channel services, sends an average of $400 million in 
Federal taxes to DC. So the $40 million imbalance becomes quite 
reasonable. This means thousands upon thousands of jobs are 
completely relying on making sure that the types of 
authorizations and expenditures we are talking about today are 
considered and made expeditiously.
    It is also imperative that we continue to make improvements 
to the functioning of the Corps of Engineers. An example of one 
type of improvement is my amendment that was added on the floor 
to the 2018 WRDA bill that made a commonsense change in the way 
the Corps obtains easements for completing projects. This 
amendment focused on removing unnecessary burdens and costs 
that the Corps of Engineers were mandated to take, and 
jeopardized progress on many projects in my district. Since its 
implementation, the Corps has been able to move forward with 
work they would not have been otherwise able to do.
    And I thank my colleagues for supporting that amendment. It 
has made a big difference. I very much appreciate my friend and 
colleague, Congressman Garret Graves, for his leadership and 
assistance with getting that important amendment to the floor 
and added.
    Beyond the economic impacts of the work you are doing 
today, it is also important, I believe, to remember the health 
of these waterways as it is related to flood protection. Two 
million people live in coastal Louisiana. As many of you know, 
we have experienced several devastating floods and hurricanes 
in recent years. Healthy and well-maintained waterways are an 
important resource in the flood mitigation arena.
    I will leave you with this thought from my personal 
response to rescue and relief efforts after a recent hurricane 
brought tremendous rains and waters to south Louisiana and 
Texas. We went to Texas. It was about 2 o'clock in the morning. 
We helped an elderly gentleman escape from his home. He told 
me, when he found out who I was, he said, ``Congressman 
Higgins, I have been in my house since 1968. We have never 
flooded.'' He said that, ``God is not dropping more rain on us, 
we just haven't maintained and managed our waterways to allow 
the water to get further south.''
    So I very much appreciate you allowing me to speak to you 
today. Thank you for your consideration. God bless you for the 
work you do.
    [Mr. Higgins of Louisiana's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Clay Higgins, a Representative in Congress 
                      from the State of Louisiana
    Chairman DeFazio, Ranking Member Graves, members of the House 
Committee on Transportation and Infrastructure, thank you for this 
opportunity to speak before you today.
    As the representative for Louisiana's Third Congressional District, 
I want to thank all of you for your continued focus on the health of 
our nation's waterways, and for the thoughtful consideration you will 
no doubt give to the issues before you today.
    Like many of my colleagues, I am here to discuss the impact of many 
of the projects and issues that your committee has been discussing as 
you continue to work on this year's Water Resources Development Act 
(WRDA).
    I am sure that it is no surprise that a member of the Louisiana 
delegation is here before you to talk about the importance of the 5,000 
miles of navigable rivers, bayous, creeks and canals that make up our 
state's waterways.
    The importance of these waterways to Louisiana and the entire 
nation cannot be underestimated. Coastal Louisiana leads the nation in 
waterborne commerce:
    <bullet>  60% of U.S. grain moves through our coastal ports; and
    <bullet>  21% of all commercial fisheries landings by weight from 
the lower 48 states come from our region.
    <bullet>  23% of the total U.S. Crude is produced in LA.
    <bullet>  18% of the US oil supply comes from Port Fourchon.
    <bullet>  20% of the nation's waterborne commerce travels through 
LA waters.
    <bullet>  5 million waterfowl depend on Louisiana for habitat.

    While many of you know of the important role that large waterway 
systems like the Mississippi River and its tributaries play in our 
economy, you may not know the drastic impacts that focused Corps of 
Engineers'(Corps) attention, WRDA authorization, and work plan dollars 
can play on smaller systems.
    Take for instance the Calcasieu channel, which is 68 miles long and 
authorized to be dredged to 400 feet wide and 40 feet deep. This 
channel requires around $40 million a year to be completely dredged. 
Which may sound like a lot, but when you consider that this channel is 
the sole access point to the Gulf of Mexico not only for the existing 
industry in the area, but also for over $100 billion in new projects.
    This means thousands upon thousands of jobs are completely reliant 
on making sure that the types of authorizations and expenditures we are 
talking about today are considered and made expeditiously.
    It is also imperative that we continue to make improvements to the 
functioning of the Corps. An example of one type of improvement is my 
amendment that was added on the floor to the 2018 WRDA bill that made a 
commonsense change to the way that the Corps obtains easements for 
completing projects. This amendment focused on removing unnecessary 
burdens and costs that the Corps was mandated to take and jeopardized 
progress on several projects in my district. Since its implementation, 
the Corps has been able to move forward with work they would not have 
otherwise been able to do. I want to thank my friend and colleague, 
Congressman Garret Graves, for his leadership and assistance with 
getting that important amendment added.
    Beyond the economic impacts of the work you are doing today, it is 
also important to remember that the health of these waterways also is 
related to flood protection. 2 million people live in Coastal 
Louisiana, and as many of you know we have experienced several 
devastating floods and hurricanes in recent years.
    Healthy and well-maintained waterways are an important resource in 
the flood mitigation arena. Authorizing maintenance projects for 
economic purposes often have a side benefit of providing an extra layer 
of protection for water related disasters. Spending millions now to 
dredge these systems helps save us billions when the storms clear.
    Thank you again to the Chairman, the Ranking Member, and members of 
the committee for allowing me to speak today.

    Mrs. Napolitano. Thank you for your testimony, Mr. Higgins. 
As we wait for more Members to show up, we will call a recess 
until 1 o'clock. That way we can line up Members as they come 
in. Thank you.
    [Recess.]
    Mrs. Napolitano. And I would like to thank you for coming 
and being a witness to some testimony on WRDA. I would like to 
recognize Mr. Posey, the gentleman from Florida, for 5 minutes.

TESTIMONY OF HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Posey. Thank you, Chairwoman Napolitano, for the 
opportunity to submit proposals for the Water Resources 
Development Act of 2020. Today I have two proposals that I will 
ask you to consider. I have submitted the request in writing 
already. I will leave another copy at the desk. And so I will 
make these remarks as brief as possible. I know that you will 
appreciate that.
    The first proposal is about improving the delivery of Civil 
Work projects. In 2018 the committee supported my request to 
increase the effectiveness of section 204 by allowing sponsors 
leading construction of Civil Works projects to request that 
the Corps provide technical assistance and reimbursements for 
their help. Today I want to propose that we amend section 204 
of the WRDA to improve our reimbursement of the Federal share.
    For example, in my own district, Port Canaveral is waiting 
for reimbursement for the Federal share of a turning basin 
across Florida. The sponsors are waiting for reimbursement of 
hundreds of millions of dollars due to them. My proposal would 
permit sponsors under 204 to submit requests for reimbursement 
from the Secretary of the Army during the annual cycle for the 
President's budget. Such a request could be for the 
reimbursement of Federal share, prospective work in a budget 
year, or for reimbursement of amounts due from previously 
completed work.
    The second proposal, briefly, is centered on an estuary 
restoration and the Comprehensive Everglades Restoration Plan. 
This year marks the 20th anniversary of the congressional 
authorization of the Comprehensive Everglades Restoration Plan, 
or CERP. And, thanks to the President and the Appropriations 
Committee, we are getting $200 million toward that work this 
year.
    When CERP was authorized in 2000, Congress included the 
Indian River Lagoon and the Caloosahatchee River Estuary within 
the Greater Everglades ecosystem being restored. We have had 
some progress with the construction of the Indian River Lagoon 
South project under CERP, but many have seen in the news the 
chaos that the unnecessary flood control releases wreak on the 
ecology of the estuaries. So we look forward to the CERP 
reducing the releases from Lake Okeechobee that so imperil 
these estuaries, but we also need additional help.
    We have the opportunity to further restore these estuaries 
within the context of the ongoing CERP. I am here today, both 
as cochair of the bipartisan Congressional Estuary Caucus and 
Representative of the people of the Indian River Lagoon, to ask 
that you authorize a study of potential future projects within 
CERP that will give some relief to our problems, and also 
contribute to the CERP's goals.
    Thank you for allowing me to testify, and I would be 
delighted to answer any questions that you might have. Thank 
you.
    [Mr. Posey's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Bill Posey, a Representative in Congress 
                       from the State of Florida
    Thank you, Chairwoman Napolitano and Ranking Member Westerman, for 
the opportunity to submit proposals for the Water Resources Development 
Act (WRDA) of 2020. I am pleased to submit a statement for the record 
of my priorities in support of improving water resources project 
Delivery, and restoration of South Florida estuaries that Congress 
included in the Comprehensive Everglades Ecosystem Restoration Plan. I 
previously urged the full committee's consideration of these proposals 
at the May 1, 2019 Member Day Hearing.
               Improving Water Resources Project Delivery
    I was pleased to work with the Committee and the Florida delegation 
in WRDA 2018 to enact enhancements to Army Corps of Engineers 
authorities to permit sponsors to construct water resources projects 
under Section 204 of the Water Resources Development Act of 1986, and 
be eligible to receive reimbursement of the federal share of their 
expenditures. I would like to offer another enhancement to this 
infrastructure delivery mechanism.
    Most federal programs are delivered through non-federal partners 
that receive grants and execute projects. The Corps Civil Works program 
is not a grant program but rather has historically engaged Congress to 
plan and develop water projects in the national interest for 
navigation, flood risk management, and ecosystem restoration. In 1986, 
Congress enacted Section 204 to modernize the delivery of Corps 
navigation projects by giving project sponsors a role to design and 
construct projects and become eligible for reimbursement of the federal 
share of their costs for the project.
    Over subsequent years, Congress strengthened Section 204 and 
removed obstacles to its implementation. The concept was expanded to 
project purposes other than navigation in separate provisions. In the 
Water Resources Reform and Development Act of 2014, Congress merged 
authority for sponsor construction of projects for all water resources 
purposes into a single, uniform authority under Section 204. In WRDA 
2018, Congress made it easier (under my legislation) for sponsors to 
obtain technical assistance from the Corps and to obviate duplicative 
permitting requirements. Section 204 is becoming friendlier as an 
alternative for project sponsors to pursue their needs under the Corps 
program. Sponsor leadership can accelerate projects. Local leadership 
better integrates projects into the community making them more 
sensitive to the diversity of interests associated with such complex 
projects. Project sponsors know the environment and physical setting 
that projects must fit into. A major plus of Section 204 is that it 
applies to authorized projects and thus maintains Committee and 
Congressional prerogatives to authorize Corps water resources projects.
    Currently, sponsors who want to lead project design and 
construction must provide the financing and hope to receive 
reimbursement of the federal share. Reimbursement can be uncertain and 
slow. The Administration sometimes has been reluctant to budget for 
reimbursement. For example, during the tenure of Florida Governor, now 
U.S. Senator, Rick Scott, the State laid out $1.4 billion for port 
improvements and the federal government has not reimbursed the State 
for $140 million on these projects. While not all these funds were for 
Corps related water resources, some were. In my district, Port 
Canaveral awaits reimbursement of the federal share of the $7,856,000 
West Turning Basin. Slow reimbursement contributes to mistrust of 
federal partners and denies ports and other entities funds they could 
use in advancing other infrastructure needs. Sponsors also face a high 
carrying cost of frontloading their own funds. By contrast, water 
resources projects designed and constructed by the Corps are funded 
from annual federal budgets, appropriations, and work plans. In other 
words, sponsor leadership of design and construction faces significant 
burdens that traditional projects do not. Relieving this asymmetric 
treatment of Section 204 projects can help make them more attractive, 
increase sponsor participation, and expand the benefits of this 
delivery alternative.
    Madam Chair and Ranking Member, I propose that Congress amend 
Section 204 to empower sponsors designing and constructing projects 
under this authority to participate in the annual Civil Works budget 
cycle--to request funds in the President's budget for reimbursement--
past, as well as prospective. For sponsors who have already constructed 
project elements under Section 204, a formal, transparent process would 
be available to request reimbursement in budget cycles. For those 
Section 204 sponsors who would benefit from up-front budgeting of 
reimbursement for identifiable annual project segments, the Secretary 
would be directed to accept sponsor requests for budget resources and 
submit approved requests to Congress with the Army's annual Civil Works 
budget. In the annual Corps work plan development, projects that had 
been the subject of sponsor budget requests would also be available to 
receive work plan funds. In this manner, authorized projects that are 
designed and constructed by the local sponsor would be placed on par 
with the authorized projects that the Corps designs and constructs. The 
Army Civil Works program would be brought closer to the delivery model 
that is characteristic of almost all federal programs where the non-
federal entity leads program implementation. At the same time, it 
preserves Congressional and Committee prerogatives in approving 
projects for authorization in biennial WRDAs.
    This is an innovative proposal that will save us money and bring 
projects on-line faster. This proposal contributes to our national 
infrastructure objectives, promotes trade, and creates jobs. I urge you 
to adopt this provision in the upcoming WRDA.
  Estuary Protection and Restoration in the Comprehensive Everglades 
                            Restoration Plan
    Madam Chair and Ranking Member, I am co-chair of the Congressional 
Estuary Caucus that I co-founded with Congresswoman Suzanne Bonamici. I 
work with the Caucus to protect and restore estuaries throughout our 
coastal states. Today, I bring you a proposal to strengthen our ongoing 
efforts to restore the estuaries of the South Florida ecosystem.
    My district is bounded on the East by the Indian River Lagoon, the 
most biodiverse estuary in North America. People in my district depend 
on this Lagoon for their economic well-being, recreation, and tourism. 
On the opposite shore of Florida is another significant estuary, the 
Caloosahatchee River Estuary.
    The Indian River Lagoon and the Caloosahatchee River estuaries 
share a common fate in that they currently receive excess water from 
Lake Okeechobee as part of the operation of the Central and South 
Florida Project. When flood waters stored in the Lake exceed a safe 
level, the Corps of Engineers must release that water into the 
estuaries to protect people south of the Lake from the dangers of a 
failure or overtopping of the Herbert Hoover Dike that makes Lake 
Okeechobee a multiple purpose reservoir. Large volumes of phosphorus 
laden water end up in these sensitive estuaries. The results are often 
disastrous as when conditions induce harmful algal blooms in the 
brackish water estuaries. News accounts have made all of America aware 
of the havoc these algal blooms wreak in the Indian River Lagoon and 
the Caloosahatchee River Estuary--waters putrefy, the ecosystem is 
robbed of oxygen, foul odors and even dangerous fumes are emitted, fish 
and wildlife die, tourism evaporates, people and businesses suffer, and 
a way of life is profoundly disrupted.
    In Title VI of the Water Resources Development Act of 2000, 
Congress approved the Comprehensive Everglades Restoration Plan (CERP), 
a blueprint for modifying the Central and South Florida Project to 
restore the Florida Everglades. From its inception, the CERP aimed to 
restore the entire South Florida ecosystem, and Congress included the 
two estuaries as part of that ecosystem in the approval of CERP. The 
Indian River Lagoon and the Caloosahatchee estuaries are integral to 
the CERP. Projects were included in the CERP to restore and improve the 
environment of the estuaries. The Indian River Lagoon South (IRL-S) is 
part of the CERP as approved in WRDA 2000. Construction is underway on 
the first component of the IRL-S project, C44 reservoir and storm water 
treatment area (STA). The reservoir and STA will serve a vital role in 
storing and treating local basin run-off that now threaten the Lagoon. 
To the West of Lake Okeechobee, the C-43 reservoir has been authorized 
to improve the timing, quantity, and quality of freshwater flows to the 
Caloosahatchee River and estuary.
    Given the recent dramatic algal blooms and devastation that has 
been visited on the estuaries in the South Florida ecosystem, I ask the 
Chairwoman and Ranking Member to enact a study to review the CERP to 
identify such further modification of the Central and South Florida 
Project as may be advisable to protect and restore the coastal 
estuaries that are included in the estuaries of the South Florida 
ecosystem. This review should be coordinated with Governor of Florida, 
the South Florida Ecosystem Restoration Task Force, the South Florida 
Water Management District, the residents of communities surrounding the 
affected estuaries, and the public. The Secretary of the Army should 
submit a report that includes a description of projects or other 
measures that the Chief of Engineers recommends be included in the 
CERP, through the Adaptive Assessment provisions of Title VI of Water 
Resources Development Act of 2000, to restore and protect the estuaries 
within the South Florida ecosystem. The Secretary should include a 
description of any projects or measures to restore and protect 
estuaries in the South Florida ecosystem that the Chief of Engineers 
recommends for authorization in future water resources development or 
other appropriate legislation, and a proposed schedule for the 
submission of any project information reports (PIRs) required to 
authorize such projects.
    Madam Chair and Ranking Member, restoration of the Everglades is 
ongoing and has mobilized a team that can tackle the challenges to the 
estuaries. Congress intended for the estuaries to be addressed as part 
of the CERP. Wherever possible, we ought to emphasize projects that 
both advance the restoration of the River of Grass and contribute to 
restoring the estuaries. That is my intent, and I urge you to authorize 
putting the team to work on the estuaries of the South Florida 
ecosystem, and update the plan to integrate the problems and the 
disastrous ecological crises that have emerged in recent years.
    Thank you for the opportunity to appear before you today to support 
improving water resources project delivery and the health of our 
precious national estuary resources.

    Mrs. Napolitano. Well, thank you for your testimony, and it 
is very much appreciated, Mr. Posey. Thank you very much.
    Now I would like to recognize our next witness, the 
gentleman from Nebraska, Mr. Fortenberry.
    You are on for 5 minutes, sir.

    TESTIMONY OF HON. JEFF FORTENBERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Fortenberry. Thank you, Chair Napolitano, for the 
opportunity to testify before you. It was about a year ago, 
near where I live in Nebraska, that we got hit by a 500-year 
flood event called a bomb cyclone. Rain on top of melting snow 
on top of ice caused a slurry of water and topsoil to rush down 
the Platte River into the Missouri River with such force that 
it blew out the levee on the Iowa side, creating a 60-foot-plus 
hole. The water was so forceful and so inundating, it went back 
upstream, up the Missouri River, and came over the top of the 
levee at Offutt Air Force Base, which is home to Strategic 
Command, covering one-third of the base.
    Congress was very generous to our State, in that we were 
able to fold underneath the disaster package that was working 
itself through from some other events across the country. Plus, 
we were able to secure additional funding for the rebuilding of 
Offutt, for which I am very grateful.
    This is related to my request today, and I would hope the 
committee would give it due consideration, because it is an 
important fix that would actually help the Federal Government 
and help, thus, us locally. So if I could walk through some of 
the details with you, I would appreciate it.
    Earlier this month I introduced H.R. 5868. We call it the 
RELIEF Act. And here's what it does. It makes sure that water 
infrastructure repairs in the wake of these types of disasters 
are both timely and cost efficient.
    In Nebraska, we have what are called natural resources 
districts, 23 districts. These are local governing units that 
work to manage, conserve, and develop the State's resources. 
Basically, environmental projects, flood control projects, and 
recreational projects. If enacted, the RELIEF Act would 
capitalize these types of municipal entities--we call them 
natural resources districts--to swiftly make Corps of 
Engineers-approved repairs. This is very important. They could 
swiftly make the Corps-approved repairs in order to free up 
Federal resources for those areas of the disaster that actually 
require Federal assistance. We want to do the work. We just 
want to have the capability to do it quickly.
    Quite simply, this approach would create efficient and 
commonsense solutions that save both time and money for the 
Corps so that they and their non-Federal Government sponsors 
can better serve individual communities. The goal is to reduce 
the time between disaster and repair recovery. So this would 
benefit both the local sponsor and the Federal Government by 
ensuring that there are capabilities of making, again, Corps-
approved repairs in an effective, efficient, and timely manner.
    If that authority had been in place during our flood event 
last year, these natural resources districts would have been 
able to mobilize and make temporary repairs to flood-related 
infrastructure in a matter of days in order to prevent further 
damages from another high-water event. So permanent, flood-
induced infrastructure repairs, we could have made them in a 
matter of weeks.
    It is also important to emphasize the cost component since, 
again, local sponsors are often able to make these types of 
repairs for a lower price than the Federal Government itself.
    So again, thank you for your time and consideration. I 
really appreciate this. I think this is an important bill, 
Madam Chair. It makes sense at a lot of levels. It helps the 
Federal Government implement what we have already designed with 
local partners when there are specific needs to get it done in 
a timely manner. So thank you very much for the consideration.
    [Mr. Fortenberry's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Jeff Fortenberry, a Representative in 
                  Congress from the State of Nebraska
    Chairwoman Napolitano, Ranking Member Westerman, and members of the 
subcommittee: Thank you for holding this hearing to allow me and other 
Members to highlight our priority issues as you develop the Water 
Resources Development Act of 2020.
    Nearly a year ago, Nebraska experienced a devastating 500-year-
flood event. Nebraskans responded with characteristic care and 
resilience. Earlier this month I introduced H.R. 5868, the RELIEF Act, 
to make water infrastructure repairs in the wake of such disasters more 
timely and cost-efficient. I am requesting your assistance in including 
the provisions of this legislation in the new WRDA bill.
    In Nebraska, we have 23 natural resources districts. These local 
government units work to manage, conserve, and develop the state's 
natural resources. If enacted, the RELIEF Act would capitalize these 
natural resources districts to swiftly make Corps-approved repairs in 
order to free up federal resources for those areas of a disaster that 
require federal assistance.
    Quite simply, this approach would help create efficient, common 
sense solutions that save time and money for the Corps, so that they 
and the non-federal sponsors can better serve the community. The goal 
is to reduce the time between disaster and repair/recovery. This would 
benefit both the local sponsor and the federal government by ensuring 
those that are capable of making Corps-approved repairs can do them in 
a more efficient manner.
    If this authority had been in place during the 2019 flood, the 
natural resources districts would have been able to mobilize and make 
temporary repairs to flood-related infrastructure damage in a matter of 
days in order to prevent further damages from occurring in another high 
water event. Permanent flood induced infrastructure repairs could have 
been made in a matter of weeks. It's also important to emphasize the 
cost component since local sponsors are often able to make certain 
repairs for much less than the price paid by the federal government.
    I appreciate this opportunity to highlight this important measure 
and I ask for your help to include it in the new WRDA bill.

    Mrs. Napolitano. Well, thank you for your testimony. And I 
agree, there are a lot of things that our country needs, and I 
hope the administration pays attention to the needs of the 
whole State and the whole country.
    Mr. Fortenberry. Thank you, Madam Chair.
    Mrs. Napolitano. Each State and the country.
    Mr. Fortenberry. If you could help me, I think this would 
be a great bipartisan effort.
    Mrs. Napolitano. Thank you. I would like to recognize the 
next witness, the gentleman from Georgia, Mr. Allen, for 5 
minutes.

 TESTIMONY OF HON. RICK W. ALLEN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Allen. Thank you, Chairwoman, and I appreciate the 
opportunity to be here with you today. I want to talk about the 
Savannah River Lock and Dam to the committee. And I want to 
thank the committee for allowing me to provide this testimony 
and highlight water issues that are critical to the 12th 
Congressional District of Georgia, namely the issues we have 
experienced with the Corps of Engineers regarding the New 
Savannah Bluff Lock and Dam that has been in place since 1930.
    Due to environmental mitigation from the Savannah Harbor 
Expansion project, or SHEP, the Corps is responsible for 
constructing a mitigation feature that would allow sturgeon and 
other endangered fish to access their historic breeding grounds 
above the new Savannah Bluff Lock and Dam near Augusta, 
Georgia.
    Dating back to the 1930s, the dam was originally authorized 
for navigation purposes. But after it was no longer used for 
commercial navigation, many users draw from the pool that the 
lock and dam has created. In times of heavy rain it has been 
used to mitigate any flooding in the area, like the rains we 
have been having over the past month or so.
    Right now, the Corps has not maintained the dam. I think 
four out of the five gates are wide open, and the river is the 
same level on both sides.
    In the 2016 WIIN Act, the language required the fish 
passage structure to ``maintain the pool for navigation, water 
supply, and recreational activities, as in existence on the 
date of enactment of this Act'' for either a ``repair of the 
lock wall of the New Savannah Bluff Lock and Dam and 
modification of the structure'' or ``removal of the New 
Savannah Bluff Lock and Dam on completion of construction of 
the [fish passage] structure.''
    The Corps recently selected a rock weir as an alternative 
to replace the lock and dam, a design that drops the pool level 
that our community desperately needs. I do not support this 
alternative, and believe that the lowering of the pool does not 
meet the requirements of the WIIN Act, and is unacceptable.
    I have heard from a range of local stakeholders throughout 
this process that they all have concerns with the Corps' 
proposal, especially after a failed simulation in February of 
last year, where the Corps simulated the water levels that will 
occur should this high fixed weir with a dry flood plain be 
constructed. The results were appalling, with boats and docks 
marooned, and excess debris exposed throughout the river, and 
the Corps had to abandon the simulation, due to instability in 
the riverbank.
    Additionally, these simulated water levels were only a 
representation of average levels, not drought conditions. That 
is right. In drought conditions, the water level of a pool 
would be even lower.
    Local community leaders have agreed that maintaining the 
water level of the pool above the lock and dam is critical so 
that our water users are not affected. The cities of Augusta 
and North Augusta, as well as Aiken County, have come together 
supporting resolutions that maintain the pool at or around its 
current level, approximately 114.5 feet.
    I would like to underscore that the Corps is not in 
compliance with the WIIN Act law by choosing this alternative 
that does not maintain the pool at a 114.5-foot level, as it 
was in December of 2016, when the law was enacted.
    Additionally, an independent, external peer review was 
conducted as required, which outlines many concerns and 
recommendations that I and other community leaders have 
highlighted throughout this process, including inconsistencies 
in cost analysis, lack of consideration of other alternatives 
that would not lower the pool, and a lack of information on 
whether or not the leading alternatives would successfully pass 
fish overall.
    In fact, the report indicated that the full river width 
rock weir may kill the fish. I met with NOAA in my office, and 
they said they have no proof that this alternative would 
actually work to pass sturgeon, and that they have not yet 
tagged or videoed sturgeon using a similar rock weir at Cape 
Fear.
    We should not waste millions of taxpayer dollars and remove 
the lock and dam structure on an alternative that we are not 
sure will work. In fact, it will cost more to remove the 
current lock and dam than to fix it.
    Throughout this process, the Corps has been challenging to 
work with at every turn. The Corps was involved with the 
writing of the WIIN Act language without my knowledge, and has 
continually refused to give us a serious cost estimate for the 
cost to repair the lock and dam.
    Thank you again to the committee for holding this Members' 
Day, and I look forward to continuing to work on this issue.
    And I yield back.
    [Mr. Allen's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Rick W. Allen, a Representative in Congress 
                       from the State of Georgia
    I want to thank the committee for allowing me to provide this 
testimony and highlight water issues that are critical to the 12th 
Congressional District of Georgia--namely the issues we have 
experienced with the Corps of Engineers regarding the New Savannah 
Bluff Lock and Dam.
    Due to environmental mitigation from the Savannah Harbor Expansion 
Project, or SHEP, the Corps is responsible for constructing a 
mitigation feature that would allow sturgeon and other endangered fish 
to access their historic breeding grounds above the New Savannah Bluff 
Lock and Dam near Augusta, Georgia.
    Dating back to the 1930s, the dam was originally authorized for 
navigation purposes, but after it was no longer used for commercial 
navigation, many users draw from the pool that the lock and dam has 
created.
    In times of heavy rain, it has been used to mitigate any flooding 
in the area--like the rains we have been having over the past month or 
so.
    In the 2016 WIIN Act, the language required the fish passage 
structure to ``maintain the pool for navigation, water supply, and 
recreational activities, as in existence on the date of enactment of 
this Act'' for either a ``repair of the lock wall of the New Savannah 
Bluff Lock and Dam and modification of the structure'' or ``removal of 
the New Savannah Bluff Lock and Dam on completion of construction of 
the [fish passage] structure.''
    The Corps recently selected a rock weir as an alternative to 
replace the lock and dam--a design that drops the pool level that our 
community needs.
    I do not support this alternative and believe that the lowering of 
the pool does not meet the requirements of the WIIN Act, and is 
unacceptable.
    I have heard from a range of local stakeholders throughout this 
process and they all have concerns with the Corps' proposal, especially 
after a failed simulation in February of last year, where the Corps 
simulated the water levels that will occur should this High Fixed Weir 
with a Dry Floodplain be constructed.
    The results were appalling, with boats and docks marooned and 
excess debris exposed throughout the river--and the Corps had to 
abandon the simulation due to instability in the riverbank.
    Additionally, these simulated water levels were only a 
representation of average levels--not drought conditions.
    That's right--in drought conditions, the water level of the pool 
would go even lower!
    Local community leaders have agreed that maintaining the water 
level of the pool above the lock and dam is critical so that our water 
users are not affected.
    The Cities of Augusta and North Augusta, as well as Aiken County, 
have come together supporting resolutions that maintain the pool at or 
around its current level--approximately 114.5 feet.
    I'd like to underscore that the Corps is not in compliance with the 
WIIN Act law by choosing this alternative that does not maintain the 
pool at the 114.5 level as it was in December of 2016.
    Additionally, an Independent External Peer Review was conducted, 
which outlines many concerns and recommendations that I and other 
community members have highlighted throughout this process, including 
inconsistencies in cost analyses, lack of consideration of other 
alternatives that would not lower the pool, and lack of information on 
whether or not the leading alternatives would successfully pass fish 
overall.
    In fact, the report indicated that the full river width rock weir 
may kill fish!
    I met with NOAA in my office and they said they have no proof that 
this alternative would actually work to pass sturgeon--and that they 
have not yet tagged a sturgeon using a similar rock weir at Cape Fear.
    We should not waste millions of taxpayer dollars and remove the 
lock and dam structure on an alternative that we are not sure will 
work!
    Throughout this process, the Corps has been challenging to work 
with at every turn.
    The Corps was involved with the writing the WIIN Act language, 
without my knowledge, and has continually refused to give us a serious 
cost estimate for the cost to repair the lock and dam.
    I urge the committee to work with me to include language that will 
repair and maintain the lock and dam and keep the pool level that our 
community needs, while still accommodating the modest fish passage 
required by SHEP.
    The deepening expansion of the Savannah Harbor is critical for 
Georgia, and by working together, we can ensure that Augusta's New 
Savannah Bluff Lock and Dam can be maintained while not delaying SHEP.
    Thank you again to the committee for holding this member day and I 
look forward to continuing to work with you on this issue.

    Mrs. Napolitano. Thank you very much, Mr. Allen.
    I now recognize the next witness, the gentlewoman from New 
Jersey, Ms. Sherrill, for 5 minutes.

TESTIMONY OF HON. MIKIE SHERRILL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Ms. Sherrill. Thank you, Chairwoman Napolitano, for the 
opportunity to testify today. I want to particularly recognize 
my New Jersey colleagues on the committee, Representatives 
Payne, Sires, and Malinowski for their work, and Representative 
Malinowski, particularly, for his work on this subcommittee to 
advance New Jersey's priorities.
    I am here because flooding has plagued New Jersey for 
generations. One of the first things I did after taking office 
was to convene a roundtable with my local mayors to get up to 
speed on their challenges. They need the Federal Government to 
be a dependable partner to make sure all local, State, and 
Federal officials and stakeholders are working together to 
mitigate this flood risk.
    Instead, the basic takeaway was their overwhelming 
frustration with Federal inaction. These towns feel abandoned. 
They have had discussions for decades, but they deserve Federal 
authorities that do more than talk. They deserve action. I know 
many of you feel the same way. It is our job in Congress to 
make the Government work for the people that we represent.
    The Water Resources Development Act, or WRDA, which you 
will write, is a tremendous opportunity to make long overdue 
progress. And I urge you to consider a few key opportunities.
    First is the Peckman River Flood Risk Management project. 
The Peckman River Basin has frequently flooded. And, for more 
than a generation, the towns of Little Falls and Woodland Park 
have faced these challenges largely on their own. The House 
authorized a study in 2000, and there was a favorable 
reconnaissance report in 2001. But then nothing.
    These communities have waited 20 years while the study has 
languished. Fortunately, thanks to the hard work of the Army 
Corps New York District staff, the Peckman River Basin Flood 
Risk Management Feasibility Study was released last October, 
and we expect a Chief's Report this April. I urge the committee 
to consider that Chief's Report, and to provide authorization 
for the Peckman River project in the WRDA bill so that we can 
move this project forward.
    I also represent the historically flood-prone Passaic River 
Basin. Flooding along the Passaic has caused 11 Federal 
disaster declarations since 1968. The Corps of Engineers 
estimates that, when viewed over time, the average annual flood 
damage in the basin is over $160 million.
    Congress authorized a study in 1975. And then, after more 
than a decade, authorized a plan calling for a dual inlet 
diversion tunnel extending to Newark Bay. This plan was 
controversial, and there have been numerous concerns about its 
cost and environmental impact. The Army Corps and the State of 
New Jersey have gone back and forth since that time, and I 
respect that there are and have always been strong differences 
to resolve. But my communities are at risk. In fact, since 
Congress authorized the project in 1990, flooding from the 
Passaic River has caused over $3.5 billion in losses. We cannot 
afford to continue to argue without moving forward on action.
    This is so important to my district that I convened a 
second meeting last October of mayors, New Jersey Department of 
Environment officials, and the Army Corps staff from the New 
York District. There was broad consensus. We have to move 
forward, and the best place to start is to provide all 
necessary authority to bring those studies and plans up to 
date. I urge the committee to work with me to overcome any 
legislative barriers that stand in the way, and to push the 
Corps to deliver.
    There are so many additional issues beyond these two 
projects. We need to do everything possible to improve 
resilience, because we know that greater weather variability 
and rising sea levels are already a threat to critical 
infrastructure.
    We should also promote the use of natural, nonstructural 
measures, and improve the utilization of expertise from State 
and local officials. In fact, as the chairwoman of the 
Committee on Science, Space, and Technology's Subcommittee on 
Environment, I am chairing a hearing later this afternoon 
examining flood maps. It is painfully clear that there is more 
we can do and must do to improve Federal coordination so that 
we are listening and responding to local experts and community 
leaders on the ground. These communication breakdowns are 
costly. Better coordination will also ensure we utilize the 
best available science to more accurately assess flood risk, 
and then communicate that information more effectively to 
communities and homeowners.
    Lastly, I encourage this committee to prioritize issues of 
equity. Pastor Sidney Williams, Jr. leads the Bethel AME Church 
in Morristown. And in 2001, when Tropical Storm Irene caused 
the Whippany River to surge beyond its banks, it filled the 
basement of the Bethel AME Church with 4 feet of water. Too 
often, the flood risks of low-lying and underserved communities 
go unaddressed, and their mitigation needs are never met. Many 
project ratings and determinations depend on economic 
assessments that favor richer neighborhoods and perpetuate an 
ongoing cycle of disinvestment.
    We can and we should revise non-Federal cost shares and 
remove other barriers that disproportionately impact low-
income, minority, and indigenous communities.
    Thank you, and I yield back.
    [Ms. Sherrill's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Mikie Sherrill, a Representative in Congress 
                      from the State of New Jersey
    Thank you, Chairwoman Napolitano, Ranking Member Westerman, and 
Members of the Subcommittee for the opportunity to testify today. I 
want to particularly recognize my New Jersey colleague, Rep. 
Malinowski, for his work on this subcommittee to advance New Jersey's 
priorities.
    I'm here because flooding has plagued North Jersey for generations. 
One of the first things I did after taking office was to convene a 
roundtable with my local mayors to get up to speed on their challenges. 
They need the federal government to be a dependable partner to make 
sure all local, state, and federal officials and stakeholders are 
working together to mitigate flood risk.
    Instead, the basic takeaway was their overwhelming frustration with 
federal inaction. These towns feel abandoned. They've had discussions 
for decades, but they deserve federal authorities that do more than 
talk. They deserve action.
    I know many of you feel the same way. It's our job in Congress to 
make the government work for the people we represent. The Water 
Resources Development Act, or ``WRDA,'' which you will write is a 
tremendous opportunity to make long-overdue progress, and I urge you to 
consider a few key opportunities that are in my district.
    The first is the Peckman River Flood Risk Management Project.
    The Peckman River Basin has frequently flooded, and for more than a 
generation the towns of Little Falls and Woodland Park have faced these 
challenges largely on their own.
    The House authorized a study in 2000. There was a favorable 
reconnaissance report in 2001. But then nothing happened. These 
communities waited twenty years while the study languished.
    Fortunately, thanks to the hard work of the Army Corps New York 
District staff, the Peckman River Basin Flood Risk Management 
Feasibility Study was released last October, and we expect a Chiefs 
Report this April. I urge the Committee to consider that Chiefs Report 
and to provide authorization for the Peckman River project in the WRDA 
bill so that we can move this project forward.
    I also represent the historically flood-prone Passaic River Basin. 
Flooding along the Passaic has caused eleven federal disaster 
declarations since 1968. The Corps of Engineers estimates that when 
viewed over time, the average annual flood damage in the basin is over 
$160,000,000. Congress authorized a study in 1975, and then--after more 
than a decade--authorized a plan calling for a dual inlet diversion 
tunnel extending to Newark Bay. This plan was controversial, and there 
have been numerous concerns about its cost and environmental impact.
    The Army Corps and the state of New Jersey have gone back and forth 
since that time. I respect that there are, and have always been, strong 
differences to resolve. But my communities are at risk. In fact, since 
Congress authorized the project in 1990, flooding from the Passaic 
River has caused over $3.5 billion in losses. We cannot afford to 
continue to argue without moving to action.
    This is so important to my district that I convened a second 
meeting last October of mayors, NJDEP officials, and Army Corps staff 
from the New York District. There was broad consensus: we must move 
forward, and the best place to start is to provide all necessary 
authority to bring those studies and plans up to date. I urge the 
Committee to work with me to overcome any legislative barriers that 
stand in the way, and to push the Corps to deliver.
    There are so many additional issues beyond these two projects. We 
need to do everything possible to improve resilience, because we know 
that greater weather variability and rising sea levels are already a 
threat to critical infrastructure. We should also promote greater use 
of natural, nonstructural measures and improve the utilization of 
expertise from state and local officials.
    In fact, as the Chairwoman of the Science, Space, and Technology 
Environment Subcommittee, I am chairing a hearing later this afternoon 
examining flood maps. It painfully clear that there is more we can and 
must do to improve federal coordination so that we are listening and 
responding to local experts and community leaders on the ground. These 
communication breakdowns are costly. Better coordination will also 
ensure we utilize the best available science to more accurately assess 
flood risk, and then communicate that information more effectively to 
communities and homeowners.
    Lastly, I encourage this Committee to prioritize issues of equity. 
Pastor Sidney Williams Jr. leads the Bethel A.M.E. Church in 
Morristown, and in 2001 when Tropical Storm Irene caused the Whippany 
River to surge beyond its banks, it filled the basement of the Bethel 
A.M.E. Church with four feet of water. Too often, the flood risks of 
low-lying and underserved communities go unaddressed and their 
mitigation needs are never met. Many project ratings and determinations 
depend on economic assessments that favor richer neighborhoods and 
perpetuate an ongoing cycle of disinvestment. We can--and should--
revise non-federal cost shares and remove other barriers that 
disproportionately impact low-income, minority, and indigenous 
communities.
    Thank you for the opportunity to testify about these vital 
concerns. I look forward to working with all of you, as well Chairman 
DeFazio, Ranking Member Graves, and all the members of the full 
Committee to finally, on a bipartisan basis, deliver long-sought 
progress for communities along the Peckman River, the Passaic River, 
and many other flooding, navigation, and environmental restoration 
projects across the country. We owe action to the North Jersey, and the 
American people. Thank you.

    Mrs. Napolitano. Thank you, Ms. Sherrill, for your 
testimony.
    And I would like to recognize our next witness, the 
gentleman from Missouri, Mr. Cleaver, for 5 minutes.

   TESTIMONY OF HON. EMANUEL CLEAVER II, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mr. Cleaver. Thank you, Madam Chair. And to committee 
members, I will try to keep this short and to the point, as I 
have a feeling that the ranking member on the committee, Sam 
Graves, understands this issue quite well.
    The Missouri River needs your help. The Missouri River is 
the longest river system in North America. And, as we have seen 
over the last decade, the lower end of that system is 
continually holding the short end of the stick. When the upper 
river experiences excess snow or rain, and the reservoirs are 
full to capacity, the water is released upon Missouri, Kansas, 
Iowa, and Nebraska. When torrential rains occur in Iowa or 
northern Missouri, we have no reservoirs to keep the water from 
overflowing and flooding farms, roads, and towns.
    Most of the levees along the river in my State of Missouri 
are non-Federal, either built locally, or now maintained by 
local levee districts. The system is set up so that the portion 
of the river least able to deal with flood events bears the 
heaviest burden. This cannot continue.
    Last spring Missouri had two major flood events, breaching 
34 levees and overtopping 65 others. Missouri has requested $93 
million in aid after the flooding, and the levee repairs are 
estimated to be over $1 billion. Over 1.4 million acres of 
Missouri land were reported as prevented plant. My constituents 
are telling me that they are even more concerned about this 
year.
    With only 12 of the 70 levee rehab contracts underway as of 
February, and another wet year predicted, I fear that we are 
not prepared for a potential 2020 flood season. The four State 
stakeholders and the Corps of Engineers are working together on 
ideas for further flooding mitigation efforts.
    The Corps has proposed a new study to evaluate what can be 
done for the Lower Missouri River, and I urge the committee to 
be open to some flexibility for this proposed study. With four 
States involved, and hundreds of miles of river, this is not a 
typical 3x3 study. I hope the committee will be flexible with 
some of the typical parameters in this case.
    Though not always included in the House's WRDA bill, I also 
urge the committee to address the high cost of our stormwater 
infrastructure. In my district of Kansas City, the largest city 
in our State, which I served as mayor, is currently under a 
consent decree to spend $2.5 billion to separate stormwater and 
wastewater systems over 25 years. Because of this, the city 
utility has been forced to raise water rates to over $100 per 
household, which is unaffordable for most city residents. This 
is a critical issue for my constituents and for many 
communities around the country, and something that Congress can 
help to address.
    Thank you for the opportunity for me to speak here to you 
today.
    [Mr. Cleaver's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Emanuel Cleaver II, a Representative in 
                  Congress from the State of Missouri
    Good Morning and thank you, Chairman DeFazio and Ranking Member 
Graves, for holding this important hearing.
    I will try to keep this short and to the point, as I have a feeling 
the ranking member understands the concerns I'm about to address all-
too-well. The Missouri River needs your help. The Missouri River is a 
river system and, as we have seen over the last decade, the lower end 
of that system is continually holding the short end of the stick.
    When the upper river experiences excess snow or rain and the 
reservoirs are filled to capacity, the water is released upon Missouri, 
Kansas, Iowa and Nebraska.
    When torrential rains occur in Iowa or Northern Missouri, we have 
no reservoirs to keep the water from overflowing banks and flooding 
farms, roads and towns. Most of the levees along the river in my state 
of Missouri are non-federal--either built locally or now maintained by 
local levee districts.
    The system is set up so that the portion of the river least able to 
deal with flood events bears the heaviest burden. This cannot continue.
    Last spring and summer, Missouri had two major flood events, 
breaching 34 levees and overtopping 65. Missourians requested $93 
million in aid after the flooding, and the levee repairs are estimated 
at over $1 billion. Over 1.4 million acres of Missouri land were 
reported as prevented plant.
    My constituents are telling me that they are even more concerned 
about this year. With only 12 of the 70 levee rehab contracts underway 
as of February and another wet year predicted, I fear we are not 
prepared for a potential 2020 flood season.
    The four-state stakeholders and the Army Corps of Engineers are 
working together on ideas for further flood mitigation efforts. The 
Corps has proposed a new study to evaluate what can be done for the 
Lower Missouri River, and I urge the Committee be open to some 
flexibility for this proposed study. With four states involved and 
hundreds of miles of river, this is not a typical 3x3 study. I hope 
that the Committee will be flexible with some of the typical parameters 
in this case.
                               Stormwater
    Though not always included in the House's WRDA bill, I also want to 
urge the committee to address the high cost of our stormwater 
infrastructure. In my district, Kansas City, the largest city in 
Missouri, is currently under a consent decree to spend $2.5 billion to 
separate stormwater and wastewater systems over 25 years. Because of 
this, the city utility has been forced to raise water rates to over 
$100 per household, which is unaffordable for most city residents. This 
is a critical issue for my constituents and for many communities around 
the country, and something that Congress can help address.
    Thank you for the opportunity to speak here today about the 
infrastructure needs of Missouri's Fifth Congressional District.

    Ms. Mucarsel-Powell [presiding]. Thank you, Mr. Cleaver.
    Now I would like to recognize the next witness, the 
gentlewoman from California, Ms. Speier, for 5 minutes.

 TESTIMONY OF HON. JACKIE SPEIER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Speier. Madam Chair, thank you for this opportunity to 
set the priorities for the WRDA Act of 2020.
    I am here today to request the authorizations for studies 
be included for multiple areas along the bay coastline and 
ocean coastline of San Mateo County.
    It is my understanding that local authorities and FEMA have 
identified 14 sites within San Mateo County that are vulnerable 
to severe flooding in the coming decades. The San Mateo County 
sea-level Rise Vulnerability Assessment completed in March of 
2018 found that, in the event of a mid-level 2100 sea-level 
rise scenario, property with an assessed value of $34 billion 
would be flooded on the bay shore and on the coastside north of 
Half Moon Bay.
    In addition, the vulnerability assessment found that $932 
million in assessed property value could be at risk for erosion 
on the coastside north of Half Moon Bay.
    Nationally, the nonprofit Climate Central's 2014 study 
identified San Mateo County as the number-one county in 
California at risk for flooding due to climate change. Major 
employers in almost all wastewater treatment facilities sit 
along either the bay shore or the ocean's coastline.
    Recently, many homes and two large apartment buildings had 
to be condemned and destroyed because of the erosion that took 
place along the shoreline. This is why a comprehensive study of 
the county's two coasts, bay and ocean, in conjunction with 
studies of the coastlines of San Francisco and Marin Counties, 
are recommended by the district's Corps office.
    I respectfully ask that the study of San Mateo County, as 
well as any requested for San Francisco and Marin, be included 
in this year's WRDA legislation.
    There are certain sites that merit additional attention 
from the Army Corps.
    First, the damaged seawall in Pacifica is estimated to cost 
$26 million to repair after a basic analysis, but a more 
detailed estimate awaits a thorough study.
    The levee at Redwood Shores is threatened with 
deaccreditation by FEMA, and is likely to cost millions to 
upgrade.
    Finally, I want to call the committee's attention to the 
overall lack of Federal funding for restoration efforts for the 
San Francisco Bay. Rising tides threaten to drown the bay's 
wetlands, and will cause irreversible damage by 2030 unless we 
act. Restoration efforts also include protecting the bay from 
shoreline landfill pollution. Much of the shoreline in San 
Mateo County is built on landfill, including San Francisco 
International Airport.
    An example is the Oyster Point landfill in South San 
Francisco, which operated between 1959 and 1970, primarily for 
disposal of municipal solid waste. After it closed in 1970, 
many layers of soil and bay mud were used as cover with riprap 
along the bay side. As the soil naturally settles, coupled with 
the increasing threat of sea-level rise and king tides, there 
is a high probability that these mitigation measures will 
eventually fail, allowing landfill and associated toxins to 
seep into the bay, contaminating our water, and hurting our 
marine life.
    I would urge the committee to consider authorizing $100 
million to the Environmental Protection Agency's San Francisco 
Geographic Program, which would provide crucial funding for 
habitat restoration, endangered species recovery, and 
adaptation to climate change. This approach is provided for in 
my bill, H.R. 1132, which passed the House by a voice vote on 
February 5th. I am requesting the committee include H.R. 1132 
in the final WRDA, but with a higher annual authorization level 
at $100 million per year, equal to that of other estuaries like 
Puget Sound. We receive much less, and yet we have much greater 
population.
    It has been proven time and time again that we cannot 
address our environmental issues without Federal funding.
    I thank you again for convening this hearing, and I urge 
you to please take action to help save San Francisco Bay.
    [Ms. Speier's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Jackie Speier, a Representative in Congress 
                      from the State of California
    Thank you, Chairman Napolitano and Ranking Member Westerman, for 
providing us this opportunity to share our district's needs and 
priorities for the upcoming Water Resources Development Act of 2020. I 
am here today to request that authorizations for studies be included 
for multiple areas along the bay coastline and ocean coastline of San 
Mateo County. It is my understanding that local authorities or FEMA 
have identified fourteen sites within San Mateo County that are 
vulnerable to severe flooding in the coming decades.
    The San Mateo County Sea Level Rise Vulnerability Assessment 
completed in March 2018 found that in the event of a mid-level 2100 sea 
level rise scenario, property with an assessed value of $34 billion 
would be flooded on the Bayshore and on the Coastside north of Half 
Moon Bay. In addition, the Vulnerability Assessment found that $932 
million in assessed property value could be at risk from erosion on the 
Coastside north of Half Moon Bay. Nationally, the nonprofit Climate 
Central's 2014 study identified San Mateo County as the number 1 county 
in California at risk for flooding due to climate change. Major 
employers and almost all wastewater treatment facilities sit along 
either the bay shore or the ocean's coastline.
    This is why a comprehensive study of the county's two coasts--bay 
and ocean--in conjunction with studies of the coastlines of San 
Francisco and Marin Counties, are recommended by the district Corps 
office. I respectfully ask that the study of San Mateo County, as well 
as any requested for San Francisco and Marin, be included in this 
year's WRDA legislation.
    There are certain sites that merit additional attention from the 
Army Corps. First, the damaged seawall in Pacifica is estimated to cost 
$26 million to repair after a basic analysis, but a more detailed 
estimate awaits a thorough study. The levee at Redwood Shores is 
threatened with de-accreditation by FEMA and is likely to cost millions 
to upgrade.
    Finally, I wanted to call the Committee's attention to the overall 
lack of federal funding for restoration efforts for the San Francisco 
Bay. Rising tides threaten to drown the Bay's wetlands and will cause 
irreversible damage by 2030 unless we act.
    Restoration efforts also include protecting the Bay from shoreline 
landfill pollution. Much of the shoreline in San Mateo County is built 
on landfill, including San Francisco International Airport. An example 
is the Oyster Point Landfill in South San Francisco which operated 
between 1959-1970, primarily for disposal of municipal solid waste. 
After it closed in 1970, many layers of soil and bay mud were used as 
cover with rip rap along the Bay side. As the soil naturally settles 
coupled with the increasing threat of sea level rise and king tides, 
there is a high probability that these mitigation measures will 
eventually fail, allowing landfill and associated toxins to seep into 
the Bay, contaminating our water and hurting our marine life.
    I would urge the Committee to consider authorizing $100 million to 
the Environmental Protection Agency's (EPA) San Francisco geographic 
program, which would provide crucial funding for habitat restoration, 
endangered species recovery, and adaptation to climate change. This 
approach is provided for in my bill, H.R. 1132, which passed the House 
by voice vote on February 5, 2020. I am requesting the Committee 
include H.R. 1132 into the final WRDA, but with a higher annual 
authorization level of $100 million per year to address the immediate 
threat of climate change as we see occurring right now around the Bay.
    It has been proven time and time again that we cannot address our 
environmental issues without federal funding. Chairwoman Napolitano and 
Ranking Member Westerman, I thank you again for convening this hearing 
and I urge you to please take action to help save the San Francisco 
Bay.

    Ms. Mucarsel-Powell. Thank you, Ms. Speier. I am familiar 
with that area in California.
    So San Mateo has been designated as the top area for the 
effects of climate change.
    Ms. Speier. Ground zero for climate change in all of 
California.
    Ms. Mucarsel-Powell. Wow. OK. Thank you so much.
    Now I would like to recognize our next witness, Mr. 
Gottheimer, from the great State of New Jersey.
    Welcome. You have 5 minutes.

TESTIMONY OF HON. JOSH GOTTHEIMER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Gottheimer. Thank you, Madam Chairwoman. Thank you, 
Madam Chairwoman, and Chairman DeFazio, and Ranking Member 
Graves, and subcommittee Chairwoman Napolitano, and 
subcommittee Ranking Member Westerman, and to the members of 
the committee. I greatly appreciate you hosting this important 
hearing, and for having us here today.
    I appreciate you seeking input as you prepare a new Water 
Resources Development Act, and I am here to sound the alarm 
about a threat to the health and safety of our families and 
kids: dangerously elevated lead levels in our drinking water.
    We know that exposure to lead can have a severe impact on 
our children, stunting development and causing learning 
disabilities, irreversible harm to brain development, the 
nervous system, and vital organs. Each child deserves to drink 
water that is free of lead, and every parent deserves to know 
if their child's school has lead in their pipes, sinks, or 
water fountains.
    However, lead water continues to be a pervasive problem in 
the schools across the country and in my district in North 
Jersey. Since 2012, nearly 2,000 water systems across the U.S. 
have found elevated lead levels in tapwater samples, a 
significant public health concern. In schools there is an 
additional danger of leaching lead from school water fountains, 
which children and teachers use daily. The U.S. Environmental 
Protection Agency, or EPA, estimates testing across the 
country's roughly 90,000 public schools remains inconsistent, 
and the results are often unknown.
    In my district I issued a comprehensive report which found 
that 12 percent of 85 school districts did not report the 
result of lead testing on their district website for parents to 
see. And of the 88 percent of school districts that did post 
lead testing results, 52 districts indicated at least 1 outlet 
within their system that had a problem with lead in their 
water.
    Simply put, that is unacceptable, and this problem will not 
fix itself. We must take immediate action to help schools and 
communities nationwide address this urgent issue.
    I was proud that, last Congress, a key piece of my 
bipartisan legislation, the Lead Free Schools Act, was enacted 
into law, creating a targeted pilot program using existing 
resources to improve drinking water infrastructure in schools, 
nationwide.
    Additionally, I called on officials in my home State of New 
Jersey to create a central, easy-to-access database that 
schools report into every year, with lead water results for 
parents to find easily. This online portal, which has already 
launched, will ensure that parents have access to critical 
information about the safety of drinking water in their 
children's schools.
    As we move forward with a new Water Resources Development 
Act, I call on you to include much-needed resources for 
communities in New Jersey and across America to identify and 
remove lead pipes in their water infrastructure.
    Just as we focus on safe drinking water for our families 
and kids, we must also focus on ensuring bodies of water 
utilized for recreation and tourism are safe, as well. It is 
essential that we take immediate steps to help communities 
address harmful algae blooms, or HABs. Last year HABs broke out 
in bodies of water all across the country, including at 
Greenwood Lake in my district that is the second largest lake 
in the State. HABs caused millions of dollars in lost revenue 
for small businesses that rely on lake eco-tourism, and posed a 
severe health hazard to visitors and wildlife and our water 
supply.
    In New Jersey, this toxic algae disaster was caused by a 
perfect storm of warmer-than-usual temperatures, combined with 
rain and phosphorus runoff from mountains, roadways, and 
fertilizers. Given the impact of change in our climate, these 
higher temperatures are likely not a one-off occurrence, but 
now just part of every day.
    Just like with our environmental emergencies, we need to 
act. It will take a comprehensive strategy working together, a 
true local, State, and Federal partnership.
    This is not a partisan issue. I was proud to work with 
Democrats and Republicans to claw back needed resources to 
affected lakes in my district. Today I am calling on this 
committee to help our pristine, world-class lakes combat HABs 
by authorizing funding to more deeply study the causes and 
invest in effective solutions.
    Many lake communities, including Greenwood Lake, are 
strapped for cash, and would greatly benefit from additional 
Federal investment to prevent further environmental disasters 
caused by HABs, and we deserve more dollars back in Jersey, 
because we already pay far too much in Federal taxes. We should 
cut our taxes and claw more dollars back to the State, 
especially away from moocher States which take far more than 
they put in.
    So I just wanted to thank you for holding this important 
hearing, and allowing me to discuss these critically important 
issues facing our families, small businesses, and communities. 
I am confident that, if we work together, we can bring clean 
drinking water to every community and school, and stop harmful 
algae blooms for good.
    I look forward to continuing to work with you on these 
important issues. Thank you, Madam Chairwoman, for your time.
    [Mr. Gottheimer's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Josh Gottheimer, a Representative in 
                 Congress from the State of New Jersey
    Thank you, Chairman DeFazio, Ranking Member Graves, Subcommittee 
Chairwoman Napolitano, Subcommittee Ranking Member Westerman, and to 
the members of the Committee, I greatly appreciate you hosting this 
important hearing and for having us here today. I appreciate you 
seeking input as you prepare a new Water Resources Development Act, and 
I am here to sound the alarm about a threat to the health and safety of 
our families and kids: dangerously elevated lead levels in our drinking 
water.
    We know that exposure to lead can have a severe impact on our 
children, stunting development and causing learning disabilities, 
irreversible harm to brain development, the nervous system, and vital 
organs. Every child deserves to drink water that's free of lead, and 
every parent deserves to know if their child's school has lead in their 
pipes, sinks, or water fountains. However, lead water continues to be a 
pervasive problem in schools across the country and in my District in 
North Jersey.
    Since 2012, nearly 2,000 water systems across the U.S. have found 
elevated lead levels in tap water samples, a significant public health 
concern. In schools, there is the additional danger of leaching lead 
from school water fountains, which children and teachers use daily. The 
U.S. Environmental Protection Agency (EPA) estimates testing across the 
country's roughly 90,000 public schools remains inconsistent and the 
results are often unknown. In my District, I issued a comprehensive 
report which found that 12 percent of 85 school districts did not 
report the results of lead testing on their district website for 
parents to see. And of the 88 percent of school districts that did post 
lead testing results, 52 districts indicated at least one outlet within 
their system that had a problem with lead in their water.
    Simply put, this problem will not fix itself, and we must take 
immediate action to help schools and communities nationwide address 
this urgent issue.
    I was proud that last Congress, a key piece of my bipartisan 
legislation, the Lead-Free Schools Act, was enacted into law, creating 
a targeted pilot program using existing resources to improve drinking 
water infrastructure in schools nationwide.
    Additionally, I called on officials in my home state of New Jersey 
to create a central, easy-to-access database that schools report into 
every year with lead water results for parents to find easily. This 
online portal will ensure that parents have access to critical 
information about the safety of drinking water in their children's 
schools. As we move forward with a new Water Resources Development Act, 
I call on you to include much needed resources for communities in New 
Jersey and across America to identify and remove lead pipes in their 
water infrastructure.
    Just as we focus on safe drinking water for our families and kids, 
we must also focus on ensuring bodies of water utilized for recreation 
and tourism are safe as well. it is essential that we take immediate 
steps to help communities address Harmful Algal Blooms, or HABs. Last 
year, HABs broke out in bodies of water all across the country, 
including at Greenwood Lake in my District. HABs cause millions of 
dollars in lost revenue for small businesses that rely on lake eco-
tourism, and pose a severe health hazard to visitors and wildlife.
    In New Jersey, this toxic algae disaster was caused by a perfect 
storm of warmer than usual temperatures combined with rain and 
phosphorus run-off from mountains, roadways, and fertilizers.
    Given the impact of climate change, these higher temperatures are 
likely not a one-off occurrence, but now just part of our every day. 
Just like with other environmental emergencies, we need to act. It will 
take a comprehensive strategy, working together--a true local, state, 
and federal partnership.
    This is not a partisan issue. I was proud to work with Democrats 
and Republicans to claw back needed resources to affected lakes in my 
District. Today, I am calling on this Committee to help our pristine, 
world-class lakes combat HABs by authorizing funding to more deeply 
study the causes, and invest in effective solutions. Many lake 
commissions, including Greenwood Lake, are strapped for cash, and would 
greatly benefit from additional federal investment to prevent further 
environmental disasters caused by HABs.
    Thank you for holding this important hearing, and allowing me to 
discuss these critically important issues facing our families, small 
businesses, and communities. I am confident that if we work together, 
we can bring clean drinking water to every community and school, and 
stomp out Harmful Algal Blooms for good. I look forward to continuing 
to work with you on these important issues.

    Ms. Mucarsel-Powell. Thank you, Mr. Gottheimer----
    Mr. Gottheimer. Thank you.
    Ms. Mucarsel-Powell [continuing]. For that passionate 
ending there.
    [Laughter.]
    Ms. Mucarsel-Powell. Let me just say that I think I 
understand what toxic algae blooms are more than anybody else. 
I didn't realize that you were dealing with that in New Jersey, 
as well. So that--we will take that into account.
    Mr. Gottheimer. Thank you so much. It is a significant 
issue. Thank you, Madam Chairwoman.
    Ms. Mucarsel-Powell. Now I would like to recognize our next 
witness, Mr. Gomez from the great State of California.
    You have 5 minutes.

  TESTIMONY OF HON. JIMMY GOMEZ, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Gomez. Madam Chair, thank you so much. I want to thank 
Chairman DeFazio and Chairwoman Napolitano for allowing me to 
participate in this discussion.
    Since before I was elected, I was a champion for the 
restoration and revitalization of the Los Angeles River. It has 
been one of my top priorities. And yes, there is a river in Los 
Angeles. It is 51 miles long, with millions of people that live 
within 1 mile of that river. Like most Angelinos, I believe 
that it is more than just a vestige of our city's past. It is a 
symbol of our future and boundless potential that still awaits.
    The revitalization of the river is a big undertaking, with 
the power to bring our entire city and region together. But a 
project of this magnitude demands an all-hands-on-deck 
approach. So I want to thank the city of Los Angeles and the 
U.S. Army Corps of Engineers for moving forward with an 
ambitious restoration plan for the Los Angeles River, and 
ensuring that the Los Angeles River gets the Federal funds it 
needs for its revitalization and restoration efforts.
    But as someone who represents one of the most park-poor 
districts in the country, it is important to ensure that any 
river restoration project takes into account the needs of low-
income individuals and communities of color. Environmental 
equity is about ensuring that all communities have a voice in 
the restoration of the river, and that everyone can benefit and 
enjoy the river once it is completed. The restoration of the 
L.A. River is a large undertaking, and we need to ensure that 
the river gets the resources it needs so the L.A. River can be 
enjoyed by all my constituents and generations to come.
    I also want to be clear that this is not just a handout. 
The project that I am talking about is the ARBOR Plan, which 
takes place between the 134 and downtown L.A. That is a $1 
billion project. The city of L.A. is going to match what the 
Federal Government is putting in.
    Additionally, when I was in the State legislature, we 
passed a water bond that would devote more resources for 
stormwater capture, revitalization of the L.A. River. So this 
is not a handout. It is a hand up when it comes to the 
restoration of this river. But it is going to take time. And 
the impacts have been felt for generations, but we are going to 
turn the clock on it.
    So I support language that ensures that the P3 pilot 
program provides the flexibility needed to ensure that we give 
our community a place to reconnect with nature, celebrate our 
diverse communities, and learn about our city's history.
    So once again, I thank you for your time, and I thank you, 
this committee, for hopefully including this important issue in 
the proposal.
    [Mr. Gomez's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Jimmy Gomez, a Representative in Congress 
                      from the State of California
    I want to thank Chairman DeFazio and Chairwoman Napolitano for 
allowing me to participate in this important discussion.
    Since elected, the revitalization of the Los Angeles River has been 
one of my top priorities.
    Like most Angelenos, I believe that the Los Angeles River is more 
than a vestige of our city's past--it's a symbol of our future and 
boundless potential that still awaits the regions.
    The revitalization of the Los Angeles River is a huge undertaking 
with the power to bring our entire city together.
    But a project of this magnitude demand's an ``all-hands-on deck'' 
approach.
    I want to thank the City of Los Angeles and the US Army Corps of 
Engineer's for moving forward with an ambitious restoration plan for 
the Los Angeles River and ensuring the Los Angeles River gets the 
federal funds it needs for its revitalization and restoration efforts.
    But as someone who represents one of the most park-poor districts 
in the country, it's important to ensure that any LA River 
revitalization project takes into account the needs of, low-income and 
communities of color.
    Environmental equity is about ensuring that ALL communities have a 
voice in the restoration of the LA River ecosystem so that EVERYONE can 
benefit from and enjoy the LA River.
    The restoration of the LA River is a large undertaking and we need 
to ensure that the LA River has the resources it needs so that the LA 
River can be enjoyed by all my constituents and the generations to 
come.
    I support language that ensures the P3 pilot program provides the 
flexibility needed to ensure that we give our community a place to 
reconnect with nature, celebrate our diverse communities and learn 
about our city's history.
    Thank you again for consideration on this important matter.
    I yield back my time.

    Ms. Mucarsel-Powell. Thank you, Mr. Gomez. Do you have an 
approximate timeline of how long it would take to restore the 
river?
    Mr. Gomez. The Army Corps has started on the engineering 
phase of the river, but they are doing it in components. This 
is just an 11-mile stretch of the entire 51 miles. And it is in 
a location of the river where it is a soft bottom portion. So 
they channelized the river, because it used to flood in this 
region back in the 1930s and 1940s, and people would lose their 
lives. So they channelized the river. This part would always 
break up the concrete.
    And I always said that this river, you know, when you try 
to take on nature, nature often fights back. And this is what 
happened in this area.
    But it is--now we don't see it as a ditch. We don't see it 
as a drag-racing stretch like you saw in ``Grease.'' This is a 
potential to actually have a real river in Los Angeles. And 
even the steps that we have taken so far, people can go 
kayaking in the river in my district between Memorial Day and 
Labor Day. You can go kayaking if you ever want to come and 
visit.
    Ms. Mucarsel-Powell. I need to go see that.
    Mr. Gomez. And you can also--people fish and get----
    Ms. Mucarsel-Powell. There is fish in the L.A. River?
    Mr. Gomez. Steelhead trout.
    Ms. Mucarsel-Powell. All right.
    Mr. Gomez. So most people don't know that. But the project 
itself, the design phase, will take about 2 to 3 years. And 
then the project after that, about 5 to 10 years.
    Ms. Mucarsel-Powell. OK. OK, thank you, Mr. Gomez.
    Mr. Gomez. Thank you.
    Ms. Mucarsel-Powell. Now I would like to recognize our next 
witness, the gentleman from Virginia, Mr. Wittman.
    You have 5 minutes.

   TESTIMONY OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Wittman. Madam Chairwoman, thank you so much for 
allowing me to testify before you today. I want to thank the 
other committee members also, and I am honored to highlight 
some of the needs facing Virginia as you consider the upcoming 
Water Resources Development package.
    Water infrastructure is vital to moving goods throughout 
the country from products we all use in our everyday lives, to 
crops and goods we produce domestically and send abroad. And I 
hope that this committee and the House upholds its duty to 
authorize locally driven water infrastructure improvement 
projects, many of which you have heard about today.
    I would also like to thank the Army Corps of Engineers, as 
they work hard to manage more than 1,500 water resources 
projects, with many of them in Virginia. The Army Corps of 
Engineers is critical to our State, from the Norfolk Harbor 
Channel Deepening project to the Elizabeth River Southern 
Branch Navigation Improvements project, and waterways 
restorations the Army Corps of Engineers are involved in many 
public works projects in Virginia.
    As a proud Representative of the Commonwealth of Virginia, 
home to the Port of Virginia, one of the largest and busiest 
ports on the eastern seaboard, advancing the Port of Virginia's 
work to improve and expand its operations is critical. The port 
manages cargo that is shipped to all 48 contiguous States. The 
Port of Virginia is a national gateway for commerce, supporting 
businesses across the country.
    Moreover, in Virginia's First Congressional District, 334 
businesses utilize the services of the Port of Virginia. As a 
catalyst for commerce, the port is attracting growth, fostering 
development, and creating jobs. On the State level, cargo 
moving through the port supports more than 530,000 jobs 
statewide, and generates in excess of $90 billion in annual 
economic impact for Virginia.
    Increased shipping traffic and larger vessels are straining 
the port's current capacity. As larger vessels continue to call 
on the Port of Virginia, increasing the depth of the channels 
at the port is becoming progressively important. By deepening 
to 55 feet, the port is positioned to allow larger ships 
visiting the port to arrive and depart fully loaded, and will 
make for safer and more timely passage through these channels.
    Additionally, one-way traffic has led to interruptions in 
the operations of vessels at Naval Station Norfolk, presenting 
possible national security concerns. Widening to 1,400 feet 
will make way for safe and efficient two-way passage between 
larger commercial vessels and other operators in the harbor and 
channels, including the United States Navy.
    I would like to take this time to highlight some WRDA 
priorities the subcommittee should look at while deliberating 
about provisions in the bill.
    Full HMT funding solution. I want to seek a permanent 
solution to the full use of annual HMT revenues. The port 
industry has reached an agreement on an approach to mandatory 
full use of annual HMT revenues, tax collections, and interest 
on the trust fund surplus. Four legislative proposals are: full 
use of the HMT Fund; expanded use for donor and energy transfer 
ports; regional funding floors; and emerging harbors funding.
    The dedicated use of HMT revenues for harbor maintenance, 
as well as energy transfer provisions, will have direct 
benefits to the Port of Virginia. Unlocking the Harbor 
Maintenance Trust Fund is key to ensuring we are not just 
adding to the $100 billion backlog of projects at the Corps of 
Engineers, but are actually using existing funds to make real 
improvements in our Nation's ports.
    Benefit-to-cost ratio for locally preferred plan, better 
known as BCR and LPP. To calculate a navigation project's 
benefit-to-cost ratio based on the National Economic 
Development Plan benefits, regardless of whether it is a 
locally preferred plan, as the sponsor pays 100 percent of the 
additional cost between the NED and the locally preferred plan. 
This prevents a locally preferred plan from reducing the 
project's benefit-to-cost ratio, which is used in the project 
authorization report and new construction start decisions. The 
benefit-to-cost ratio calculation for local preferred plans may 
be applicable for Norfolk Harbor, depending on how the widening 
is constructed.
    Prioritizing funding for shallow draft navigation projects. 
Federal funding for historically shallow draft projects 
provided by the Army Corps of Engineers have been a challenge 
for small and rural localities. However, current budget metrics 
are not providing sufficient funding at levels to sustain 
maintenance dredging of low-use navigation channels throughout 
the United States. It would benefit rural localities who rely 
on routine maintenance dredging of such low-use channels to 
supply their economies, to prioritize funding for shallow 
draft, low-use navigation projects.
    These things are incredibly important to waterside 
communities and the economies that go with these locally based, 
water-based communities.
    I want to thank the chairwoman, the ranking member, and 
members of this committee for the opportunity to testify today. 
I look forward to working with the committee, the Corps of 
Engineers, and Virginians as we move forward to implementing 
WRDA 2020.
    [Mr. Wittman's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Robert J. Wittman, a Representative in 
               Congress from the Commonwealth of Virginia
                                 Intro
    Chairwoman Napolitano and Ranking Member Westerman,
    Thank you for allowing me to testify before you today. I am honored 
to highlight some of the needs facing Virginia as you consider the 
upcoming Water Resources Development package.
    The Water Resources Development Act is necessary legislation that 
provides for improvements to the Nation's ports, inland waterways, 
flood protection, ecosystem restoration, and other water resources 
infrastructure. Water infrastructure is vital to moving goods 
throughout the country, from products we all use in our everyday lives, 
to crops and goods we produce domestically and send abroad. I hope that 
this committee and the House upholds its duty to authorize nationally 
important water infrastructure improvements that are more locally 
driven.
    I would like to thank the Army Corps of Engineers as they work hard 
to manage more than 1,500 water resources projects with many of them in 
Virginia. The Army Corps of Engineers is critical to our state, from 
the Norfolk Harbor Channel Deepening project, the Elizabeth River 
Southern Branch Navigation Improvements Project, and waterways 
restorations the Army Corps of Engineers are involved in many public 
works projects in Virginia.
                               Port of VA
    As a proud representative of the Commonwealth of Virginia, home to 
the Port of Virginia--one of the largest and busiest ports on the 
eastern seaboard--advancing the work being done by the Port of Virginia 
to improve and expand its operations is critical. The Port manages 
cargo that is shipped to all 48 contiguous states.
    The Port of Virginia is a national gateway for commerce, supporting 
businesses across the country. Moreover, in Virginia's 1st District 334 
businesses utilize the services of the Port of Virginia.
    As a catalyst for commerce, the Port is attracting growth, 
fostering development, and creating jobs. On the state level, cargo 
moving through the Port supports more than 530,000 jobs statewide and 
generates in excess of $90 billion in annual economic impact for 
Virginia.
    Increased shipping traffic and larger vessels are straining the 
Port's current capacity. As larger vessels continue to call on the Port 
of Virginia, increasing the depth of the channels at the Port is 
becoming progressively important. By deepening to 55 feet, the Port is 
positioned to allow larger ships visiting the Port to arrive and depart 
fully loaded and will make for safer and more timely passage through 
the channels. Additionally, one-way traffic has led to interruptions 
with operations of vessels at Naval Station Norfolk presenting possible 
national security concerns. Widening to 1,400 ft. will make way for 
safe and efficient two-way passage between larger commercial vessels 
and other operators in the Harbor and Channels including the Navy.
                             WRDA Proposals
    I would like to take this time to highlight some WRDA priorities 
the subcommittee should look at while deliberating about provisions in 
the bill.
    1.  Full HMT funding solution: I seek a permanent solution to the 
full use of annual HMT revenues. The Port Industry has reached an 
agreement on an approach for mandatory full use of annual HMT revenues, 
tax collections, and interest on the trust fund surplus. Four 
legislative proposals are: Full use of HMT Fund, expanded use for Donor 
& Energy Transfer (D&ET) ports; regional funding floors, and emerging 
harbors funding. The dedicated use of HMT revenues for harbor 
maintenance as well as the Energy Transfer provisions will have direct 
benefits to The Port of Virginia. Unlocking the Harbor Maintenance 
Trust Fund is key to ensuring we're not just adding to the $100 billion 
dollar backlog of projects at the Corps of Engineers, but are actually 
using existing funds to make real investments in our Nation's ports, 
harbors and waterways.
    2.  Benefit-to-Cost Ratio (BCR) for Locally Preferred Plan
    3.  Prioritizing funding for shallow draft navigation projects: 
Federal funding has historically been provided in the Army Corps of 
Engineers' budget for shallow draft low use navigation projects. 
However, current budget metrics are not providing sufficient funding at 
levels to sustain maintenance dredging of low use navigation channels 
throughout the United States. It would benefit rural localities who 
rely on routine maintenance dredging of such low use channels to supply 
their economies, to prioritize funding for shallow draft low use 
navigation projects.

    I want to thank the Chairwoman, Ranking Member, and Members of the 
committee for this opportunity to testify today. I look forward to 
working with the committee, the Corps of Engineers, and Virginians as 
we move towards implementing WRDA 2020.

    Ms. Mucarsel-Powell. Thank you, Mr. Wittman.
    And now I would like to recognize our next witness, Mr. 
Johnson from the great State of Louisiana, for 5 minutes.

 TESTIMONY OF HON. MIKE JOHNSON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Johnson of Louisiana. Thank you, Madam Chair. I want to 
thank all the members of the subcommittee for the opportunity 
to testify about important matters to the people of Louisiana's 
Fourth Congressional District and this year's WRDA bill.
    As the committee begins its work, I respectfully ask that 
you keep in mind two priorities in particular. The first is a 
parochial issue relating to a levee segment of the Red River in 
my district, and the second is a programmatic request that will 
increase efficiency within the Corps of Engineers.
    First, I respectfully ask that the committee incorporate 
approximately 1.5 miles of levee in Shreveport, Louisiana, into 
the Red River Below Denison Dam project. This stretch of levee 
was constructed in the early 1960s, and it has always been 
operated and maintained by the Caddo Parish Levee District. It 
provides flood protection for nearly 30,000 residents, and 
200,000 acres of agricultural land.
    The levee has proven to be resilient, and it performed well 
during the historic Red River flood that occurred in June 2015. 
It has also been accredited by FEMA, and the levee was included 
in last year's Corps of Engineers Report to Congress on Future 
Water Resources Development. I believe it warrants inclusion 
into the Red River Below Denison Dam project, and I 
respectfully ask that you incorporate this levee segment into 
this year's WRDA bill.
    Next I would like to draw your attention to legislation 
that I have introduced reauthorizing section 1043 of the 2014 
WRRDA bill. As you may know, section 1043 created two pilot 
programs to give greater local control over Corps of Engineers 
projects. Specifically, these pilot programs allow the Corps to 
transfer appropriations to non-Federal sponsors to conduct 
feasibility studies and project construction. Unfortunately, 
section 1043 expired due to a technicality, but my legislation 
would provide a clean reauthorization for the pilot programs 
for fiscal year 2021 and through fiscal year 2025.
    In his testimony before this subcommittee last month, 
Assistant Secretary R.D. James pointed out that local control 
over project delivery will ``help accelerate projects and 
create efficiencies.'' Allowing greater non-Federal involvement 
gets projects out of the day-to-day bureaucracy of the Corps, 
and this decentralized process allows stakeholders to identify 
and implement lower cost alternatives in the planning and 
construction phase.
    Furthermore, if decisions need to be made in the middle of 
a construction project, non-Federal stakeholders are better 
equipped than the Corps of Engineers to come to a timely 
resolution.
    Section 1043 can be a useful tool as this committee seeks 
out ways to address the regretful $98 billion backlog for Corps 
of Engineer projects.
    I would like to respectfully urge the committee to include 
these priorities in this year's WRDA bill, and I want to thank 
you again for allowing me the opportunity to testify today.
    I yield back.
    [Mr. Johnson of Louisiana's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Mike Johnson, a Representative in Congress 
                      from the State of Louisiana
    Chairman Napolitano, Ranking Member Westerman, and members of the 
subcommittee, thank you for the opportunity to testify about important 
matters to my district and constituents for this year's WRDA bill. As 
the Committee begins its work, I respectfully ask that you keep in mind 
two priorities--the first is a parochial issue relating to a levee 
segment of the Red River in my district, and the second is a 
programmatic request that will increase efficiency within the Corps of 
Engineers.
    First, I respectfully ask that the committee incorporate 
approximately 1.5 miles of levee in Shreveport, Louisiana into the Red 
River Below Denison Dam Project. This stretch of levee was constructed 
in the early 1960's, and it has always been operated and maintained by 
the Caddo Parish Levee District. It provides flood protection for 
nearly 30,000 residents and 200,000 acres of agricultural land. The 
levee has proven to be resilient, and it performed well during the 
historic Red River flood that occurred in June 2015. It has also been 
accredited by FEMA, and the levee was included in last year's Corps of 
Engineers Report to Congress on Future Water Resources Development. I 
believe it warrants inclusion into the Red River Below Denison Dam 
Project, and I respectfully ask that you incorporate this levee segment 
it in this year's WRDA bill.
    Next, I'd like to draw your attention to legislation that I have 
introduced reauthorizing Section 1043 from the 2014 WRRDA bill. As you 
may know, Section 1043 created two pilot programs to give greater local 
control over Corps of Engineers projects. Specifically, these pilot 
programs allow the Corps to transfer appropriations to non-federal 
sponsors to conduct feasibility studies and project construction.
    Unfortunately, Section 1043 expired due to a technicality, but my 
legislation would provide a clean reauthorization for the pilot 
programs from FY21 through FY25.
    In his testimony before this subcommittee last month, Assistant 
Secretary R.D. James pointed out that local control over project 
delivery will ``help accelerate projects and create efficiencies.'' 
Allowing greater non-federal involvement gets projects out of the day-
to-day bureaucracy of the Corps. This decentralized process allows 
stakeholders to identify and implement lower-cost alternatives in the 
planning and construction phase. Furthermore, if decisions need to be 
made in the middle of construction of a project, non-federal 
stakeholders are better equipped than the Corps of Engineers to come to 
a timely resolution.
    Section 1043 can be a useful tool as this committee seeks out ways 
to address the $98 billion backlog for Corps of Engineers projects.
    I'd like to respectfully urge the Committee to include these 
priorities in this year's WRDA bill, and thank you again for allowing 
me the opportunity to testify today.

    Mrs. Napolitano [presiding]. Thank you very much for your 
testimony, Mr. Johnson.
    Mr. Johnson of Louisiana. Yes, ma'am.
    Mrs. Napolitano. And now we will recognize the next 
witness, the gentlewoman from Texas, Ms. Escobar, for 5 
minutes.

    TESTIMONY OF HON. VERONICA ESCOBAR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Escobar. Thank you, Chairwoman Napolitano. I look 
forward to highlighting water infrastructure priorities for my 
constituents in El Paso, Texas, as the committee considers a 
reauthorization of the Water Resources Development Act.
    El Paso is a vibrant community in the Chihuahuan Desert, 
situated in the westernmost part of Texas. We are fortunate to 
have the Franklin Mountains in the heart of our city. However, 
when we receive large amounts of rain, stormwater runoff from 
the mountains routinely floods parts of our community. Flash 
floods are not uncommon during the storm season, and water 
speeds can reach up to 20 feet per second.
    In 2006, our community received a record amount of rain 
that caused over $315 million in damages to homes and 
businesses. Since then, El Paso Water, our local water utility, 
has taken on several projects to improve our stormwater system 
and update flood controls. The utility developed a stormwater 
master plan containing these projects, many of which received 
funds through WRDA. Within the first 3 years of this plan, more 
than 50 percent of our city's flood risk was addressed or 
reduced.
    It is my hope that we can continue to build on that 
progress with the upcoming WRDA reauthorization by including 
project modifications El Paso Water has proposed to the Army 
Corps of Engineers under section 7001 of WRDA.
    In addition to addressing our stormwater systems, El Paso 
Water has taken great strides to think ahead when it comes to 
wastewater. El Paso Water treats an average of 55 million 
gallons of wastewater per day for over 220,000 El Pasoans. El 
Paso Water has over 2,300 miles of wastewater lines carrying 
wastewater to treatment plants across the country. These 
treatment plants then send close to 6 million gallons of 
reclaimed water per day to irrigate crops and landscapes.
    Additionally, El Paso Water maintains a diverse water 
portfolio because we live in a desert environment. This 
portfolio has become even more important as we face the 
existential threat of the climate crisis.
    The Rio Grande, which can typically supply as much as half 
of our city's water needs, has seen its water level drop as 
temperatures have risen. One solution El Paso Water has 
pioneered has been treating our wastewater to drinking water 
standards. This water is then used to recharge the Hueco Bolson 
Aquifer to replenish our water supply.
    WRDA funds have been critical to my community's ability to 
bolster our wastewater infrastructure, and continued funding 
will allow us to expand services to different parts of the 
community.
    As El Paso County is an eligible community under section 
219 of the WRDA reauthorization of 2007, El Paso Water has 
enjoyed a strong partnership with the Corps of Engineers as the 
non-Federal project sponsor for these projects carried out 
under WRDA. They have collaborated on major projects to address 
our stormwater and wastewater needs.
    One of the projects that has completed the design phase and 
will begin construction soon as a result of this partnership is 
the Boone Siphon Wastewater Line. This project will replace 
siphon infrastructure dating back to the 1950s. It has been 
crumbling due to age, but is slated to successfully direct 
wastewater from Fort Bliss, the Defense Department's second 
largest military installation, and the surrounding areas to a 
nearby treatment plant.
    One of the projects slated to begin construction in 2022 
would improve the stormwater infrastructure of the Palisades, 
which is located in West Central El Paso. The area's steep 
terrain causes significant flash flooding for the properties 
downstream. The improvements proposed in this project would 
minimize flooding in this area, which includes the University 
of Texas at El Paso.
    Another major project is repairing the Keystone Dam. This 
dam was constructed in the 1980s by the Corps of Engineers, and 
is primarily used for stormwater runoff. However, there is 
evidence of seepage near the downstream embankment, and an 
analysis has recommended stabilizing the slope.
    As time has passed, it is now apparent that our community 
requires more investment in our stormwater and wastewater 
infrastructure. To address this, El Paso Water is seeking 
modifications to the underlying section 219 authorization for 
El Paso County. The modifications involving stormwater 
infrastructure include the conduit lining of the Keystone Dam 
and the construction of a new pump station that will outfall 
into the Rio Grande.
    These projects are vital to protecting El Pasoans, 
businesses, transportation corridors, and Fort Bliss.
    El Paso Water has also requested funding to upgrade a major 
component of our wastewater treatment infrastructure, the 
Haskell Street Wastewater Plant. This treatment plant is 
critical to our agricultural sector, as it provides irrigation 
water to farmers in the Lower Valley. It is also the sole 
treatment plant for the wastewater produced by Fort Bliss. 
However, it is also the oldest wastewater facility in El Paso, 
having been built in 1923, and is in need of major 
rehabilitation to ensure it can continue to provide essential 
services across the region, as well as Fort Bliss.
    Thank you all for the opportunity to testify before you 
today, and I look forward to collaborating with the committee 
to ensure a successful WRDA reauthorization.
    [Ms. Escobar's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Veronica Escobar, a Representative in 
                    Congress from the State of Texas
    Thank you Chairwoman Napolitano and Ranking Member Westerman. I 
look forward to highlighting water infrastructure priorities for my 
constituents in El Paso, Texas as the Committee considers a 
reauthorization of the Water Resources Development Act (WRDA).
    El Paso is a vibrant community in the Chihuahuan desert, situated 
in the westernmost part of Texas. We are fortunate to have the Franklin 
Mountains in the heart of our city. However, whenever we receive large 
amounts of rain, stormwater runoff from the mountains routinely floods 
parts of our community. Flash floods are not uncommon during the storm 
season and water speeds can reach up to 20 feet per second. In 2006, 
our community received a record amount of rain that caused over $315 
million in damages to homes and businesses. Since then, El Paso Water, 
our local water utility, has taken on several projects to improve our 
stormwater system and update flood controls. The utility developed a 
Stormwater Master Plan containing these projects, many of which 
received funds through WRDA. Within the first three years of this plan, 
more than 50 percent of our city's flood risk was addressed or reduced. 
It is my hope that we can continue to build on that progress with the 
upcoming WRDA reauthorization by including project modifications El 
Paso Water has proposed to the Army Corps of Engineers under section 
7001 of WRDA.
    In addition to addressing our stormwater systems, El Paso Water has 
taken great strides to think ahead when it comes to wastewater. El Paso 
Water treats an average of 55 million gallons of wastewater per day for 
over 220,000 El Pasoans. El Paso Water has over 2,300 miles of 
wastewater lines carrying wastewater to treatment plants. These 
treatment plants then send close to 6 million gallons of reclaimed 
water per day to irrigate crops and landscapes. Additionally, El Paso 
Water maintains a diverse water portfolio because we live in a desert 
environment. This portfolio has become even more important as we face 
the existential threat of the climate crisis. The Rio Grande, which can 
typically supply as much as half of our city's water needs, has seen 
its water level drop as temperatures have risen. One solution El Paso 
Water has pioneered has been treating our wastewater to drinking water 
standards. This water is then used to recharge the Hueco Bolson aquifer 
to replenish our water supply. WRDA funds have been critical to my 
community's ability to bolster our wastewater infrastructure and 
continued funding will allow us to continue to expand services to 
different parts of the community.
    As El Paso County is an eligible community under section 219 of the 
WRDA reauthorization of 2007, El Paso Water has enjoyed a strong 
partnership with the Corps of Engineers as the non-federal project 
sponsor for the projects carried out under WRDA. They have collaborated 
on major projects to address our stormwater and wastewater needs. One 
of the projects that has been completed as a result of this partnership 
is the Boone Siphon Wastewater Line. This project replaced siphon 
infrastructure dating back to the 1950s. It had been crumbling due to 
age but is now successfully directing wastewater from Fort Bliss, the 
Defense Department's second largest installation, and the surrounding 
areas to a treatment plant.
    One of the proposed projects for Fiscal Year 2020 to 2021 is 
improving the stormwater infrastructure of the Palisades, which is 
located in West Central El Paso. The area's steep terrain causes 
significant flash flooding for the properties downstream. The 
improvements proposed in this project would minimize flooding in this 
area, which includes University of Texas at El Paso. Another major 
project is repairing the Keystone Dam. This dam was constructed in the 
1980s by the Corps of Engineers and is primarily used for stormwater 
runoff. However, there is evidence of seepage near the downstream 
embankment and an analysis has recommended stabilizing the slope.
    As time has passed, it is now apparent that our community requires 
more investment in our stormwater and wastewater infrastructure. To 
address this, El Paso Water is seeking modifications to the underlying 
section 219 authorization for El Paso County. The modifications 
involving stormwater infrastructure include the conduit lining of the 
Keystone Dam and the construction of a new pump station that will 
outfall into the Rio Grande. These projects are vital to protecting El 
Pasoans, businesses, transportation corridors, and Fort Bliss.
    El Paso Water has also requested funding to upgrade a major 
component of our wastewater treatment infrastructure, the Haskell 
Street Wastewater Plant. This treatment plant is critical to our 
agricultural sector as it provides irrigation water to farmers in the 
Lower Valley. It is also the sole treatment plant for the wastewater 
produced by Fort Bliss. However, it is also the oldest wastewater 
facility in El Paso having been built in 1923. It is in need of major 
rehabilitation to ensure it can continue to provide essential services 
across the region, as well as reliable performance to support the 
national security mission at Fort Bliss.
    El Paso has been able to successfully use WRDA and our strong 
relationship with the Corps of Engineers to bolster our stormwater 
system and expand our wastewater treatment options. It is critical that 
Congress reauthorize WRDA to ensure communities across the country 
continue to improve and bring our water infrastructure into the 21st 
century.
    Thank you all for the opportunity to testify before you today and I 
look forward to collaborating with the committee to ensure a successful 
WRDA reauthorization.

    Mrs. Napolitano. Thank you for your testimony, Ms. Escobar, 
and I would like to recognize the next witness, the gentlewoman 
from Iowa, Mrs. Axne, for 5 minutes.
    If you can keep it under 5 minutes, bless you.

 TESTIMONY OF HON. CYNTHIA AXNE, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mrs. Axne. Very good. Thank you, Chairwoman Napolitano, 
Ranking Member Westerman, and members of the subcommittee. 
Thanks for the opportunity to let me testify here today.
    As many of you may know, in the spring of 2019, my district 
in the southwest corner of Iowa suffered historic flooding on 
the Missouri River, resulting in towns like Hamburg and Pacific 
Junction to be completely inundated by as much as 15 feet of 
water. Communities were absolutely devastated, homes were 
destroyed, farms were flooded, and businesses had to close.
    Unfortunately, severe flooding is nothing new to Iowans. 
Nine years ago, in 2011, record snowfall caused water levels to 
rise, overflowing dams and breaching levees all along the 
Missouri River. Hamburg, a town I just mentioned, a small town 
of 1,100 folks near the Missouri River, was facing ruin as the 
waters continued to rise, nearing the peak of their levee. 
However, the spirit and work ethic of Iowans was in full force 
as communities came together and worked with the Army Corps 
through pouring rain to construct a temporary extension of the 
levee, and they raised the height enough to hold back the 
water.
    Well, this temporary heightened levee saved the town, and 
would be needed for continued protection of Hamburg. However, 
the Army Corps said it didn't meet the proper specifications 
required in a permanent levee, and gave residents two choices: 
either tear down the extension, which would cost the city about 
$1.3 million, or pay $5.6 million to make it permanent.
    Well, a $5.6 million bill for a town the size of 1,100 
people works out to be just over 5 grand per person. But the 
residents of Hamburg, in their spirit, didn't give up. And just 
like when the river was rising, they came together and they 
tried, literally, every possible option to raise enough money 
to make the levee permanent, including a fundraising campaign 
on YouTube, a viral music video called ``Save Our Levee.'' 
However, that massive price tag was just too much for the town 
to come up with, and--on their own. And they were forced to, 
literally, tear down their 2011 levee height that was tall 
enough to protect the town.
    Now, fast forward to just last year. Hamburg was hit with 
some of the worst flooding it has ever seen. Their levee wasn't 
at the 2011 height, because they weren't able to do that. It 
wasn't tall enough to protect them this time. And I am going to 
tell you, tearing down a levee that saved people and replacing 
it with one that didn't has got to be one of the biggest wastes 
of taxpayer dollars I have ever heard of.
    This challenge, the challenges that Hamburg have faced, are 
unacceptable. And so I am testifying today to get things 
changed for my constituents in southwest Iowa and, of course, 
for communities across the country that may experience 
something similar. I ask the subcommittee to consider including 
my bipartisan and bicameral legislation, the LEVEE Act, in the 
Water Resources Development Act of 2020.
    The LEVEE Act would give the Army Corps new authority to 
evaluate whether temporary flood control structures should be 
converted into a permanent structure. A community would 
petition the Corps to make a determination, and if the Corps 
finds the levee is necessary, the legislation would allow the 
Corps to act quickly by granting preauthorization for planning 
and design projects less than $25 million. The legislation 
would provide 100 percent cost share for communities with less 
than 10,000 residents, or ones at risk of repeated flooding.
    You know, no community should have to go through the 
difficulties that Hamburg faced, simply to protect themselves 
from severe flooding. And I have heard from constituents who 
literally fled their homes with no shoes on their feet. Many of 
them had finally just gotten over and recovered and rebuilt 
from the 2011 flood, only to lose it all again last year. And 
now we are waiting to see how that river is going to rise again 
in the spring.
    So I hope the subcommittee will include the legislation in 
the reauthorization to prevent this situation from happening to 
any other community.
    I also quickly want to highlight an issue that the city of 
Des Moines is having with a levee that provides critical 
protection for the city. So I am talking about one of the 
smallest towns in Iowa, Hamburg, and then our biggest city, Des 
Moines.
    They have the Birdland levee, which protects the city from 
flooding on the Des Moines River, but it breached in the floods 
of 2008, flooding nearby neighborhoods in the community. The 
levee had just been repaired, but in 2018 city officials 
identified a problem of underseepage. While the Corps has 
recognized this issue, and reported that two-thirds of the 
levee was deficiently designed and in need of repair, and we 
can't continue to throw good money after bad.
    So what is happening here is that they want to repair the 
levee to almost the cheapest alternative. But I have got to 
say, smart investments in flood prevention like what Hamburg 
needed will save our taxpayers more money in the long run.
    So the integrity of this levee is crucial to protect Des 
Moines, and I will be submitting language to provide funding 
for these repairs, and ask that the subcommittee request that 
in the reauthorization, as well. Thank you so much.
    [Mrs. Axne's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Cynthia Axne, a Representative in Congress 
                         from the State of Iowa
    Chairwoman Napolitano, Ranking Member Westerman, and Members of the 
Subcommittee--thank you for the opportunity to testify here today.
    As many of you know, in the Spring of 2019, my district in 
Southwest Iowa suffered historic flooding of the Missouri River which 
resulted in entire towns such as Hamburg and Pacific Junction to be 
completely inundated by as much as 15 feet of water. Communities were 
devastated--homes were destroyed, farms were flooded, and businesses 
had to close.
    Unfortunately, severe flooding is nothing new to Iowans. Nine years 
ago, in 2011, record snowfall caused water levels to rise, overflowing 
dams and breaching levees all along the Missouri River. Hamburg, Iowa--
a small town of 1,100 folks near the Missouri River--was facing ruin as 
the waters continued to rise, nearing the peak of their levee.
    However, the spirit and work ethic of Iowans was in full force as 
members of the community worked with the Army Corps--through the 
pouring rain--to construct a temporary extension of the levee and 
raised the height enough to hold back the water.
    This temporary heightened levee saved the town and would be needed 
for continued protection of Hamburg. However, the Army Corps said it 
did not meet the proper specifications required in a permanent levee 
and gave residents a choice: either tear down the extension, which 
would cost the city $1.3 million, or pay $5.6 million to make it 
permanent.
    A $5.6 million bill for a town of 1,100 people works out to be just 
over $5 grand per resident.
    But the residents of Hamburg didn't give up. Just like when the 
river was rising, they came together and tried every possible option to 
raise enough money to make the levee permanent, including a fundraising 
campaign with a viral YouTube music video titled ``Save Our Levee!''
    However, the massive price tag was too much for the town to come up 
with on their own and they were forced to tear down their 2011 levee 
height.
    And last year, Hamburg was hit with some of their worst flooding. 
Their levee wasn't at the 2011 height, and it wasn't tall enough to 
protect them this time.
    Tearing down a levee that saved you and replacing it with one that 
didn't is the biggest waste of taxpayer dollars I can think of.
    The challenges Hamburg faced are unacceptable and I'm testifying 
today to get things changed for my constituents in Southwest Iowa and 
communities across the country that may face similar challenges.
    I ask that the subcommittee considers including my bipartisan and 
bicameral legislation, the LEVEE Act, in the Water Resources 
Development Act of 2020.
    The LEVEE Act would give the Army Corps new authority to evaluate 
whether temporary flood control structures should be converted into a 
permanent structure. A community would petition the Corps to make a 
determination and if the Corps finds the levee is necessary, the 
legislation would allow the Corps to act quickly by granting pre-
authorization for planning and design on projects less than $25 
million.
    The legislation would provide 100% cost share for communities with 
less than 10,000 residents or ones at risk of repeated flooding.
    No community should have to go through the difficulties that 
Hamburg faced simply to protect themselves from severe flooding. I 
heard from constituents who had to flee their homes, with no shoes on 
their feet. Many of them had finally just recovered and rebuilt what 
was lost in 2011, only to lose it all again last year. And now, we're 
waiting to see how that river will rise this year.
    I hope the subcommittee will include the legislation in the 
reauthorization to prevent this situation from happening to any other 
community.
    I also want to quickly highlight an issue that the City of Des 
Moines is having with a levee that provides critical protection for the 
city. The Birdland Levee protects the city from flooding of the Des 
Moines River but breached during the floods of 2008, flooding 
neighborhoods and nearby communities.
    The levee had been repaired but in 2018, City officials identified 
a problem with under seepage of the levee, causing concern with the 
overall integrity of the levee.
    The Corps has recognized this issue and reported that two thirds of 
the levee is deficiently designed and in need of repair. We can't 
continue to throw good money after bad, and need to repair this levee 
to the fullest possible extent and not simply the cheapest. Smart 
investments in flood prevention--like what Hamburg needed--will save 
taxpayer dollars in the long run.
    The integrity of this levee is crucial for the protection of Des 
Moines and I will be submitting language request to provide funding for 
these repairs and ask that the subcommittee includes the request in the 
reauthorization as well.
    Finally, I want to thank the Members of the Subcommittee for your 
time and ask that you work with my office as you consider these 
requests. Thank you.

    Mrs. Napolitano. Thank you very much for your testimony.
    Now we would like to recognize our next witness, the 
gentleman from Texas, Mr. Olson, for 5 minutes.

TESTIMONY OF HON. PETE OLSON, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Olson. Thank you, Chairwoman Napolitano and all the 
subcommittee members. And thank you for the time to talk about 
WRDA today.
    I represent the 22nd Congressional District of Texas, the 
southwestern suburbs of Houston, Texas. We have many monikers, 
many names. We are called the Energy Capital of the Entire 
World; Space City, U.S.A.; and the biggest city to be straight 
in the heart of Hurricane Alley. It is not a matter of if, but 
when the next hurricane will hit my home. And that is a fact of 
life on the gulf coast.
    Because of these examples of what has happened in the past, 
we have suffered the worst natural disaster in our country's 
history, the Galveston hurricane of 1900: 12,000 Texans killed 
with no chance to survive. We had Carla hit us in 1961, the 
strongest hurricane ever to develop in the Gulf of Mexico. 
Alicia, 1983, flooded out the Texas Medical Center. Hurricane 
Ike in 2008, with a rebound effect for storm surge through the 
Galveston Bay. And in 2017 we all know Hurricane Harvey hit us 
not once, but twice.
    Because of these facts, local leaders throughout Texas-22 
wake up each morning looking for new, innovative ways to 
provide needed safety to our region. And elected officials like 
us work to ensure the Federal Government is using resources 
wisely so communities are prepared when disaster strikes.
    As you all know, our Corps of Engineers is tasked with 
building most of our levees and our protection systems, our 
dams, and they have a tremendous backlog right now, approaching 
$100 billion. There is a way we can help that out, and get 
these projects going quicker by utilizing section 1043. That 
gives non-Federal entities, local cities, the authorization to 
construct Army Corps projects.
    The Corps granted section 1043 authorization for the Clear 
Creek Flood Risk Management project in my district. That 
project was 50 years in the making. That was the first time 
ever that such an authorization was provided for a complete 
project. This allows Harris County, the flood control district, 
the non-Federal sponsor, to move quickly to construct the Clear 
Creek project first authorized five decades ago--to provide 
flood protection for thousands of people living in harm's way 
right now.
    However, this process required a very rushed timeframe 
because Congress failed to authorize 1043 during the 2018 WRDA 
bill. The program expired on June 11th of 2019. This required 
the Harris County Flood Control District to move quickly, 
because they had sole responsibility to make this project 
happen as quickly as possible. They cut a lot of corners before 
the shot clock hit zero. And that is why I asked that section 
1043(a) and 1043(b) of the 2014 WRRDA be reinstated.
    Every community that wishes to pursue such authorization 
should have the chance to do so. Authorizing current projects 
funded through disaster supplementals is helpful, and Congress 
should keep making those moves.
    Finally, I want to talk about lessons learned from 
Hurricane Harvey, which hit my home State the first time on 
August 25th of 2017, a second time 2 days later. It became the 
costliest storm in our history, with damages coming around $190 
billion. According to our local paper, the Houston Chronicle, 
Texas has led the Nation in flood-related deaths for the last 
50 years.
    And we did great work in Congress for Hurricane Harvey, 
came together quickly, and got them record levels of money in a 
very short time to help these communities recover as quickly as 
possible. But we were disappointed once again by restrictions 
in Federal law that allows this money to be used to rebuild 
flooded structures, but not to prevent future flooding.
    I will yield my other comments for the committee, and thank 
you so much for the time.
    [Mr. Olson's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Pete Olson, a Representative in Congress 
                        from the State of Texas
    Chairwoman Napolitano and Ranking Member Westerman, thank you for 
the opportunity to speak on WRDA today.
    I represent the 22nd Congressional District in Texas, in the 
greater Houston region. Sadly, Houston is no stranger to hurricanes, 
devastating storms and the flooding that they bring.
    Parts of Texas are still recovering from the devastation of 
Hurricane Harvey, more than two years later.
    It's not a matter of ``if,'' but ``when'' the next storm will hit.
    Because of this, local leaders throughout TX-22 wake up each 
morning looking for new, innovative ways to provide needed safety to 
our community. And elected officials like US work to ensure the federal 
government is using resources wisely so our vulnerable communities are 
prepared when disaster strikes.
    Section 1043 reauthorization is an important way we can help, 
giving non-federal entities authorization to construct Army Corps 
projects.
    The Army Corps granted Section 1043 authorization for the Clear 
Creek Flood Risk Management project in my district. It was the first 
time that such authorization WAS provided for a complete project. This 
allows Harris County Flood Control District, the non-federal sponsor to 
move quickly to construct the Clear Creek project--first authorized 
decades ago--to provide flood protection to thousands of individuals 
within my district.
    However, this process required a rushed timeframe. Because Congress 
failed to specifically reauthorize Section 1043 during the 2018 WRDA 
debate, the program expired on June 11th of 2019. This required Harris 
County Flood Control District, who took on the responsibility for this 
important project, to work on an express timeline to reach an agreement 
before the shot clock hit zero.
    That's why I ask that Section 1043(a) and 1043(b) of the 2014 WRDA 
be reinstated. Every community that wishes to pursue such authorization 
should have the chance to do so.
    Authorizing current projects funded through Disaster Supplementals 
is another good move Congress can make.
    So-called ``500 Year Floods'' have become more frequent. In 
Houston, the Memorial Day Flood in May 2015 and the Tax Day Flood in 
April 2016 caused over $3 billion dollars in damage and took the lives 
of 16 people.
    Then came Hurricane Harvey, which hit Texas on August 25th, 2017. 
It became the most costly storm in U.S. history--with damage estimates 
coming in at $190 billion dollars.
    According to the Houston Chronicle, TX has led the nation in flood 
related deaths for the last 50 years.
    I'm proud of the work we did in Congress to quickly come together 
and work to provide needed federal assistance to make these devastated 
communities whole.
    Yet it would be pointless to invest so much in repair without 
pairing such funding with prevention. Investing in projects and studies 
to ensure that Houston and other communities devastated by Hurricanes 
Harvey, Maria and Irma become more resilient when faced with future 
storms was a vital component of the work Congress did as part of our 
Hurricane Harvey response.
    Many of these studies are ongoing as I speak, and are set to finish 
in fiscal year 2021.
    Sadly, once these studies are completed, and chiefs' reports are 
finalized, they will sit and wait for authorization from Congress. 
Every moment those studies sit collecting dust without congressional 
action is time that our vulnerable communities can't afford to waste.
    I plan to file an amendment to this year's WRDA to authorize 
projects that have been identified in a section 216 study and included 
in a chief's report.
    This amendment will help cut red tape and allow disaster-stricken 
communities such as mine in desperate need of mitigation and stronger 
infrastructure to move forward.
    Thank you to the Transportation and Infrastructure's Subcommittee 
on Water Resources and Environment for hosting this important hearing 
today. Reauthorization of a strong WRDA will bolster our 
infrastructure, better prepare our communities and help save lives.
    Thank you.

    Mrs. Napolitano. Thank you so much. The votes have been 
called, so if the next witnesses would limit to 2 minutes, we 
will get through it.
    But thank you, Mr. Olson.
    And my next witness will be Mr. Cloud, the gentleman from 
Texas, 5 minutes--for 2 minutes, if you can.

 TESTIMONY OF HON. MICHAEL CLOUD, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Cloud. I will do my best to keep this short. Thank you, 
Chairwoman Napolitano, Ranking Member Massie. Thank you for 
being here today.
    I represent the 27th Congressional District of Texas, which 
is home to 6 of Texas' 19 ports. When it comes to maritime 
commerce, Texas, of course, handles 20 percent of all tonnage 
in the Nation. So the upcoming Water Resources Development Act 
is critical not only for our coastal district, but all the 
economies that are tied to the Texas coast.
    And there are a few issues I wanted to bring up that 
concern Texans back home.
    The first issue I wanted to discuss is with our Matagorda 
Ship Channel, which exports petrochemicals, oil, gas, and 
agricultural products in and out of the Matagorda Bay. The Army 
Corps of Engineers first dredged the channel to its current 
depth of 38 feet in 1966. However, the way the channel was 
constructed, it causes dangerous currents and erosion to the 
jetties underneath.
    The Corps' Galveston office has identified that this is a 
result of the Corps' preengineering construction and design. 
According to the Corps, the Matagorda Ship Channel is probably 
one of the small, few infrastructure projects that has serious 
defects made by the Corps.
    Should the Calhoun Port Authority begin construction to 
correct the Corps design, current law treats the construction 
project, however, as a new project, and requires that the port 
authority share the cost with the Federal Government, even 
though the problem was due to an error in the Corps' design.
    When it comes to poor construction made by the Corps in 
preconstruction engineering and design, the private sponsor 
should not have to pay to correct the Federal Government's 
mistake. With that in mind I ask you to consider including a 
provision that specifies that design deficiencies created by 
the Corps must be fully financed by the Federal Government.
    Second, I have two major projects in my district that need 
authorization in this WRDA bill. I only have 15 seconds left, 
so I will have to submit a lot of this to you in writing. But I 
appreciate you being here, and thank you for your time.
    [Mr. Cloud's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Michael Cloud, a Representative in Congress 
                        from the State of Texas
    Thank you, Chairman DeFazio and Ranking Member Graves, for allowing 
Members to testify today. I represent Texas' 27th District, which is 
home to 6 of Texas' 19 ports. When it comes to maritime commerce, Texas 
ranks second in the nation and handles over 20 percent of all tonnage 
in the nation. The upcoming Water Resources and Development Act is 
critical for my coastal district, and I want to discuss a few issues 
and projects that are of concern for Texans back home.
    The Army Corps of Engineers first dredged the Matagorda Ship 
Channel to its current depth of 38 feet in 1966. This channel exports 
petrochemicals, oil, gas, and agricultural products in and out of Port 
Lavaca and Point Comfort, Texas. However, the way that the channel is 
constructed causes dangerous currents and erosion to the jetties 
underneath. The Corps' Galveston Office has identified that this is the 
result of Corps' pre-engineering construction and design. According to 
the Corps, the Matagorda Ship Channel is probably one of a small few 
infrastructure projects that has serious defects made by the Corps. 
Should the Calhoun Port Authority begin construction to correct the 
Corps' design, current law treats the construction as a new project and 
requires the Port Authority to share the cost with the federal 
government even though problem is due to an error in the Corps' design. 
The repairs are expected to cost $78.7 million, with the Port Authority 
shouldering nearly $20 million. When it comes to poor construction made 
by the Corps in pre-construction engineering and design, the private 
sponsor shouldn't have to pay to correct the federal government's 
mistakes. With that in mind, I ask that you all consider including a 
provision that specifies that design deficiencies created by the Corps 
must be fully financed by the federal government.
    Two major projects in my district will need authorization in this 
WRDA bill. A feasibility study for the Matagorda Shipping Channel was 
just completed, which recommends dredging the main channel from 38 to 
47 feet deep and widening it to 300 feet. The completion of this 
project will allow larger vessels to travel in and out of the channel 
in the future. Additionally, TxDOT just finalized a study with the 
Corps on upgrading the Brazos River Floodgates and Colorado River 
Locks. Both the floodgates and locks help control water flow along 
Marine Highway 69, which is the third busiest inland waterway in the 
United States. Since 2000, the government has recognized the need to 
replace current structures due to safety and congestion issues. The 
completion of this project will replace outdated floodgates with new 
ones and will help reduce the amount of congestion and traffic 
accidents.
    Finally, it's been more than 2 years since Hurricane Harvey 
devastated Coastal Texas, but Texans back home are still waiting on 
assistance from FEMA's Public Assistance program. In Corpus Christi, 
the Packery Channel, a system of storm-wash over channels, suffered 
damage. The Packery Channel exchanges water between the Gulf of Mexico 
and the Laguna Madre and supports marine wildlife migration between the 
two entities. When seeking assistance through FEMA's Public Assistance 
program, FEMA told the city that it couldn't repair the channel because 
the channel technically fell under the Corps' jurisdiction. Any repairs 
would theoretically constitute a duplication of benefits. The Corps, 
however, transferred authority to the city after its first completed 
construction on the Packery Channel. I hope to amend language in the 
Water Resources Development of 1999, which authorized the Corpus 
Christi Packery Channel, to better clarify the project's purpose and 
which agency has jurisdiction.
    Ultimately, investments in our nation's ports also lead to 
investments in American-based businesses, jobs for American workers, 
and markets for American producers. I look forward to working with the 
committee in the coming weeks on this legislation, and, again, I 
appreciate you allowing me to testify today.

    Mrs. Napolitano. Thank you. We will take it into account 
for the record. Thank you for that.
    Are there any questions relevant to the witness? No? Thank 
you.
    I would like to recognize the next witness, the gentleman 
from Ohio, Mr. Gonzalez, for 2 minutes.
    Now, votes have been called. We have got 12 minutes to make 
it to the floor. So if you can keep it to 2 minutes, we might 
make it. Thank you.

    TESTIMONY OF HON. ANTHONY GONZALEZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Gonzalez of Ohio. Thank you, Chairwoman Napolitano. 
Thank you for the opportunity to speak today about a project 
that is important to northeast Ohio.
    The city of New Franklin has been working to fix issues 
arising from water runoff and drinking water infrastructure in 
the Nimisila Reservoir and Portage Lakes. These bodies of water 
are considered traditionally navigable waters of the United 
States, according to the U.S. Army Corps of Engineers, and fall 
within the Army Corps improvement plan for the Upper Tuscarawas 
River watershed.
    The Portage Lakes were constructed in the mid-1850s to 
serve as a source of water for the Ohio and Erie Canal system. 
The Nimisila was constructed in the late 1930s to help maintain 
water levels throughout the Portage Lakes system, and provide 
manufacturing industries access to water. Since the entire 
region sits adjacent to the Continental Divide between the Lake 
Erie Basin and the Ohio River system, waterflows are dependent 
on man-made infrastructure, rather than natural patterns. Some 
of the water infrastructure in the area dates back to mid-19th-
century designs, and is now facing significant deterioration.
    The city of New Franklin, which encompasses much of the 
Portage Lakes region, has been working since 2011 to find a 
solution for issues related to stormwater runoff and flooding 
along the city's Main Street corridor. This has been 
challenging, because the storm drainage system installed in the 
1930s, when Nimisila was constructed, appears to have reached 
the end of its useful life.
    As a result of these issues, the cities of New Franklin and 
Green have seen flooding along the Main Street corridor on an 
almost annual basis, sometimes resulting in the closure of the 
roadway for several days. During particularly heavy flooding in 
2011 and 2019, the cities were forced to pump water off the 
roadway at a significant cost to their budgets.
    The city of New Franklin has consulted engineers to work on 
the issue, and now believes it is necessary to replace 1.25 
miles of storm sewer from East Canton Road to West Nimisila 
Road, and upgrade the storm sewer from 36 inches to 42 inches 
to handle the flow. I am requesting the committee's 
consideration of authorizing funding for this project in the 
upcoming WRDA bill.
    Thank you for the opportunity to speak today, and for your 
consideration. Perfect timing.
    [Mr. Gonzalez of Ohio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Anthony Gonzalez, a Representative in 
                    Congress from the State of Ohio
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee,
    Thank you for the opportunity to speak today about projects 
important to Northeast Ohio. The first project that my office is 
planning to submit is a project in the city of New Franklin to fix 
issues arising from water runoff and drinking water infrastructure in 
the Nimisila Reservoir and Portage Lakes. These bodies of water are 
considered Traditionally Navigable Waters (TNW) of the United States, 
according to the US Army Corps of Engineers, and fall within the Army 
Corps improvement plan for the Upper Tuscarawas River watershed.
    The Portage Lakes were constructed in the mid 1850's to serve as a 
source of water for the Ohio and Erie canal system. Nimisila Reservoir 
was constructed in the late 1930's to help maintain water levels 
throughout the Portage Lakes system, and the heavy industries in the 
region that relied on access to the water for manufacturing purposes. 
The entire region sits adjacent to the continental divide between the 
Lake Erie basin and the Ohio River system. Consequently, the 
modifications to the natural hydrology in the region over 150 years has 
meant that water flows throughout the area in ways that are dependent 
on manmade infrastructure, rather than natural patterns.
    Much of the hydraulic infrastructure in the area, some of it now 
dating back to designs drawn up the mid-19th century, is now aging and 
faces significant deterioration. With the modifications to the area 
over time, this can lead to serious issues when infrastructure breaks 
down. The city of New Franklin, which encompasses much of the Portage 
Lakes region, has been working since 2011 to find a solution for issues 
related to stormwater runoff and flooding along the city's Main Street 
corridor. Attempts at a solution are complicated by the fact that the 
storm drainage system installed in the 1930's, when Nimisila Reservoir 
was constructed, appears to have reached the end of its useful life. 
The system appears to be substantially silted in, and in places, may be 
cracked or broken, leading to possible intrusion from water coming off 
the Nimisila Reservoir levees.
    As a result of these issues, the cities of New Franklin and Green 
have seen flooding along the Main Street corridor on an almost annual 
basis, sometimes resulting in the closure of the roadway for several 
days. During particularly heavy flooding in 2011 and 2019, these two 
cities were forced to pump water off the roadway, at a significant cost 
to their budgets. The city of New Franklin has been working with their 
consulting engineers, GPD Group, and believe that replacement of 1.25 
miles of storm sewer from East Canton Road to West Nimisila Road and 
upgrading the storm sewer from 36" to 42" to handle increased flow.
    Thank you for your consideration.

    Mrs. Napolitano. Thank you very much, Mr. Gonzalez, much 
appreciated.
    Any questions of the witness? No, none.
    The next witness, we would recognize Mr. O'Halleran from 
Arizona for 2 minutes.

TESTIMONY OF HON. TOM O'HALLERAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. O'Halleran. Thank you, Chairwoman. I just want to say 
that I would like to begin by thanking General Semonite and 
Colonel Barta for prioritizing the Rio De Flag project in this 
year's workplan.
    I would like to highlight the need for the Corps to keep 
working with rural communities to reduce the threats they face 
from catastrophic flooding. It is Arizona, but we do have a lot 
of flooding, and a lot of that flooding takes a lot of lives. 
Because of the speed of these floods, they come down from the 
mountains. It might not even be raining in the town, but that 
town gets devastated by the quickness of those floods.
    Navajo County has been working with the Army Corps on the 
Little Colorado River, a levee project above the city of 
Winslow, and the 10,000 people who live there, many of whom are 
from Tribal Nations who were forcibly relocated by the Federal 
Government.
    Similarly, the southern transcontinental line of the BNSF 
Railway runs just below the levee. A major flood could disrupt 
rail activity between the ports of southern California and the 
eastern coast. Such a disruption would slow or stop billions of 
dollars of economic activity across the country, and take a 
long time to get it back because of the location.
    I encourage the Corps to work with the committee to ensure 
that these projects are considered in ways that measure their 
contribution to the entire Nation.
    And just quickly on water, the Southwest is going to 
continue to need more water projects, and they are going to 
be--in the process we have cities that are growing, like 
Phoenix, at 300 people per day. And it is going on across the 
entire State.
    Thank you. I yield.
    [Mr. O'Halleran's prepared statement follows:]

<F-dash>
Prepared Statement of Hon. Tom O'Halleran, a Representative in Congress 
                       from the State of Arizona
    Chairman DeFazio, Ranking Member Graves, thank you for holding this 
important opportunity for Members to speak about the importance of the 
Water Resources Development Act and the U.S. Army Corps of Engineers.
    I would like to begin my thanking General Semonite and Colonel 
Barta for prioritizing the ``Rio de Flag'' project in this year's work 
plan. Completion of this project will ensure downtown Flagstaff and 
Northern Arizona University are no longer under the treat of major 
flooding.
    I would like to highlight the need for the Corps to keep working 
with rural communities to reduce the threats they face from 
catastrophic flooding.
    For example, Navajo County has been working with the Army Corps on 
the Little Colorado River levee project, above the city of Winslow and 
the ten thousand people who live there, many of whom were forcibly 
relocated by the Federal Government.
    Similarly, the southern transcontinental line of the BNSF Railway 
runs just below the levee. A major flood could disrupt rail activity 
between the ports of southern California and the eastern U.S.
    Such a disruption would slow or stop the billions of dollars worth 
of economic activity across the country. I encourage the Corps to work 
with the committee to ensure that projects like this are considered in 
ways that measure their contribution to the entire nation.
    I encourage the Corps to work with smaller rural communities to 
address issues such as permitting for tamarisk removal or permitting 
for small bridge maintenance.
    Lastly, I encourage the committee to remember the future need of 
rural communities as they grow. For example, Pinal County is one of the 
fastest growing counties in the country and a flood in the Lower Santa 
Cruz watershed would devastate the communities.
    I urge the committee and the Corps to ensure that future projects 
like this one receive timely attention and equal treatment to current 
and urban projects.
    Again, I thank the committee for hearing from all Members and I 
look forward to working with you to ensure that the Army Corps supports 
rural communities.
    Thank you, Mr. Chairman. I yield back.

    Mrs. Napolitano. Thank you for your testimony.
    Now there are no questions from either side?
    I would like to recognize the next witness, the final 
witness, Ms. Shalala from Florida, for 2 minutes.

    TESTIMONY OF HON. DONNA E. SHALALA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Shalala. Madam Chair, my district is defined by the 
waters that shape our south Florida economy and way of life: 
the Everglades, the shores of Miami Beach, Biscayne Bay, Port 
Miami, Government Cut, and the Miami River, to name a few.
    WRDA legislation has remained indispensable in efforts to 
protect, maintain, and strengthen my district's tourism and 
trade economies, and in developing resiliency to climate change 
and sea-level rise.
    As you develop the next Water Resources Development Act, I 
urge your consideration of projects that will advance south 
Florida's environmental and economic needs, as well as our 
national priorities, like restoring America's Everglades.
    For decades, unfettered development in south and central 
Florida severely damaged the fragile ecosystem. In 2000, I 
worked with Secretary Babbitt to pass the Comprehensive 
Everglades Restoration Plan. It is a plan for restoring the 
natural southward flow of water, restoring habitat for native 
wildlife and protecting the drinking water for millions of 
south Florida residents. We have made incredible progress, and 
I am proud that this Congress has appropriated robust funding 
to continue these efforts.
    I encourage this committee to continue to prioritize 
Everglades restoration in this WRDA bill and, in particular, 
emphasize the importance of rehydration of the coastal wetlands 
in southeast Miami-Dade County. The Everglades is the largest 
remaining subtropical wilderness in the United States. It is a 
national treasure that deserves national attention.
    As climate change and sea-level rise continue to threaten 
our coastal communities, these needs are only more urgent. 
Since 1950, the sea level in south Florida has risen 8 inches, 
and it is only speeding up.
    By--I am sorry, should I continue?
    Mrs. Napolitano. Yes, wrap it up, please.
    Ms. Shalala. OK. Well, why don't I submit this for the 
record, Madam Chair?
    Mrs. Napolitano. So ordered.
    Ms. Shalala. But it is a full report on our needs in south 
Florida----
    Mrs. Napolitano. Wonderful.
    Ms. Shalala [continuing]. That include our environmental 
needs. But I thank the committee for your consideration of this 
very special part of the world.
    [Ms. Shalala's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Donna E. Shalala, a Representative in 
                   Congress from the State of Florida
    Chairman DeFazio, Ranking Member Graves, and Chairwoman Napolitano 
and Chairman Westerman, thank you for holding this hearing and inviting 
me to testify on my district's priorities for a Water Resources 
Development Act of 2020.
    My district is defined by the waters that shape our South Florida 
economy and way of life: the Everglades, the shores of Miami Beach, 
Biscayne Bay, PortMiami, Government Cut, and the Miami River, to name a 
few.
    WRDA legislation has remained indispensable in efforts to protect, 
maintain, and strengthen my district's tourism and trade economies, and 
in developing resiliency to climate change and sea level rise.
    As you develop the next Water Resources Development Act, I urge 
your consideration of projects that will advance South Florida's 
environmental and economic needs, as well as our national priorities, 
like restoring America's Everglades.
    For decades, unfettered development in South and Central Florida 
severely damaged the fragile ecosystem. In 2000, Congress passed the 
Comprehensive Everglades Restoration Plan, or CERP. It's a plan for 
restoring the natural, southward flow of water, restoring habitat for 
native wildlife, and protecting the drinking water for millions of 
South Florida residents.
    We have made incredible progress, and I am proud that this Congress 
has appropriated robust funding to continue these efforts.
    I encourage this committee to continue prioritizing Everglades 
restoration in this WRDA bill, and in particular, emphasize the 
importance on rehydration of the coastal wetlands in southeast Miami-
Dade County.
    The Everglades is the largest remaining subtropical wilderness in 
the United States. It is a national treasure that deserves national 
attention.
    As climate change and sea level rise continue to threaten our 
coastal communities, these needs are only more urgent.
    Since 1950, the sea level in South Florida has risen 8 inches, and 
it is only speeding up. By 2060, the sea level in South Florida is 
projected to rise up to 31 inches.
    According to UN projections, the average temperature on the planet 
will rise by 5 to 9 degrees Fahrenheit by the end of the century. This 
will cause a sea level rise that could virtually submerge all of South 
Florida.
    In this WRDA legislation, we have an opportunity to address and 
combat climate change and sea level rise. In Florida, the Central and 
Southern Flood Control Project is meant to provide drainage sufficient 
to protect developed areas of Miami-Dade County as sea levels continues 
to rise.
    However, as is already evident from the King Tide flooding on Miami 
Beach and in other coastal communities in my district, our efforts have 
been inadequate. I urge more investment to determine the technical 
feasibility and costs that will be involved over the next several 
decades as we address the ever-more pressing needs relating to flood 
mitigation.
    Coastal erosion from devastating storms like Hurricanes Michael, 
Harvey, Irma, and Maria--and even mild storms--can flood our 
communities and destroy habitats. Army Corps shore protection projects, 
like beach renourishments and sea wall construction protect the economy 
and our environment, and I fully support these efforts.
    Relatedly, I remain deeply concerned about saltwater intrusion. 
Because of Florida's porous limestone bedrock and the diversion of 
fresh waterways, as sea levels rise, saltwater reaches further inland 
and our drinking water is seriously threatened.
    I understand that there have been efforts to explore options to 
address saltwater intrusion using excess wet season water capture or 
wastewater reclamation. I support any and all efforts that protect our 
fragile shorelines and protect my constituents' health.
    Lastly, I'd like to bring your attention to PortMiami, a vital 
economic engine for Florida and the nation, which supports 
approximately 324,000 jobs and generates $41.4 billion in economic 
value.
    PortMiami is the nation's only 50-52 foot dredge channel south of 
Norfolk. Completed in 2015, this recent dredging project was designed 
for 8500 TEU vessels but now requires improvements to accommodate 
larger-capacity vessels.
    The proposed Miami Harbor improvements, which include deepening and 
widening channels, and should be done in an environmentally responsible 
way, will facilitate the safe movement of vessels and help assure that 
cargo activity stays in the United States. The ongoing Miami Harbor 
feasibility study is proceeding on time, with a signed Chief of 
Engineers' Report scheduled for September 2021.
    It is essential that the feasibility study remain on schedule. 
These improvements will enable the full potential of the recently 
completed dredging project and increase Miami and the nation's global 
competitiveness.
    I thank the committee and the Army Corps of Engineers, and I look 
forward to continuing to support this fundamental legislation.

    Mrs. Napolitano. Well, thank you very much for your 
testimony, and we will include it in the record.
    Thanks to all the Members for their testimony. Comments 
have been very helpful and insightful, and very eye-opening.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by the Members of Congress to be included in the record of 
today's hearing.
    And without objection, so ordered.
    I would like to thank all our witnesses again for their 
testimony. If no other Members have anything to add--and I am 
the only one here--the committee stands adjourned.
    [Whereupon, at 2:13 p.m., the subcommittee was adjourned.]


 
                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Napolitano and Ranking Member Westerman.
    Keeping the Water Resources Development Act on a 2-year cycle is 
critical to address and advance our Nation's water resources 
infrastructure needs.
    Like the critical flood control projects in my home State and 
District, other Members have critical priorities too.
    As we move forward, an important step is to gather as much input as 
possible.
    Today we will hear from our Congressional colleagues about a number 
of projects and policies that will help inform a WRDA bill.
    I look forward to hearing the proposals that will help us address 
our water resources infrastructure needs across the United States.
    Past WRDA bills have had strong bipartisan support, so I hope this 
hearing today will help us reach that same goal this year.
    Thank you again to the Subcommittee Chair and Ranking Member, and 
thank you to all the Members testifying today. I yield back.

                                 <F-dash>
Prepared Statement of Hon. Danny K. Davis, a Representative in Congress 
                       from the State of Illinois
    Good Afternoon Chairman DeFazio and Ranking Member Graves.
    Thank you for the opportunity to offer brief testimony before the 
committee today. The Water Resources and Development Act funding is 
extremely critical; not only to my district in Chicago, the State of 
Illinois, but also the Great Lakes region.
    As Congress contemplates the role of climate change, I am hopeful 
that we ensure the Great Lakes are at the center of the conversation. 
Researchers say climate change is indeed impacting the Great Lakes 
region.
    The Lakes' shorelines are eroding as near record water levels have 
almost completely submerged two of the sandy beaches that line the 
Chicago's lakefront, altering ecosystems, and causing flooding and 
economic damage.
    Lake Michigan water levels are up 6 feet since 2013. Because of 
this alone, I am also hopeful the Corps include the General 
Reevaluation Report (GRR) of the Chicago Shoreline Storm Reduction 
Project in any USACE and further implementation of the Great Lakes 
Restoration Initiative.
    In addition, the Chicagoland area has had challenges with historic 
rain, snow and severe flooding. The nonprofit American Geophysical 
Union's report estimated that Illinois experienced more than 1,500 
flood events from 2000 to 2018--an average of 1.5 floods per week--
resulting in $3 billion in property damages. Additional resources are 
needed to combat these flood issues as flooding continues to have a 
negative economic impact on the area.
    Finally, many government officials back home believe that the Corps 
Project Partnership Agreements are not favorable to non-federal 
sponsors and are hoping for better perpetual responsibilities and 
indemnification. They are also asking for a lower non-federal cost 
share model.
    Again, thank you for allowing my testimony today and am free to 
answer and questions or concerns you may have.

<F-dash>
Prepared Statement of Hon. Diana DeGette, a Representative in Congress 
                       from the State of Colorado
    Chairman Napolitano and Ranking Member Westerman,
    Thank you for providing the opportunity to submit written testimony 
to advocate for priorities in the upcoming Water Resources Development 
bill. Continuing the recent successes of passing WRDA bills in 2014, 
2016 and 2018, this bill will help many states and localities move 
critical projects forward.
    WRDA 2020 bill will not only provide the opportunity to authorize 
new, eligible projects. It will also continue the work of modernizing 
and streamlining the Corps' approval processes.
    Chatfield Reservoir Storage Reallocation Project: I want to thank 
the committee for its support over the years of a critical water supply 
project in Colorado. A portion of the Chatfield Reservoir Storage 
Reallocation Project is in my district. Work on environmental 
mitigation and recreation modifications at the reservoir and state park 
are almost completed. The additional water storage that will soon 
become available at Chatfield is much needed in our semi-arid climate, 
helping the state of Colorado to mitigate the impacts of drought and 
climate change in the west.
        Priority Project: Denver Project Ready to be Authorized
      Adams and Denver Counties, Colorado: The Adams-Denver Counties, 
Colorado project is a generational opportunity for the Denver community 
to achieve ecosystem restoration and flood damage reduction benefits in 
the South Platte River and two gulches The project was listed by R. D. 
James, Assistant Secretary of the Army for Civil Works, in his 
testimony to the subcommittee on January 9, 2020. The Adams-Denver 
project also has a signed Chief of Engineer's Report, and the Record of 
Decision (ROD) was signed in October 2019. The project was also 
submitted for listing in the 2020 Annual Report to Congress, which is 
due out this month. I request the committee include this project for 
authorization in WRDA 2020.
      Adams and Denver Counties, Colorado Pre-Construction Engineering 
and Design: The next steps in the Adams-Denver project is the Pre-
Construction Engineering and Design (PED) which must be undertaken and 
completed on the South Platte River portion of the project before a New 
Start designation can be sought. I ask the committee to consider 
language in the bill that will authorize specific funding for PED for 
projects that have received their Chief of Engineer's Report and ROD 
approval.
                         Other Issues in CO-01
    The following are additional requests for my congressional district 
(CO-1) for consideration in the 2020 Water Resources Development Act 
legislation:
      Sec. 1135 Southern Platte Valley Ecosystem Restoration Project: 
There is another Corps project in my district, the Southern Platte 
Valley Ecosystem Restoration Project under the Continuing Authorities 
Program (CAP). Competition for funds in CAP is fierce and growing. As 
it has become harder to move larger projects forward from study to 
construction, local governments are looking more and more to CAP to 
help them zero in on urgent problems and get them addressed more 
quickly. WRDA 2018 boosted the program limits for CAP in nearly all 
categories. However, that has not resulted in comparable amounts in 
appropriated funds. I ask the committee to add language that separates 
CAP funding in the Corps budget as a separate line instead of having 
the CAP program categories compete for dollars for both studies and 
construction within the Corps overall construction budget.
      Chatfield Downstream Improvement Channel: Also, in my district is 
the Chatfield Downstream Improvement Channel. The Denver Urban Drainage 
and Flood Control District (UDFCD) hopes to work with the Corps of 
Engineers to obtain a categorical Sec. 408 permit for work on the 
remaining 5.5 miles of the river in the Chatfield Downstream 
Improvement Channel along the South Platte River south of Denver. As 
you know, Section 408 allows USACE to grant permission to alter a Civil 
Works project upon determination that the alteration proposed will not 
be injurious to the public interest and will not impair the usefulness 
of the Civil Works project. One major improvement from previous WRDA 
bills is the creation of language that can, in some cases, allow 
categorical Sec. 408 permits to be issued. I hope to be able to work 
with the committee staff, the Corps, and local sponsors to determine 
what additional language could be included in WRDA 2020 to make 
consideration of such categorical permits possible.

                        Colorado Wide Priorities
Correct Typo in Section 1170--America's Water Infrastructure Act of 
        2018
    The following issue is in Section 1170 of S. 3021 and is related to 
watercraft inspection stations.
In Paragraph (1), clause (iii) the language reads, ``(iii) to protect
the Upper Colorado River Basin and the South Platte and Arizona,Arkansas
River Basins.''
There is no Arizona River Basin in Colorado and this should be 
corrected to Arkansas River Basins, as was the original intent of the 
2018 legislation.I ask that the committee correct this typo in the
2020 WRDA, which will allow for critical federal funding and watercraft
inspection stations in the Arkansas River Basin to protect Colorado
against invasive species.
    Thank you for taking the time to consider these requests in the 
upcoming 2020 Water Resources Development Act. If you have any 
questions please do not hesitate to reach out to my staffer, Matthew 
Allen.

Prepared Statement of Hon. Marcia L. Fudge, a Representative in 
                    Congress from the State of Ohio

    Chairwoman Napolitano, Ranking Member Westerman, and 
members of the House Subcommittee on Water Resources and 
Environment:
    Thank you for holding this Members' Day hearing on the 
Water Resources Development Act and allowing me to discuss an 
issue of critical importance to people across the country, 
including the residents of the 11th Congressional District in 
Northeast Ohio.
    Access to clean water is a basic human right. Yet, as the 
cost of water utilities continues to rise, far too many 
Americans are at risk of losing access to this basic necessity. 
Nationwide, water and sewer bills have increased by more than 
30 percent since 2012, nearly triple the rate of inflation. 
This rapid rise in rates for drinking water and wastewater is 
particularly harmful to low-income families. Today, water is 
reportedly unaffordable for 14 million households, or around 
one in every 10 households in America.
    The problem will only get worse. A 2017 report issued by 
researchers at Michigan State University predicted nearly one-
in-three households could be priced out of access to clean 
water within five years. Those who fall behind on their water 
utility payments could have their services shut off, 
threatening their access to the water they need to cook, drink, 
and bathe.
    Meanwhile, as Americans struggle to pay their water bills, 
utility companies in Ohio and across the country are 
increasingly unable to make much-needed repairs and upgrades to 
their aging water infrastructure systems. The continued decline 
in the network of pipes that deliver our water supply will only 
lead to higher costs, further surpassing the ability of 
vulnerable populations to pay their water bills.
    For this reason, I introduced the Low-Income Water Customer 
Assistance Programs Act last year with Representative John 
Katko of New York.
    The bill directs the EPA to establish pilot programs 
nationwide to award grants to utilities to assist low-income 
people with paying their drinking water and wastewater bills. 
The legislation also requires EPA to conduct a needs assessment 
for a permanent, nationwide water assistance program. Companion 
legislation was introduced in the Senate by Senator Cardin of 
Maryland and Senator Wicker of Mississippi.
    Such a program will not only ensure low-income Americans 
have access to water services, it will help communities 
maintain critical infrastructure networks and meet public 
health standards. It is past time we do something to ensure 
every American has access to clean water, regardless of 
location or income.
    This bipartisan, bicameral bill is an important step 
towards improving the affordability of water services for low-
income Americans and ensuring our water infrastructure is safe, 
reliable, and up to date. I hope you will consider inclusion of 
this bill as you develop priorities for a new Water Resources 
Development Act of 2020.
    Thank you.

<F-dash>
   Prepared Statement of Hon. Raul M. Grijalva, a Representative in 
                   Congress from the State of Arizona
    Thank you for your long-standing commitment to improving 
transportation and infrastructure of our nation, and your work on the 
reauthorization of WRDA.
                   International Outfall Interceptor
    There is perhaps no more pressing time to address the needs of 
communities when it comes to accessing clean and safe water and 
sanitation. As these needs continue to grow, I ask you to include 
language to settle a longstanding issue of the International Outfall 
Inceptor (IOI) pipeline which transports wastewater from Nogales, 
Sonora to the Nogales International Wastewater Treatment Plant.
    I encourage you to work directly with U.S. Army Corps of Engineers 
(USACE) to include authorization and full funding to repair the IOI, 
and to include the Nogales Wastewater Fairness Act within the WRDA 
reauthorization. This bill is needed to clarify that the International 
Boundary and Water Commission (IBWC) is responsible for the much-needed 
infrastructure repairs and future maintenance of the IOI to prevent raw 
sewage from spilling into waterways. After years of neglecting much-
needed repairs, the periodic leaks and overflows of the IOI continue to 
threaten the public health of my constituents in Nogales and the 
surrounding areas.
    A core component of USACE work is to be on flood risk mitigation 
and there is clear precedent for including IOI language in WRDA. The 
project was originally authorized for $11,100,000 by WRDA 1990, Section 
101(a)(4), Public Law 101-640. The project was again authorized for 
$25,410,000 by WRDA 2007, Section 3008. Recently, S. 2848, WRDA, 
included Section 8008 International Outfall Interceptor Repair, 
Operations and Maintenance. Additionally, last year the House 
recognized this as a public health priority by overwhelming supporting 
my amendment to dedicate funding to the project in the FY2020 
appropriations bill.
    Unfortunately, needed repairs have not been made over the years and 
the city of Nogales, Arizona has been subjected to numerous occasions 
of raw sewage spilling into waterways, including in July 2017, after 
which Arizona was forced to declare a State of Emergency.
    I am sure you will agree--it's absurd to leave a city in the United 
States susceptible to the risk of raw sewage spills, especially when 
preventative rehabilitation improvements have already been studied and 
designed. I greatly appreciate you and your staff's past support of 
inclusion of the IOI and encourage you to once again work to provide a 
final remedy for this situation.
                   Reclamation Water Settlements Fund
    Another pressing issue relating to clean water access is the need 
to extend the existing Reclamation Water Settlements Fund. Today, many 
tribal communities across the country live without running water and 
basic water infrastructure, even though the federal government has a 
trust responsibility to help ensure tribal water access. Congress 
created the Reclamation Water Settlements Fund to help pay for tribal 
water rights settlements, which fund clean water infrastructure across 
Indian Country.
    Several tribal water rights settlements have been included in 
previous WRDA bills and a permanent extension of the Reclamation Water 
Settlements Fund will be needed to ensure that future tribal water 
rights settlements can be successfully carried out. There are over 280 
federally recognized tribes in the West alone, and water settlements 
have only been completed for a fraction of these tribes over the past 
40 years since settlements became the preferred policy of the federal 
government.
    Extending the Reclamation Water Settlements Fund has widespread, 
bipartisan support. A ten-year extension recently passed the 
Republican-controlled Senate Committee of jurisdiction without 
opposition and an extension of the fund is supported by every major 
western water stakeholder group, including agricultural water users, 
urban and municipal water users, Republican and Democratic governors, 
environmental and conservation organizations, and tribal stakeholders. 
Your assistance in moving this broadly supported water infrastructure 
priority would be greatly appreciated.
                              Border Wall
    Finally, I appreciate your efforts to stop the administration's 
attempt to redirect USACE funds toward a wasteful and ineffective 
border wall. I respectfully request that you include language in WRDA 
to ensure that USACE funds go toward funding the backlog of USACE 
projects that actually meet the real needs of the American people and 
not toward the administration's destructive border wall.
    Thank you for your leadership, and consideration of my proposals. 
My staff and I stand ready to work with you to ensure these items are 
included.

<F-dash>
   Prepared Statement of Hon. Alcee L. Hastings, a Representative in 
                   Congress from the State of Florida
    Chairwoman Napolitano, Ranking Member Westerman, and members of the 
Transportation and Infrastructure's Subcommittee on Water Resources and 
Environment:
    I appreciate the opportunity to submit this testimony to the 
Committee on Transportation and Infrastructure's Subcommittee on Water 
Resources and Environment as you develop a new Water Resources 
Development Act (WRDA). The projects executed by the U.S. Army Corps of 
Engineers are of vital importance to my district and to all of Central 
and South Florida. While the Comprehensive Everglades Restoration Plan 
has proven effective and beneficial since its initial implementation, 
continued investment in restoration and resiliency projects is needed 
to ensure South Florida's ecosystem will be healthy and prosperous for 
future generations.
    The Everglades, America's largest sub-tropical wilderness, provides 
drinking water for millions of Floridians, while simultaneously serving 
as a flood barrier and home for a great variety of wildlife, including 
numerous endangered species. Infrastructure developments, such as 
roads, canals, and levees, dating from the 19th and 20th centuries 
disrupted and degraded waterflows that are vital to the health and 
survival of the Everglades. Floridians need the Army Corps of 
Engineers, in consultation with State, Local, and Tribal governments, 
to expedite projects related to the Comprehensive Everglades 
Restoration Plan, in order to deliver on the promise of greater water 
supply and environmental benefits. For millions of people in Florida, 
quality of life depends on the Everglades. It is a source of jobs in 
numerous industries, economic security, and leisure. Coordination with 
tribal entities is crucial, as the Seminole Tribe of Florida and the 
Miccosukee Tribe of Indians of Florida live in the Everglades, and 
their culture and way of life depend on this ecosystem.
    In addition, I would like to speak for communities that have 
experienced and continue to suffer from natural disasters. Between 1980 
and 2019, the National Oceanic and Atmospheric Administration (NOAA) 
compiled a list of 258 separate billion-dollar weather and climate 
disaster events. This list includes wildfires, winter storms, flooding, 
and other devastating events, all of which have led to the loss of 
thirteen thousand lives and cost in excess of $1.7 trillion dollars. 
This is why I am respectfully encouraging this Committee to include 
efforts that improve the resiliency of our nation's infrastructure 
against the growing number of weather and climate events. Investing in 
infrastructure that can withstand such disastrous events will better 
prepare communities and shorten recovery times, especially in 
disadvantaged communities. Many underserved communities are in 
desperate need of flood risk management assistance, as flood events 
disproportionately affect minority, low-income, and indigenous 
populations. The Federal Government is able to be proactive in this 
area, and we must step in to develop and implement a national 
resiliency plan that empowers all communities to build a smarter and 
stronger future. No one in the United States is safe from natural 
disasters, and making the necessary investments in infrastructure and 
renewable energy to spur job creation in construction, manufacturing, 
and adaption and mitigation technology is essential to building a more 
sustainable nation, economy, and future.
    Relatedly, I am respectfully requesting the Committee consider 
including nature-based infrastructure as part of any future 
infrastructure and resiliency efforts, especially as part of 
determining a cost-effective method of increasing resiliency and 
reducing environmental impacts. Utilizing the natural barriers already 
in existence, solely or in conjunction with grey or hard structures, 
provides growing and adaptable protection for our communities. Coral 
reefs, an example of a natural barrier that is important to my home 
state of Florida, have been highlighted by NOAA and the U.S. Geological 
Survey as critical to coastal communities, both economically and as a 
defense against storm surge, flooding, and other natural events. The 
restoration and conservation of the natural biodiversity of various 
ecosystems will also prove to be beneficial to communities in ways 
beyond weather and climate events, such as in the leisure and tourism 
industries.
    In summary, I respectfully encourage the Committee to provide 
robust funding for projects and programs such as the Comprehensive 
Everglades Restoration Project, infrastructure resiliency, and nature-
based infrastructure, which will ensure current and future generations 
of people and wildlife will have an environment that they can thrive 
in. I thank you for your time and consideration of my requests.

<F-dash>
  Prepared Statement of Hon. Denny Heck, a Representative in Congress 
                      from the State of Washington
    Dear Chair Napolitano and Ranking Member Westerman,
    Thank you for the opportunity to share with you my priorities in 
this year's Water Resources Development Act, otherwise known as WRDA.
    Let me start by saying that I represent a portion of the Puget 
Sound region in Washington state, where we have two major U.S. ports: 
The Port of Tacoma and the Port of Seattle (who operate as the 
Northwest Seaport Alliance (NWSA) as it relates to international 
maritime cargo). As the trade gateway to Asia, these two ports 
represent the fourth largest load center in the United States--
supporting 58,000 jobs and contributing nearly $12.5 billion dollars in 
business output in 2017. NWSA is an integral part of the ongoing 
economic success of both Washington state and our entire country.
    I am writing you today about an extremely important issue facing 
our two major ports in Washington state: the need for structural 
reforms to the Harbor Maintenance Trust Fund.
    I'll first say that the Harbor Maintenance Trust Fund remains a 
vital tool in ensuring that America's ports remain competitive in the 
global economy. As you all already know, the Trust Fund is funded by a 
tax of $1.25 for every $1,000 worth of cargo from importers and 
domestic shippers using inland or coastal ports. With that tax, the 
Trust Fund is able to collect literally billions of dollars to fund 
important harbor projects and keep our federal channels open and 
available for commerce.
    But the Trust Fund is not without its problems. For years, Congress 
has under-utilized the Fund by appropriating less for harbor 
maintenance projects than has been collected. As a result, U.S. 
navigation channels have degraded well past acceptable levels. So let 
me say that I'm pleased the committee has come together in a bipartisan 
fashion to address this issue through the Full Utilization of the 
Harbor Maintenance Trust Fund Act, which I understand may be included 
in some form in this year's WRDA. Let me lend my support to this 
effort--but only as a part of an HMT reform package.
    That is because without comprehensive reform, there will continue 
to be issues with ``donor ports.'' In 2017, six ports were responsible 
for generating 53% of total collections that year. Since the Port of 
Tacoma and Port of Seattle have naturally deep harbors and require 
minimal maintenance, they receive pennies on the dollar compared to 
what they provide to the fund. With two major Canadian Ports to the 
north, the Trust Fund tax also competitively disadvantages Tacoma and 
Seattle--it simply is cheaper for importers to drop cargo off at 
Canadian ports and haul it across the border than to pay the tax.
    Let me reiterate that I support of full utilization of the Harbor 
Maintenance Trust Fund. But I also believe it is long past time to make 
the Trust Fund work for all ports. I'd like to see I 0% of the Harbor 
Maintenance Trust Fund be allocated to donor ports like the Port of 
Tacoma and Port of Seattle so they can have the opportunity to issue 
meaningful rebates to shippers. This would allow our ports to offset 
the tax when necessary and ensure that any competitive disadvantage 
created by the Trust Fund be reduced.
    It is my firm belief that a fix like this will go a long way to 
addressing the outstanding issues of the Harbor Maintenance Trust Fund. 
Thank you again for the opportunity to submit my thoughts on this 
year's WRDA.

<F-dash>
   Prepared Statement of Hon. Chrissy Houlahan, a Representative in 
             Congress from the Commonwealth of Pennsylvania
    Dear Chairwoman Napolitano and Ranking Member Westerman:
    Thank you for your work ensuring that our nation's waterways are 
maintained and improved. As the Subcommittee on Water Resources and 
Environment prepares the Water Resources and Development Act of 2020, 
we request that you include language authorizing full funding for the 
Delaware River Basin Commission, the Susquehanna River Basin 
Commission, and the Interstate Commission on the Potomac River Basin.
    As you know, the congressionally-approved compacts of the River 
Basin Commissions (P.L. 87-328, P.L. 91-575, P.L. 91-407) outline 
funding obligations for the federal government, through the Army Corps 
of Engineers. However, for several years, the agreed upon federal 
contributions to the Commissions have not been made. These shortfalls 
have resulted in financial strain for the Commissions and a decreased 
capacity to carry out the important responsibilities with which the 
Commissions have been charged.
    We therefore ask you to include language authorizing robust funding 
for the federal contribution to the Commissions in the Water Resources 
and Development Act of 2020. The Commissions, in close cooperation with 
the Army Corps of Engineers, support water quality protection, water 
supply allocation, flood loss reduction, drought management, water 
conservation, permitting, watershed planning, and recreation. Full 
federal funding would allow the Commissions to monitor contaminants of 
emerging concern, conduct microplastics surveys, and assist 
municipalities with flooding projections due to changes in climate. It 
would also strengthen the vital role that both the Corps and the 
Commissions play in protecting our water and environment, sustaining 
international commerce, and promoting national security.
    We appreciate your attention to our concerns, and we look forward 
to continuing to work with you to safeguard our nation's water 
resources. Thank you for your consideration of this request.

<F-dash>
Prepared Statement of Hon. Andy Kim, a Representative in Congress from 
                        the State of New Jersey
    Chairman DeFazio and Ranking Member Graves:
    I want to thank the Committee for the opportunity to participate in 
today's Member Day hearing and to testify on behalf of New Jersey's 
Third District. I'm happy to take today to highlight some of the 
important impacts that WRDA authorized projects have on the health of 
my district's water infrastructure.
    Being susceptible to frequent flooding and other water management 
issues, the Army Corps of Engineers' projects in my district are 
critical to reducing the risk that flooding poses to Burlington and 
Ocean Counties. The Delaware River Dredged Material Utilization project 
explores innovative methods for managing sediment from the Delaware 
River in order to improve Burlington County's flood risk. In Ocean 
County, the Manasquan Inlet to Barnegat Inlet Shore Protection project 
helped replenish storm damaged beaches and dunes to protect against 
coastal flooding. In addition to these projects, the Army Corps has 
continued to study Coastal Storm Risk Management strategies along the 
New Jersey Back Bay to provide support to our coastal communities in 
improving our resilience to storms and flooding.
    Nearly eight years after Super Storm Sandy, my district in New 
Jersey is still recovering. After that storm hit, Toms River alone saw 
$2.25 billion in property damages, the highest out of any township in 
New Jersey. Just last year, severe flooding on the Rancocas Creek led 
to evacuations and a state of emergency declaration. It is a top 
priority of mine to ensure that the coastal communities in my district 
are prepared not just for the next superstorm, but also for the daily 
flooding that plagues houses along Barnegat Bay. The sediment 
management and storm risk projects run by the Army Corps are, and will 
continue to be, critical to the resilience of New Jersey's coastal 
areas.
    My district has also faced issues with our drinking water 
infrastructure, including threats from lead contamination and from PFAS 
chemicals. In Burlington County, the Bordentown Water Department has 
exceeded federal standards for lead in tap water four consecutive 
testing periods in a row. And just down the road, contamination from 
firefighting foam containing PFAS chemicals used on Joint Base McGuire-
Dix-Lakehurst have forced a number of families to rely on bottled water 
until improved filtration systems can be installed. We should continue 
to focus on investing in and improving our nation's water 
infrastructure to help communities like mine, which are not alone in 
the struggle with clean drinking water.
    As the Committee prepares a WRDA for 2020, I ask that they continue 
to support the key flood management programs that my district relies on 
for future storm preparedness. The Army Corps should continue to 
support projects that use natural infrastructure and nonstructural 
measures to mitigate flood damage while also protecting the health of 
marine and coastal ecosystems. I also ask that they work to improve 
threats to our drinking water infrastructure that have impacted my 
district in New Jersey. By maintaining this focus, we can ensure that 
sensitive environmental areas remain protected from development and 
degradation, and that we can continue to provide safe and clean 
drinking water to our communities.
    Thank you again for the opportunity to testify and I look forward 
to working with my colleagues to develop a strong WRDA that will help 
to advance our nation's water infrastructure.

<F-dash>
  Prepared Statement of Hon. Andy Levin, a Representative in Congress 
                       from the State of Michigan
    Chairman DeFazio, Ranking Member Graves, Chairwoman Napolitano, 
Ranking Member Westerman, members of the subcommittee: thank you for 
allowing me to testify before you today regarding Michigan's priorities 
in the upcoming Water Resources Development Act (WRDA).
    As a nation, we have so much to do in the space of water 
infrastructure, and the U.S. Army Corps of Engineers (USACE) are vital 
in helping update water infrastructure across the nation.
    In Michigan's Ninth District, the Chapaton Retention Basin is 
emblematic of the long-overdue need to update our wastewater 
infrastructure to protect our water sources and roads. Chapaton is a 
28-million-gallon Combined Sewer Overflow (CSO) Facility that currently 
services Interstate 94 (I-94), businesses, and approximately 92,000 
residents in Eastpointe, St. Clair Shores, and Roseville, Michigan.
    The Basin protects residents by moving stormwater out of the 
community and into nearby Lake St. Clair, thereby preventing flooding. 
It also protects the environment. In the absence of much-needed 
expansion to this CSO, however, preventable sewage overflows have led 
to water quality problems that include E. coli pollution and have 
hastened the deterioration of essential roadways like I-94.
    Chapaton is an example of a stormwater sewer project eligible for 
USACE assistance available through Section 219, ``Environmental 
Infrastructure'' WRDA authority granted to the State of Michigan. 
Section 219 authority is important because it authorizes USACE to 
assist with updates to local, non-federally owned and operated 
facilities, including drinking water systems, stormwater and wastewater 
facilities, and surface water development.\1\
---------------------------------------------------------------------------
    \1\ https://crsreports.congress.gov/product/pdf/IF/IF11184
---------------------------------------------------------------------------
    This authority allows USACE to provide helpful assistance to many 
projects across Michigan, and I urge the committee to continue to 
support Section 219 authority for our State.
    The upcoming WRDA legislation will also be an important opportunity 
to authorize USACE's long-awaited plan to block Asian carp from 
reaching the Great Lakes at a chokepoint in the Chicago Brandon Road 
Lock and dam waterway system. The plan proposes fortifications that 
include an electric barrier, a bubble barrier, acoustic deterrents, and 
a flushing lock meant to reduce the chances of Asian carp reaching Lake 
Michigan while still allowing barge traffic through.\2\
---------------------------------------------------------------------------
    \2\ https://www.mvr.usace.army.mil/Missions/Environmental-
Protection-and-Restoration/GLMRIS-BrandonRoad/
---------------------------------------------------------------------------
    While I am eager to see Congress authorize this plan, I want to be 
clear that the current proposal will reduce the chances of Asian carp 
entering the Great Lakes--it does not eliminate this risk. I understand 
that part of the rationale for opposing a physical barrier to Asian 
carp--even though it remains the most effective solution, according to 
USACE--is that it could impact water levels in Chicago and cause 
flooding.\3\ But Chicago is already facing severe flooding because of 
climate change; this year, the city even declared a climate crisis as a 
result of record high water levels and disappearing shoreline.\4\ It 
seems clear that the current proposal is a prudent first step to 
address Asian carp that will need an additional long-term viable 
solution.
---------------------------------------------------------------------------
    \3\ https://prairierivers.org/articles/2014/01/study-physical-
barrier-most-effective-way-to-stop-invasive-species-from-ravaging-
great-lakes-mississippi-river/
    \4\ https://abcnews.go.com/US/city-chicago-declares-climate-crisis-
storms-millions-dollars/story?id=68907649
---------------------------------------------------------------------------
    We must be clear-eyed about the damage climate change is already 
doing and invest in the necessary flood mitigation infrastructure to 
protect the people of Chicago now. At the same time, we must consider 
the best way to tackle the issue of Asian carp long-term. It will only 
take a couple Asian carp making it through the fortifications to 
destroy vital boating, fishing, and coastal communities on the Great 
Lakes. Thus, I urge the committee and USACE to consider the 
authorization of a long-term, permanent plan at the Brandon Road Lock 
and Dam that fully and effectively stops Asian carp and addresses the 
urgent need for climate crisis flood mitigation infrastructure for the 
city of Chicago.
    Again, I thank all the members of the committee for giving me the 
opportunity to testify and look forwarding to working with the 
committee on the upcoming Water Resources Development Act.

<F-dash>
Prepared Statement of Hon. David Loebsack, a Representative in Congress 
                         from the State of Iowa
    I want to thank Chairman DeFazio, Ranking Member Graves, Chairwoman 
Napolitano and Ranking Member Westerman for giving Members of Congress 
the opportunity to present testimony on the 2020 Water Resources 
Development Act (WRDA).
    The U.S. Army Corps of Engineers (Corps) work on water projects is 
vital to rural communities such as those in my district. I would like 
to take the time to highlight three important requests for my district 
today.
    First, I would like to bring attention to a rural water supply in 
my district. Rathbun Regional Water Association (RRWA) is the largest 
rural water association in Iowa and one of the largest in the United 
States. RRWA supplies drinking water to more than 70,000 people in 15 
counties in southeast Iowa and northeast Missouri from the 
Association's two water treatment plants at Rathbun Lake. There has 
been a steady growth in the demand for drinking water from RRWA. 
Rathbun has invested more than $50 million to increase its capacity to 
treat and distribute drinking water, included in this was the 
construction of a second water treatment plant.
    Rathbun Lake has 15,000 acre-feet of storage allocated for water 
supply. RRWA has purchased 6,680 acre-feet from the Corps. RRWA also 
has the right of first refusal for the remaining 8,320 acre-feet of 
water supply storage in Rathbun Lake. Acquisition of the remaining 
8,320 acre-feet of water supply would help ensure RRWA is able to 
satisfy the demand for drinking water in the area. I have had the 
pleasure of visiting Rathbun Lake during my time in Congress and know 
how the folks in the area depend on it for clean, safe drinking water.
    Today, I ask that the Committee consider including a provision in 
WRDA 2020 so that low income communities such as those served by RRWA 
have first rights to remaining water supply storage in their regions at 
a reduced rate. The Corps estimated that the remaining water storage in 
Rathbun Lake would be $3.24 million to purchase at about a rate of $389 
per acre-foot. I request that regional water systems deemed to serve 
low income communities have the right to purchase remaining water 
supplies at $100 per acre-foot, allowing these rural communities to 
maintain essential water sources in their regions. We must do what we 
can to keep these rural water sources supplying the communities around 
them.
    Second, I would like to highlight my legislation the National Flood 
Research and Education Center Act of 2019 (H.R. 3091). Flooding costs 
the U.S. billions of dollars each year. Last March 2019, Iowa, 
Missouri, Nebraska, Kansas, South Dakota, North Dakota, Minnesota, 
Wisconsin and Michigan experienced substantial flooding costing an 
estimated $10.8 billion. As we enter March 2020, our states prepare for 
another flood season. These costly and dangerous events are becoming 
more common and we need to improve monitoring and forecasting of 
hydrologic conditions.
    My legislation would establish a National Flood Research and 
Education Consortium (NFREC or National Flood Center) to conduct 
research on flooding, flood prevention, and other flood-related issues. 
The National Flood Center will be led by an institution of higher 
education that has significant expertise and experience in examining 
flooding and related issues. The lead institute will partner with other 
institutions that share expertise in flood-related fields. The research 
from participating institutions will be responsible for policy 
recommendations as they relate to predicting, preparing, preventing and 
recovering from floods.
    The legislation would also create the Office of Flood Research and 
Policy (OFRP) within NOAA. The NOAA Administrator will appoint a 
Director to manage and oversee the work of the National Flood Center 
and to review and make policy and best practice recommendations to 
Congress, the public, and other federal agencies involved with 
flooding-related issues. These recommendations and the research that a 
National Flood Center would accomplish will better prepare communities 
and states to respond to flooding and to mitigate flood damage in 
advance.
    A National Flood Center will bring together experts in physical and 
environmental science, as well as those in engineering, sociology and 
economics. Flooding, flood prevention, and flood related socio-
economic, environmental, health and policy issues are highly complex 
with implications for loss of life and billions in damage as we saw in 
the Midwest one year ago. The damage to all sectors of our economy is 
why a national-level comprehensive and collaborative research and 
policy effort is needed. That is why today I ask the Committee to 
consider including my legislation as part of WRDA 2020 in order to 
better prepare our communities for the impact of severe flooding.
    Lastly, I think it is important to discuss construction projects on 
our inland waterways transportation systems. These natural highways are 
essential for moving farm products to export grain elevators along the 
Gulf. These systems are not only necessary for transportation of goods 
across our nation but also help aid in flood control. But over half of 
our inland waterway system is more than 50 years old. These systems are 
in desperate need of modernization and Congress needs to help speed up 
these efforts.
    The Inland Waterways Trust Fund (IWTF) is funded through a fuel tax 
on commercial operators. While the increase in fuel tax in 2014 from 
$0.20 to $0.29 per gallon has helped to stabilize the IWTF, there is a 
backlog of projects that needs to be addressed. In WRRDA 2014, The 
Olmsted Locks and Dam Project reduced its cost-sharing requirements 
from 50% from the IWTF and 50% from the General Treasury Fund to 15% 
from the IWTF and 85% from the General Fund. This adjustment helped the 
project's efficiency and it was completed 4 years ahead of schedule 
which allowed other necessary projects to be started.
    I ask the Committee to consider making permanent a new cost-sharing 
ratio for construction projects on our inland waterways. I believe 
having a consistent cost-share of 25% from the IWTF and 75% from the 
General Fund would allow the backlog of necessary construction and 
modernization projects to be started and give the workers a more 
sustainable funding stream to ensure projects continue to completion.

<F-dash>
  Prepared Statement of Hon. Blaine Luetkemeyer, a Representative in 
                  Congress from the State of Missouri
    Chairman DeFazio, Ranking Member Graves, Subcommittee Chairwoman 
Napolitano, Subcommittee Ranking Member Westerman, and Members of the 
Committee,
    Thank you for giving me an opportunity to contribute to discussions 
regarding the reauthorization of the Water Resources Development Act 
(WRDA). As the Representative of a Congressional District with 
thousands of miles of shoreline thanks to the Mississippi River, 
Missouri River, and Lake of the Ozarks, I understand the importance of 
having a plan in place that continuously modernizes our levees, locks, 
dams, channels and ports.
    Across the country, our nation's waterways and infrastructure have 
a tremendous impact. In Missouri, public ports represent about \1/3\ of 
our economy. That supports roughly 290,000 jobs that create over $100 
billion in annual economic activity. It's important that we continue 
Congress' tradition of reauthorizing the key missions of the U.S. Army 
Corps of Engineers so we can support our economically vital waterway 
infrastructure, while also making much-needed policy reforms.
    This past year was one of the worst years of flooding in Missouri's 
history. Entire towns were debilitated and normal life was brought to a 
halt for many Missourians, especially farmers. Throughout the state, 
over 1.4 million acres couldn't be planted. This doesn't just affect 
farmers; it affects the food supply of the entire world.
    Without updated flood plans, there is nothing preventing future 
catastrophes similar to last year's. That is why this year I encourage 
you to consider updating the Upper Mississippi River Comprehensive Plan 
that was originally authorized in the 1999 WRDA. Outlined in the Upper 
Mississippi River Flood Control Act, this plan update requires the 
Secretary of the Army Corps of Engineers to submit a flood plan to 
Congress at an expeditious rate to address both water and land resource 
problems in the Upper Mississippi River Basin. It also forces the Corps 
to work with local landowners, agriculture groups, government 
officials, and other stakeholders while developing that plan. This will 
ensure the plan is not developed to satisfy the Corps headquarters in 
Washington, D.C., but rather meet the needs of those of us who live 
near the river and endure the cost of failed flood policy.
    An effective flood plan, especially in high-risk areas, will better 
equip us to prevent future floods and expedite aid, recovery, and 
rebuilding in the aftermath of the unpreventable. A successful example 
of this plan model is demonstrated in the Mississippi River and 
Tributaries Project that has been in place for over 90 years. 
Strategic, long-term plans go a long way in helping us achieve that 
goal and ensure our waterways remain navigable while the folks living 
along our rivers and streams take priority.
    Another area of my district that regularly feels the effects 
flooding is the Lower Osage River Basin. Specifically, the lower 80 
miles of the Osage River below the Bagnell Dam have seen increasing 
erosion, flooding and degradation of habitat. This has led to a huge 
loss of land resources and is becoming a bigger threat to 
infrastructure as time goes on. I would like to ensure that the 
authorization of a feasibility study for the Lower Osage River is 
included in WRDA. This Lower Osage River authorization will enable the 
Corps of Engineers to formulate an effective plan to address the 
serious and progressive erosion and degradation problems we face. 
Inclusion of this provision in the upcoming WRDA is essential to having 
a timely path to the necessary corrective actions.
    Thank you again for the opportunity to speak here today about the 
needs of the Third Congressional District of Missouri.

<F-dash>
    Prepared Statement of Hon. Elaine G. Luria, a Representative in 
               Congress from the Commonwealth of Virginia
    Thank you, Chairman DeFazio and Ranking Member Graves, for this 
opportunity to bring to the Committee's attention several issues that 
are critical not only for Coastal Virginia, but for America.
    The Eastern Shore of Virginia is home to is home to unique 
waterways, including many navigable channels. These waterways are vital 
to the economic viability of the Eastern Shore. Unfortunately, 
insufficient funding for the Army Corps of Engineers has undermined 
upkeep and maintenance of these important waterways.
    There are over 800 shallow draft navigable waterway projects 
nationwide, 70 of which are located in the Commonwealth. However, only 
eight shallow draft navigable waterway receive funding in my district. 
It is extremely difficult to secure funding for smaller waterways, 
including those in the Eastern Shore.
    I ask the Natural Resources Committee to mark up H.R. 3596, the 
Keeping American's Waterfronts Working Act, and consider accepting 
amendments to benefit shallow draft navigable waterway maintenance.
    I encourage the Committee to reevaluate how the benefit-cost 
analysis (BCA) is calculated. As sea level rise and increased rainfall 
drive federal projects, and as a broader range of federal agencies 
become involved, the current BCA process is no longer the best 
solution. Since 1983, The Principles, Requirements and Guidelines for 
Water and Land Related Resources Implementation Studies has been the 
standard. The application of conventional BCA determinations does not 
include numerous social and economic justice factors, nor does it use 
alternative approaches to infrastructure solutions. Further, federal 
agencies have different ways of calculating BCA, thus creating a 
confusing situation for local governments seeking to implement flood 
control projects.
    In 2007, Congress instructed the Secretary of the Army to develop a 
new standard of guidelines for calculating the BCA. Finalized December 
2014, the guidelines incorporated extensive input from the public as 
well as key stakeholders. Renamed the Principles, Requirements, and 
Guidelines (PR&G), the new guidelines would have included economic and 
social factors, as well as requiring an analysis of alternative 
approaches, such as nature-based solutions. However, the new PR&G 
process, has yet to reach full implementation.
    Lastly, I ask for full use of the Harbor Maintenance Trust Fund, 
including expanded use for donor and energy transfer ports, regional 
funding floors, and emerging harbors funding. In recent years, 
appropriations have exceeded 90 percent, but six years ago, 
appropriations were barely at 50 percent. Today, the Harbor Maintenance 
Trust Fund has accumulated over $9 billion. I ask that the funds are 
used for their intended purpose; to help eliminate the backlog of 
maintenance and channels and related infrastructure while providing 
equity for ports who generate significant revenue with minimal dredging 
needs.

<F-dash>
  Prepared Statement of Hon. Gwen Moore, a Representative in Congress 
                      from the State of Wisconsin
    Chairman DeFazio, Chairwoman Napolitano, Ranking Member Graves, and 
Ranking Member Westerman,
    Thank you for the opportunity to talk today about my priorities for 
the next WRDA authorization bill.
    The work of the Army Corps is critically important to my community 
and others on the Great Lakes. From its navigation work (dredging, 
maintaining and repairing breakwaters, and locks and dams) to its 
efforts to stop invasive species such as the Asian Carp in the Great 
Lakes, the Corps is important to the economic and environmental 
vitality of my district.
    A top priority in my district is the protection of water quality 
and support for needed water infrastructure investments. The last WRDA 
included numerous provisions that have helped move the ball forward in 
protecting this precious resource, but more can be done. This is the 
opportunity to keep building on that foundation and help ensure that 
Corps can continue to work with local and state stakeholders to address 
the various needs.
    There is an African proverb that ``water has no enemies.'' We all 
need it. Yet, between droughts, climate change, and insufficient 
infrastructure investments, access to clean water remains a critical 
challenge for too many communities. Congress can and must help.
    I would urge this committee to use this WRDA to increase support 
for Corps activities around water infrastructure, including in the 
Great Lakes region.
                        Protect the Great Lakes
    The Great Lakes are vital to our region and the nation. Protecting 
the Great Lakes is a pro-environment and pro-business position. The 
benefits of doing so flow to individuals, businesses, and state and 
federal tax coffers.
    Over 33 million people live in the Great Lakes Basin, about one-
tenth of our country's population and one-quarter of Canada's. The 
Great Lakes hold one-fifth of the world's fresh water supply and 90 
percent of the United States' fresh water supply.
    I am pleased to join my colleagues in talking about these five 
lakes and the millions of people who live, work, and recreate around 
them. Yet, we know that a long string of threats have threatened and 
continue to face the Great Lakes, threats that have serious 
consequences for the region and the nation. One of those threats should 
not be inaction by this Congress. We have the opportunity--including 
through WRDA--to help put in place key mechanisms to help protect this 
treasure.
    By protecting the Great Lakes, we protect jobs, help improve water 
quality, and protect the health of people and wildlife. There are a 
number of ways Congress can use this WRDA to build on ongoing progress 
and to continue to assure our state and local partners that the Great 
Lakes will remain a focus.
                          Water Infrastructure
    I urge you to support changes to the Sewer Overflow and Stormwater 
Reuse grant program authorized in the 2018 WRDA to set aside additional 
funding for Great Lake states to prevent combined sewer overflows that 
can lower water quality and impact public health.
    Combined Sewer Overflows (CSO) affect over 800 communities 
nationwide, including at least 184 in the Great Lakes region according 
to the EPA \1\. As a result of these overflows, billions of gallons of 
raw sewage and stormwater end up in our nation's waters, including the 
Great Lakes, each year.
---------------------------------------------------------------------------
    \1\ https://www.epa.gov/sites/production/files/2016-05/documents/
gls_cso_report_to_
congress_-_4-12-2016.pdf
---------------------------------------------------------------------------
    CSO events can be detrimental to human health and the environment 
because they introduce pathogens, bacteria and other pollutants to 
receiving waters, causing beach closures, contaminating drinking water 
supplies, and impairing water quality.
    Public investment in updating wastewater systems is vital as it 
creates jobs, saves money and results in cleaner Great Lakes. Many 
municipalities have plans for sewer system improvements that will 
significantly cut CSOs but struggle to fund those plans. Congress 
recognized this challenge when it reauthorized the Combined Sewer 
Overflow and Stormwater Reuse grant program in the 2018 WRDA, including 
by emphasizing the use of green infrastructure to help mitigate this 
problem.
    Green infrastructure helps address this issue by alleviating the 
need for storage by soaking up stormwater and pollution before it 
enters a combined sewer system and providing natural ``treatment,'' 
thus reducing the flow entering the treatment plant. Additionally, 
green infrastructure investments can often be less costly than 
traditional gray infrastructure solutions.
    My proposal would increase funding overall for the existing CSO 
grant program by $50 million and direct that funding for a new 
initiative for municipalities within the Great Lakes region.
    These projects benefit not only the directly affected communities 
themselves, but surrounding communities that at one time were on the 
receiving end of these discharges. Water is a shared resource. 
Moreover, supporting efforts like this that help clean up and protect 
the Great Lakes today will pay dividends tomorrow.
    Again, the next WRDA bill must reauthorize and strengthen this 
important program, including authorizing specific funding for Great 
Lakes communities, to ensure that affected states and cities have all 
the options they need to solve this vexing public health and 
environmental problem.
                     Great Lakes Navigation System
    Each year about 145 million tons of commodities move through Great 
Lakes ports and related navigation infrastructure. Inadequate funding 
and growing maintenance needs pose serious economic consequences in the 
Great Lakes and elsewhere throughout our nation. We need to invest in 
upgrading and maintaining vital locks, repairing breakwaters, and 
ensuring that harbors and channels are properly dredged.
    I want to see more traffic moving into and out of the Lakes. A 2010 
economic impact study found that Great Lakes shipping supported over 
128,000 U.S.jobs, generating $18.1 billion in business revenue, and 
another $2.7 billion to federal, state and local tax coffers. Those 
numbers have only grown since then.
    That's not going to happen without adequately funding the Army 
Corps of Engineers' operation and maintenance activities in the region, 
such as regular dredging of harbors, maintenance of breakwaters, and 
operation and upgrading of critical navigation infrastructure such as 
the Soo Locks.
    Despite progress, the region still suffers hundreds of millions of 
backlogs in dredging, breakwater repairs that are critical to 
protecting harbors and waterfronts, and upgrades to other necessary 
infrastructure.
    Businesses, farmers, port workers and all who depend on being able 
to ship and receive materials will be impacted by the inability of the 
Corps to dredge and keep navigation infrastructure in a state of good 
repair.
    One way to do that is to ensure that all of the taxes paid on cargo 
going through our ports are used to support the needed investments. 
Almost three decades ago, Congress created the Harbor Maintenance Trust 
Fund to collect these taxes with the intention that the funds would pay 
dredging and other navigation investments. However, the annual decision 
on how to spend those funds was left to Congress which failed to direct 
all the revenues for the purpose of supporting the maritime trade 
infrastructure. As a result, the balance in the Trust Fund is growing 
(nearly $9 billion currently) while many port and navigation needs go 
unaddressed. I fully support the efforts by Chairman DeFazio to ensure 
that this funding is unlocked in order to help address needs in the 
Great Lakes and across the nation. Hopefully, this WRDA provides an 
opportunity to enact those proposals into law.
                         Environmental Justice
    Any new WRDA must continue to reiterate to the Army Corps the 
importance of ensuring that all communities affected by its policies 
and activities, especially minority, tribal, and low-resourced 
communities, have a meaningful say in those decisions.
    I urge the Committee to include a provision requiring and 
reaffirming that the Army Corps of Engineers shall make every effort to 
seek to actively identify and address any disproportionate and adverse 
health or environmental effects of its programs, policies, practices, 
and activities on communities of color, low-income communities, rural 
communities, and Tribal and indigenous communities and to promote 
meaningful involvement and consultation with these communities in the 
development, implementation, and enforcement of Corps projects and 
other activities such as permitting.
    I also urge the committee to include a provision in the new WRDA to 
ensure that the Corps completes and makes publicly available the report 
on community engagement required in section 1214 of Public Law 115-270 
and the status of the Corps implementation of any recommendations 
springing from that report.
    I hope that you share my concern that given the scope of the Corps 
involvement in communities across the nation, it is critical that the 
Corps have strong policies in place to meaningfully engage and work 
with communities of all demographics and address community concerns, 
rather than dismiss them.
                              Section 219
    States and local communities are increasingly looking for ways to 
partner with the Corps to address pressing water and environmental 
needs. Under Section 219, the Secretary is authorized to provide 
assistance to non-Federal interests for carrying out water-related 
environmental infrastructure and resource protection and development 
projects, including wastewater treatment and related facilities and 
water supply, storage, treatment, and distribution facilities.
    This authority has been used in the past to help advance water 
related projects throughout the country. However, the use of this 
provision has declined over the years given that Congress has not added 
any new projects in some time. The Corps has no discretionary authority 
to commence new projects without project specific authorizations which 
has not been forthcoming. Many communities, including my own, realize 
this is a valuable authority that could be used to undertake needed 
environmental projects. Unfortunately, the current reality is that 
there is no way for the corps to tap this authority for new projects. 
Any final bill should address this reality in a way that recognizes and 
complies with House Rules, including adopting or adapting the provision 
from the last Senate committee approved WRDA bill that would facilitate 
new feasibility studies under Section 219.

<F-dash>
Prepared Statement of Hon. Jimmy Panetta, a Representative in Congress 
                      from the State of California
    Chair Napolitano, Ranking Member Westerman, and Members of the 
Water Resources and Environment Subcommittee, thank you for giving me 
the opportunity to testify about my priorities for a Water Resources 
Development Act of 2020.
    This legislation governs a project that I have been dedicated to 
supporting since my first day in Congress, the Pajaro River Flood Risk 
Reduction Project on the central coast of California. I have worked 
closely with the project's local sponsors in Monterey and Santa Cruz 
Counties, and with the Army Corps of Engineers, to move this project 
from inactive to active.
    The Pajaro River project was first authorized by the Federal Flood 
Control Act of 1966, but it was only in December of last year that we 
were able to secure a final feasibility report to move this project 
from its feasibility stage to its pre-construction, engineering, and 
design (PED) phase. And while this was a critical step in the right 
direction, we have a lot of work to do before this project reaches 
completion.
    The work ahead is certainly doable, but it will be difficult, in 
large part because the Pajaro River project is in an economically-
disadvantaged community. And when the Corps makes funding decisions, it 
relies on a ``Benefit-to-Cost Ratio,'' or BCR, that does not always 
reflect the true benefits and true costs of every project.
    Economically-disadvantaged areas, however, do not necessarily imply 
a lack of economic returns. While per capita income in the Pajaro 
Valley is less than half of both the state and national averages, local 
communities provide the work force and infrastructure for some of the 
most productive farmland in the world.
    Here, agriculture is a $1 billion per year industry, supplying 80% 
of the nation's strawberries. More importantly, the undersized and 
fragile Corps levees on the Pajaro River have failed four times since 
their construction in 1949, resulting in loss of life, causing hundreds 
of millions of dollars in damage, and placing thousands of people at 
risk. By historically prioritizing flood control projects in affluent 
areas, the Corps is putting projects that protect property values ahead 
of projects that save lives.
    For my communities on the Central Coast, this is personal. The city 
of Watsonville and Town of Pajaro have been subject to multiple major 
flooding events since 1949, and they simply cannot afford future 
damage.
    Investing in communities like Pajaro is not only the right thing to 
do--the investment is worth it. For every $1 invested in flood 
mitigation, we save $6 dollars in long-term benefits.
    As the Subcommittee takes steps to author the Water Resources 
Development Act of 2020, I implore you to think critically about how to 
better ensure projects like Pajaro receive the federal funding they 
need to provide safety to our communities.

<F-dash>
  Prepared Statement of Hon. Bill Pascrell, Jr., a Representative in 
                 Congress from the State of New Jersey
    Chairman Peter DeFazio and Chairman Grace Napolitano and Ranking 
Members Sam Graves and Bruce Westerman, thank you for the opportunity 
to testify at in support of efforts to manage historically significant 
flooding in northern New Jersey. Today, I wish to highlight the U.S. 
Army Corps of Engineers' (USACE) work in the Peckman River Basin to 
address extensive damage that has led to flood and ecosystem 
degradation during or immediately following intense precipitation 
events.
    Flooding issues along the Peckman River came to my attention in the 
wake of damage inflicted by Hurricane Floyd in 1999, which caused 
severe damage in some Passaic County communities and cost the life of 
one local resident. While a member of this committee, I authored the 
resolution authorizing the initial reconnaissance report on the Peckman 
and worked to secure several million dollars for the feasibility study. 
I have also been very vocal in fighting development on the banks of 
this river that could exacerbate these flash flood events.
    A favorable reconnaissance report was completed in July 2001, which 
recommended a feasibility study to develop alternatives for flood risk 
management in the Peckman River Basin. A Feasibility Cost Sharing 
Agreement (FCSA) was executed on March 14, 2002 between the Corps and 
the New Jersey Department of Environmental Protection (NJDEP). In 2016, 
the NJDEP Land Use Regulatory Program indicated their permitting 
support for the Tentatively Selected Plan (TSP). USACE worked 
diligently to update the previously released DIFR/EA. The revised DIFR/
EA was released for public review on October 9, 2019.
    To address the issues raised in the updated DIFR/EA, the USACE 
proposed alternative 10b, which appears to be the best solution. The 
combination of a diversion culvert, barriers, and nonstructural 
measures should appropriately address the persistent flooding 
challenges in the community. A Final Integrated Feasibility Report/
Environmental Assessment was transmitted to USACE headquarters on 
December 10, 2019 and an approved Chief's Report is scheduled for April 
2020.
    I understand the USACE is closely coordinating with all relevant 
stakeholders, including local, county, state and federal 
representatives to ensure the final proposal will benefit those living 
in the area. Close coordination is critical to making sure that the 
final proposal will not negatively impact longstanding regional flood 
reduction projects, such as Rebuild By Design, and flooding in the 
Passaic River.
    I look forward to reviewing an approved Chief's Report in April to 
ensure it means the goals and needs of our community in North Jersey. 
If so, I hope you will consider including this project in this year's 
Water Resources and Development Act (WRDA). Thank you for your time and 
attention to this matter. I look forward to working with the Committee 
on Transportation and Infrastructure as it continues to develop this 
year's WRDA.

<F-dash>
    Prepared Statement of Hon. Scott H. Peters, a Representative in 
                 Congress from the State of California
    Chair Napolitano and Ranking Member Westerman:
    Thank you for hosting ``Member Day'' for your colleagues like me 
who have important requests for the Water Resources and Development 
Act.
    I'm here to highlight a few priorities that impact my district and 
the country as a whole, including
    1.  the deauthorization of a section of a levee in the San Diego 
River;
    2.  ongoing sewage spills along the U.S.-Mexico coastal border; and
    3.  improving water reclamation in San Diego.

    In my district, we have the San Diego River Levee System, 
constructed in 1958. The levee system extends for a distance of 4.6 
miles throughout the San Diego River. The most upstream segment of the 
levee system has been modified by infrastructure, including a police 
station; regional transit station; multiple bridge crossings, including 
I-5; and a major thoroughfare, Friars Road. This portion of the levee 
system no longer convey the flows for which it was originally designed, 
but it does convey a storm event with a one percent chance of occurring 
any given year. The impact of climate change practically guarantees 
these storms will occur and grow stronger and more frequent.
    An inspection by the US Army Corps of Engineers in 2016 determined 
that the system poses an unacceptable risk to public safety. In order 
to properly and comprehensively evaluate the needed modifications to 
address system deficiencies, we are working with Army Corps to 
deauthorize the most upstream segment that has been irreparably 
modified by infrastructure. Army Corps are working with my office to 
prepare legislative language to deauthorize this segment of the levee 
system, and I ask the Committee include this urgent request in WRDA.
    Additionally, the San Diego delegation is continuing to tackle 
cross border pollution. Since at least 1944, the federal government has 
tried, and failed, to stop flows of treated and untreated sewage in the 
U.S. from the Tijuana river in Mexico. It has not been for lack of 
trying. I want to thank the Committee for its past efforts in 2000, 
2004, and a hearing in 2007 to address the problem.
    We just learned that implementing legislation for the approval of 
the United States-Mexico-Canada Agreement (USMCA) will provide a new 
authorization of $300 million, in equal installments of $75 million 
over four years, to fund Environmental Protection Agency (EPA) grants 
under the Border Water Infrastructure Program (BWIP) to address 
wastewater infrastructure problems along the U.S.-Mexico border. In 
addition, the Delegation secured an additional $25 million in funding 
for BWIP in the FY 2020 Omnibus. The BWIP makes critical investment to 
improve sewage infrastructure along the border and prevent dangerous 
sewage spills that threaten public health and damage San Diegans' 
quality of life in the future.
    Inter-agency coordination will be critically important as local, 
state and federal stakeholders start to allocate funding for new 
project construction. On behalf of the San Diego delegation, I thank 
the Army Corps of Engineers for authorizing the 2017 Tijuana River 
Feasibility study and the Committee's continued support helping the 
City of San Diego to solve this complex issue along the Tijuana River 
watershed.
    Finally, I would like to address briefly the matter of water 
supply. Historic drought conditions combined with a shortage of melting 
snow have created a water supply crisis in western states, including 
California. To meet projected water demands, the City of San Diego is 
making a long-term investment in the Pure Water Program, a multi-year, 
multi-billion-dollar program that will use proven water purification 
technology to provide one-third of San Diego's water supply by 2035.
    Pure Water is a cost-effective investment to address San Diego's 
water needs and will provide a reliable, sustainable water supply, 
reducing the City's reliance on Northern California and Colorado River 
resources. It will also significantly reduce ocean discharge by 
diverting wastewater from the nearby Point Loma Wastewater Treatment 
Plant. Currently, Point Loma meets alternate discharge standards in a 
modified National Pollutant Discharge Elimination System (NPDES) permit 
approved by EPA. Although the City has never failed to renew its 
modified permit, the renewal process creates unnecessary regulatory 
uncertainty for ratepayers and municipal water and sewer authorities.
    I introduced the Ocean Pollution Reduction Act II of 2019 with the 
San Diego delegation to provide the City with regulatory certainty as 
it continues to make significant progress, as well as major 
investments, in enhancing its water and wastewater systems. The bill 
simply clarifies that the City of San Diego can apply for a permit 
under the standard NPDES renewal process without a waiver. The 
clarification will provide the City with regulatory certainty as it 
continues to make significant progress, as well as major investments, 
in enhancing its water and wastewater systems.
    I would appreciate the Committee's consideration of this important 
issue as part of any legislation authorizing investments in water and 
sanitation infrastructure.
    Thank you for your time and consideration of these matters. I look 
forward to continuing to work with you on these and other issues.

<F-dash>
   Prepared Statement of Hon. Guy Reschenthaler, a Representative in 
             Congress from the Commonwealth of Pennsylvania
    Dear Chairman DeFazio, Ranking Member Graves, Chairman Napolitano, 
and Ranking Member Westerman:
    Thank you for the opportunity to share my priorities for the Water 
Resources Development Act (WRDA) of 2020. Pennsylvania's 14th 
Congressional District is home to four locks and dams along the 
Monongahela River, as well as numerous flood protection projects. The 
larger Pittsburgh District includes 10 significant river systems and 
328 miles of navigable waterways which support industries ranging from 
mining, steel, and manufacturing. It is critical we invest in this 
aging system and our inland waterways as a whole in order to grow our 
economy and maintain our competitive edge on the global stage. 
Therefore, I would like to share the following proposals for WRDA 2020:
    <bullet>  Adjust the cost share for construction of inland 
waterways infrastructure projects to 25 percent from the Inland 
Waterways Trust Fund and 75 percent from general funds, similar to the 
WRDA 2016 change for deep draft ports. Currently, the inland waterways 
system has a portfolio of more than 15 authorized high priority inland 
projects awaiting construction. Adjusting the cost share will 
accelerate project delivery on these critical projects.
    <bullet>  Increase the authorization limit for Section 313, which 
authorizes the Army Corps to provide support to communities for 
projects like wastewater treatment and water supply distribution. The 
current limit of $200 million will soon be met and will limit the Army 
Corps' ability help communities in my district.
    <bullet>  Authorize new construction activities for the Upper Ohio 
River Navigation Project, which is critical for freight movement at the 
Port of Pittsburgh and on the Monongahela and Allegheny River 
Navigation Systems.
    <bullet>  Assist communities in responding to and recovering from 
flooding and other disasters that affect our inland waterways and 
ports, including providing guidance on working with federal, state, and 
local partners.

    I appreciate the opportunity to share my WRDA 2020 priorities with 
you. If you or your staff have any questions, please do not hesitate to 
contact me or my legislative director, Emily Ackerman.

<F-dash>
Prepared Statement of Hon. Tom Rice, a Representative in Congress from 
                      the State of South Carolina
    Chairman DeFazio and Ranking Member Graves, thank you for allowing 
me to testify regarding water resource development projects and studies 
conducted by the U.S. Army Corps of Engineers. In my district we 
appreciate all of the work the U.S. Army Corps of Engineers has 
assisted us with in the past. I come before you today to discuss two 
studies that are very important to my district.
    Myrtle Beach and the surrounding areas are visited by millions of 
tourists each year and tourism is a multibillion dollar industry in the 
state. Unfortunately, our state has been hit by five major disasters in 
the last five years. These intense storms and natural disasters have 
led to increased concern for protecting tourists and residents during 
this time.
    Local leaders in Myrtle Beach and Horry County through the Coastal 
Alliance have requested the U.S. Army Corps of Engineer conduct a 
feasibility study to evaluate and reformulate the Myrtle Beach 
Shoreline Protection Project on the risks to property and public 
safety. Due to increased number of storms in my district they have 
asked to evaluate the existing project design to become more resilient 
to these natural events. They have requested the U.S. Army Corps of 
Engineers, among other items, to evaluate potential measures from 
dunes, berm height, permanent structures to beach renourishment as well 
as review erosion hotspots.
    Another project that the U.S. Army Corps has been involved with in 
my district is the Port of Georgetown. The Georgetown Port continues to 
experience a build up of silting and material and due to this, 
maintaining the navigable depths throughout the length of the inner 
harbor is difficult. It is crucial to our commercial fishing industry 
and our tourism industry that we find a solution so that the harbor is 
not constantly in need of dredging. Additionally, maintaining the 
depths of the port affects the manufacturing industry that is dependent 
on barging raw materials into and out of the port. The city and county 
are invested in finding a solution and have commissioned on their own 
an initial study to investigate the severity and the rate of silting in 
the inner harbor. However, the city and county have requested the U.S. 
Army Corps of Engineers conduct a feasibility study to evaluate the 
initial report and examine solutions.
    Although the Myrtle Beach Shoreline Protection Project and 
Georgetown Harbor Deep Draft Navigation Project currently need no 
further act by Congress and are authorized projects, I respectfully 
recommend that the Committee includes an expedited completion section 
of feasibility reports in the upcoming legislation. This language would 
be similar to Section 1203 of WRDA 2018, where it stated: ``Expedited 
Completion--Feasibility Reports.--The Secretary shall expedite the 
completion of a feasibility study for each of the following projects, 
and if the Secretary determines that the project is justified in a 
completed report, may proceed directly to preconstruction planning, 
engineering, and design of the project: . . . ''
    I respectfully request that the following two projects: 1) 
``Project for coastal storm risk management, Myrtle Beach, South 
Carolina'' and 2) ``Project for navigation, Georgetown Harbor, South 
Carolina'' be included as expedited completion feasibility reports in 
this legislation. The inclusion of these projects in this section would 
ensure these projects move quickly through the process and begin 
providing solutions that will provide public safety and economic 
prosperity for the areas.
    Mr. Chairman, thank you for your work to address these issues. And 
thank you for the opportunity to testify before you today.

<F-dash>
Prepared Statement of Hon. Harold Rogers, a Representative in Congress 
                   from the Commonwealth of Kentucky
    Chairman Napolitano, Ranking Member Westerman, and other 
distinguished Members of the subcommittee, I would like to thank you 
for your consideration of my priorities for the 2020 Water Resources 
Development Act (WRDA). I know your Committee works diligently to 
ensure that all Americans can benefit from our nation's incredible 
water resources and infrastructure--whether through the transportation 
of goods on our waterways, locks, and dams, flood control projects that 
protect our communities from disaster, and also incredible recreational 
opportunities. Previous WRDA bills have done a great deal to help the 
people of my district in southern and eastern Kentucky across each of 
the aforementioned areas. Whether it is the importance of locks and 
dams on the Kentucky and Ohio Rivers to the Kentucky economy, Wolf 
Creek Dam on Lake Cumberland, the incredible flood control projects in 
many of my towns and communities, and our Corps lakes' many 
recreational uses, we benefit greatly from these resources. As you 
begin the 2020 WRDA process, I would like to raise three specific 
priorities that will benefit those in my district in Kentucky. 
Legislative Language for each of these proposals is attached.
 Increase the Authorized Funding Level and Modify the Service Area for 
          the Section 531 Environmental Infrastructure Program
    First, I am requesting two modifications to the Section 531 
Environmental Infrastructure Program for Southern and Eastern 
Kentucky--(1) increasing the authorization level from $40 million to 
$80 million, and (2) adding additional Kentucky counties that could 
benefit from improved environmental infrastructure.
    Section 531 was originally authorized in the 104th Congress. It has 
provided great benefit to my district by bringing reliable wastewater 
treatment and collection systems to thousands of Kentucky households, 
schools, and businesses. This program not only helps create much needed 
jobs, but also enhances our region's potential for future economic 
development. While the need for this program continues, Section 531 
unfortunately reached its authorized funding level of $40 million in 
FY19. Increasing this authorization level to $80 million would help 
ensure that this program can continue to improve access to safe 
drinking water and wastewater systems.
    This language would also add four additional Kentucky counties to 
the program--Boyd, Carter, Elliott, and Lincoln Counties. These 
counties were not included in the original Section 531 program, but 
they have serious environmental infrastructure issues, and their 
inclusion in Section 531 would dramatically increase our ability to 
address these issues.
                   Concessionaire Gross Revenue Fees
    Second, I am seeking the inclusion of language that caps the amount 
of fees that the Corps can charge concessionaires for revenues from the 
sale of commoditized items like fuel and food items. Currently, the 
Corps charges concessionaires escalating fees based on how much gross 
revenue they earn in a given year, and this can reach as high as 4.6 
percent of gross revenues. Fuel and food sales are very important 
amenities that the general public expects at these facilities, but 
these items are typically sold with a margin of only one or two 
percent. More importantly, this rate structure provides a disincentive 
for concessionaires to provide, expand, or enhance food sales 
locations, which could directly impact the quality of the public's 
enjoyment of these facilities. To rectify this situation, my proposed 
language would provide a cap of 1 percent on the amount of revenue fees 
charged for the sale of commoditized items, including food and fuel 
sales, at a concessionaire's operation.
      Concessionaire Authorized Lease Length & Approval Authority
    Finally, I am seeking the inclusion of language that would 
modernize the lease term length between the Corps and concessionaires. 
Under current law, the lease terms the Corps provides to 
concessionaires may be inconsistent and inadequate for the Corps to 
meet their Congressional mandates of enhancing the public access and 
enjoyment of federal resources. Private concessionaire investment, 
which helps the Corps meet these mandates, is dependent upon adequate 
and affordable financing. The current length of time that the Corps 
provides to concessionaires is problematic in that the term varies from 
district to district, and is generally insufficient to allow for 
traditional financing.
    As a result, I request that the term for a lease provided by the 
Corps to concessionaires be modified to provide for a base 25-year 
lease and then the option of additional 25-year extensions if agreed 
upon by both the Corps and the concessionaire. This will allow for a 
consistent national leasing structure and provide a period of time that 
allows concessionaires to seek and receive the financing they need to 
start-up, expand or improve their facilities.
    Further, the Corps currently requires any lease of 50 or more years 
to be approved by Headquarters, USACE. This level of decision authority 
dramatically increases the bureaucratic hurdles faced by 
concessionaires, when it is the local Corps districts and divisions 
that have the best understanding of what would best serve that region's 
interests. As such, my proposed language would also direct the 
Secretary to delegate this authority, when appropriate, to lower levels 
of Corps leadership.
    Thank you again for your consideration of my 2020 WRDA requests. I 
look forward to working with you as this process unfolds, so we can 
continue to maximize both Kentucky and our nation's water resources. If 
you or your staff have any questions, please do not hesitate to contact 
me or my staff.

<F-dash>
  Prepared Statement of Hon. Peter J. Visclosky, a Representative in 
                   Congress from the State of Indiana
    I would like to first thank Full Committee Chair Peter DeFazio and 
Ranking Member Sam Graves, Subcommittee Chair Grace Napolitano and 
Ranking Member Bruce Westerman, and all of the members of the House 
Subcommittee on Water Resources and Environment for holding today's 
hearing and providing this opportunity for myself and all Members to 
advocate for our priorities for the Water Resources Development Act of 
2020 (WRDA 2020).
    While I intend to submit a number of proposals to the Subcommittee 
for the upcoming WRDA, my reason for submitting this testimony is to 
discuss the vital importance of preserving and promoting Section 219 
Environmental Infrastructure authority and related projects. As you 
know, Section 219 of WRDA 1992 authorizes the U.S. Army Corps of 
Engineers (Corps) to assist non-federal sponsors at a 75/25 percent 
cost share in the planning, design, and construction of municipal 
drinking water and wastewater infrastructure projects. Since Fiscal 
Year 2014, the Corps has funded Section 219 projects across 27 states, 
including Calumet Region projects in Indiana's First Congressional 
District. This Section 219 authority has been integral to the efforts 
of numerous communities in my district as they have sought to improve 
their quality of place, safeguard the public health of their citizens, 
and sustainably utilize their water resources.
    One such municipality is my home, the City of Gary, which has 
experienced serious economic difficulties. Nevertheless, Gary has been 
working successfully with the State of Indiana and federal partners to 
ensure that the city's best days are indeed still ahead of it, not 
behind. An essential partner in particular is the U.S. Army Corps of 
Engineers, which due to a mandate from Congress in annual 
appropriations measures, has continued to prioritize Section 219 
projects that, among other things, seek to revitalize and invest in 
communities with high poverty or current financial distress.
    For example, in April 2018, the Corps and the City of Gary, 
Indiana, completed a substantive forcemain replacement project. The 
project included the construction of a brand new 24-inch steel sanitary 
sewer forcemain, leading to improved sanitary sewer system flow and a 
reduction in pipe breaks and system shutdowns across the city.
    Additionally, in September 2019, the Corps worked with the City of 
Gary to complete a significant sewer infrastructure project, which 
included the rehabilitation of approximately 4,000 linear feet of 
combined sewers and 21 existing manholes. Further, the project 
supported the installation of 600 feet of new sanitary sewer, 813 
linear feet of percolation type storm sewers, and over 2,300 feet of 
new storm sewer. Due to these tremendous investments, the City of Gary 
is more fully prepared for flooding events and the stresses placed on 
municipal infrastructure.
    Most recently, in December 2019, the Corps completed another major 
sewer improvement project in Gary, resulting in the restoration of over 
16,600 feet of sewer lines in the city's Ambridge neighborhood. This 
successful effort will result in a reduction in sewer overflows and 
basement backups, and ultimately will lead to long-term savings to the 
city and residents on public infrastructure and private property repair 
costs, respectively.
    In the over 20 years since my district has been authorized to 
receive environmental infrastructure assistance through the Corps, 
Section 219 authorized projects have continued to make a substantial, 
positive difference in Gary and a number of other local communities in 
my district. Therefore, as both the Full Committee and the Subcommittee 
on Water Resources and Environment work to develop proposals for WRDA 
2020, I would implore you to maintain the long-term viability of 
current Section 219 authority, including by considering allowing 
Members to submit proposals to increase total project authorization 
levels for Section 219 accounts. For reference, without such an 
increase, the current funding pace for local Section 219 projects 
suggests that total authorization for these efforts in Gary and the 
rest of my district could run out within approximately eight years.
    In conclusion, thank you Chair DeFazio, Ranking Member Graves, 
Chair Napolitano, Ranking Member Westerman, and members of the 
Subcommittee for allowing me to the opportunity to discuss this 
important topic. I believe Section 219 authority remains an 
indispensable tool to distressed, recovering, and growing 
municipalities as they seek to invest in local infrastructure, and 
maintaining and strengthening this authority deserves strong 
consideration as Congress moves forward with WRDA 2020. I remain wholly 
available to you all as a colleague and partner in this regard.

                                    
</pre></body></html>
